<html>
<title> - YUCCA MOUNTAIN REPOSITORY DEVELOPMENT</title>
<body><pre>[Senate Hearing 107-483]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-483
 
                 YUCCA MOUNTAIN REPOSITORY DEVELOPMENT
=======================================================================



                                HEARINGS

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on

                              S.J. RES. 34

APPROVING THE SITE AT YUCCA MOUNTAIN, NEVADA, FOR THE DEVELOPMENT OF A 
 REPOSITORY FOR THE DISPOSAL OF HIGH-LEVEL RADIOACTIVE WASTE AND SPENT 
    NUCLEAR FUEL, PURSUANT TO THE NUCLEAR WASTE POLICY ACT OF 1982.

                               __________

                              MAY 16, 2002

                              MAY 22, 2002

                              MAY 23, 2002






                       Printed for the use of the
               Committee on Energy and Natural Resources


                    U.S. GOVERNMENT PRINTING OFFICE
79-940                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                        Colleen Deegan, Counsel











                            C O N T E N T S

                              ----------                              
                                                                   Page

S.J. Res. 34.....................................................     8

Hearings:
    May 16, 2002.................................................     1
    May 22, 2002.................................................    45
    May 23, 2002.................................................   105

                               STATEMENTS
                              May 16, 2002

Abraham, Hon. Spencer, Secretary, Department of Energy...........    10
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........    20
Craig, Hon. Larry E., U.S. Senator from Idaho....................     9
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     4
Reid, Hon. Harry, U.S. Senator from Nevada.......................     6

                              May 22, 2002

Anderson, Ross C., ``Rocky'', Mayor, Salt Lake City, UT..........    77
Ballard, James David, Ph.D., Assistant Professor of Criminal 
  Justice, Grand Valley State University, Grand Rapids, MI.......    64
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................    45
Ervin, Michael J., Sr., Vice President, Peace Officers Research 
  Association of California......................................    82
Gilinsky, Victor, Ph.D., Former Commissioner, Nuclear Regulatory 
  Commission.....................................................    73
Guinn, Hon. Kenny C., Governor of Nevada.........................    46
Halstead, Robert J., Transportation Advisor, Agency for Nuclear 
  Projects, State of Nevada......................................    51
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............    61
Prescott, Stephen M., M.D., Executive Director, Huntaman Cancer 
  Institute, Salt Lake City, UT..................................    86
Reid, Hon. Harry, U.S. Senator from Nevada.......................    50
Thomas, Hon. Craig, U.S. Senator from Wyoming....................    63

                              May 23, 2002

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................   105
Burns, Hon. Conrad, U.S. Senator from Montana....................   119
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........   116
Card, Robert, Under Secretary, Department of Energy..............   156
Cohon, Jared L., Chairman, Nuclear Waste Technical Review Board..   140
Hall, Jim, Former Chairman, National Transportation Safety Board, 
  on behalf of the Transportation Safety Coalition...............   108
Holmstead, Jeffrey R., Assistant Administrator for Air and 
  Radiation, Environmental Protection Agency.....................   153
Jones, Ms. Gary, Director, Natural Resources and Environment, 
  General Accounting Office......................................   144
Meserve, Richard A., Chairman, Nuclear Regulatory Commission; 
  accompanied by Greta Joy Dicus, Commissioner; Nils J. Diaz, 
  Commissioner; and Edward McGaffigan, Jr., Commissioner.........   125
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............   107
Reid, Hon. Harry, U.S. Senator from Nevada.......................   106

                               APPENDIXES

                               Appendix I

Responses to additional questions................................   167

                              Appendix II

Additional material submitted for the record.....................   173










                 YUCCA MOUNTAIN REPOSITORY DEVELOPMENT

                              ----------                              


                         THURSDAY, MAY 16, 2002

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. We will call the hearing to order. The 
committee meets this morning for the first of three hearings on 
S.J. Res. 34, which is a joint resolution approving the site of 
Yucca Mountain, Nevada, for the development of the nuclear 
waste repository.
    We have today with us, at the invitation of the committee, 
Senator Reid and Senator Ensign, who are, of course, the 
Senators from the most affected State of Nevada, and we have 
invited them to be here, so that after committee members have 
asked their questions of either Senator Reid or Senator Ensign, 
if they wish to ask questions, they are certainly welcome to do 
that.
    The text of the resolution that the hearing relates to, and 
the rules for its consideration, were laid down 20 years ago in 
the Nuclear Waste Policy Act of 1982. That act gave the 
Secretary of Energy the responsibility for picking a site for 
the development of a nuclear waste repository. It subjected his 
decision to review by the President, by the Governor of the 
State that he selected, and ultimately, by Congress. The act 
gave the Governor the power to veto the site recommended by the 
Secretary and the President, but it gave Congress the final say 
on whether to sustain or override the Governor's veto.
    Congress took the site selection decision out of the 
Secretary's hands 15 years ago, when it designated Yucca 
Mountain as the only site that the Secretary could consider, 
but the law still required the Secretary to study Yucca 
Mountain to determine if the site is suitable for a repository, 
and it still gave the Governor the power to veto the 
President's site recommendation.
    The Department of Energy has been studying Yucca Mountain 
for 24 years. Based on these studies, the Secretary of Energy 
has decided that the site is safe for use as a nuclear waste 
repository. President Bush approved the Secretary's decision, 
and formally recommended the site to Congress in February. In 
April, Governor Guinn submitted a notice of disapproval of the 
President's recommendations,* which will have the effect of 
barring the use of Yucca Mountain for a repository unless both 
Houses of Congress pass, and the President signs into law, the 
joint resolution before us by July 25. The House passed the 
resolution by a wide margin last week.
---------------------------------------------------------------------------
    * The Notice of Disapproval can be found in the appendix.
---------------------------------------------------------------------------
    Twenty years ago, the authors of the Nuclear Waste Policy 
Act in both the House and the Senate spent more time debating 
the State veto than any other provision in the act, and 
recognized the gravity of the decision to bury many thousands 
of tons of highly radioactive waste in a State, and we are 
determined to give any State chosen to bury this burden the 
opportunity to appeal its selection to Congress, and to have 
its concerns heard and carefully considered.
    Senator Stennis called the State veto, quote, ``An act of 
essential justice.''
    At the same time, the authors of the Nuclear Waste Policy 
Act recognized that, as Representative Morris K. Udall put it, 
``In the final analysis, the nuclear waste repository is a 
project in the national interest which must be subject to a 
national decision.'' They ensured that the decision whether to 
approve the Secretary's site recommendation would rest not with 
the Governor or the President, but with Congress. The expedited 
procedures for considering the resolution to override the 
Governor's veto were designed to ensure that both Houses of 
Congress would have the opportunity to vote on the question, 
and those procedures were the necessary tradeoff for the State 
veto.
    Although the Nuclear Waste Policy Act itself is silent on 
the scope of our review, the legislative history of the act 
offers clear guidance as to what the authors of the act had in 
mind. Our task, in the words of Senator Howard Cannon, one of 
the original proponents of the State veto, is to determine 
``whether the Secretary's decision to file with the Nuclear 
Regulatory Commission for a license to construct a repository 
at a particular site has fully considered the objections and 
concerns submitted by the State Governor.'' The authors of the 
act also indicated that the burden of proof--more precisely the 
burden of going forward with the repository, would rest with 
the administration.
    At today's hearing, we will give Secretary Abraham the 
opportunity to present the administration's case for going 
forward. It will be up to the Secretary to show that the 
State's concerns have been or will be addressed, and to 
persuade us that the Department of Energy should be allowed to 
file a licensed application with the Nuclear Regulatory 
Commission.
    Next Wednesday, we will give the State of Nevada an 
opportunity to present its concerns and its objections to the 
repository.
    And finally, next Thursday, we will hold a third hearing at 
which we will hear from independent technical experts who have 
statutory roles in regulating or overseeing the repository 
program, namely: the Nuclear Regulatory Commission, the Nuclear 
Waste Technical Review Board, the Environmental Protection 
Agency, and the General Accounting Office.
    It would then be my intention to schedule a business 
meeting on June 5 for the committee to vote on whether to 
report the resolution to the full Senate.
    Our task, as the authors of the Nuclear Waste Policy Act 
made clear, is to decide whether to allow the Secretary of 
Energy to file the license application with the Nuclear 
Regulatory Commission. It is not our job to substitute our 
judgment for the Commission's on the technical questions of 
whether the geology of the site, or the design of the 
repository, or the design of the shipping containers comply 
with the Commission's licensing standards. We have neither the 
technical expertise nor all of the information we would need to 
make those judgments. Those questions can only be resolved 
after further studies and further public licensing hearings. 
The Nuclear Waste Policy Act wisely left those decisions to the 
technical experts at the Nuclear Regulatory Commission, subject 
to our ongoing oversight and judicial review.
    Our task, instead, is to give a fair hearing to both sides, 
and then decide whether the Secretary has presented a strong 
enough case to allow him to apply to the Commission for a 
license, or whether the State has identified weaknesses in his 
case sufficient for us to terminate the program at this point.
    Senator Murkowski is not able to be here this morning. I 
understand Senator Craig might have an opening statement he 
would like to give, and then we will hear from the witness.
    [The prepared statements of Senators Bingaman, Domenici, 
and Reid follow:]
        Prepared Statement of Hon. Jeff Bingaman, U.S. Senator 
                            From New Mexico
    The Committee meets this morning for the first of three hearings on 
S.J. Res. 34, a joint resolution approving the site at Yucca Mountain, 
Nevada for the development of a nuclear waste repository.
    The text of the resolution before us, and the rules for its 
consideration, were laid down 20 years ago in the Nuclear Waste Policy 
Act of 1982. The Act gave the Secretary of Energy the responsibility 
for picking a site for the development of a nuclear waste repository, 
but subjected his decision to review by the President, by the Governor 
of the State he selected, and ultimately by Congress. The Act gave the 
Governor the power to veto the site recommended by the Secretary and 
the President, but it gave Congress the final say on whether to sustain 
or override the Governor's veto.
    Congress took the site selection decision out of the Secretary's 
hands 15 years ago, when it designated Yucca Mountain as the only site 
that the Secretary could consider. But the law still required the 
Secretary to study Yucca Mountain to determine if the site is suitable 
for a repository, and it still gave the Governor the power to veto the 
President's site recommendation.
    The Department of Energy has been studying Yucca Mountain for 24 
years. Based upon these studies, the Secretary of Energy has decided 
that the site is safe for use as a nuclear waste repository. President 
Bush approved the Secretary's decision and formally recommended the 
site to Congress in February. In April, Governor Guinn submitted a 
notice of disapproval of the President's recommendation, which will 
have the effect of barring the use of Yucca Mountain for a repository 
unless both Houses of Congress pass, and the President signs into law, 
the joint resolution before us by July 25. The House passed the 
resolution by a wide margin last week.
    Twenty years ago, the authors of the Nuclear Waste Policy Act, in 
both the House and the Senate, spent more time debating the state veto 
than any other provision in the Act. They recognized the gravity of the 
decision to bury many thousands of tons of highly radioactive waste in 
a State, and were determined to give any State chosen to bear this 
burden the opportunity to appeal its selection to Congress and have its 
concerns heard and carefully considered. Senator McClure, who chaired 
this Committee and managed the Nuclear Waste Policy Act on the floor 20 
years ago, called the state veto ``an act of essential justice.''
    At the same time, the authors of the Nuclear Waste Policy Act 
recognized that, as Representative Morris K. Udall put it, ``in the 
final analysis,'' the nuclear waste repository ``is a project in the 
national interest, which must be subject to a national decision.'' They 
ensured that the decision whether to approve the Secretary's site 
recommendation would rest, not with the Governor or the President, but 
with Congress. The expedited procedures for considering the resolution 
to override the Governor's veto were designed to ensure that both 
Houses of Congress would have the opportunity to vote on the question. 
Those procedures were the necessary tradeoff for the state veto.
    Although the Nuclear Waste Policy Act itself is silent on the scope 
of our review, the legislative history of the Act offers clear guidance 
as to what the authors of the Act had in mind. Our task, in the words 
of Senator Howard Cannon, one of the original proponents of the state 
veto, is to determine ``whether the Secretary's decision to file with 
the [Nuclear Regulatory Commission] for a license to construct a 
[repository] at a particular site has fully considered the objections 
and concerns submitted by the State Governor.''The authors of the Act 
also indicated that the burden of proof--more precisely, the burden of 
going forward with the repository--would rest with the Administration.
    At today's hearing, we will give Secretary Abraham the opportunity 
to present the Administration's case for going forward. It will be up 
to the Secretary to show that the State's concerns have been, or will 
be, addressed, and to persuade us that the Department of Energy should 
be allowed to file a license application with the Nuclear Regulatory 
Commission.
    Next Wednesday, we will give the State of Nevada an opportunity to 
present its concerns and objections to the repository.
    Finally, next Thursday, we will hold a third hearing at which we 
will hear from the independent technical experts who have statutory 
roles in regulating or overseeing the repository program, namely: the 
Nuclear Regulatory Commission, the Nuclear Waste Technical Review 
Board, the Environmental Protection Agency, and the General Accounting 
Office.
    It would then be my intention to schedule a business meeting on 
June 5 for the Committee to vote on whether to report the resolution to 
the full Senate.
    Our task, as the authors of the Nuclear Waste Policy Act made 
clear, is to decide whether to allow the Secretary of Energy to file a 
license application with the Nuclear Regulatory Commission. It is not 
our job to substitute our judgment for the Commission's on the 
technical questions of whether the geology of the site or the design of 
the repository or the design of the shipping containers complies with 
the Commission's licensing standards. We have neither the technical 
expertise nor all of the information that we would need to make those 
judgments. Those questions can only be resolved after further studies 
and further public licensing hearings. The Nuclear Waste Policy Act 
wisely left those decisions to the technical experts at the Nuclear 
Regulatory Commission, subject to our ongoing oversight and judicial 
review.
    Our task, instead, is to give a fair hearing to both sides and then 
decide whether the Secretary has presented a strong enough case to 
allow him to apply to the Commission for a license, or whether the 
State has identified weaknesses in his case sufficient for us to 
terminate the program at this point.
                                 ______
                                 
       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico
    Mr. Chairman, I thank you for holding these hearings on issues 
surrounding the Senate's vote on the resolution that would allow 
continued evaluation of Yucca Mountain's suitability for a high level 
nuclear waste repository.
    Mr. Secretary, I appreciate your joining the Committee here today 
to share the extensive deliberations that you conducted to arrive at 
the decision to recommend approval of the Yucca Mountain site to the 
President.
    Members of this Committee don't need to be reminded of the vital 
role that nuclear energy plays in our national security. There's no 
question that it directly impacts our environmental security and our 
energy security. Without nuclear energy, we would have far dirtier 
skies and be far more dependent on foreign energy supplies.
    I've argued repeatedly that our nation must maintain nuclear energy 
as a viable energy source far into the future. With advanced 
technologies, it can become a fuel for centuries into the future. Its 
clean reliable baseload power will be essential in powering our 
economic growth for future generations, just as it is a vital component 
of today's economic successes.
    For nuclear energy to continue to support our economy, we must 
address the waste issue. There's no denying that these wastes represent 
an area of risk--but every energy source requires a balance of benefits 
and risks.The risks associated with nuclear waste are ones that we can 
fully control.
    I'm well aware that hundreds of outstanding issues have been 
identified by the Nuclear Regulatory Commission. And the Department is 
well aware that they must address each and every one of the NRC issues 
before the Commission is going to move towards a final license.
    In many meetings with the NRC chairman, as well as many of the 
Commissioners, I've always been impressed with their intent to deal 
with this, or any licensing issue, through careful study of the 
relevant scientific facts. The NRC has the expertise to evaluate these 
outstanding issues, and I'm confident that they will do so with great 
care. It is not up to the United States Senate to decide on the complex 
scientific issues that will eventually determine the fate of a license 
for Yucca Mountain.
    Certainly, both sides in the debates about Yucca Mountain have 
stated their interest in assuring that decisions are based on ``good 
science.'' For that reason, I want to thank the Secretary for choosing 
a superb research scientist, Dr. Margaret Chu, to lead the Yucca 
Mountain program. Dr. Chu, from Sandia National Laboratories, provided 
leadership for the complex licensing issues associated with WIPP. She 
is an outstanding choice to lead the Department through the scientific 
complexities of future licensing actions on Yucca Mountain.
    I've been very sorry to see the overblown concerns on 
transportation in the press lately. Apparently the opponents of Yucca 
Mountain are so intent on winning this battle that they are willing to 
use transportation issues to frighten the American people into 
abandoning nuclear energy. That would be a colossal mistake for our 
nation and would seriously undermine national security.
    The simple fact is that transportation of nuclear materials is a 
challenging and risky operation, but it is also an operation that has 
been extensively studied and engineered for success. In the United 
States, as well as in other countries, the record for transporting 
spent fuel is superb. Opponents need to remember that the shipping 
casks for spent fuel are designed to withstand the most rigorous 
conditions, and routes will be carefully chosen to further limit risks.
    In the United States, since 1960, we've shipped spent fuel about 
2,700 times and it's traveled over 1.6 million miles. Sure, there have 
been a few accidents. But no radiation has ever been released in any of 
them.
    The record at the Waste Isolation Pilot Project is also 
spectacular. In their 3 years of operations, they've logged about 700 
shipments traveling over 1.5 million miles. And in Europe. over 70,000 
metric tons of spent fuel have been shipped--an amount roughly equal to 
the total authorized limit for Yucca Mountain.
    Furthermore, in any debate about transportation, the simple fact is 
that route selection and detailed planning will begin at least 5 years 
before the first shipment and that the total number of shipments in a 
year will be around 175--a far cry from the 300 million annual 
shipments of hazardous materials that are currently moving around the 
country. There will be plenty of time to debate and optimize shipping 
plans before any spent fuel moves.
    In responding to the outstanding issues raised by the NRC, I'm sure 
the Department will continue to analyze the Mountain and improve their 
modeling and simulation. That's certainly important research that I 
fully support. But I want to note that other research is also vital.
    I've spoken on many occasions with my concern that the nation's 
policy of simply treating spent fuel as ``waste'' deserves careful 
debate. Spent fuel has immense residual energy content. I'm not 
convinced that we should be making a decision today that future 
generations will have no interest in this superb energy source.
    I've noted that alternative spent fuel management strategies should 
be carefully studied and evaluated. Reprocessing and transmutation 
could not only recover residual energy, but could also vastly reduce 
the toxicity of the final waste products. Such research was strongly 
supported in the President's National Energy Policy, and Congress has 
supported this research very well--with $50 million dedicated to this 
work in the current year.
    I was both amazed and disappointed that the Department chose to 
effectively zero this promising research in their request for fiscal 
year 2003. Recently Under Secretary Bob Card has been quoted as 
favoring research in this area. Mr. Secretary, in my view you should be 
speaking out on the importance of this research and providing funding 
for it in fiscal year 2003. If this work is not funded in 2003, the 
momentum and progress built up over years will be lost.
    Mr. Chairman, in my view, the nation is far better served by 
beginning to move spent fuel into a single well secured repository than 
to leave it stored in temporary facilities at 131 sites in 39 states. I 
look forward to supporting your joint resolution to override the veto 
of the Governor of Nevada and continue evaluation of Yucca Mountain as 
our nation's future repository.
                                 ______
                                 
    Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada
    I want to thank you Chairman Bingaman and Senator Murkowski for 
allowing me the opportunity to participate in this hearing--and for 
understanding the importance of this issue to me and to my state, and 
really to almost every state.
    The resolution this committee is considering refers to the 
President's recommendation of Yucca Mountain, Nevada as the site for 
disposal of high-level radioactive waste.
    But this limited description fails to take into account the full 
implications of developing a repository there (or anywhere else)--
namely, that before dumping the nation's nuclear waste on Nevada, it 
has to be shipped through 43 states--including the states most members 
of this committee represent.
    So while there are many fundamental problems with the site itself 
and concerns about the process that led to the President's 
recommendation of the site, I want to first address the dangers of 
transporting massive amounts of deadly nuclear waste along the nation's 
major highways, railroad tracks and waterways.
    Bush plan for moving 77,000 tons of deadly high-level radioactive 
waste requires 100,000 shipments by truck, 20,000 by train and perhaps 
thousands more by barge.
    This idea would be risky at any time, but after September 11, 2001 
it is just unthinkable.
    The long term radiation contained in each shipment is 240 times 
radiation released by the Hiroshima bomb.
    Shipments will pass by homes, schools, parks, churches, offices.
    Shipments jeopardize the safety, health, environment and the lives 
of many people who live in cities and towns all over the country.
    We know there will be hundreds of accidents involving shipments of 
nuclear waste.
    It's not a question of if, but when and where and how severe will 
these accidents be. And an accident involving a container of deadly 
nuclear waste is no routine fender-bender. A collision or fire 
involving a 25-ton payload of nuclear waste could kill thousands.
    Yet, the Department of Energy despite knowing there will be 
accidents recommended this plan without developing a plan for the 
shipments.
    In addition, DOE has failed to provide the millions of people who 
live near the proposed routes the information they need to understand 
the risk their families face.
    Deadly accidents are not the only concern. Shipping nuclear waste 
across the country increases our vulnerability to terrorist attack, by 
adding hundreds of thousands of targets for terrorists to attack with a 
missile or to hijack or to sabotage.
    So transporting deadly nuclear waste is dangerous--and it's a risk 
our country shouldn't take.
    The nuclear power industry and some of its backers suggest it would 
be better to have nuclear waste at a single site instead of scattered 
around the country. But this is a false promise, because the nation's 
nuclear waste will never be consolidated at a single site.
    It will continue to be at every one of the operating reactor sites. 
Spent nuclear fuel rods are so hot and radioactive that they have to be 
stored at the nuclear reactor site in a cooling pond for 5 years before 
they can be moved. So developing Yucca Mountain would add to the number 
of sites with nuclear waste, not reduce it.
    There are also risks about Yucca Mountain itself and hundreds of 
unanswered questions about whether it can be a safe storage facility.
    Independent federal experts agree that the science done on Yucca 
Mountain is incomplete.

          The General Accounting Office, a credible independent agency, 
        chastised the Secretary of Energy for making a decision on 
        Yucca Mountain when almost 300 important scientific tests 
        remain incomplete.
          The experts at the Nuclear Waste Technical Review Board, 
        another independent agency, concluded that the technical basis 
        for Yucca Mountain is ``weak to moderate''.
          The Inspector General at the Department of Energy found the 
        that law firm they hired was working for the nuclear power 
        industry at the same time.

    There is an alternative. We can safely leave the waste on site, 
where it will be any way as new waste is added to the existing waste. 
It will be safe there while we develop the technology for reprocessing 
or safe disposal without shipping 100,000 nuclear dirty bombs through 
your states.
    Again, I want to thank you for the opportunity to discuss this 
important issue.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Well, Mr. Chairman, thank you very much.
    As you know, last week, the House passed House Joint 
Resolution 87, which approves the Yucca Mountain site in Nevada 
for development as the country's deep geological repository for 
high level nuclear waste. The House approved this resolution by 
an overwhelming bipartisan majority vote of 306 to 117. This is 
a very significant action.
    For over two decades, Yucca Mountain has been studied, over 
$4 billion has been spent on the study of the mountain. The 
action taken in the House last week, and a similar action soon 
to be taken here in the U.S. Senate--approval of this 
resolution--will allow the required licensing process of Yucca 
Mountain to move forward.
    Approval of this resolution is another step, moving further 
along in what has been a very long and careful process. 
Congress is not being asked, as our chairman has just said, to 
judge the licensing of the repository. These technical 
judgments will be made by the experts at the Nuclear Regulatory 
Commission in the coming years. What Congress is being asked to 
do is to permit the Department of Energy, the Secretary, to 
move forward with the development of Yucca Mountain. We are 
being asked to allow the Department of Energy to submit a 
license application for Yucca Mountain.
    The Senate will soon begin the process of considering our 
own Yucca Mountain resolution, which is before the committee, 
S.J. Res. 34, introduced by the chairman of the Energy and 
Natural Resources Committee. This morning we are holding the 
first of a series of three hearings. The chairman has outlined 
those.
    And I must tell you, Mr. Chairman, we are pleased that you 
are moving expeditiously. You obviously are bringing in all of 
the right groups to be heard. It is critical that we hear from 
all sides on this issue.
    The Secretary is before us this morning. We look forward to 
his testimony, and the expertise that he and the Department of 
Energy bring to this issue.
    At the end of these hearings, it is my expectation that my 
colleagues, and the committee, and me will vote out the Yucca 
Mountain resolution with a strong bi-partisan vote. Shortly 
thereafter, in June or July, it is my expectation that the full 
Senate will also approve Yucca Mountain.
    There is something else that my colleagues need to be aware 
of. This process of our consideration of this resolution is 
laid out in current law, as the chairman has already spoken to, 
the Nuclear Waste Policy Act. Under this process, both Houses 
of Congress must act to overturn Nevada's veto of Yucca 
Mountain. This is a one-shot deal. Congress gets one bite at 
this apple. If the Senate fails to overturn Nevada's veto, 
Yucca Mountain will be abandoned as a repository. The 
scientific investigation will stop. The Congress and the 
American people will be right back to square one, where they 
started decades ago.
    I believe that it would be most irresponsible to take that 
act. The responsible action is to proceed, to allow the experts 
to make judgment on and decide whether Yucca Mountain can, in 
fact, be licensed for the purpose of a deep geologic repository 
for high-level waste.
    So, Mr. Chairman, I thank you very much for starting this 
process here in the Senate in a timely fashion, and I look 
forward to participating.
    The Chairman. Well, thank you very much.
    I know several members would like to do opening statements, 
but I think the way we will proceed is to just provide that 
there will be 8 minutes of questioning, which Senators can use 
for opening statements or for questions, or for some 
combination of those two.
    Before we start into that, let us hear from our witness, 
Secretary Abraham. Thank you for being here. Why not go ahead 
with your testimony?

  STATEMENT OF HON. SPENCER ABRAHAM, SECRETARY, DEPARTMENT OF 
                             ENERGY

    Secretary Abraham. Mr. Chairman, thank you very much. I 
appreciate the chance to be here with the committee today.
    Mr. Chairman, I believe this committee and the Senate 
should follow the lead of the House of Representatives and vote 
to override Nevada's veto, and to allow a full and objective 
final decision on Yucca Mountain to be made by the Nuclear 
Regulatory Commission. As you indicated, the history of this 
program is a very long one. It dates back to Congress's 
decision in 1982 to begin the process by passing the Nuclear 
Waste Policy Act, committing to responsibility for radioactive 
waste disposal in this country.
    Since that time, and even actually before it, research had 
been conducted in conjunction with the site at Yucca Mountain. 
That research now has spanned 24 years. It has been in excess 
of $4 billion worth of scientific investigation. To put that in 
perspective, that is five times longer than it took to build 
the Hoover Dam; it is six times the entire duration of the 
Manhattan Project, twice as long as it took to plan and 
complete the first moon landing. So the commitment, in terms of 
energy, time, dollars, and research, I think, has been 
extensive.
    It fell to me, upon the completion of this extensive 
research effort, to reach a conclusion as to whether or not I 
could recommend this site as being suitable for the storage of 
nuclear waste. To reach that decision, I have considered the 
various research projects that have been done, and the science, 
and to try to determine two basic conclusions.
    First, is the site suitable for the development of a 
repository, based on the evaluation of the science that had 
been conducted, for a period called the ``pre-closure'' period? 
That is the period from when we might start this project, to 
the point when we might seal the mountain. To give the 
committee some perspective on that time frame, it is estimated 
to be anywhere from 50 to 300 years. In short, at its longest, 
the preclosure period would exceed the actual age of the United 
States of America.
    This is the period in which we would construct the 
repository, we would accept the waste into it, and we would 
monitor very closely any developments that might occur.
    To my knowledge, no scientific organization has disputed 
the conclusion that we reached, that during this pre-closure 
period, the site is suitable and safe for storage, because the 
task is very similar to that which we have done in other 
contexts. Yucca Mountain will be a state-of-the-art facility, 
with a controlled, secure operating environment, in close 
proximity to an air force range and its protected air space.
    We also were required, under the various congressional 
acts, to make a determination as to whether or not the site was 
suitable for a post-closure period. Here, the test that we were 
offered was a very stringent one. We were required to consider 
the safety and security of the site, in essence the suitability 
of the site not for 300 years, but for 10,000. In short, we had 
to make a determination as to whether over a period of time, 
that if you were to go in reverse, would return us to an age in 
which we were just beginning to domesticate plants, whether or 
not we could meet a very stringent set of safety standards. 
These standards, in fact, allow only 15 millirems annual 
radiation exposure for people living within an 18-kilometer 
range of this location, and impose a groundwater protection 
standard as stringent as we use for major cities in this 
country.
    To get there, we conducted most of the research I just 
mentioned over a long period of time. I might say, just to put 
this in perspective, we are talking about an annual exposure 
rate that would have to be less than that which a person might 
receive making several--just two cross-country airplane flights 
today. We concluded that, based on a total system performance 
analysis of the mountain and its prospective designs, we would 
be able to meet that standard during this time frame.
    Now, we recognize that 10,000 years is a long period, and 
that many potential events could transpire during that period, 
and so we were not only looking at it from the standpoint of a 
static environment, but we also took into consideration a 
variety of factors to be evaluated, and take into account. 
Those factors included such things as whether or not volcanic 
activity in the area might pose a higher radiation risk, 
whether seismic, earthquake activity in the area could 
conceivably cause us to not be able to meet the radiation 
standards, whether or not human intrusion could conceivably 
result in a harmful radiation exposure.
    By human intrusion we mean that we tried to evaluate, and 
were required to evaluate, whether in 10,000 years, somebody 
digging for oil and drilling through the top of the mountain 
might cause a radiation exposure to people in this area.
    We, of course, did extensive tests on whether or not water 
from the top of the mountain might somehow seep a thousand feet 
down into the repository area in sufficient quantities over 
10,000 years to somehow penetrate what we believe to be the 
extraordinarily impenetrable storage packages that will be 
used, and then have the capacity to somehow carry radioactive 
material another 800 feet down to the underground aquifer, 
which is a contained groundwater system.
    We only not considered that in the context of the 
mountain's current location and rainfall exposure, which 
because it is next to Death Valley is not very high, but we 
also even took into consideration whether or not we could still 
meet the standard if a new glacier age were to envelop the 
region, and then recede--posing, obviously, a much larger 
amount of water exposure to the mountain. We challenged 
ourselves in many other ways, and we concluded that the 
standards that have been set would be met even in the case of 
these sorts of uncertainties.
    Outside external checks and scientific evaluations, and 
groups including the International Atomic Energy Agency, the 
U.S. Geological Service, our national labs, and a variety of 
others, have peer reviewed the work that has been done, and 
support the findings that we have reached, and I am convinced 
of the soundness of the scientific basis for the recommendation 
which I made.
    I have visited the site, I have talked to the scientists at 
great length, I have studied many, many comments that were 
offered to us by a variety of people who participated in 116 
hearings that have taken place, and I did so, Mr. Chairman, 
with great concern for the people who live in this area, the 
people of Nevada, as well as others in this country, weighing 
as best I could their concerns about safety and security. I am 
convinced that the soundness of this project is established, 
and that we can move ahead, and should move ahead to allow an 
ultimate decision by the experts of the Nuclear Regulatory 
Commission as to the licenseability of this facility.
    Once I was convinced that this site was suitable as a 
repository, I did not move immediately to a final decision, 
because I also felt it was important for us to consider 
national interests in whether or not there were sufficiently 
compelling national interests to go in this direction, and as I 
have said before, I believe there are a number of strong and 
compelling national interests that support us moving ahead to 
the next stage, and ultimately to the construction of the 
repository.
    One is energy security. A site designation clearly, in my 
judgment, will encourage continuing nuclear energy production 
in this country. Right now, nuclear energy is 20 percent of our 
electricity generation. It is important for us in terms of 
maintaining a diversity of fuels.
    Existing facilities, in order to operate through their 
current life expectancies, and beyond, for license renewals, 
need the commitment that we seek to make here--to have a means 
of dealing with nuclear waste. As is well known, a number of 
the facilities that are operating today are running out of 
space for the waste that we said we would accept back in 1998, 
in the original congressional actions.
    There is a strong national security argument as well. The 
most strategic vessels in our navy, the largest ships and 
submarines are dependent upon nuclear power for propulsion. The 
spent fuel from those navy reactors is currently temporarily 
stored in the State of Idaho, under an agreement with the State 
that is temporary. We do not have a long-term mechanism for 
dealing with that waste, other than the storage that would take 
place at Yucca Mountain, and that spent fuel must go to a 
repository.
    In addition, the repository is one of the more important 
components in the process which we have developed to comply 
with our end of the nuclear nonproliferation agreements we have 
reached with the Russian Federation for the disposition of 
weapons-grade plutonium. Without the repository, I think that 
program will be set back, if not stalled.
    As I have said many times, there are certainly arguments, 
in my judgment, that support this site for homeland security 
purposes. Prudence, I think, dictates trying to store as much 
of our nuclear waste as we can in this isolated repository, a 
thousand feet under the desert, where we can consolidate waste 
that is currently temporarily stored in a variety of places, 
including decommissioned reactors around the country that no 
longer function, but where waste remains.
    Of course, there is also the argument that is very 
compelling from an environmental cleanup point of view. Without 
the repository, waste remains where it is, in temporary 
locations. In my judgment, that is not in the best interest of 
the environment in those communities, especially those where we 
already have the decommissioning of the facilities that 
generated the waste to begin with, and not to mention, the 
nuclear material that is at Department of Energy sites, such as 
Rocky Flats, in Colorado, which ultimately needs to have a 
final resting place. So for all of those, I think, very strong 
national interest reasons, the decision to move forward with 
this is a very important one, and the correct one.
    I think it is important in summary, Mr. Chairman, just to 
put in perspective the choice before this committee and before 
the Senate. It is the same choice the House had. To override 
the veto merely allows the Department of Energy to move forward 
and to seek a final objective evaluation of the work which we 
have done over the last 20 years by the experts of the Nuclear 
Regulatory Commission, as to the safety and suitability issues 
relating to the development of this repository.
    A decision not to override ends the process entirely. It 
leaves the waste where it is, with Congress retaining its 
responsibilities to deal with the waste, but without a plan to 
do so. The problem with that is, I think, quite obvious on its 
face, but there is another factor, and that is that this waste 
is not going to just sit where it is at if Congress decides to 
terminate the Yucca Mountain project.
    Instead, what we will have, Mr. Chairman, is a variety, I 
think, of makeshift, ad hoc alternatives, seized upon by people 
in communities who do not want the waste to remain where it is, 
who have already been paying into our funds to have it dealt 
with and removed, and as we have already seen, you will 
continue to see such activities as efforts to create new 
storage facilities at alternative sites around the country.
    The Nuclear Regulatory Commission already has a request, a 
license request, before it from the Goshute Indian tribe, in 
Utah, who, in consortium with some energy companies, are 
offering their reservation land as a storage site. Whether that 
license is granted or not, others will be, and we will begin to 
see the waste moved, but it will not move through the 
coordinated plan that we have, it will not move under the 
Federal Government's oversight in the way that we propose, it 
will not go to a single repository, it will end up in a variety 
of locations, under a variety of different transportation 
processes, in my judgment, in a very uncoordinated way, and in 
a fashion that I do not think really reflects the best 
interests of the Nation from any of a variety of perspectives.
    So for all of those reasons, because the science is sound, 
because we have been able to demonstrate, I think, clearly, 
both in a pre- and post-closure period, that the site is 
suitable and safe, and because we have met the relevant 
standards, and because of the compelling national interest, as 
well as the likelihood that in the absence of moving forward, 
we would find a variety of makeshift undesirable alternatives, 
that the case is strong for at least allowing this process to 
go to the next stage, and let the Nuclear Regulatory Commission 
make a final decision.
    I thank you for your time.
    The Chairman. Well, thank you very much.
    [The prepared statement of Secretary Abraham follows:]
    Prepared Statement of Hon. Spencer Abraham, Secretary of Energy
    Mr. Chairman and Members of the Subcommittee, I am pleased to 
appear before you today.
    On February 14, I forwarded a recommendation to the President, 
based on approximately 24 years of federal research, that Yucca 
Mountain, Nevada, is suitable for development as the nation's geologic 
repository for spent nuclear fuel and high-level radioactive wastes. 
The President officially recommended the site to Congress on February 
15, and pursuant to the Nuclear Waste Policy Act of 1982 (NWPA), the 
State of Nevada has exercised a disapproval of the President's 
recommendation.*
---------------------------------------------------------------------------
    * The letters referred to in this paragraph can be found in the 
appendix.
---------------------------------------------------------------------------
    I am greatly encouraged that on May 8 the House of Representatives 
voted, by an overwhelming margin, to pass the Joint Resolution before 
you today. The expeditious manner in which the House acted, and the 
wide margin and bipartisan manner by which the Joint Resolution passed, 
clearly signal this Nation's confidence and readiness to take the next 
step toward resolving the challenges of permanent waste disposal. 
Without delay, I ask that the Senate also pass the Joint Resolution, so 
that the Department may enter the next phase of repository development 
an expert and independent scientific and technical examination of the 
safety of the site by the Nuclear Regulatory Commission.
    Passing this Joint Resolution, thus overriding the State of 
Nevada's disapproval, hardly needs emphasis. Twenty years ago, Congress 
established in law the Federal government's responsibility for the 
disposal of spent nuclear fuel and high-level radioactive waste. In 
doing so, Congress foresaw the fundamental national security and energy 
policy considerations that weigh heavily in favor of proceeding with a 
geologic repository, and mandated that a repository program be based 
upon a thorough scientific evaluation of several candidate sites. In 
1987, Congress limited that evaluation to the site we consider today: 
Yucca Mountain.
    In formulating this recommendation, I first considered whether 
sound science supported a determination that the Yucca Mountain site 
was scientifically and technically suitable for the development of a 
repository. The scientific evaluation of the Yucca Mountain site had 
been conducted over a 24-year period; as part of the study, some of the 
world's best scientists examined every aspect of the natural 
processes--past, present, and future--that could affect the ability of 
a repository beneath Yucca Mountain to isolate radionuclides released 
from any spent fuel and radioactive waste disposed of there.
    The Department's scientific inquiries and modeling clearly 
demonstrate that a repository at Yucca Mountain can meet the 
Environmental Protection Agency's standards for protecting the health 
and safety of our citizens. These extremely stringent standards were 
based on the recommendations of the National Academy of Sciences. What 
they mean, in terms of the Yucca Mountain site, is that a person living 
11 miles away from the site cannot receive more annual radiation 
exposure during the 10,000-year regulatory period than a traveler 
receives today from natural sources in three round trip flights from 
Las Vegas to New York.
    In evaluating whether the repository can comply with the Agency's 
standards, our scientists employed extremely conservative assumptions 
and considered the impact of events with extremely low probability of 
occurrence, all erring on the side of public safety. For example, 
earthquakes were assumed to occur, and volcanic eruptions were 
evaluated--even though the likelihood of a volcanic event affecting the 
repository during the first 10,000 years is just one in 70 million per 
year. Even with these unlikely events analyzed into the Agency's 10,000 
year compliance period, Yucca Mountain still meets the EPA standards.
    A review of the documentation that accompanied the recommendation 
clearly reveals that the Department has carefully evaluated the extent 
to which Yucca Mountain's substantial natural geologic barriers work in 
concert with the robust engineered systems. We know that Yucca Mountain 
is in a closed hydrologic basin, a geologic feature that greatly limits 
the potential migration of radionuclides. Between the emplacement 
tunnels and the water table, which is approximately 2000 feet below the 
surface, the geology provides natural adsorption retarding any 
potential radionuclide movement. The hydrologic features at this site 
suggest that more than ninety percent of the annual rainfall runs off 
or is evaporated, meaning less than a half an inch of water travels 
beneath the surface. Our studies indicate that the vast majority of 
water samples taken from the mountain are thousands of years old.
    Even with this robust geology, our scientists again conservatively 
considered how engineered barriers 1,000 feet below the surface and 
1,000 feet above the water table might corrode by analyzing what would 
happen during an ice age, if Nevada's climate changed and rainfall 
increased dramatically. Even including these scenarios, Yucca Mountain 
still meets the EPA standards.
    After thoroughly examining the relevant scientific and technical 
materials, I have concluded that they demonstrate that the site is 
scientifically and technically suitable for construction of a 
repository. As I stated in my recommendation to the President:

          Irrespective of any other considerations, I could not and 
        would not recommend the Yucca Mountain site without having 
        first determined that a repository at Yucca Mountain will bring 
        together the location, natural barriers, and design elements 
        necessary to protect the health and safety of the public, 
        including those Americans living in the immediate vicinity, now 
        and into the future.

    Having reached this conclusion, I went on to evaluate whether 
compelling national interests counseled in favor of moving forward with 
a geologic repository at Yucca Mountain, and if so, whether there were 
countervailing arguments so strong that I should nonetheless decline to 
proceed. This evaluation argued strongly in favor of proceeding, and 
certainly that there was no basis for abandoning the policy decisions 
made by the Congress in enacting the 1982 Nuclear Waste Policy Act and 
the 1987 amendments to that Act. In short, the relevant considerations 
are as follows.
    First, Yucca Mountain is critical to our national security. Today, 
over forty percent of our Navy's combatant vessels, including aircraft 
carriers and submarines, are nuclear powered. The additional 
capabilities that nuclear power brings to these platforms is essential 
to national security. To maintain operational readiness, we must assure 
disposal of spent fuel to support refueling of these vessels. We are in 
the midst of advancing the non-proliferation objectives that have been 
the welcome result of the end of the Cold War. A geologic repository is 
an integral part of our disposition plans for surplus weapons grade 
materials.
    Yucca Mountain is an important component of homeland security. More 
than 161 million people live within 75 miles of one or more nuclear 
waste sites, all of which were intended to be temporary. We believe 
that today these sites are safe, but prudence demands we consolidate 
this waste from widely dispersed, above-ground sites into a deep 
underground location that can be better protected.
    A repository is also important to our nation's energy security. 
Nuclear power provides 20 percent of the nation's electricity and emits 
no greenhouse gases. The reactors we have today give us one of the most 
reliable forms of carbon-free power generation, free from interruptions 
due to international events and price fluctuations. This nation must 
develop a permanent, safe, and secure site for disposal of spent 
nuclear fuel if we are to continue to rely on our 103 operating 
commercial reactors to provide us with electricity.
    And a repository is important to our efforts to protect the 
environment. A repository is indispensable to implementing an 
environmentally sound disposition plan for high-level defense wastes, 
which are located in Colorado, Idaho, South Carolina, New Mexico, New 
York, Tennessee, and Washington. The Department must move forward and 
dispose of these materials, which include approximately 100 million 
gallons of high-level radioactive waste and 2,500 metric tons of 
defense production spent nuclear fuel.
    Finally, I carefully considered the primary arguments against 
locating a repository at Yucca Mountain. None of these arguments rose 
to a level that outweighs the case for going forward with the site 
designation.
    Of these, the only one I shall address in my prepared testimony is 
the concern critics of the project have raised about the 
``transportation issue.'' I wish to address this issue briefly, not 
because I believe there is any real basis for believing these concerns 
are warranted, but rather, because I believe that simply by incanting 
the words ``transportation of nuclear waste,'' opponents are hoping 
they can incite public fear, without any basis in fact, and that this 
hope has become the last refuge for opposition to the project. The 
facts, however, are these.
    First, the Nuclear Regulatory Commission, working with the 
Departments of Transportation and Energy, has overseen approximately 30 
years of safe shipment of spent nuclear fuel in this country. The 
Department and commercial nuclear industry have substantial experience 
to date--some 1.6 million miles--without any harmful radiation release. 
And the successful and extensive European experience in transporting 
this type of nuclear material corroborates our experience. The 
transportation of this material will involve approximately 175 
shipments per year, not the 2,800 that the opponents allege. It would 
also constitute 0.00006% of the annual hazardous material shipments, 
and 0.006% of the annual radioactive material shipments that occur in 
this country today.
    Second, because the site has not yet been designated, the 
Department is just beginning to formulate its preliminary thoughts 
about a transportation plan. There is an eight-year period before any 
transportation to Yucca Mountain might occur. This will afford ample 
time to implement a program that builds upon our record of safe and 
orderly transportation of nuclear materials and makes improvements to 
it where appropriate. Thus any suggestion that the Department has 
chosen any particular route or mechanism is completely fictitious. 
Those decisions have not been made, and cannot possibly start to be 
made until the site has been designated and the Department has the 
opportunity to work with affected States, local governments, and other 
entities on how to proceed.
    Third, even without a repository at Yucca Mountain, the need to 
find a place to put the spent fuel that is continuing to accumulate 
will lead to the transportation of these materials, and likely quite 
soon. On-site storage space is running out and not all utilities can 
find new adjacent land where they can put this material. Therefore, 
they will devise ad hoc off-site consolidated storage alternatives. 
Already a consortium of utilities is working on a facility that they 
have presented to the NRC. Whether or not this effort ultimately 
succeeds, it is likely that some similar effort will. Thus the 
transportation of nuclear materials is not a function of a repository 
at Yucca Mountain, but rather is a necessary consequence of the 
material that continues to accumulate at the 131 sites in 39 States 
that are running out of room for it.
    Finally, Yucca Mountain critics argue that nuclear materials in 
transit could be a terrorist target. But they are forgetting the 
obvious: spent fuel in secure transit to a permanent repository is 
certainly less susceptible to terrorist acts than spent fuel stranded 
at the temporary, stationary sites--many very close to major cities and 
waterways--where it now resides.
    Let me close with one last thought. The critics of this program 
would have Congress overturn the fundamental decisions it legislated 15 
years ago--that a single underground repository located at Yucca 
Mountain holds the greatest promise for the long-term safety and 
security for the Nation. The great body of scientific work done since 
then has confirmed the fundamental soundness of the Yucca Mountain 
site. The only issues remaining are the type that only can be resolved 
in a Nuclear Regulatory Commission licensing proceeding.
    The critics who would upend this path to resolution of the 
remaining issues have a heavy burden of proof in urging that the policy 
decision made by Congress in 1987 and the findings of the body of 
scientific work that examined Yucca Mountain both be abandoned before 
the NRC has even had the opportunity to pass on whether a repository 
can safely be sited there. Given the history and the work to date, 
their burden would be substantial even if this project were not 
critical to many important national interests. But it is. Rejection of 
the proposed resolution would leave the country with no ultimate 
destination for our spent naval fuel, no adequate path for disposing of 
our own surplus plutonium, thereby making it hard for us to press other 
countries to dispose of theirs, and no means to complete the 
environmental cleanup of our defense complex. Utilities may have to 
start planning to decommission existing nuclear reactors and figuring 
out how to replace them. Congress would still have to formulate an 
alternative in view of the statutory obligation that the Government 
dispose of commercial spent fuel that was legislated in 1982, but that 
would be no easy task.
    In short, a decision to oppose this project's going forward at this 
stage is a decision to abandon the repository program and subject the 
country to these consequences without ever letting neutral experts at 
the Nuclear Regulatory Commission decide whether that is the right 
course. Nothing the critics of this project have advanced comes close 
to meeting the burden of proof they should have to satisfy to warrant 
proceeding in this fashion. Opposition to nuclear power is not a 
sufficient ground, since we all, and the United States Government in 
particular, have an obligation to safely dispose of this waste 
regardless of any such policy view. Nor are concerns about 
transportation, for all the reasons outlined above. Rather, opposition 
to this resolution, and to submitting this question to the NRC, seems 
warranted only if one is convinced that there is such overwhelming 
evidence that a repository at Yucca Mountain cannot meet the NRC and 
EPA standards that it would be a waste of time and money to use the 
ordinary NRC processes to find out.
    Support for the proposed resolution, on the other hand, does not 
require being convinced that the Department of Energy is right in 
believing that a repository at Yucca Mountain will meet the applicable 
standards or that the NRC will decide it should be licensed--although 
in my judgment the scientific work to date provides ample basis for 
reaching that conclusion. Indeed, it doesn't even require being 
convinced that this outcome is the most likely. Rather, all that is 
required to support the resolution is to believe there is enough of a 
serious possibility that $4 billion and 24 years of scientific research 
have produced a sufficient basis for our conclusion that the site can 
be safely developed as a repository. That conclusion will then subject 
the extensive scientific basis for the President's recommendation to 
objective testing in the only official context it can be--an NRC 
licensing proceeding.
    I urge the Senate now to act promptly and favorably on the proposed 
joint resolution, as the House has done so overwhelmingly on May 8. 
This will allow the Department to proceed with the next stage of 
addressing the merits of all remaining issues, by applying the 
independent expertise of the Nuclear Regulatory Commission.

    The Chairman. We will go back and forth on questions, and 
do it in the order that people arrived.
    One of the issues that has been raised, Secretary Abraham, 
on this is that the Nuclear Waste Policy Act requires you to 
file an application for construction authorization with the 
Nuclear Regulatory Commission within 90 days after the 
President's site recommendation becomes effective, if the 
Congress accepts your recommendation, and overrules the 
governor.
    GAO has said that you will not be able to file a license 
application for another 4 years, rather than 90 days. So 
assuming the joint resolution is signed into law, are you 
prepared to file an application within 90 days? If not, what 
happens if you do not meet that deadline?
    Secretary Abraham. Well, I do not believe that the actions 
we were required to take before reaching a recommendation 
required us to have a completed or near completed license 
application. In fact, I think to argue that somehow the 90-day 
rule was designed in some fashion to stop the process, rather 
than to expedite it, would be to turn it on its head. I think 
the 90 days was designed to try to make sure the process could 
move forward quickly.
    When Congress enacted the Waste Policy Act in 1982, it 
included in the Act a lot of deadlines, which represented its 
best judgment then of how the various steps could be taken. 
These deadlines included this 90-day provision. They also, of 
course, included the requirement that we begin accepting waste 
in 1998, which we have not done. I think the time frames in the 
Act have proven to be optimistic on their face, and I do not 
think that is any reason for the Department not to honor what 
was, I think, plainly the central objective here, which was to 
try to move this along as promptly as possible.
    The specific answer to your question is, we believe that we 
will be in a position to provide a license application by the 
end of the year 2004. We are moving forward to prepare that at 
this time. I would note that the Congress has constrained in 
appropriations the work that might be done by us on the license 
preparation side of our responsibilities, and instead has been 
very explicitly funding programs on the site suitability side 
of our responsibility. I do not believe that the 90-day time 
frame here is, in any way, a prohibition on us moving forward 
to seek a license at a date beyond 90 days after the finish of 
this process.
    The Chairman. One of the arguments the Governor has used 
is--he says that the poor geology there at Yucca Mountain has 
forced the Department to abandon reliance on the mountain's 
geology as a way to isolate the waste, and instead, in his 
view, the Department is now relying on what the Governor calls 
a series of fancy engineered waste packages, and a tangled web 
of man-made contrivances.
    To what extent will the repository rely on the geology of 
the mountain, and to what extent will it rely on waste 
packages, or drip shields, or other manmade barriers to ensure 
that the waste remains sealed in this repository?
    Secretary Abraham. Mr. Chairman, the legislation that 
governs this issue has never, in any sense, suggested that 
either a 100 percent geological approach or a 100 percent man-
made approach is called for. I think it always contemplated a 
combination, and that is what we are proposing.
    Yucca Mountain has many positive attributes, because of its 
location and its composition. There is low rainfall. Obviously, 
it sits near Death Valley. It has a closed groundwater basin, 
which contributes mightily to the safety features. It is a 
benign environment for waste packages. It is isolated from 
population.
    The result of all that is that its natural barriers alone 
are going to protect public health and safety by isolating 
99.9999999 percent of the radioactive material which is 
emplaced in it over 10,000 years. Those natural barriers alone 
would reduce exposure to--just to put this in perspective--20 
percent of the level of exposure which is currently allowable 
for U.S. nuclear workers. In short, just by its geological 
factors alone, it brings the potential exposure below that 
which we have legally permitted to be the case for nuclear 
workers.
    It is still, at that point, higher than the EPA's 
standards, which are extraordinarily strict, which is why, 
based on those standards, we have added additional engineered 
barriers to accomplish the final small ingredient of protection 
that I referenced earlier.
    The Chairman. One of the concerns that has been raised, the 
Nuclear Waste Technical Review Board whom we are going to hear 
from next week, is that the technical basis for the 
Department's performance estimates is, quote, ``Weak to 
moderate.'' I guess I would ask whether you share the Board's 
assessments in that regard, and if you do, why the Department's 
technical basis is not stronger.
    Secretary Abraham. Well, first let me say that we take the 
Technical Review Board's comments and advice seriously. We have 
throughout this process--they have a different responsibility 
than we do. Their recommendations do not go specifically to 
meeting the EPA targets, or the Nuclear Regulatory targets 
only. Rather, I think they have tried to offer perspectives on 
how to perfect the design of all of the various components to 
an even higher standard, and we would like to do that as well.
    Let me just start by saying that there is no disagreement, 
I do not think, as I said in my comments, between us, and the 
Technical Review Board, or anyone, over the safety and 
suitability of the facility in the first 300 years. Where there 
have been some concerns raised by the Board that relates to 
that post-closure 10,000-year period, thereafter. They have 
identified some issues which they--let me put it this way.
    We have come up with what we believe is a basic design 
approach that will meet these extraordinarily stringent 
standards. The question is: Can we perfect them? I think the 
Review Board has asked us, and I think the comments you 
reference go to the question of whether or not we have done 
enough research to even perfect them further.
    For example, one of the main areas that they have made 
recommendations on, which I think a lot of the reference points 
you made before pertains to, is the question of whether or not 
the repository would be maintained on a hot versus a cold 
environment, and I think the Review Board believes more 
research needs to be done to make a determination as to which 
is preferable, in terms of what could make it even safer than 
the standard that we could meet, and we are conducting that 
research as a matter of following-up on their recommendation. 
So I think that the basis for the conclusion we made as to 
suitability is strong. I think the issues that they raise are 
important ones to look at over the period of time we have ahead 
to perfect the design even better.
    The Chairman. One other question I wanted to ask relates to 
transportation. A lot of the complaints about this proposal 
that you are advocating to use Yucca Mountain is that the 
transportation of the waste to this site will not be safe, and 
will create a series of new and unnecessary hazards. I would 
like your reaction to that, and also any estimates you could 
give us--if Congress were to approve going ahead, as you are 
requesting, when is the earliest that shipments would actually 
be made to Yucca Mountain?
    Secretary Abraham. Well, let me begin by talking about the 
safety record we have already achieved. In this country, as 
well as in Europe, literally, as cumulatively, as much nuclear 
waste as is contemplated being moved to Yucca Mountain, has 
been moved over the last 30 years, without any harmful 
radiation exposure. The track record is an impressive one. I 
think the chairman is familiar with the many protocols that 
were established, for example, in the movement of waste to the 
WIPP facility at Carlsbad, and the same kind of an approach 
would be taken here, but the point is, we move a lot of waste 
today, and we have done it safely.
    Moreover, just to put some numbers on the record, we move 
about 300 million hazardous waste shipments per year in this 
country. Three million of them involve some form of 
radiological material, and we do it safely, not just our 
department, but the transportation sector, and the other 
government agencies. So we can do this safely, number one. 
Number two, as I mentioned in my comments, this is not a 
situation that is unique to Yucca Mountain. If we do not go 
ahead with this program, if it were to be terminated now, as I 
said, there are already ad hoc makeshift alternatives being 
contemplated by people who have too much waste building up in 
their temporary storage facilities at nuclear reactors around 
the country. The question is going to be, not is there or is 
there not transportation--there will be. The question for 
everybody to consider is whether it makes more sense to do it 
in a centralized, highly secure, effective fashion, or to leave 
it to a variety of alternatives that will be different for each 
new approach that ultimately is developed by people who have 
the waste in temporary facilities that they do not wish to 
retain in those locations.
    So it can be done. The time frame that you asked about 
looks something like this. We believe, as I said before, that 
we can proceed through final application by the end of the year 
2004. We believe that process from there, forward, will be 
through the year 2006, to the end of 2007, when we believe a 
license decision could be made.
    After that, it will take at least 3 years to construct a 
facility, and make it capable of accepting waste. So it is 
eight years, roughly, from now, when we would envision our time 
frame for the first potential receipt of waste, 2010.
    The Chairman. Senator Campbell.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thank you, Mr. Chairman. Well, Mr. 
Chairman, I have no scientific background, whatsoever. They say 
most of our decisions are really made by our own personal frame 
of reference, so let me try and do that maybe not only as a 
Senator who represents Colorado, but as a private citizen, too. 
I might say that I am happy to see our old colleague here, 
Secretary Abraham. We do not get to see him much any more with 
his new job.
    I do not know how many on the panel have actually witnessed 
the awesome power of nuclear fission, maybe with the exception 
of Senators Ensign or Reid, because they are from Nevada, but I 
have. I know that this is a little different subject, but it 
has certainly set something in my frame of reference that I 
keep thinking about.
    In 1952 and 1953, I was stationed at Nellis Air Force Base, 
which is just out of Las Vegas, as you know, Mr. Secretary, 
about 90 miles from the location where we are talking about 
storing this waste, and had the opportunity to witness four, at 
least four, and as I remember, more than that, four bombs that 
were set off. Three of them were from the base, in the middle 
of the night. It was so bright that you could actually read a 
newspaper without any lights at all for probably a couple of 
minutes before that brightness died down.
    Once I was what was called a perimeter guard, since I was 
an MP, I think about 6 miles away from where it was set off, 
with very little protection. We watched it using smoked glass, 
if you can imagine that. To this date, I wonder--I do not mean 
to say this as an alarmist, but I wonder about the effects that 
being close to those things had on the American people who were 
there, the military guys who were there at the time.
    I understand, although I have no absolute documentation 
about this, that there is still places in Yucca Flats where you 
cannot go without some protective clothing, because of those 
bombs that were set off above ground.
    Well, that is one of my concerns. I always kind of factor 
that in, that I saw those things, and I know other people 
probably have, too, but one of my other big concerns that I 
think you talked about somewhat, it still does not satisfy me, 
though, is the transportation. As I understand it, the 
Governors do not have the right to veto the route that these 
shipments come through their State. You mentioned about 175 
shipments a year. I do not know how many the total amount is, I 
guess thousands and thousands over a period of years, but the 
main route for east-west for Colorado is I-70, right through 
downtown Denver, which has about 2 million people in the 
metropolitan area, and a governor that cannot veto that.
    It then goes over I-70, Vale Pass, maybe you have been that 
way, and down what is called Glenwood Canyon. Glenwood Canyon 
is a major east-west artery, but a very narrow canyon, and most 
of the tributaries that go into the river beside the highway, 
and by the way, the train tracks also go there, so you will 
have the same problem with trains or the highway. Most of that 
water feeds into the Colorado, which then, in turn, goes to 
Nevada, to California, to the lower Colorado, to Mexico, and I 
guess to, in some cases, Arizona, too.
    I checked with our Department of Transportation yesterday, 
and they told me that in 1993, the semis, the heavy trucks, the 
big trucks, there were 19 wrecks on that road in 1993, sixteen 
in 1994, 20 in 1995, 14 in 1996, 15 in 1997, 19 in 1998, 11 in 
1999, 12 in the year 2000, and I do not have any figures for 
this last year. So there is no question, trucks are crashing 
all the time. Of those, 75 percent of the accidents occurred 
during the daytime, and 75 percent of them were involved with 
collisions with other vehicles.
    Well, I do not blame the Governor of South Carolina, by the 
way, who has literally said he would call out the guard or 
throw his body down in front of the trucks if anybody tries to 
ship any nuclear waste into his State. I understand that. Our 
Governor in Colorado, Governor Owens, just recently put a 
moratorium on some shipment of low-level waste that was 
supposed to be imported by a company that was going to 
reprocess it in Canyon City, Colorado. I would think if a 
governor does not do that, or if the Senators, too, do not 
oppose that, they do not stay in office the next time around, 
because that is the way people feel.
    I also get criticized in my own State, because of my 
position on it, but every State gains the job base, and all the 
benefits from producing this stuff, every one of them. They 
have the jobs. They have the tax base. They have all the good. 
Sometimes I liken it to the guy who builds a nice home, but 
forgot to factor in the septic tank, so after he gets his nice 
home built, he wants to put the septic tank on his neighbor's 
land. I just think that is morally wrong.
    I have been involved with this, I guess, as much as anybody 
on this committee, having been on it since I have been in the 
U.S. Senate, and I think I have heard all the scientific 
reasons why we ought to do it, and maybe there are some. I just 
think that there is a moral obligation, too, and I am not at 
all sure we ought to be dumping it in Nevada.
    I just wanted to pass that on to you. I really do not have 
any questions, Mr. Chairman, but I wanted to get that off my 
chest.
    Thank you.
    Secretary Abraham. If I could just comment, Mr. Chairman.
    First, I would note that notwithstanding the challenge we 
are having with regard to South Carolina, the Governor of South 
Carolina, who is a strong proponent of this process, and 
endorses the decision to go forward with Yucca Mountain----
    Senator Campbell. But not in his State.
    Secretary Abraham [continuing]. I would also note that, as 
you are well aware, Senator, the----
    The Chairman. The Governor of Nevada also favors the 
shipments to South Carolina. It is the NIMBY system. I 
understand that.
    Secretary Abraham. So does Colorado----
    Senator Campbell. So does Colorado, and I get criticized 
for it.
    Secretary Abraham [continuing]. Because it is your governor 
and colleagues who wish us to ship the material from Rocky 
Flats to South Carolina. So, obviously, this is an ongoing 
challenge. But I do want to clarify a couple of things.
    First of all, under the rules which we have, if the site is 
designated, we will identify preliminary routes, we will 
consult with States and tribes through which routes would be 
used, and the States have the option, as we saw with the WIPP 
shipments, to provide preferred shipping routes instead through 
their jurisdictions, which they can designate, and which we 
will follow.
    I would also just add that----
    Senator Campbell. Then something has changed, Mr. 
Secretary, because the last time we dealt with this bill, as I 
read the bill, it said that the Governors could designate 
routes, and they could recommend routes, but, in fact, the DOE 
had the authority to veto that, not to go along with it, and in 
Colorado, I do not know about some of the other States, but 
there is on east-west route, except I-70, that is a four-lane 
highway. The rest of them are all two-lane country roads.
    Secretary Abraham. The process, as I understand it, 
Senator, includes notification of both the Governor, as well as 
Nuclear Regulatory Commission, escort training for those who 
would be engaged in the management and the transfer, that is, 
the local personnel. Advance arrangements will be made with law 
enforcement agencies along the route. Advance route approval is 
required by the Nuclear Regulatory Commission, at least one 
escort to maintain visual surveillance of a shipment, status 
reports every two hours. There are a variety of those 
additional protections. We have done this--we have done it.
    Senator Campbell. Yes, and I understand that, and I 
appreciate that, and, in fact, some of those things, including 
driver training, and funds for local HAZMAT teams, and so on, 
were put in because of us, some of us, that were not very 
supportive the last few years of this movement, without 
additional precautions. So I think that is all to the good.
    Secretary Abraham. As I said, I think it is to the good as 
well. I also would, again, just reference two things. Number 
one, I believe you are going to have transportation and 
shipments whether it is done by this process or by alternatives 
that are developed by companies who find people willing to 
store this off-site, and, again, all I can say is, we have had, 
I think, over the last 30 years a track record, both with 
respect to this kind of material, as well as our WIPP program 
that is unblemished, and we are proud of the fact that there 
have been no harmful radiation exposures, both here as well as 
in Europe, despite a huge amount of shipments.
    Senator Campbell. Well, thank you, Mr. Chairman. Just a 
last comment: I would recommend that maybe we study shipping it 
to Michigan.
    [Pause.]
    The Chairman. There is no response to that.
    [Laughter.]
    Senator Campbell. I noticed.
    The Chairman. I call on Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    Let me just thank you for your leadership, Mr. Secretary, 
on this very difficult issue in helping us to work through it, 
and to try to provide a plan that is really good for this 
country, respectful of all of our States, and continues to move 
us in a very progressive and positive direction to strengthen 
our economy, and to continue to march forward.
    Let me just ask two questions, and then I am going to make 
just a general comment. You alluded to this, but I think one of 
the issues that is raised by opponents is this transportation 
issue. So I would like to go over again, if you could put a 
little bit more on the record about the safe transportation of 
waste from the national weapons complex to New Mexico. You 
referred or alluded to the WIPP program. Could you go over 
again the results of that transportation, because, as you can 
see, it has been raised as a concern, and I think it is an 
important point to reiterate.
    Secretary Abraham. It is, and as I have said, I recognize 
the concerns people have. We believe, just as a preliminary 
point, it is not the case that failure to go forward with this 
means no transportation. The question is, who do you think can 
do it better, the people who have done it for 30 years, without 
a harmful radiation exposure, or others?
    We have a successful program shipping for WIPP, which has 
resulted in the safe movement of about 20 percent of the 
shipment trip volume anticipated for Yucca Mountain already, 
and we actually support the consideration of using the same 
kinds of protocols here, or something similar, as a starting 
point to design the system we would use for Yucca Mountain.
    Now, just to put that in perspective. With WIPP, we provide 
assistance with First Responder capacity and capability, 
through training and other assistance. Over 20,000 First 
Responders have been trained. We have worked with States to 
establish shipping protocols, such as time of day, the weather, 
and other restrictions, notification of the States, of all 
shipments and provision for feedback on modifying the time of 
day shipment at the release point, State patrol safety 
inspections, and DOE radiation inspection of shipping vehicles, 
and rigorous inspections done prior to the trip, as well as 
satellite tracking of en route vehicles. All of these, and 
more, are part of the protocols of WIPP that have been very 
effective. We would envision starting with that as a menu to 
choose from, as we would consider a similar approach at Yucca 
Mountain.
    Senator Landrieu. Well, the reason I raise this, Mr. 
Chairman, I think in this debate, it is very, very important 
for us to understand that while there might be risk associated 
with the moving of this material, the Secretary has outlined 
all of the extraordinary precautions that can and will be, and 
have been taken, with minimal effect, taken, but what people 
have to realize is, that right now there is even a larger risk 
of 131 sites with this nuclear-stored material that are also in 
populated areas, in some cases, right next door to 
neighborhoods, very populated neighborhoods.
    This is not just a matter of energy security and a mix of 
fuels, and the importance of nuclear, it is a security issue. 
With post-9/11, there are possibilities that we will not 
discuss in detail, but people could imagine, you know, attacks 
on some of these storage sites. They are in populated areas 
now. So one of the quotes that I have in my statement is a 
quote from George Patton, which basically says, ``A good battle 
plan that we act on today can be better than a perfect one 
tomorrow.''
    I suggest we have a good battle plan, that we need to act 
on it, and the argument that it is risky to move it is more 
risky than leaving it where it is. I do not think the science, 
or the evidence, or common sense, backs up that second 
argument. With 131 sites all over the country--primarily in the 
Northeast, not so much in the Western States--but you can see 
the grid here of where these sites are, and it is dangerous.
    So the plan that you have outlined, I just want to say, I 
think reduces risk, bolsters our energy security through 
promoting this nuclear renaissance, as well as answering a real 
immediate threat to our national security today.
    Now, my second question is, this report that has caused a 
lot of consternation, which has come out about technical 
defects in the plan, I understand that it was looking at sort 
of the next 50 years, 50 to 300 years. There were 293 technical 
items identified in this report. My question is: Are there any 
potential show-stoppers that you see in those 293, or how would 
you describe them to us? Are these things that we should be 
very concerned about? They are technical in nature, and could 
you give us a little of your feedback on that?
    Secretary Abraham. Senator, you are referring, I think, to 
the 293 agreements, or work, that must be done prior to 
finishing the license application preparation process. Some 
have tried to characterize these as defects. They are not. 
Rather, they are really a checklist items which have been 
agreed to by the Nuclear Regulatory Commission and the 
Department of Energy as steps that remain to be done before the 
application is finished. I do not want to try to do a direct 
comparison, but we all at different points in our life 
participated in applying for things, whether it is admission to 
college, or graduate school, or other similar items. There are 
a lot of things that you have to provide. They are not 
automatically in the hands of the people to whom the 
application must go. It is the responsibility of the preparer 
to compile those, and we believe that we are in a position to 
do that.
    First of all, the 293 number, which came out some time ago, 
has already been substantially reduced. Forty-one of the 
agreements are now completed to the satisfaction of the NRC, 
which means the number is now 252. We believe by September 30 
of this year, a full third of these will be done, bringing the 
number down to about 200, and we are confident that the 
remainder are going to be addressed by December, 2004, when we 
expect to submit the license.
    Fifty-three percent of all of these relate to just simply 
providing documentation that already exists or is in a process 
of being revised to be appropriate for submission. So these are 
not showstoppers. These are technical steps that need to be 
taken on the way to licensing. Just to put one last point on 
the record here, the Nuclear Regulatory Commission has provided 
us with a sufficiency letter, the kind of document that 
indicates that they believe we have met already the sorts of 
standards that would cause us to move towards this licensing 
process. They stated that existing and planned work, upon 
completion, would be sufficient for inclusion in a repository 
license application.
    I mean the choice we would have--to somehow do all of this 
work before we would even submit a license--is simply not 
contemplated in the statute. This work is simply part of the 
process. Actually, we have done quite a bit more, I think, in 
terms of preparation already than the preparation that is done 
for the normal licensing of a facility.
    Senator Landrieu. Mr. Chairman, let me just close with just 
a one-minute summary. I think the evidence and the testimony 
suggest that there have been very rigorous scientific and peer 
review studies that indicate that this is potentially at least 
the best site in the United States today. The people in 
Louisiana have already paid $253 million, through additions to 
utility bills, to build and invest in this site.
    It is not just the nuclear energy industry that is at 
stake, and its future, but it is the security of this nation. 
Again, in Louisiana, we have three sites, well we have two, but 
right across the line in Mississippi, we say our sister State, 
they have three sites. These are very dangerous sites. There is 
nothing to say that a terrorist could not slam a mortar shell 
or crash a small plane into one of the 131, of which three I 
have just cited. Forget trying to sabotage a nuclear facility. 
It is these dangerous sites. This material is all over the 
Nation.
    I would say that it is in our security to try to move it to 
a very secure place environmentally, and otherwise, and the 
faster we get about doing it, I think the better. I just wanted 
to add that to the record. I am very sensitive to any 
environmental considerations, but there are compelling national 
security reasons, as well as energy security reasons, why we 
should move this process forward. Thank you.
    The Chairman. Thank you.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Mr. Secretary, we appreciate you being here this morning, 
and thanks for your leadership, and that of your colleagues 
over at the Department of Energy. These are elusive issues that 
we deal with, and I would build onto what my colleagues from 
Louisiana and Colorado have noted, and add one additional 
observation.
    We do not live in a risk-free society. If, in fact, we have 
the expectations, and standards, and values that we do, that we 
think are important in this country, to grow our economy, and 
provide opportunities in a more just and better world, for not 
just America, but for all the world, then that requires some 
risk.
    None of us today, I suspect, certainly, I do not believe 
the Secretary is stating this, or implying this, that he can 
unequivocally state that there is no risk in the transportation 
of radioactive materials, or in any other part dynamic of this 
equation. That is as it is, and I suppose we could go back to 
the time of the loincloth and spears and find less risk in 
society.
    I also note what my colleague from Colorado said about the 
moral decision here. Well, I would ask the next question, is it 
more moral to defer this decision, as essentially we continue 
to do, and leave it to the next generation? Does the world get 
safer? Is there less risk in 20 years? I do not think so.
    The fact is, we must step up to this tough, difficult 
decision, and I think the 20 years of very intense scientific 
studies that have gone into this is as sophisticated and 
complete as any other project in the history of this country, 
and the Secretary has noted some of the other projects that 
were rather significant to the future of mankind that took far 
less time in achieving an objective that what we are today.
    When my friend and colleague from Nevada, Senator Ensign, 
came to see me the other day, he brought up a good point, and I 
want to ask this question based on Senator Ensign's question to 
me, and the point he made about the development of alternative 
spent-fuel management strategies, which you are familiar with, 
Mr. Secretary. I am speaking specifically of the reprocessing 
and transmutation technology that is ongoing, developing, and I 
understand that the Energy Department has put more money back 
into the budget, which originally my understanding was that it 
had been zeroed out for this.
    The Senator from Nevada makes, I think, a good point. Why 
not wait until this is developed further, and, therefore, we 
would minimize the risk of moving, certainly, the intensity of 
the radioactivity of the material? That is a question I have 
for you.
    The second question, Mr. Secretary, is: What are the 
consequences, if, in fact, this body, the U.S. Senate, would 
further delay this decision by sustaining the Nevada governor's 
veto? Two questions. Thank you.
    Secretary Abraham. Thank you, Senator. The first answer is 
this: Obviously, the Department of Energy engages in research 
on new technologies and possible alternative ways to deal with 
nuclear waste, transmutation being one of the issues that has 
had a lot of attention lately, but the challenge we have is 
this, that all of the alternative processes which we can 
foresee today create byproducts themselves that still require 
disposal someway, somehow--in a repository, in our judgment--to 
ensure the protection of public health and safety. So that is 
the challenge, and I will not even get into issues of cost, as 
well as uncertainty.
    As far as the decision not to move ahead, as I have said 
here before, there are a variety of implications on national 
security, on the environment, on energy security that are quite 
clear. I believe that deciding to kill the project--at least 
now as we are up to the point of allowing a licensing process 
to occur, and providing for the consideration by the NRC--
brings to a halt any immediate issue as to dealing with nuclear 
waste. That will have an implication, I think, on investment in 
and the potential for nuclear energy to remain a 20 percent 
provider of fuel for electricity generation. That has a lot of 
implications in terms of how we might alternatively provide 
that level of electricity generation.
    Second, it has an implication on the issue of national 
security. As I mentioned, our naval reactors program is 
dependent upon ultimately being able to dispose of the waste 
from the propulsion systems. Right now, the State of Idaho is 
under a temporary agreement providing a location for that, but 
the State of Idaho expected that we would dispose of that at 
some point in this fashion, and I think that it is hard to tell 
what would be the continuity of that program.
    I mentioned the non-proliferation programs, which are 
directly affected by our ability to dispose of plutonium 
through the conversion of it to MO<INF>X</INF>. This process 
creates a byproduct that has to go somewhere, and we have 
already found that the Governor of South Carolina, and people 
of that State are very concerned about having a pathway out of 
South Carolina for the byproducts of the plutonium disposition 
that we might conduct there.
    So there are all of those factors, as well as the issue I 
have raised before, and that is, I think people will engage in 
their own self-help efforts. Right now, the waste is at 131 
sites. A lot of them are near major cities, on important 
waterways, and the communities that are affected directly do 
not want the waste to stay there, and they thought they had 
been paying all this money into our Federal treasury to get it 
out of there by the beginning of 1998. That has not happened. 
It will at least be 12 years late.
    So I do think you are going to have alternatives develop of 
the sort that have already begun, and I do not think that is 
even the most prudent or safe way to deal with it. So I think 
those are the kinds of implications.
    Senator Hagel. Thank you.
    The Chairman. Thank you.
    Senator Craig.
    Senator Craig. Mr. Chairman, thank you very much.
    Mr. Secretary, when the decision that you proposed to the 
President came about I was making an effort to contact you for 
a variety of other reasons, and I know that you sequestered 
yourself, and spent a good deal of time studying this issue. 
You had had exposure to it as a Senator. I do not think you had 
had the need to understand it in the depth that you have 
gained, and I appreciate that a great deal.
    I say that as somebody who does know a bit about it, and 
has dealt with this issue in a positive and negative sense for 
a long time, and I do not mean just Yucca Mountain. I mean 
spent fuel, and waste, and materials. While I am not cavalier 
at all about nuclear waste, high-level waste, I think you 
develop a level of pragmatism, because you understand the 
extreme measures this country has gone through historically to 
protect human safety, once we got through the learning curve in 
the very early days, and, therefore, built, in extraordinary 
ways, the materials, the equipment, the shields, and the 
containers in which high-level waste is trafficked, and as a 
result of that, we have, as you have noted, a phenomenal record 
of safety.
    Just recently, in my colleague's State of Wyoming, a truck 
left the road because of a wind storm, and it had waste on it. 
They picked it up, and put it back on the truck, and left. Why? 
Because the integrity of the containers was so substantial that 
there was no problem. While none of us like to see that, the 
reality is now, with the Tru-Pak situation, that we are moving 
transuranic waste out of Idaho to Carlsbad, it is a phenomenal 
track record.
    I invite my colleagues to come and see it, and to 
understand it, and to watch the GPS trafficking, and to know 
where those trucks are at every moment of their movement is 
something to be seen and understood, not feared, because if the 
public knew of the amount of trafficking of high-level waste 
today around the country, I do not know that they would be 
alarmed, I think they would be very surprised to find out that 
this has gone on for decades in phenomenally safe and secure 
ways.
    My colleague from Colorado has a right to be concerned. We 
have moved a good deal of waste out of his State to Idaho and 
to other places over the last good number of years. Ironically, 
now that we are using Tru-Pak, we are not saddling it all up in 
50-gallon drums, and throwing tarps over it, and wrapping 
bungee cords around it, and heading out, and that is how a good 
deal of waste left his State over the years, but we do that 
much differently today than we have in the past, and we 
understand the concern of the public, and rightfully so, and I 
think that is responsible.
    I have some letters in response to an article in Science 
Magazine that I will ask unanimous consent, Mr. Chairman, that 
they become a part of the record.* Senator Murkowski has asked 
that they become a part of the record.
---------------------------------------------------------------------------
    * The letters have been retained in committee files.
---------------------------------------------------------------------------
    The Chairman. They will be included in the record.
    Senator Craig. Many of us have been to the WIPP facility at 
Carlsbad. We know that is low-level transuranic waste, a 
perfect example of what has gone on, and I will give this 
information to my colleague from Colorado, because it is very 
important that we understand the scope and the magnitude of 
what we are dealing with here, but Rocky Flats environmental/
technological site, we have moved 499 shipments, and that is 
395,412 road miles, from Colorado, out to New Mexico, to my 
knowledge, not one incident, and that is because of the great 
concern that we have today about how these issues get handled.
    To deal with the high-level waste issue, and to deal with a 
permanent repository that takes us down the road further, 
remember, as I said, in my statement, and you said so clearly, 
Mr. Secretary, this is the next step in the licensing process. 
We are passing judgment on your findings to see if we can move 
it the next step.
    If we do not go to the next step, and if we do not develop 
a repository, you have spoken some to the environmental 
management program at DOE, and how we handle INEEL waste in 
Hanford, and, of course, we have the Savannah River issues. 
Where do we go from here, if we do not go where we appear to be 
headed at the moment?
    Secretary Abraham. Well, I cannot answer that question, 
because it is the case that the statutes bring this process to 
an end, if Congress were to not act to override the veto of the 
State of Nevada, and so it would be left, I think, for the 
Executive Branch and the Legislative Branch to have to begin at 
square one, trying to decide if there is some other process, 
approach, et cetera, that could be used.
    Given the duration that has been involved in getting to 
this point, I do not expect, I would not at least anticipate 
that that resolution would happen very swiftly, but all of the 
implications I mentioned in commenting on this to Senator Hagel 
would, of course, come into play. Failure to override just 
simply ends the Yucca Mountain project. It does not, however, 
eliminate the Government's responsibility, from the Nuclear 
Waste Policy Act, to accept statutory responsibility for the 
waste. So it is not a situation where people will be 
essentially left to fend for themselves, it means that we would 
have to determine what the Government will do in the face of 
having collected billions of dollars for the purpose of the 
disposition of this waste.
    Senator Craig. Well, many of my questions have been alluded 
to or responded to in some form. Let me move to the concern 
that my colleague from Nevada has, and it is rightfully so for 
him to express and question why we cannot do something else.
    In light of the current level of high-level materials that 
are out there now that would ultimately seek final disposition 
at Yucca Mountain, both commercial and public, and the ongoing 
generation of waste at this time, we have not just accumulated 
a volume and stocked, we have an ongoing process here of waste 
accumulation, because of that 20-plus percent of our energy 
that is generated by nuclear and an anticipation, I hope, on my 
part, and a good many others, that in a cleaner environment and 
a concern on climate change, and all that, we are going to have 
a new reactor design, and new concepts out there that will 
generate high-level waste.
    Is it not true that while we search for new technologies, 
and ways of applying it, and you are correct to say waste 
streams occur as a result of these new technologies, or 
applications, to reduce the overall waste, and if we create 
reactors that burn more efficiently, and, therefore, leave less 
waste or less material to be processed, while we may diminish 
the waste stream, a waste stream will be there, and with the 
volume we have now, it is at least my reaction, and see if I am 
not right, Mr. Secretary, that with the volume we have now, and 
the intent that a large portion of that will go to Yucca 
Mountain, there is still clearly a need to do what the Senator 
from Nevada is doing, so that another Yucca Mountain, or 
another repository, at some time in the future, will 
certainly--we need to lessen the need for that by new 
applications.
    Secretary Abraham. Well, it is hard to prophesy what new 
technologies could be. We have a waste disposition problem 
before us today. I do not see a transition to the kind of 
alternatives anybody has talked about in the near future, 
because of a variety of issues. We have not built a new nuclear 
facility in this country in about 30 years, so the notion that 
we would engage in the construction of an as yet developed 
scientific alternative, whether it is a reprocessing, or a 
transmutation system, anywhere in the foreseeable future, to 
me, is extraordinarily unlikely.
    Clearly, even if we did, as I mentioned before, there will 
be waste as a byproduct of that, and so it still calls for the 
need to move forward at this time. Again, the speculation that 
has taken place over a long period of time on alternatives has 
yet to yield one that I think this country is even remotely 
close to considering, or that science is close to endorsing at 
a level that comes even near the kind of safety endorsement 
that I believe we can provide here.
    Senator Craig. Last question, Mr. Chairman, and thank you 
for your tolerance. We have on the table before us a model of a 
fuel assembly. I think a lot of folks have been sitting out 
there saying, ``What is that sitting there?'' That is what 
would be transported to Yucca Mountain, and stored.
    I think there are myths and there are realities, there are 
illusions, and there are facts, as it relates to this issue. 
Those would be transported in containers, and then, of course, 
the container that is being developed now, which would be 
considerably more substantial to meet these 10,000-year tests, 
as such, but I think what is important for me to understand, is 
that items like that do not go boom. Items like this do not 
explode. They radiate. They have some heat, but they do not go 
critical, and we understand that, and the scientists understand 
that, and that is what is important as we deal with these 
issues.
    These kinds of items transported, even if the truck were to 
leave the road, and they remained in their container, and they 
were jostled around, do not go critical, meaning explode, 
because that is the character of them, and it is important, I 
think, for us to understand that. Is that not your 
understanding, Mr. Secretary, and that is what we are looking 
at here in this item?
    Secretary Abraham. Obviously, in the environmental impact 
statement, and every one of the scientific processes that have 
already been engaged in, because we have moved the exact type 
of thing that we are proposing to move to Yucca Mountain in the 
past, evaluations of safety have been extensive, and you are 
correct in the conclusion, the issue of harmful radiation 
exposure is one that we take at the highest, most serious 
level. We have an unblemished 30-year track record of being 
able to move this material. The issue is not one of explosions 
of this material, as it is in a non-explosive state. But we do 
not just consider explosiveness; we also consider whether or 
not we can package this in a fashion that protects the public 
from any kind of exposure, should there be any kind of 
incident.
    Senator Craig. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. I think you have covered this 
very well, and I appreciate it. I will be rather quick.
    First of all, it is my understanding that the South 
Carolina concern was not so much on transportation as it was 
simply on the timely processing issue, and transportation 
really is not the issue, but the State of South Carolina's 
concerns have been whether or not there was a pathway for the 
materials that came into the State to leave, and the commitment 
of both Congress as well as the Executive Branch are making 
sure that the things that we indicated would happen, in terms 
of building facilities to dispose of the plutonium would 
happen.
    I have heard, of course, and I understand the concerns, 
some of Nevada's concerns. One, they said they have not had an 
opportunity to be heard. How do you react to act?
    Secretary Abraham. I am sorry?
    Senator Thomas. Nevada sometimes indicates they have not 
had the opportunity to be heard in this decision.
    Secretary Abraham. Well, we conducted an extensive number 
of hearings. Somewhere in here I think I have the total number. 
But as we have moved ahead with this process, there have been a 
variety of stages in which public comment and public hearings 
were available. The total number of hearings that I think have 
been conducted--we have had 198 days of comment periods, just 
on the site recommendation. We have had 66 hearings in Nevada 
over a 4-month period, including 1,419 witnesses, and 605 
comments received. So there have been extensive public 
opportunities for participation in the process just in this set 
of final stages, as well as participation in other stages, as 
well as various reports and preliminary actions were subjected 
to public comment.
    Senator Thomas. I see. There is also an allegation that the 
siting guidelines were changed to make it possible for Yucca 
Mountain to meet them. How do you react to that?
    Secretary Abraham. Well, I find this frustrating, because 
the changes that took place were changes brought about because 
in 1992 Congress changed the way that this process should be 
conducted. It changed the standards that were to be applied. 
The Environmental Protection Agency and the Nuclear Regulatory 
Commission responded to those changes in the 1992 act, and we 
obviously had to change in response to that as well.
    It is a little bit frustrating, because the purpose of our 
changes was to make our regulations consistent with the new 
congressionally directed EPA standards and Nuclear Regulatory 
regulations. So that is the reason. The implication that this 
was done to somehow make this work just is wrong. It was 
because we had to meet a different standard that was put in 
motion by Congress's actions in 1992.
    Senator Thomas. Assuming we go forward, as I hope we will, 
what is necessary now before the Department and the 
administration makes a final recommendation?
    Secretary Abraham. Well, actually, that process has 
occurred. We have made the recommendation. Now, it is 
Congress's decision whether or not to move this process ahead 
to licensing, which would be the next stage. So as I have said 
from the beginning, the issue is: Do we end the whole process 
now, because that, in effect, is what happens if the Nevada 
veto stands, or do we give it to the NRC--I mean there has 
been, obviously--there are two Senators here from Nevada, and 
they and others have criticisms about the science, and they 
called into question a variety of issues, which will have been 
debated at great length.
    There are two cases here. The case we make is that this is, 
in fact, a suitable site that will protect the safety and meet 
the standards. And then there is the argument that it will not. 
My view is that it would be in the interest of the American 
people to let the objective decision-making process of the 
licensing of the facility by the Nuclear Regulatory Commission 
be a final decision.
    We believe--I strongly believe the recommendation that the 
site is suitable is the correct one, but I am willing to 
subject that analysis to the experts of the NRC. I hope the 
other side would be the same way. If they think they are right, 
then this is the appropriate venue in which to have an ultimate 
decision made.
    Senator Thomas. Some of the broad decisions, such as 
transportation, I have even heard that they would have an 
effect on the economy of Las Vegas. This has been going on for 
24 years, is that not right? We have spent over $4 billion so 
far.
    Secretary Abraham. Well, I think that in 1987, the specific 
decision to focus on the site in Nevada was finalized by 
Congress, and that has been 15 years. So in 15 years, the 
specific and only work has been done towards determining 
whether or not Yucca Mountain is suitable.
    Senator Thomas. I see. Well, I just feel very strongly. As 
has already been expressed to you, we have a problem. We have a 
situation. We have to find a solution, and this appears to be 
the best solution before us. So thank you very much for your 
work.
    And thank you, Mr. Chairman.
    Senator Reid. Mr. Chairman, for the information of the 
members, we should have a vote about 11 o'clock.
    The Chairman. All right. Senator Domenici.
    Senator Domenici. Thank you.
    Mr. Secretary, I think you know that I have been concerned 
that we need to be doing research today to enable better 
utilization in the future of the large amount of energy that 
remains behind as spent fuel, and furthermore, technologies 
that would provide better energy recovery, and also allow us to 
reduce the toxicity of final waste products.
    Since the existing powerplants, even if we add no more, 
will fill Yucca Mountain, we obviously need to have better 
approaches to spent fuel management a lot more than just a 
Yucca Mountain. I think we should be studying those better 
principles.
    This was strongly supported in the President's national 
energy policy. I saw it there as something he wanted to get 
done, but I was disappointed that the DOE budget request for 
2003 effectively provided no resources for the research 
projects on this topic, even though they had been started last 
year by Congress. Can you discuss the interest of the 
Department, and your thoughts on this particular approach to 
waste?
    Secretary Abraham. You know, I said before, and recently in 
a speech expressed that the views in our energy policy about 
the need for more research in this area remain intact. I do not 
think--and I think the budget was a reflection of the concern--
that it makes as much sense to invest this level of money in 
some of these programs if we do not resolve this issue of Yucca 
Mountain first, because in my judgment, if there is not much of 
a future for nuclear energy--because we are not going to deal 
with this waste, or if there is a decision in the other 
direction--that should, I think, have some impact on the level 
of research that we would conduct. But I appreciate the 
concerns you and I have talked about before, and we are not 
shutting the door on that type of research in the future.
    Senator Domenici. Mr. Secretary--and these are just my last 
observations--I want to congratulate you on the efforts you 
have made in working with Russia in your short term as the 
Secretary. It is clear that they have a completely different 
view of nuclear power and spent fuel than we do. They actually 
think the spent fuel rods are the residue of the legacy of the 
Cold War, if there is one, and they think it is very valuable, 
because they want to use it.
    So we are working with them, because we want to get the 
waste products, like plutonium and others, out of the 
marketplace, and I think we are going to succeed in doing some 
really major things in this area. And it will probably change 
the opinion of many people with reference to nuclear waste and 
nuclear policy, once they get going and we cooperate with them. 
So I commend you for that, and I also, on this one, commend you 
for your courage. It is time we move on, vote, and decide what 
America is going to do about this. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Reid.
    Senator Reid. Thank you very much, Mr. Chairman.
    Secretary Abraham, the changes about which you spoke in 
1992 related only to the NRC and EPA, and not DOE. Are you 
aware of that?
    Secretary Abraham. Well, the changes that were set in 
motion----
    Senator Reid. Answer that question. They were not directed 
to DOE; they were directed toward the NRC and the EPA.
    Secretary Abraham. Our need is to meet standards that are 
set by the NRC and the EPA, and so we are governed by what is 
the level of exposure and the nature of the standards that we 
were called upon to test. I mean the Energy Policy Act directed 
the EPA to develop a site-specific standard, which changed the 
mechanism by which we would be evaluated. Obviously, we had to 
change, therefore----
    Senator Reid. We have a vote coming up real soon, and you 
understand, having been a Senator, that we have to leave when 
the vote occurs.
    Secretary Abraham. I remember actually waiting for 
witnesses to answer that sometimes went too long, so I will do 
my best to keep that perspective as well.
    Senator Reid. I feel, Secretary Abraham--I know of your 
academic background. You are a very smart man. You are a 
graduate of Harvard Law School. I think one of the problems, 
and I am just speaking for myself, is that we get answers just 
like the one you gave me, and you do that very well. You do not 
answer the questions.
    For example, you talk about environmental need to move this 
waste to Yucca Mountain. I am sure you are aware that there are 
500 local environmental groups, 49 national environmental 
groups who all oppose everything that you are doing regarding 
nuclear waste. Are you aware of that?
    Secretary Abraham. I am aware that there are strong 
opinions on both sides of the issue, Senator, but in my 
judgment, leaving this waste in temporary storage facilities 
all over the country, and particularly at the sites in the 
Department of Energy's complex----
    Senator Reid. You see, Secretary Abraham, with all due 
respect, there is going to be stuff around in those sites 
anyway. You are not going to leave the stuff. It is going to be 
there. As you are aware, they are going to continually generate 
nuclear waste. There are a few sites that are going to be shut 
down. Of course, we read in the paper this morning that there 
is a $2 billion project to try to start one up in Alabama.
    So those sites--you realize that when you take one of those 
spent fuel rods out, you cannot move that thing any place for 
at least 5 years. It has to stay in a cooling pond for 5 years. 
So those places are still going to be there, and to say, again, 
with deep respect that I have for you and the office you hold, 
there is not necessarily going to be this mass transportation 
that is going to take place anyway, because you know that there 
are scientists who say ``Leave it where it is in dry cast 
storage containers.''
    I am working with Senators Clinton and Lieberman, and 
others, to make sure that those sites where we generate nuclear 
waste, but also generate nuclear power, are safe. We have real 
concerns--significant members of the Congress, House and 
Senate--about the safety of those facilities, and we believe 
that they can be made safer, and that leaving these containers 
where they are, in either underground or above-ground storage, 
would be certainly safer than trying to move them around.
    I will also say, Mr. Secretary, you talked about the 
shipment of waste around Europe, nuclear waste. You, of course, 
are aware that they have tried to move stuff in Europe on a 
number of occasions. People tie themselves to railroad tracks, 
chain themselves to railroad tracks. In fact, Germany has just 
given up on it. In fact, Germany has scrapped their nuclear 
waste repository program, because they cannot move the waste. 
That is a fact.
    The Department of Energy has spent--now I will ask you a 
question, rather than giving one of those Senatorial speeches 
of which you are so familiar. I want to make sure that Senator 
Ensign has time to ask his questions. The Department of Energy 
has spent billions of dollars studying the Yucca Mountain. I 
have heard $4 billion around here today. I think it is closer 
to $7 billion, as you are aware.
    How much of that has been spent on transportation? You may 
not know the breakdown today, but would you get that back to us 
very quickly?
    Secretary Abraham. I will, and I note that it was one of 
the major components of the EIS, the Environmental Impact 
Statement's preparation, so I will get that for the record.
    [The information follows:]
                          transportation costs
    From fiscal year 1983 to 2000, the Office of Civilian Radioactive 
Waste Management has spent $268 million on transportation and 
development of transportation casks. This information is from the 
enclosed report Monthly Summary of Program Financial and Budget 
Information, as of August 31, 2001, page A-3, items Engineering 
Development (a) and Transportation System.*
---------------------------------------------------------------------------
     * The report has been retained in committee files.

    Senator Reid. I would also, in providing that number, if 
you would also provide us with any and all documents or memos 
produced by the DOE on the transportation of any kind of 
hazardous waste, I would really appreciate that, too. That 
should be in some of the work that you have done.
    Secretary Abraham. I would be glad to.
    [The information follows:]
              transportation of hazardous waste documents
    I have enclosed three documents that respond to your request for 
Department of Energy (DOE) documents or memos produced on the 
transportation of hazardous waste. The DOE brochure Spent Nuclear Fuel 
Transportation includes a chart (page 10) on hazardous materials. The 
chart references a U.S. Department of Transportation document, 
Hazardous Materials Shipments, that is also enclosed. Also enclosed are 
slides detailing DOE shipments of hazardous materials, both radioactive 
and nonradioactive.**
---------------------------------------------------------------------------
    ** All enclosures have been retained in committee files.

    Senator Reid. I would say, Mr. Secretary, that it is really 
not--and I think this is some of your Harvard logic, but we 
have to sort right through that. The fact that they have 
transported 3 million tons of hazardous waste has nothing to do 
with the transportation of the nuclear waste. Hazardous 
substances, we know that that could be a gown that somebody 
wore when they were doing an X-ray, or having an X-ray taken. I 
mean it is really minimal stuff.
    Hazardous waste has a very low threshold. Some of it is 
more dangerous than others when you get into some of the 
caustic acids and stuff that are hauled around, but you add all 
those together, the 3 million tons of hazardous waste together, 
it would not have nearly the punch of one truckload of nuclear 
waste.
    There is a group of scientists who have no dog in the 
fight, who said that one truckload of nuclear waste--that is, 
spent fuel canisters--would have 240 times the radioactivity of 
the bomb that was dropped in Hiroshima, and we know that a 
shoulder-fired weapon will pierce one of those canisters. So I 
just think your example about 3 million tons of hazardous waste 
is not well taken.
    We are going to have a vote very shortly, and so if--I 
would stop, so Senator Ensign would have some time.
    The Chairman. Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman. I want to go back 
to this--because you have made a big deal of it in the press, I 
want to go back to this, you know, 131 sites versus one site. 
Senator Landrieu had talked about that.
    Senator Craig, you have talked about that it is going to go 
forward, you know, transportation is going to go forward no 
matter what.
    When we start Yucca Mountain, when Yucca Mountain starts, 
what are the estimates that you have, as far as the number of 
tons of nuclear waste that would be in the country, already 
produced?
    Secretary Abraham. There is about 45,000, I think, today, 
if we are--you know, 10 years down the road, that is another 
20,000.
    Senator Ensign. Okay. About 65,000, thereabouts. It will 
take what, about 5 years to get the shipments up to what the 
DOE estimates are, approximately?
    Secretary Abraham. Yes. I mean we have estimated--I mean we 
have used a conservative estimate in terms of the amount going 
to Yucca Mountain of 3,000 tons per year.
    Senator Ensign. And we produce 2,000 a year.
    Secretary Abraham. That is a function, though, of a variety 
of factors, of which the least of which is congressional 
decisions as to how much appropriation--you can move more 
potentially, if you----
    Senator Ensign. The bottom line, though, is your estimates 
are 3,000--you start with 65,000 tons. How many years does that 
get us to get to the waste to Yucca Mountain?
    Secretary Abraham. Well, you know that it is about a 70,000 
metric ton facility. So it is about 23 years, I guess.
    Senator Ensign. Wait a second. We are shipping 3,000 a 
year. We produce 2,000 a year. That is a net shipping of 1,000 
a year.
    Secretary Abraham. Well, you asked how long to fill the 
facility, and the answer is----
    Senator Ensign. I did not say fill. I said ship all the 
stuff that we are going to have. Okay? We produce 3,000 a year, 
or 2,000 a year, we ship 3,000 a year. That means we are 
netting out, from what we have around the country, going to 
Yucca Mountain, about 1,000 a year.
    Secretary Abraham. At the end of 23 years, we will have 
70,000 at Yucca Mountain. That is correct.
    Senator Ensign. Mr. Secretary, just follow me here.
    Mr. Abraham. Okay. I am trying.
    Senator Ensign. You produce 2,000 a year.
    Secretary Abraham. Right.
    Senator Ensign. Okay? You ship 3,000 a year. You start with 
65,000 metric tons of this stuff. Okay? Around the country, you 
have 65,000 metric tons, and you are producing an additional 
2,000 a year.
    Secretary Abraham. Right.
    Senator Ensign. But if you are only shipping 3,000 a year, 
that means that your net taking from around the country to 
Yucca Mountain is about 1,000.
    Secretary Abraham. What it means, by my calculation, is 
that at the end of 23 years, you will have 70,000 in Yucca 
Mountain, instead of the different sites around the country. 
That is the bottom line. There will be 70,000 metric tons that 
will not be at these----
    Senator Ensign. Yes, I agree with that.
    Secretary Abraham [continuing]. Temporary sites----
    Senator Ensign. I agree with that.
    Secretary Abraham [continuing]. Of 131 facilities.
    Senator Ensign. Mr. Secretary, I agree with that. The point 
I am trying to make is, there still will be all this nuclear 
waste----
    Secretary Abraham. We will be producing more, and there 
is----
    Senator Ensign. Not only that. Not only producing more, 
there will still be nuclear waste all over the country for 
many, many decades to come.
    Secretary Abraham. Right. I would predict two things: 
First, that, yes, there will be, and that it will be at more 
sites than we have today, because a lot of the current sites 
will decide they should move off-site the waste that is 
currently stored there. So instead of 131 sites, you are going 
to have it at more sites if we do not move ahead and----
    Senator Ensign. But the bottom line is: We are not going to 
just have one site, and that is what you have--kind of what you 
have led people to believe, is we are going to have one site. 
This stuff is going to be around, so there are still going to 
be a lot of targets out there.
    You have talked about national security, that it would be 
safer to have it at one site. Well, if you could scoop it all 
up and have it at one site, I would agree with you, but it is 
not going to be that way. We are going to have it at sites 
around the country. I do not mean to be combative here. I just 
want to make sure that we fully understand----
    Secretary Abraham. I appreciate your concern.
    Senator Ensign [continuing]. That there are many sites, and 
there will continue to be many sites. As Senator Reid pointed 
out, it takes at least 5 to 10 years to cool in the cooling 
pond.
    Secretary Abraham. But, Senator, as you know, we have a 
number of decommissioned sites right now.
    Senator Ensign. And I agree with that.
    Secretary Abraham. If we move it from there, those will be 
done, instead of the current situation----
    Senator Ensign. Decommissioned sites, I think you have a 
point there.
    Secretary Abraham. Also, at the Department of Energy sites, 
where we are hoping to close the site, we will be able to do 
that, if we have Yucca Mountain, but now----
    Senator Ensign. Okay. I want to get to the transportation, 
because--there is no question that there will be many, many 
sites out there, and not just one site.
    To get to the transportation issues: The transportation of 
nuclear waste, when you transport it, you cannot surround it 
with as much concrete, obviously, because of the weight 
factors, as when you store it on-site. These canisters that are 
going to surround these things, you can surround them with more 
concrete than you can when you transport them.
    Secretary Abraham. Well----
    Senator Ensign. Yes? It is obvious.
    Secretary Abraham. That would seem obvious, yes.
    Senator Ensign. Okay. The point is that when you transport 
them, you do subject them--you have seen or I am sure you have 
seen the video of the Toe Missile breaching one of these 
things----
    Secretary Abraham. Right.
    Senator Ensign [continuing]. And they said----
    Secretary Abraham. Let me point out to the Senator that the 
TOW Missile was not breaching a transportation cask, but one of 
the permanent storage casks.
    Senator Ensign. Correct, but there have not been studies 
done on the transportation cask, correct?
    Secretary Abraham. But the point is: You are recommending 
we would keep these in storage at the current sites, and it 
was, in fact, one of those casks that got penetrated by a TOW 
Missile.
    Senator Ensign. But not with the concrete surrounding it.
    Secretary Abraham. Well, we have not tested that, but you 
raised the issue of a cask being penetrated.
    Senator Ensign. But you have----
    Secretary Abraham. That is not the kind of cask we are 
talking about. It is the one you are talking about----
    Senator Ensign. The point is: Why move forward when we have 
not studied some of these things? This is what we are talking 
about here.
    Secretary Abraham. We are not going to transport these, 
except in Nuclear Regulatory Commission certified 
transportation casks. I mean we are not going to just put them 
in garbage cans and move them across the country. We have done 
it here and in Europe without any harmful radiation exposure 
over the last 30 years.
    Senator Ensign. Mr. Secretary, the point that we are trying 
to make is this: First of all, dry cask storage, according to 
the DOE, is safe for a hundred years. These containers are safe 
for a hundred years. If they are not safe, then we have a major 
problem in the country, and I agree, we need to make them even 
more safe than they are today.
    But the point is that they can store this stuff, according 
to the DOE, for a hundred years. The bottom line is: We have 
time to study transportation in a better way than we have 
today. There is no hurry.
    Yucca Mountain is, what, $58 billion, according to the 
latest estimates, $57 billion to $58 billion? Okay? The 1995 
estimate, it was, what, $30-something-billion? And then the 
1998 estimate, it was $48 billion, $47 billion. Now, the 2001 
estimate, it is up to $58 billion, and the DOE has said that is 
not even the final number.
    Secretary Abraham. Senator, the rule changes that continue 
to take place, that we have had to adjust----
    Senator Ensign. There would be----
    Secretary Abraham [continuing]. To have been a major factor 
in that change.
    Senator Ensign. The bottom line is: It is incredibly 
expensive. That is the same amount of money as all 12 of our 
aircraft carriers combined. It is a huge amount of money.
    Secretary Abraham. It is an expensive process and the 
American ratepayers have already been and will continue to be 
paying for it.
    Senator Ensign. But they will not pay enough to pay for 
Yucca Mountain at those costs.
    Secretary Abraham. We believe that at this point that our 
actuarial tables suggest that the monies being spent will, in 
fact, meet the current projected costs.
    Senator Ensign. By what year?
    Secretary Abraham. I am not sure. I will have to get that--
--
    Senator Ensign. Could you get that number for us?
    Secretary Abraham. I will be glad to.
    [The information follows:]
                         fee adequacy analyses
    DOE's most recent fee adequacy analyses (and all previous analyses) 
have indicated that the current fee is adequate to fully fund the 
planned waste disposal program. I have enclosed two documents to 
support this conclusion: Analysis of the Total System Life Cycle Cost 
of the Civilian Radioactive Waste Management Program and Nuclear Waste 
Fund Fee Adequacy: An Assessment, both dated May 2001.*
---------------------------------------------------------------------------
    * The enclosures have been retained in committee files.
---------------------------------------------------------------------------
    Tables 4 and 5 in the Nuclear Waste Fund Fee Adequacy: An 
Assessment show that the fund balance at the end of waste emplacement 
in 2042 ranges from $9.1 billion to $45.6 billion in constant 2000 
dollars for two different economic assumptions. These balances in 2042 
exceed the target, which would provide a sinking fund for monitoring 
and closure of the repository.

    Senator Ensign. Get that number for us. The point that we 
are trying to make is, one, that the dry cask containers are 
good for a hundred years; and, number two, why risk the 
transportation when we have not completely and fully studied 
the transportation? And because there is no hurry to go forward 
with Yucca Mountain, if dry cask storage is good and safe for a 
hundred years, do not risk the transportation; let us take some 
of the money and invest it in what Senator Domenici is talking 
about. Instead of building Yucca Mountain, take some of that 
nuclear waste trust fund money and put it into the recycling 
technology.
    We do not know whether it is going to work or not, but we 
have time. If we have a hundred years, what is the hurry? I 
would suggest to you that the DOE has been very, very biased in 
its view towards Yucca Mountain, and the reason that I would 
say that, I would point it out, obviously, you, in earlier 
testimony, said that there was not--you do not know what you 
are going to do if we do not go forward with Yucca Mountain. We 
do not know what we are going to do.
    Well, to not have plan B in place, or at least be thinking 
of plan B, I think is irresponsible for the DOE. That indicates 
to me that, what if Yucca Mountain would have proved not 
suitable? That means DOE has said, you know what, we are 
putting all of our eggs in one basket. That proves to me that 
the Department of Energy has completely tunnel visioned toward 
Yucca Mountain, because you do not even have plan B put into 
place if it is deemed unsuitable.
    Secretary Abraham. Well, I would be glad to answer and 
comment on each of those. First of all, with regard to the bias 
of the Department, I do not believe that to be the case. I have 
met with and talked to many of the people who participated in 
the research on this, and I believe them to have been fair and 
objective. However, I am willing to subject the decision we 
have made to the Nuclear Regulatory Commission's objective, 
neutral experts. If you are right, and we are wrong, then you 
should be willing to do that as well.
    Second, as far as having a backup plan, the Congress has 
not authorized us to do so. We, instead, have been limited very 
carefully, in terms of the appropriations we have received, to 
do one thing, and that is to determine the suitability of this 
site as a repository for the nuclear waste.
    Now, if Congress wanted to have alternative plans, they 
could have funded them, they could have given the guidance to 
do so. They did not.
    With respect to the issue of dry cask storage, the fact 
that we might be able to develop a dry cask that can become for 
a hundred years sufficient to protect the material is not the 
issue. The issue is, is there room at the current facilities 
for this elaborate building process, and this additional amount 
of waste that would be developed there over the next hundred 
years.
    Senator Ensign. Is that a scientific problem or just a 
political problem?
    Secretary Abraham. It is a physical problem at some of the 
facilities. There is not enough room for it.
    Senator Ensign. You just have to build a bigger concrete 
pad.
    Secretary Abraham. Well, in some facilities, they are going 
to run out of space altogether, and that does not even take 
into account the issues of regional decisions as to whether or 
not people want this----
    Senator Ensign. That is politics.
    Secretary Abraham [continuing]. At those local facilities. 
So what you will get, as I have said already, is the 
transportation of the waste to some new off-site location. 
Whether it is in Utah, or it is in Nevada, or someplace else, I 
do not know, but what I would point out is this, we have not 
done, nor have you, the research to study the various 131 
facilities to determine any of the kinds of considerations, as 
far as seismology, volcanic activity, or anything else.
    We are being told we have not done enough research, after 
$4 billion, to move it to Yucca Mountain. There has been 
virtually no research done as to the physical situation at the 
131 sites to just leave it there in a slightly harder 
container. But in my judgment----
    Senator Ensign. Does that mean that they are unsafe now?
    Secretary Abraham. Pardon?
    Senator Ensign. Does that mean that they are unsafe now?
    Secretary Abraham. I have not done the research as to its 
feasibility for a hundred years. It is safe today.
    Senator Ensign. Is it still going to have waste there?
    Secretary Abraham. It is safe today. It will have a lot 
more waste if we leave it there.
    Senator Ensign. Okay. But some waste versus a lot more 
waste, it is still unsafe. If it is unsafe, it is unsafe.
    Secretary Abraham. Well, to answer your other point, which 
is the one that Senator Domenici and others have raised, which 
you have talked to me about, and I think we have had a good 
conversation on before, and that is the issue of these 
alternative technologies, transmutation, and so on. We are, I 
think, going to continue to research those, but I do not want 
people to lose sight of a couple of things.
    First of all, even if we were to perfect the science to do 
that, there will have to be facilities developed, and remember, 
this is in a Nation which has not sited a nuclear facility in 
an awfully long time. Those facilities are going to be around 
the country, and all of this waste is going to have to get to 
those facilities.
    Senator Ensign. I agree.
    Secretary Abraham. So we will still have a lot of these 
issues, and we will have a byproduct at the end that needs to 
be stored in a permanent, in my judgment, underground 
repository. So that is not, in my judgment, a sufficient----
    Senator Ensign. Just to clarify that point, though, the 
scientists that tell me about some of these transmutation 
issues, and things like that, the nucleotides, the radioactive 
half-lives of those, would be dramatically reduced, so that 
licensing a facility, you know, you maybe have hundreds of 
years, instead of tens of thousands of years of radioactive 
half-lives. Well, it is much easier to build a facility for 
hundreds of years than it is for ten thousand years.
    Secretary Abraham. I would say, Senator, if the science 
ultimately confirms that we can move ahead with this, it will 
be interesting to see what the communities of this country, who 
have, at least for quite a long time, resisted having new 
facilities built there, think about it. It may they will be 
receptive, but even if they are, we are talking about moving an 
awfully lot of waste to them anyhow.
    Senator Ensign. Mr. Chairman, I appreciate your indulgence. 
Just my last comment. I think that the potential is there, and 
that is our point, is that we do not need to hurry with this 
thing. We have time. The dry cask storage, I think, affords us 
this time, and we should be going forward with this research, 
because I think it is so much better of a potential answer, and 
if it is not a potential answer, then we will need a permanent 
repository, but we ought to at least take the time, research 
it, research the transportation, but let us take our time with 
this. We have literally decades to do this. We do not need to 
spend the tens of billions of dollars on Yucca Mountain right 
now.
    Senator Reid. Mr. Chairman, as you can see, my prediction 
of the vote at five-after did not come true.
    The Chairman. We appreciate having your expertise on the 
timing of these floor votes.
    [Laughter.]
    Senator Reid. Mr. Chairman, I would like to just say this. 
I appreciate very much your allowing us the ability to come and 
ask some questions, make some statements regarding Secretary 
Abraham, and what he is doing, but I hope I did not offend you 
by all my Harvard talk, because I forgot you were Harvard, 
also.
    The Chairman. That is quite all right. Quite all right. Let 
me see if any Senator has additional questions.
    Senator Craig. Very quickly, Mr. Chairman.
    The Chairman. Senator Craig, then Senator Domenici.
    Senator Craig. Very quickly, because--I think Senator 
Ensign has asked an important question about why not a second 
strategy. In 1987, the Congress of the United States removed 
that strategy. They directed the Department of Energy to go one 
path. So it is not the Department of Energy that does not have 
a second strategy, it was the wisdom of the Congress in 1987, 
and largely, because of the mounting costs of a multiple 
strategy approach. So that is the answer to that question.
    Senator Ensign. Senator, just briefly, I was making the 
point not necessarily for a second site, but for a backup of 
second strategy----
    Senator Domenici. Dry cask----
    Senator Ensign. Well, at least studying dry cask storage as 
an alternative. Is that, in fact, a safe thing, and costing it 
out on an accurate cost basis, and that kind of thing.
    Senator Craig. Lastly, Mr. Chairman, while it is arguable 
that--and I am not about to sit here and say that 131 sites are 
unsafe today, that is not the issue. The issue is they were 
temporary by design. From the beginning, they were not 
permanent sites. They were designed to be temporary, until a 
permanent site was designed. So the argument that the Secretary 
makes about the extensive study that went into these sites, 
study went into them, but for a hundred-year lifetime, not a 
10,000-year lifetime. It is important that we understand that 
they are temporary by definition, and to make them permanent is 
a wholly different approach that I do not think any of us have 
contemplated.
    Lastly, I look forward to the testimony next week from both 
the Senators from Nevada, and the Governor. We will be pleased 
to have them before the committee. I know this is of critical 
concern to their State, and I say that with great sincerity, 
because I know how sensitive my State is to the issue of 
nuclear materials, and how they would be handled. So I look 
forward to having you here next week to testify.
    Secretary Abraham. Thank you.
    The Chairman. Senator Domenici.
    Senator Domenici. Mr. Chairman, might I first say to the 
Nevada Senators that we have sitting there in the front row, 
Dr. Margaret Chu. Frankly, we have never had anyone as 
qualified in these matters as that professional woman, and we 
are glad that she is on----
    The Chairman. You're biased. She's from New Mexico.
    [Laughter.]
    Senator Domenici. She worked at Sandia National 
Laboratories, where she got her education and expertise.
    The Chairman. She has a great education.
    Senator Domenici. Yes, and she is good, and she will be 
fair. Mr. Secretary, I believe, and on this round, I want to 
compliment you with reference to the way you have handled the 
concerns of the people of Nevada. As a matter of fact, you had 
an option to select a regulatory standard that was less rigid 
than the one you chose, and you chose the most rigid protective 
standard that was before you.
    You put the Environmental Protection Agency right in the 
middle of determining the validity of the regulations. Most 
people thought you should have used the Nuclear Regulatory 
Commission, because they know more about it, et cetera, but 
they were thought to perhaps be a little too much pro-nuclear, 
so you and the President's other Cabinet member recommended to 
him that you proceed with the Environmental Protection Agency 
as the final standard there for this project.
    I, frankly, believed when you made that decision that you 
finished this project, that it was not going to make the 
standards. I still believe it is so rigid, that it will be 
extremely difficult to make it. When it is finally challenged 
in court, it will be a close call, but I think you did that 
just because of the way you and this administration are. You 
went as far as you could to be absolutely sure, and I commend 
you for it.
    Senator Reid. Mr. Chairman.
    The Chairman. Senator Reid.
    Senator Reid. With all due respect, my friend, Senator 
Domenici, that was done, because you had to do it. That was 
done by statute, as you are aware.
    The Chairman. Had to, and wanted to.
    Senator Reid. Yes. So, Mr. Chairman, I would also like to 
say to my friend from Idaho, I appreciate his concern, and I 
have great respect for him, but I would say that Senator Ensign 
was not implying, nor am I, that the 134 sites should be 
permanent repositories. We are saying they should be left for 
temporary storage, and the dry cask storage containers, of 
course, are a product everyone recognizes will be safe up to a 
hundred years.
    Anyway, again, thank you very much, Mr. Chairman, for 
allowing us to mess up your committee.
    [Laughter.]
    The Chairman. Thank you very much.
    And thank you, Senator Ensign.
    And we appreciate you, Mr. Secretary, taking so much time 
with us. The hearing is adjourned.
    [Whereupon, at 11:27 a.m., the hearing was recessed, to be 
reconvened on May 22, 2002.]







                 YUCCA MOUNTAIN REPOSITORY DEVELOPMENT

                              ----------                              


                        WEDNESDAY, MAY 22, 2002

                                       U.S. Senate,
                  Committee on Energy and Natural Resources
                                                    Washington, DC.
    The committee met at 9:30 a.m., in room SH-106, Hart Senate 
Office Building, Hon. Jeff Bingaman, chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The hearing will come to order. This is the 
second in the committee's hearings on S.J. Res. 34, which is a 
joint resolution approving the site at Yucca Mountain, Nevada, 
for the development of a nuclear waste depository.
    Last week we heard from the Secretary of Energy. He 
explained why the resolution that we introduced at his request 
should be approved, why he should be allowed to apply to the 
Nuclear Regulatory Commission for a license to build a 
repository at Yucca Mountain.
    Today we consider the State of Nevada's objections to the 
repository, and tomorrow we hear from the agencies that have 
been charged with regulating or overseeing the repository 
program.
    The Nuclear Waste Policy Act gives the Governor of Nevada 
the power to veto the President's nuclear waste repository site 
recommendation. Governor Guinn exercised that power on the 8th 
of April, without objection. His Notice of Disapproval and the 
statement of reasons accompanying that notice will be included 
in our record today.*
---------------------------------------------------------------------------
    * The Notice can be found in the appendix.
---------------------------------------------------------------------------
    The committee invited Governor Guinn to testify today, but 
he was unable to be here. In his absence, the views of the 
State of Nevada will be presented by a panel of witnesses 
chosen by the Senators from Nevada, in consultation with 
Governor Guinn. They are Mr. Robert Halstead, who is the 
transportation advisor with the Agency for Nuclear Projects in 
the State of Nevada; Dr. James David Ballard--he's an expert on 
terrorist tactics related to nuclear waste transportation; Dr. 
Victor Gilinsky, who is a former member and chair of the 
Nuclear Regulatory Commission; the Honorable Rocky Anderson, 
who is the mayor of Salt Lake City, Utah; Mr. Michael Ervin, 
Sr., vice president of the Peace Officers Association of 
California; and Dr. Stephen Prescott, who is the executive 
director of the Huntsman Cancer Institute in Salt Lake City, 
Utah. In addition, Mr. Jim Hall, the former chair of the 
National Transportation Safety Board, will also testify on 
behalf of Nevada's views, but he was unable to attend today, 
and we will hear from him at the beginning of tomorrow's 
hearing.
    We have again invited the two Senators from Nevada, 
Senators Reid and Ensign, to sit with the committee and ask 
questions, and if they are able to be here this morning, they 
will be recognized after committee members have the chance to 
speak or to ask their questions.
    Why don't we go ahead and take about 6 minutes, or up to 6 
minutes, for each of the witnesses. Your full statements will 
be included in the record, so that you do not need to just read 
them into the record. If you could, summarize or identify the 
main points you think the committee needs to be aware of before 
we make any decision on this issue. Why don't we start with Mr. 
Halstead. Thank you very much for being here.
    [The prepared statements of Governor Guinn and Senator Reid 
follow:]
     Prepared Statement of Hon. Kenny C. Guinn, Governor of Nevada
    Honorable Mr. Chairman and members of the Committee, my name is 
Kenny C. Guinn and I am Governor of the State of Nevada. These written 
comments are submitted for inclusion in the hearing record. The state 
of Nevada compliments Chairman Bingaman for holding this important 
hearing and providing an opportunity for every member of the Senate to 
review in detail an issue of profound national importance--whether to 
proceed with the development of Yucca Mountain in Nevada as a site for 
a national nuclear waste repository. This is an issue that will 
tangibly affect tens of millions of Americans and it is hurtling toward 
finality in a manner that is premature, unnecessary and ill-conceived.
    As is widely known by this time, Nevada considers the Yucca 
Mountain project to be the product of extremely bad science, extremely 
bad law, and extremely bad public policy. With regard to Yucca 
Mountain, each of these elements is strongly negative on its own and 
when the three are combined, the totality of their weight cannot, and 
should not, be ignored.This project has failed to meet the scientific 
criteria established by this very body for a deep geologic repository, 
it has failed to meet the law in numerous instances and ways, and it 
would implement an unprecedented public transportation policy that 
literally puts tens of millions of Americans at risk on a routine 
basis.
    Attached to this statement are three documents: 1) the Notice of 
Disapproval and an accompanying Statement of Reasons I filed with the 
U.S. Congress pursuant to Section 116 of the Nuclear Waste Policy Act; 
2) a copy of a recent peer review report commissioned by the U.S. 
Department of Energy (DOE) and conducted for DOE by the International 
Atomic Energy Agency (IAEA) and the Nuclear Energy Agency of the 
Organization for Economic Cooperation and Development (OECD); and, 3) a 
copy of an affidavit from John W. Bartlett, DOE's former Director of 
the Office of Civilian Radioactive Waste Management, outlining his 
experience overseeing the Yucca Mountain project and his reasons for 
concluding that the Yucca Mountain site is unsuitable for use as a 
high-level nuclear waste repository. Please consider these attachments 
as part of my written testimony to the Committee.
    For the reasons stated therein, as supported and augmented by the 
information in this written testimony, we in Nevada believe that the 
Senate should take no further action in support of the Yucca Mountain 
project.
     the iaea/oecd report on the unsound science of yucca mountain
    I would like to call the Committee's attention to a new document, a 
key document, which recently appeared from within the scientific 
community that excoriates the scientific work of DOE in connection with 
Yucca Mountain. Numerous independent scientific reviewers have now 
evaluated the project during the past year, and all have reached the 
same conclusion: There is nowhere near enough information to certify 
the suitability of the Yucca Mountain site for high-level nuclear waste 
disposal, and the information that is available suggests the site is 
woefully unsuitable geologically.
    This latest report, the aforementioned peer review report 
commissioned by DOE from the International Atomic Energy Agency and the 
Nuclear Energy Agency (IAEA) of the Organization for Economic 
Cooperation and Development (OECD), reaches shocking new conclusions. 
These agencies assembled some of the world's leading scientists to 
evaluate, over several months, the total system performance of Yucca 
Mountain as represented by DOE and its computer models. Among other 
things, these leading scientists concluded that DOE lacks sufficient 
information even to build a model to predict the suitability and 
hydrogeologic performance of the proposed repository. According to the 
peer review group, the water flow system at Yucca Mountain is ``not 
sufficiently understood to propose a conceptual model for a realistic 
transport scenario.''
    Moreover, according to the peer review group, DOE's level of 
understanding of the hydrogeology of the site is ``low, unclear, and 
insufficient to support an assessment of realistic performance.'' DOE's 
sensitivity studies in its computer models ``do not give any clues to 
the important pathways for the water in the system.'' Perhaps most 
troubling of all, in DOE's performance model of Yucca Mountain, 
``increased ignorance leads to lower expected doses, which does not 
appear to be a sensible basis for decision-making.''
    It is truly amazing to me, as an elected executive official, that 
DOE commissioned this peer review report many months ago, and then made 
a final ``site suitability'' determination to the President and the 
Congress in spite of its stunning conclusions.It shows once again, in 
my view, that politics has long prevailed over science when it comes to 
Yucca Mountain. This is another reason for Nevada to redouble its 
efforts to stop this project--government bureaucrats seem unable to 
pull the plug, even in the face of shocking independent evidence that 
the science is bad or nonexistent.
       the peco solution and the myth of one central storage site
    It is almost certain that, even if Yucca Mountain proceeds, every 
nuclear utility in the United States will nonetheless have to build an 
interim dry storage facility for their inventories of spent nuclear 
fuel, if they have not already done so. This is because Yucca Mountain 
will not be ready to receive high-level radioactive waste until long 
after spent fuel pools at reactor sites have been filled to capacity. 
Moreover, as I have explained in my Statement of Reasons, Yucca 
Mountain will not reduce the number of storage sites across America for 
60 to 100 years, even if no new plants are built, and Yucca Mountain 
will never reduce the number of storage sites as long as nuclear 
reactors continue to be built and operated.
    In July 2000, the Department of Energy reached an agreement with 
PECO Energy Company, a division of Exelon Corp., the nation's largest 
nuclear utility, for managing spent nuclear fuel from PECO's Peach 
Bottom nuclear plant in Pennsylvania.
    The PECO alternative is simple: If DOE is unable to take PECO's 
spent fuel by a date certain, PECO will build a specially-constructed 
dry cask spent fuel storage facility at the Peach Bottom plant for 
storage of their spent fuel until such time as a permanent federal 
repository, or alternative, is operational. PECO will be allowed to 
reduce its contributions to the Nuclear Waste Fund (a $9 billion fund 
collected from the nation's nuclear plant operators through annual 
assessments), and use those funds to pay for the new facility.
    At PECO's request, DOE must become the title holder, owner, 
operator, and NRC licensee of the Peach Bottom independent spent fuel 
storage facility and its contents no later than five years after 
permanent shutdown of the Peach Bottom station, but no sooner than five 
years after the full 40-year license term of the station.
    As explained in my Statement of Reasons, the PECO deal is the safe, 
practical, economic alternative to a severely flawed Yucca Mountain 
project. It represents what utilities are planning to do, and will have 
to do anyway, in the real world. I urge the Committee to explore the 
PECO deal carefully, and to question DOE and the nuclear industry as to 
why it has recently been ignored, or even hidden from public view.
    So the cat is out of the bag--opening Yucca Mountain will not 
reduce from 131 to one (1) the number of sites where high-level waste 
and spent nuclear fuel is stored in America. As long as nuclear 
reactors continue to operate, which is the main purpose of developing a 
waste ``solution,'' there will continue to be waste stored above-ground 
at reactor sites across the nation. In fact, at current rates of spent 
fuel production, if Yucca Mountain were to open and be filled to 
capacity by around 2036, there would still be just about as much spent 
fuel stored at reactors sites as there is today. And that amount would 
continue to pile up for years to come, even if no new reactors are 
built, because nuclear plants generate about 2,000 tons of spent fuel 
each year, and will continue to do so regardless of what happens with 
Yucca Mountain.
    To borrow a popular phrase, ``Do the Math.'' Today, approximately 
46,000 tons of spent fuel is stored at the nation's reactor sites. By 
the time shipments start in 2011, DOE's earliest predicted date, there 
will be at least 64,000 tons. Yucca Mountain is being designed and 
licensed to hold only 77,000 tons, and is probably physically incapable 
of holding more. The law precludes it from holding more.
    DOE hopes to be able to ship 3,000 tons of waste per year to Yucca 
Mountain. But nuclear plants will continue operating on renewed 
licenses for decades beyond 2011, so spent fuel inventories will 
continue to grow at the rate of 2,000 tons per year. Thus, the net 
depletion rate will be only 1,000 tons per year.
    If DOE meets its shipping targets, it will take approximately 25 
years to fill Yucca Mountain with 77,000 tons of waste and spent fuel. 
But by then, operating reactors will have produced an extra 50,000 
tons, leaving approximately 37,000 tons of spent fuel still sitting at 
reactor sites across America--a mere 9,000 tons less than we have 
today.
    In short, on the day Yucca Mountain is filled to the brim, we would 
largely be right back where we started. Indeed, the 131 sites 
identified by DOE will not be reduced to one, but will in fact have 
risen by one. And in the interim, at least 50,000 shipments of highly 
radioactive waste will have been made through 43 states, almost every 
major city, and thousands of towns in between.
                         transportation issues
    The main thing I want to bring to your attention are the issues and 
concerns associated with the proposed massive campaign to transport 
77,000 tons of nuclear waste across the nation for up to 38 years. Some 
have accused Nevada of fear mongering simply for honestly and sincerely 
raising the many questions that these shipments to Yucca Mountain pose 
for our nation's citizens. But these are extremely legitimate 
questions, and they deserve legitimate answers.
    In its Environmental Impact Statement for Yucca Mountain, DOE's own 
numbers point to as many as 108,000 high-level waste and spent nuclear 
fuel shipments to Yucca Mountain. Almost every state, and most major 
metropolitan areas, will be affected by these shipments. More than 123 
million citizens reside within one-half-mile of the proposed transport 
routes. The modes and methodologies for shipment have not yet been 
determined, much less analyzed. For example, we recently learned from 
DOE that as many as 3,000 barge shipments may be involved, traversing 
numerous port cities and harbor areas. According to DOE's own analyses, 
a single accident scenario could produce thousands of latent cancer 
fatalities and lead to many billions of dollars in cleanup costs.
    Secretary Abraham testified last week that DOE now believes most 
spent fuel shipments would take place by rail, but that suggestion 
raises its own set of questions about practicality and physical 
possibility. For example, many reactor sites do not have rail access, 
and there are no known plans to create such access, so some form of 
truck or barge transport and transfer will still be necessary for many 
shipments. Additionally, in Nevada alone, DOE is proposing to construct 
more that 400 miles of new rail lines--that is more new rail capacity 
than we have built in the entire United States in the last century. My 
point, which I think is well illustrated by the Secretary's testimony 
announcing yet another change in approach, is that the transportation 
issue is a major concern--it is one that will affect literally millions 
of Americans, but it has not been well thought out. We are being asked 
to accept DOE platitudes and industry assurances in response to our 
questions and concerns, but that is not good enough, and it will not be 
good enough when the first problems arise, and we know they will.
    Another very troubling aspect of this issue is that DOE has never 
done an analysis of the terrorism risks associated with mass transport 
to Yucca Mountain. In a recent brief filed in NRC license proceedings 
by nuclear utilities for the proposed Private Fuel Storage facility in 
Utah, the nuclear industry took the position that it is essentially no 
one's jurisdiction, other than the U.S. military, to evaluate terrorism 
risks in spent fuel transport. According to the utilities, this is not 
a proper subject for analysis by DOE, the NRC, the Department of 
Transportation, or the industry itself. In short, if you believe the 
industry, this is an area that only Congress can now evaluate, or 
direct others to evaluate. Put another way, if Congress does not order 
such an analysis to be done, none will be done. In the wake of 
September 11, failure to perform such an analysis would appear unwise.
    And there is something else our experts now tell us: DOE has never 
done an evaluation of the nuclear criticality risk of a spent fuel cask 
getting struck by a state-of-the-art armor-piercing weapon. In recent 
nuclear industry advertisements and press statements, it was suggested 
that if a warhead penetrated a cask, authorities would simply dispatch 
an emergency crew to ``plug it up.'' This assumes the dose rate in the 
vicinity of the cask is not a lethal one. It assumes that the warhead 
does not essentially liquefy the contents of the cask, if it is not 
already liquid. It assumes that any inner explosion in the cask would 
not so alter the geometry of the contents that the contents would go 
critical, obliterating the cask. It assumes that the cask is not over a 
river or on a barge and will not subsequently fill with water, a 
neutron moderator. It assumes that the cask is not filled with U.S. or 
foreign research reactor spent fuel, which is usually comprised of 
highly-enriched, or weapons-grade, uranium.
    Finally, there are questions regarding the casks that will be used 
for shipping high-level waste and spent nuclear fuel to any repository. 
First of all, very few casks exist today, so the ones that would be 
used for a 38-year shipping campaign to Yucca Mountain are still in 
various stages of development. That might be acceptable if we knew they 
were going to be subjected to rigorous physical testing prior to use, 
but that is not intended. Instead, computer and some limited scale-
model testing is the planned method of assessing cask integrity. Those 
ancient tapes we have all seen of discarded shipping casks being 
dropped from helicopters, run into cement walls and hit by trains--none 
of that is planned for the new generation of casks. NRC Commissioner 
Greta Dicus recently testified that NRC does now plan to physically 
test one cask, but that is the first time such an announcement has been 
made, and we therefore remain, respectfully, skeptical about what will 
actually be done.
    So for now, we are being asked to believe recent industry claims 
that the new, not-yet-built casks can withstand ``all but the most 
advanced armor-piercing weapons'' and a ``direct hit by a fully fueled 
Boeing 747.'' These wild claims are not based on actual testing, and we 
know from tests conducted at Sandia National Laboratories in the 1980s 
and by the U.S. Army at Aberdeen Proving Grounds as recently as 1998 
that even very robust casks are vulnerable to attacks from small 
missiles. Shouldn't the new generation of casks be subjected to full-
scale physical testing under a range of conceivable scenarios, 
including an attack by terrorists willing to give their own lives?
             the role of the nuclear regulatory commission
    The final issue I will raise is the notion being promoted here in 
Washington, and adopted by some mainstream media organizations, that 
Congress can responsibly move DOE's Yucca Mountain site selection 
forward because all remaining issues related to the site's suitability 
would be reexamined and resolved in licensing proceedings before the 
NRC. That is not the case.
    In fact, under current rules for licensing Yucca Mountain, which 
Nevada is challenging in court, NRC will not be examining or 
determining the geologic suitability of the Yucca Mountain site at all. 
Under the Nuclear Waste Policy Act, this critically important task was 
supposed to have been performed by DOE. But DOE recently revised the 
rules, and in doing so virtually abdicated this function. NRC will 
essentially be determining only whether DOE's man-made waste packages 
can keep radiation emissions to within standards set by the 
Environmental Protection Agency.
    In simple terms, NRC will be determining the suitability of the 
waste containers that DOE will put inside the mountain, but it will not 
be examining the suitability of the mountain itself at all. That's like 
making sure every deck chair on the Titanic can hold the heaviest 
passenger, without ever bothering to make sure the ship can float.
    Under this approach, DOE is both the promoter and arbiter of the 
suitability of the Yucca Mountain site. There is no independent 
government oversight. That's how we used to regulate things nuclear 
until we learned the hard way that it was necessary, indeed vital to 
the protection of public health and safety, to separate the promotional 
and regulatory aspects of the government's involvement in nuclear 
energy. (For example, witness the $250 billion cleanup bill taxpayers 
now face for the nation's mismanaged nuclear weapons complex.) But 
that's exactly happening with Yucca Mountain, and the result is a site 
recommendation that was made prematurely and against the strong 
concerns of virtually the entire scientific community and the U.S. 
General Accounting Office.
                               conclusion
    Today, the President's recommendation to move forward with Yucca 
Mountain is heading down the path to finality, and only the Congress 
can stop it by choosing not to override my Congressionally-authorized 
site veto. If the matter of site suitability really were up to the NRC, 
Nevada and the scores of independent scientists alarmed by DOE's 
premature and falsely based site recommendation would be considerably 
reassured. But such is not the case.
    If Congress overrides my veto and simply punts to the NRC, the 
suitability of the Yucca Mountain site will never be independently 
reviewed by any government authority, barring a court order. We will 
seek that court order, but we believe Congress should accept its 
responsibility, recognize that the Yucca Mountain project is fatally 
flawed on numerous fronts, and not act to override my veto.
                                 ______
                                 
    Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada
    I want to thank you Chairman Bingaman and Senator Murkowski for 
allowing me the opportunity to participate in this hearing--and for 
understanding the importance of this issue to me and to my state, and 
really to almost every state.
    The resolution this committee is considering refers to the 
President's recommendation of Yucca Mountain, Nevada as the site for 
disposal of high-level radioactive waste.
    But this limited description fails to take into account the full 
implications of developing a repository there (or anywhere else)--
namely, that before dumping the nation's nuclear waste on Nevada, it 
has to be shipped through 43 states--including the states most members 
of this committee represent.
    Today, we are going to hear from witnesses who will tell us about 
the risks the Department of Energy's program will entail--these include 
risks in Nevada and more importantly, risks all over the country where 
this waste will be shipped.
    The Secretary said it best last week when he acknowledged that the 
Department of Energy has only had preliminary thoughts about a 
transportation plan for this waste. That's like a someone building a 
hospital with no doctors.
    So while there are many fundamental problems with the site itself 
and concerns about the process that led to the President's 
recommendation of the site, I want to first address the dangers of 
transporting massive amounts of deadly nuclear waste along the nation's 
major highways, railroad tracks and waterways.
    Bush plan for moving thousands of tons of deadly high-level 
radioactive waste requires 100,000 shipments by truck, 20,000 by train 
and perhaps thousands more by barge over 40 years.
    This idea would be risky at any time, but after September 11, 2001 
it is just unthinkable.
    The long term radiation contained in each shipment is 240 times 
radiation released by the Hiroshima bomb.
    Shipments will pass by homes, schools, parks, churches, offices.
    Shipments jeopardize the safety, health, environment and the lives 
of many people who live in cities and towns all over the country.
    We know there will be hundreds of accidents involving shipments of 
nuclear waste.
    It's not a question of if, but when and where and how severe will 
these accidents be. And an accident involving a container of deadly 
nuclear waste is no routine fender-bender. A collision or fire 
involving a 25-ton payload of nuclear waste could kill thousands.
    Yet, the Department of Energy despite knowing there will be 
accidents recommended this plan without developing a plan for the 
shipments.
    In addition, DOE has failed to provide the millions of people who 
live near the proposed routes the information they need to understand 
the risk their families face.
    Deadly accidents are not the only concern. Shipping nuclear waste 
across the country increases our vulnerability to terrorist attack, by 
adding hundreds of thousands of targets for terrorists to attack with a 
missile or to hijack or to sabotage.
    So transporting deadly nuclear waste is dangerous--and it's a risk 
our country shouldn't take.
    The nuclear power industry and some of its backers suggest it would 
be better to have nuclear waste at a single site instead of scattered 
around the country. But this is a false promise, because the nation's 
nuclear waste will never be consolidated at a single site.
    It will continue to be at every one of the operating reactor sites. 
Spent nuclear fuel rods are so hot and radioactive that they have to be 
stored at the nuclear reactor site in a cooling pond for 5 years before 
they can be moved. So developing Yucca Mountain would add to the number 
of sites with nuclear waste, not reduce it.
    There are also risks about Yucca Mountain itself and hundreds of 
unanswered questions about whether it can be a safe storage facility.
    Independent federal experts agree that the science done on Yucca 
Mountain is incomplete.

          The General Accounting Office, a credible independent agency, 
        chastised the Secretary of Energy for making a decision on 
        Yucca Mountain when almost 300 important scientific tests 
        remain incomplete.
          The experts at the Nuclear Waste Technical Review Board, 
        another independent agency, concluded that the technical basis 
        for Yucca Mountain is ``weak to moderate''.
          The Inspector General at the Department of Energy found that 
        the law firm they hired was working for the nuclear power 
        industry at the same time.

    There is an alternative. We can safely leave the waste on site, 
where it will be any way as new waste is added to the existing waste. 
It will be safe there while we develop the technology for reprocessing 
or safe disposal without shipping 100,000 nuclear dirty bombs through 
your states.
    Again, I want to thank you for the opportunity to discuss this 
important issue.

        STATEMENT OF ROBERT J. HALSTEAD, TRANSPORTATION 
     ADVISOR, AGENCY FOR NUCLEAR PROJECTS, STATE OF NEVADA

    Mr. Halstead. Thank you, Mr. Chairman.
    I'm Bob Halstead, Transportation Advisor for the Agency for 
Nuclear Projects, State of Nevada.
    My pre-filed comments today summarize my analysis of the 
Department of Energy's final environmental impact statement for 
Yucca Mountain, which was released on February 14, 2002. 
Although high-level nuclear waste is an integral part of DOE's 
repository proposal, there is no transportation plan in the 
final environmental impact statement
    In my summary comments today, I'd like to emphasize three 
points about the Department of Energy transportation proposal.
    First, construction of a repository at Yucca Mountain would 
result in tens of thousands of shipments of high-level nuclear 
waste. DOE proposes to move 70,000 metric tons of high-level 
nuclear waste from 77 sites to Yucca Mountain over 24 years.
    By DOE's own account, the mostly legal weight truck 
scenario could result in 53,000 shipments over 24 years, or 
about 2,200 per year. DOE's mostly rail scenario, when the 
associated heavy-haul truck and barge shipments which are 
required to make it feasible, are included could result in 
22,500 shipments over 24 years, or about 935 per year.
    Now, after 24 years, under DOE's proposal, there would 
still be 49,000 metric tons of high-level nuclear waste at 63 
commercial sites and five DOE sites in 33 States. And it is not 
clear what DOE proposes to do with these remaining wastes. But 
DOE's final EIS says that moving these wastes would require an 
additional 14 years and could require 22,500 additional 
shipments by rail, truck, and barge, or 56,000 additional 
shipments by legal-weight truck.
    Well, we've gotten most of the numbers out of the way, Mr. 
Chairman. My second point is that a severe transportation 
accident or a successful terrorist attack on a shipment could 
unfortunately have catastrophic consequences.
    Now, 90 percent of the waste that would be shipped to the 
repository would be commercial spent nuclear fuel, which is an 
extremely hazardous material. Without shielding, a person 
standing next to a spent nuclear fuel assembly would receive a 
lethal dose of radiation in 1 to 5 minutes. Each spent fuel 
shipping cask loaded with spent fuel, would contain so much 
Cesium 137, the most dangerous radionuclide, that a one percent 
release in the city could cause thousands of cancer deaths 
unless cleaned up at a cost of billions of dollars.
    In the final EIS, DOE acknowledges that a severe accident 
or a terrorist attack could result in a release of radioactive 
material, and DOE admits that the cleanup cost could range from 
$300,000 up to $10 billion. Nevada's studies show that a severe 
accident, such as the Baltimore rail tunnel accident of last 
year, could cause widespread contamination costing somewhere in 
the rage of $10 to $14 billion to clean up. And if not cleaned 
up, it would cause between 4,000 and 28,000 cancer deaths over 
the following 5 decades.
    Nevada studies also show that a successful terrorist attack 
in an urban area using a 1950's era weapon against the newly 
designed truck cask could cause a large enough release to 
result in 300 to 1,800 latent cancer fatalities, assuming a 90 
percent blast penetration. Full perforation of a truck cask, 
which is what we think would occur in an attack involving a 
state-of-the-art weapon like a TOW missile, could cause a 
factor of ten increase, resulting in 3,000 to 18,000 latent 
cancer fatalities and a cleanup that would certainly exceed ten 
billion dollars.
    My third point is simply that DOE has no transportation 
plan presently that addresses these safety and security issues. 
DOE has searched rail as their preferred mode of shipment for 
safety reasons, but in fact DOE has no plan for maximizing rail 
use. And after 20 years of studying potential rail spur routes 
in Nevada, DOE can't even say which Nevada rail spur route they 
prefer.
    If they use the mostly legal-weight truck option, they've 
put forward no plan for picking the safest highway routes for 
the 53,000 to 108,000 cross-country truck shipments that would 
occur, nor do they have a plan for managing other aspects of 
truck safety, nor do they have a plan for addressing the post 
September 11 risks of terrorism against these shipments. And 
incredibly the Department of Energy not only has no plan for 
enhanced transportation safety regulations, such as the 
mandatory use of dedicated trains or full-scale cask testing; 
in fact, both DOE and the nuclear industry actually oppose 
mandatory use of dedicated trains and mandatory full-scale cask 
testing.
    Thank you very much for the opportunity to testify this 
morning.
    [The prepared statement of Mr. Halstead follows:]
   Prepared Statement of Robert J. Halstead, Transportation Advisor, 
              Agency for Nuclear Projects, State of Nevada
    I am Robert J. Halstead, Transportation Advisor, Agency for Nuclear 
Projects, State of Nevada. I have worked on nuclear waste 
transportation issues for the past 24 years. I have been Transportation 
Advisor to the Nevada Agency for Nuclear Projects since 1988. My 
primary responsibility is assessment of the impacts and risks of 
transporting spent nuclear fuel and high-level radioactive wastes to 
the proposed Yucca Mountain repository site. In addition to reviewing 
the U.S. Department of Energy's Draft and Final Environmental Impact 
Statements for Yucca Mountain, my recent work for Nevada includes 
managing contractor studies on the vulnerability of shipments to 
sabotage and terrorist attack, on the radiological consequences of 
severe highway and rail accidents, and on radiation exposures from 
incident-free shipments.
    From 1983 to 1988, I was senior policy analyst for the State of 
Wisconsin Radioactive Waste Review Board, an agency created by the 
Wisconsin Legislature to represent the State in dealings with the U.S. 
Department of Energy, the U.S. Nuclear Regulatory Commission, other 
federal agencies, and nuclear electric utilities. I advised the Board 
and Wisconsin's congressional delegation on federal legislation that 
resulted in the Nuclear Waste Policy Act of 1982, and the Nuclear Waste 
Policy Amendments Act of 1987. I monitored on-going spent nuclear fuel 
shipments; evaluated transportation impacts of repository candidate 
sites in Wisconsin, Minnesota, and Michigan; and represented the Board 
on all matters pertaining to transportation.
    From 1978 to 1983, I worked for the State of Wisconsin Energy 
Office. I evaluated utility plans for nuclear and coal-fired power 
plants, and represented the State in proceedings before the Public 
Service Commission of Wisconsin. I prepared policy recommendations on 
transportation of coal, petroleum, spent nuclear fuel, and low-level 
radioactive wastes.
    I have also worked as a consultant on nuclear waste transportation 
and storage for the States of Minnesota, Tennessee, and Texas. I also 
advised the Law and Water Fund of the Rockies on the transportation 
impacts of the Private Fuel Storage facility proposed for the Skull 
Valley Goshute Reservation in Tooele County, Utah.
 the u.s. department of energy's final environmental impact statement 
                           for yucca mountain
    The Department of Energy (DOE) released the Final Environmental 
Impact Statement (FEIS) for Yucca Mountain on February 14, 2002. The 
FEIS was made available from DOE's website (www.ymp.gov) shortly 
thereafter. DOE apparently published no paper copies of the FEIS for 
direct distribution to the public. DOE has apparently provided paper 
copies of the FEIS to DOE Reading Rooms in some cities.
    The FEIS ``analyzes a Proposed Action to construct, operate and 
monitor, and eventually close a geologic repository for the disposal of 
spent nuclear fuel and high-level radioactive waste at Yucca 
Mountain.'' [p. 1-3] Transportation of spent nuclear fuel and high-
level radioactive waste from 72 commercial and 5 DOE sites across the 
United States is an integral part of DOE's Proposed Action. The 
Proposed Action would ``require surface and subsurface facilities and 
operations for the receipt, packaging, possible surface aging, and 
emplacement of spent nuclear fuel and high-level radioactive waste'' 
and ``transportation of these materials to the repository.'' [FEIS, p. 
2-5]
    DOE has made no final decisions about the transportation options 
proposed in the FEIS. Decisions about ``how spent nuclear fuel and 
high-level radioactive waste would be shipped to the repository (for 
example, truck or rail) and how spent nuclear fuel would be packaged 
(uncanistered or in disposable or dual-purpose canisters) would be part 
of future transportation planning efforts.'' [FEIS, p. 2-5] For 
shipments nationally, ``DOE would use both legal-weight truck and rail 
transportation, and would determine the number of shipments by either 
mode as part of future transportation planning efforts.'' [FEIS, p. 2-
13] ``DOE could use one of three options or modes of transportation in 
Nevada to reach the Yucca Mountain site: legal-weight trucks, rail, or 
heavy haul trucks.'' [FEIS, p. 2-48] The FEIS does not contain a 
specific transportation plan. DOE's discussions of potential 
transportation scenarios and DOE's transportation impact analyses are 
spread over more than 750 pages in the FEIS Summary, eight chapters, 
and four appendices.
    In order to obtain print-optimized files for the FEIS Summary and 
Reader's Guide, it is necessary to go to DOE's website and download 
48,425 KB. To obtain the eight chapters and four appendices dealing 
with transportation and related issues, it is necessary to download 
more than 113,300 KB.
        projected nuclear waste inventories and shipment numbers
    Under the Proposed Action, DOE would transport 70,000 metric tons 
of heavy metal (MTHM) of spent nuclear fuel and high-level radioactive 
waste to a repository over 24 years (2010-2034). The Proposed Action 
complies with Section 114(d) of the Nuclear Waste Policy Amendments 
Act. The FEIS also evaluates the transportation impacts of the entire 
projected inventory of about 120,000 MTHM over 38 years (2010-2048). 
[Pp. S-77 to S-78]
    The FEIS estimates the total projected inventory of commercial 
spent nuclear fuel (SNF) and high-level radioactive wastes (HLW) to be 
generated through 2046. This inventory, referred to by DOE as Module 1, 
includes 105, 000 MTHM of commercial SNF, 2,500 MTHM of DOE SNF, and 
22,280 canisters of DOE HLW (equivalent to about 11,500 MTHM). DOE also 
evaluates a projected inventory, referred to as Module 2, in which 
2,000 cubic meters of Greater-than-Class-C (GTCC) waste, and 4,000 
cubic meters of Special-Performance-Assessment-Required (SPAR) waste, 
are added to Module 1. [FEIS, p. S-78, and Appendix A]
    Yucca Mountain, under DOE's Proposed Action, would receive the 
following wastes over 24 years (2010-2033): 63,000 MTHM of commercial 
SNF, 2,333 MTHM of DOE SNF, and 8,315 canisters of DOE HLW (equivalent 
to about 4,667 MTHM). [FEIS, p. S-78] At the end of DOE's Proposed 
Action, in 2034, there would still be about 42,000 MTHM of commercial 
SNF stored at 63 nuclear power plant sites in 31 states, 167 MTHM of 
DOE SNF stored at DOE sites in 4 states, and 13,965 canisters of DOE 
HLW (equivalent to about 6,833 MTHM) stored at DOE sites in 3 States. 
Additionally, all of the projected GTCC and SPAR wastes would also 
still be stored at 63 commercial and 4 DOE sites in 32 states. [FEIS, 
Pp. S-78, A-2 to A-16, and J-10 to J-22]
    DOE developed two national transportation scenarios--``mostly 
legal-weight truck'' and ``mostly rail''--in order to estimate the 
number of shipments required under the Proposed Action (24 years) and 
under Modules 1 and 2 (38 years). DOE adopted this approach ``because, 
more than 10 years before the projected start of operations at the 
repository, it cannot accurately predict the actual mix of rail and 
truck transportation that would occur from the 77 sites to the 
repository. Therefore, the selected scenarios enable the analysis to 
bound (or bracket) the ranges of legal-weight truck and rail shipments 
that could occur.'' [FEIS, p. J-10] DOE states that the ``estimated 
number of shipments for the mostly legal-weight truck and mostly rail 
scenarios represents the two extremes in the possible mix of 
transportation modes.'' [FEIS, p. 6-35] Table 1 shows the number of 
shipments estimated by DOE for these transportation and inventory 
scenarios.

              Table 1.--DOE ESTIMATED NUMBER OF SHIPMENTS FOR TRANSPORTATION SCENARIO COMBINATIONS
----------------------------------------------------------------------------------------------------------------
                                                         (Mostly        (Mostly     (Mostly rail)  (Mostly rail)
                 Inventory  scenario                  truck)  truck   truck)  rail       truck          rail
                                                        shipments      shipments      shipments      shipments
----------------------------------------------------------------------------------------------------------------
Proposed Action (2010-2034).........................      52,786            300          1,079          9,646
Module 1 (2010-2048)................................     105,685            300          3,122         18,243
Module 2 (2010-2048)................................     108,544            355          3,122         18,935
----------------------------------------------------------------------------------------------------------------
Source: DOE/EIS-0250, Table J-11

    DOE's ``mostly legal-weight truck'' national scenario would result 
in the largest number of shipments. Over 24 years, there would be more 
than 53,000 shipments, or about 2,200 per year. Over 38 years, there 
would be about 108,900 shipments, or about 2,870 per year. By 
comparison, over the past 40 years, there have been less than 100 
shipments per year in the United States.*
---------------------------------------------------------------------------
    * There were about 3,025 shipments in the United States between 
1964 and 1997, about 92 per year. Reliable estimates of worldwide cask-
shipments, through 1998, range from 24,000 to 40,041. Most of the 
international cask-shipments moved in trains carrying multiple casks, 
so the actual number of shipments would be considerably less, but 
precise information is unavailable. The estimate of 40,041 cask-
shipments worldwide was published by the International Atomic Energy 
Agency in July 1999 and includes the following country totals: United 
Kingdom, 28,854; U.S.A., 2,425; Germany, 1,612; France, 1,570; Japan, 
1,399; and Sweden, 900. Source: R. Pope, IAEA, ``International 
Experience with SNF/HLW Transport,'' Presentation before the U.S. 
National Academy of Sciences, National Transportation Research Board, 
Washington, DC, September 11, 2000.
---------------------------------------------------------------------------
    DOE's ``mostly rail'' national scenario would result in fewer 
cross-country shipments than the ``mostly legal-weight truck'' 
scenario. Over 24 years, there would be more than 10,700 cross-country 
shipments, or about 450 per year. Over 38 years, there would be more 
than 22,000 cross-country shipments, or about 580 per year.
    However, the ``mostly rail'' cross-country shipment numbers do not 
include barge and heavy haul truck shipments from 24 reactor that lack 
rail access, which would add 2,200 shipments for the Proposed Action 
and 4,065 shipments for Module 2. Nor do the DOE numbers include the 
heavy haul truck shipments required in Nevada if there is no rail spur 
to Yucca Mountain, which could add 9,646 shipments for the Proposed 
Action and 18,935 shipments for Module 2.
    When the barge and heavy haul truck shipments are included, DOE's 
``mostly rail'' total for 24 years could be more than 22,500 shipments, 
or about 935 per year. DOE's ``mostly rail'' total for 38 years could 
be more than 45,000 shipments, or about 1,185 per year.
                     yucca mountain shipment modes
    The DOE ``mostly legal-weight truck scenario'' is the only national 
transportation scenario that is currently feasible. All 72 power plant 
sites and all 5 DOE sites can ship by legal-weight truck. At present, 
there is no railroad access to Yucca Mountain., and the feasibility of 
long-distance heavy haul truck (HHT) transport of rail casks in Nevada 
is unproven.
    The DOE ``mostly rail scenario'' is unlikely to occur. Even if DOE 
is able to develop rail access to Yucca Mountain, the objective of 
shipping 90 percent of the commercial SNF by rail is unrealistic. DOE 
acknowledges that 25 of the 72 power plant sites cannot ship directly 
by rail. Nevada studies show that number could be up to 32 sites. The 
``mostly rail'' scenario assumes that DOE can ship thousands of casks 
by barge into Boston, New Haven, Newark, Jersey City, Wilmington (DE), 
Baltimore, Norfolk, Miami, Milwaukee, Muskegon, Omaha, Vicksburg, and 
Port Hueneme (CA). Alternately, DOE would have to move thousands of 
casks from reactors to rail lines using HHTs, each of which will 
require special state permits and route approvals.
    The ``mostly rail scenario'' assumes that DOE can construct a new 
rail spur to Yucca Mountain, 99 to 344 miles in length, at a cost of 
more than $1 billion. Even the shortest of the five spur options would 
be the largest new rail construction project in the United States since 
World War I. Environmental approvals, right-of-way acquisition, and 
litigation could delay rail construction for 10 years or more. In the 
FEIS, DOE declined to identify a preference among the five potential 
rail corridors to Yucca Mountain.
    The alternative to rail spur construction, delivery of thousands of 
large rail casks by 220-foot-long HHTs over distances of 112 to 330 
miles on public highways, is probably not feasible. HHT route 
constraints include highly congested segments through rapidly 
urbanizing areas, and steep grades and sharp curves through high-
mountain passes. All of the potential HHT routes would require 
substantial upgrading, and would likely cost more than a rail spur. 
State permits and operating restrictions apply to all use of HHTs in 
Nevada. In the FEIS, DOE declined to identify a preference among three 
potential locations for intermodal transfer stations.
    Certain programmatic and policy factors favor truck shipment, 
especially during the first 10-15 years of repository operations. DOE's 
``hot repository'' thermal loading strategy may require truck shipment 
of 5-10 year-cooled SNF. Some utilities may exercise contract options 
to ship 5-10 year-cooled SNF from storage pools by truck, rather than 
shipping older SNF by rail. DOE's transportation privatization plan 
does not require transportation service providers to ship oldest fuel 
first or to maximize use of rail. Indeed, under DOE's fixed-cost 
contracting approach to privatization, rail transportation may not be 
cost-competitive with legal-weight at many sites.
                  yucca mountain transportation routes
    In the Draft EIS, DOE chose to conceal the specific routes used for 
impact and risk analyses in Chapter 6 and Appendix J. DOE did not 
identify the routes in its Federal Register notice nor in its public 
notices of scheduled hearings. During the public hearings that began in 
September, 1999, DOE provided some state-specific transportation maps 
at individual hearings around the country. But DOE did not release 
national maps showing the full cross country routes from shipping sites 
to Yucca Mountain until sometime in late January, 2000, near the end of 
the public comment process
    In the Final EIS, DOE decided to reveal the routes used for risk 
and impact analysis. DOE included national and state maps. [FEIS, 
Figure J-5, and Figures J-31 to J-53] The FEIS states that ``DOE has 
not determined the specific routes it would use to ship spent nuclear 
fuel and high-level radioactive waste to the proposed repository.'' 
[FEIS, p. J-23]
    The FEIS truck routes were generated by the HIGHWAY computer model, 
and generally represent the quickest truck travel routes consistent 
with the current Federal routing regulations (HM-164). DOE refers to 
these as ``representative'' routes. [FEIS, p. 6-5] However, with two 
exceptions, DOE's cross-country routes agree with the highway routes 
identified in previous routing studies by DOE and Nevada contractors. 
Absent additional state designation of preferred alternatives or DOE 
policy decisions, we believe that these are the most likely highway 
routes to Nevada, with two notable exceptions.
    In between publication of the Draft and Final EISs, the State of 
Colorado exercised its authority under U.S. DOT regulations to prohibit 
SNF and HLW shipments on I-70 west of Denver. Colorado took this action 
to avoid shipments through the Eisenhower and Glenwood Tunnels. Under 
the Colorado designation, shipments would be diverted north or south on 
I-25. Nevada routing analyses show that the new preferred route to 
Yucca Mountain for shipments using I-70 would be through the 
Northeastern Denver metropolitan area to I-25, then connecting with I-
80 at Cheyenne, Wyoming. For reasons we do not understand, DOE's FEIS 
map has the trucks on I-70 turning north on I-29 to connect with I-680/
I-80 near Omaha, so that the major stream of shipments from the 
Southeastern region avoids Kansas and Colorado altogether. [Figures 35, 
39, and 47] Preliminary analysis indicates that DOE's route choice 
could add more than 20 miles to each of tens of thousands of shipments, 
compared to the new preferred route in Colorado. We are continuing to 
study this route.
    A second DOE highway route of concern was called to our attention 
by the State of Pennsylvania. DOE's FEIS map shows shipments from six 
reactor sites using the Pennsylvania Turnpike (I-76) West of 
Harrisburg. [Figure 49] Pennsylvania authorities informed us that all 
placarded hazardous material shipments must use bypasses to avoid four 
tunnels along this segment of the Turnpike, and that no SNF shipments 
have ever used this route. It is not clear how DOE could have missed 
these restrictions, since the Pennsylvania bypass requirements are 
clearly stated in a U.S. DOT guidance document cited as a reference in 
the FEIS. We are continuing to study this route also.
    Otherwise, DOE's FEIS routes agree with those identified by Nevada 
as most likely routes to Yucca Mountain. The primary truck routes out 
of New England and the Middle Atlantic states converge on I-80/90 near 
Cleveland, pick up shipments from Midwestern reactors, and follow I-80 
west from Chicago through Des Moines, Omaha, Cheyenne, and Salt Lake 
City to I-15.
    The primary truck routes out of the South are I-75 from Florida, I-
24 from Atlanta, and I-64 from Virginia. These routes converge on I-70 
near St. Louis, and follow I-70 west through Kansas City and Denver to 
I-25, then join I-80 near Cheyenne.
    The primary route from the Pacific Northwest is I-84 to I-15 in 
Utah. Other major routes are I-40 and I-10 from the Mid-South and I-5 
in California. These routes converge on I-15 in Southern California.
    As with highway routes, DOE chose to conceal the rail routes 
analyzed in the Draft EIS DOE until late January 2000, near the end of 
the public comment process. In the Final EIS, DOE decided to reveal the 
rail routes used for risk and impact analysis. DOE included national 
and state maps. [FEIS, Figure J-6, and Figures J-31 to J-53] These 
routes were generated by the INTERLINE computer model, and generally 
represent the most direct routes to Nevada consistent with the current 
industry practice of maximizing freight-miles on the originating 
railroad.
    Since DOE has not yet identified a preferred rail destination in 
Nevada, the map shows all potential cross-country routes from the 77 
sites. For about 85 percent of the originating locations, the most 
likely route is unchanged by the Nevada destination. DOE's rail routes 
to Nevada generally agree with the rail routes identified in previous 
routing studies by DOE and Nevada contractors. While mergers and other 
rail industry developments would continue to affect routing, Nevada 
believes that the FEIS map shows the most likely rail routes to Nevada.
    The primary rail routes out of New England and the Middle Atlantic 
states are the former Conrail mainlines from Buffalo and Harrisburg to 
Cleveland and Chicago. These shipments switch to the Union Pacific near 
Chicago, are joined by shipments from Midwestern reactors in Illinois 
and Iowa, and continue west via Fremont, Gibbon, Cheyenne, and Salt 
Lake City to Nevada.
    The primary routes out of the South are the CSXT from Atlanta to 
East St. Louis, and the Norfolk Southern from Atlanta to Kansas City 
via Birmingham and Cairo. These two streams merge on the Union Pacific 
in Kansas City, and in turn merge with the northern UP shipments at 
Gibbon, Nebraska. Other major rail routes are the UP from Oregon via 
Boise, and the UP and BNSF from California and the Southwest via San 
Bernardino and Daggett.
    The potential highway and rail routes identified in DOE's Final 
Environmental Impact Statement could affect 45 states and the District 
of Columbia. More than 123 million people currently live in the 703 
counties traversed by DOE's highway routes, and 106 million live in 
counties along DOE's rail routes. DOE predicts that between 10.4 and 
16.4 million people will live within one-half mile of a transportation 
route in 2035.
                  recent spent nuclear fuel shipments
    During the past two decades, nuclear power plants and research 
facilities in the United States have made relatively few off-site 
shipments of SNF. The U.S. Nuclear Regulatory Commission (NRC) 
regulates such shipments, and maintains a detailed SNF shipment 
database. Between 1979 and 1997, the most recent period reported by 
NRC, there were 1,334 domestic shipments containing 1,453 metric tons 
uranium (MTU) of civilian SNF. Table 2 summarizes significant 
characteristics of these shipments.

       Table 2.--U.S. CIVILIAN SNF SHIPMENT EXPERIENCE, 1979-1997
------------------------------------------------------------------------
------------------------------------------------------------------------
Amount Shipped.........................  1,453 MTU (76.5 MTU per year)
Total Shipments........................  1,334 (70 per year)
Truck Shipments........................  1,181 (62 per year)
Rail Shipments.........................  153 (8 per year)
Truck Share of SNF Shipments...........  88.5%
Rail Share of MTU Shipped..............  75.5%
Average Truck Shipment Distance........  684 miles (82%<900 miles)
Average Rail Shipment Distance.........  327 miles (80%<600 miles)
Shipment Origin & Destination..........  70% East of Mississippi River
                                          (935/1334)
Number of Reactor Sites Making One or    27 (9 sites>2 shipments)
 More Shipments.
------------------------------------------------------------------------
Source: NRC, NUREG-0725, Rev. 13 (October 1998)

    During the same period, the U.S. Department of Energy made several 
dozen shipments of Three Mile Island reactor core debris and intact 
commercial reactor SNF. These shipments were not regulated by NRC, and 
were therefore not included in the NRC database. There were also an 
undisclosed number of naval reactor fuel shipments, estimated at 
several hundred.
           radiological characteristics of spent nuclear fuel
    Spent nuclear fuel (SNF) from commercial power reactors would 
comprise about 90 percent of the wastes shipped to the repository. DOE 
acknowledges that SNF is ``usually intensely radioactive.'' [FEIS, Pp. 
S-3, 1-6] Otherwise, the Final EIS provides little information on the 
radiological characteristics of SNF that affect transportation safety 
until the reader reaches Appendices A, F, and J.
    Fission products, especially strontium-90 (half-life 28 years) and 
cesium-137 (half-life 30 years), account for most of the radioactivity 
in SNF for the first hundred years after removal from reactors. Fission 
products, which emit both beta and gamma radiation, are the primary 
sources of exposure during routine transportation operations. Cesium-
137 is the major potential source of irradiation and contamination if a 
shipping cask is breached during a severe transportation accident or 
successful terrorist attack.
    Table 3, based on data developed by DOE, illustrates the general 
relationship between SNF age (cooling time) and the two radiological 
characteristics most important for assessing SNF transportation risks, 
total activity and surface dose rate. The table is based on average 
characteristics of older SNF (pressurized water reactor fuel with a 
burn-up of 33,000 MWd/MTHM). The average SNF assumed by DOE in the FEIS 
[p. A-13] (pressurized water reactor fuel with a burn-up of 41,200 MWd/
MTHM), for shipments to Yucca Mountain, would be even more radioactive.

 Table 3.--RADIOLOGICAL CHARACTERISTICS OF COMMERCIAL SPENT NUCLEAR FUEL
------------------------------------------------------------------------
                                             Total
         SNF age (years cooled)             activity   Surface dose rate
                                            (Curies)       (Rem/Hour)
------------------------------------------------------------------------
1.......................................    2,500,000      234,000
5.......................................      600,000       46,800
10......................................      400,000       23,400
50......................................      100,000        8,640
------------------------------------------------------------------------
Source: U.S. DOE, DOE/NE-0007, 1980.

    After one-year in a water-filled storage pool, unshielded SNF is so 
radioactive that it delivers a lethal, acute dose of radiation (600 
rem) in about 10 seconds. After 50 years of cooling, the total 
radioactivity (measured in curies) and the surface dose rate (measured 
in rem/hour) decline by more than 95 percent, but SNF can still deliver 
a lethal radiation exposure in minutes. The lethal exposure time for 
unshielded SNF is less than one minute after 5 years cooling, less than 
2 minutes after 10 years, and less than 5 minutes after 50 years.
    DOE assumes that the average age (cooling time) of SNF shipped to 
the repository would be about 23 years. [FEIS, p. A-13] DOE calculates 
that the average rail cask shipped to the repository would contain a 
total radioactivity of 2.1 million curies, including 816,000 curies of 
Cesium-137. [FEIS, p. J-33] While DOE does not provide specific data 
for the average truck cask, it would about one-sixth as much as the 
rail cask (355,000 curies total activity, including 136,000 curies of 
Cesium-137). For accident and sabotage consequence analysis, DOE 
assumed that the casks would be loaded with SNF aged 14-15 years, 
[FEIS, p. J-52] which would double the radiological hazard, compared to 
average SNF. [FEIS, p. 6-46] However, repository shipments could 
include 5-year cooled SNF in truck casks and 10-year cooled SNF in rail 
casks, resulting in significantly greater radiological hazards than 
those evaluated by DOE.
                     routine transportation impacts
    NRC regulations allow a certain amount of neutron and gamma 
radiation to be emitted from shipping casks during routine operations 
and transport (1,000 mrem/hr at the cask surface and 10 mrem/hr 2 
meters from the cask surface). The dose rate allowed under NRC 
regulations results in near-cask exposures of about 2.5 mrem per hour 
at 5 meters (16 feet), in measurable exposures (less than 0.2 mrem per 
hour) at 30 meters (98 feet), and calculated exposures (less than 
0.0002 mrem per hour) at 800 meters (one-half mile) from the cask 
surface. [FEIS, p. J-38] Cumulative exposures at these rates can result 
in adverse health affects for some workers and some members of public. 
Moreover, the very fact that these exposures would occur has been shown 
to cause adverse socioeconomic impacts, such as loss of property 
values, even though the dose levels are well below the established 
thresholds for cancer and other health effects.
    The FEIS acknowledges that routine radiation from shipping casks 
poses a significant health threat to certain transportation workers. In 
the most extreme example, motor carrier safety inspectors could receive 
cumulative doses (200 rem over 24 years) large enough to increase their 
risk of cancer death by 10 percent or more, and their risk of other 
serious health effects by 40 percent or more. DOE proposes to control 
these exposures and risks by severely restricting work hours and doses 
for certain jobs. [FEIS, Pp. J-44 to J-45]
                      expected number of accidents
    DOE and the nuclear power industry are quick to point to their 
record of safely shipping limited quantities of spent fuel during the 
past 30 years. What DOE and the industry do not publicize is that, 
prior to 1971, there were, in fact, transportation accidents and 
incidents that resulted in radiation releases. Between 1957 and 1964, 
there were 11 transportation incidents and accidents involving spent 
fuel shipments by the US Atomic Energy Commission and its contractors. 
Several of these incidents resulted in radioactive releases requiring 
cleanup, including leakage from a rail cask in 1960 and leakage from a 
truck cask in 1962. There is no comparable data for the period from 
1964 to 1970, when utility shipments to reprocessing facilities began.
    Between 1971 and 1990, there were six accidents and 47 regulatory 
incidents involving spent fuel cask shipments. Most of the regulatory 
incidents involved excess radioactive contamination of cask surfaces 
(often referred to as ``weeping''), but a few involved violations that 
could have contributed to increased accident risks. Three accidents 
(two truck, one rail) involved casks loaded with spent fuel. 
Fortunately, no radioactivity was released in these accidents, although 
one truck accident was severe enough to kill the driver. However, the 
record clearly indicates that accidents do happen and that the 
potential for accidents involving radiation releases exists.
    DOE contractors evaluated these SNF accidents and incidents, and 
developed historical SNF accident and incident rates for use in 
projecting the impacts of future shipments to a Yucca Mountain 
repository. [OCRWM, YMP/91-17] These accident and incident rates have 
not changed appreciably, because of the relatively small number of 
shipments and shipment-miles during the 1990s. DOE chose to ignore this 
information in preparing the transportation impact analysis for the 
FEIS.
    Table 4 shows the results of applying the historical accident rates 
for U.S. SNF shipments to the projected shipment-miles for DOE's 
``mostly legal-weight truck'' and ``mostly rail'' scenarios, plus an 
additional scenario developed by Nevada which assumes that each site 
ships based on its current modal capability. The Nevada analysis 
concludes that 160-390 accidents and 850-2,400 regulatory violations 
would be expected over 38 years if future shipments were to be as safe 
as past shipments.

               Table 4.--PROJECTED REPOSITORY TRANSPORTATION ACCIDENTS  AND INCIDENTS, 2010-2048.
----------------------------------------------------------------------------------------------------------------
                      Scenario & mode                         Shipments   Shipment-miles   Accidents   Incidents
----------------------------------------------------------------------------------------------------------------
Mostly Truck (Sites)
----------------------------------------------------------------------------------------------------------------
Truck (77).................................................   108,544      227,735,000        159       2,391
Rail to NV (1).............................................       355          181,000          2           4
HHT in NV..................................................       355          118,000       NA *        NA *
----------------------------------------------------------------------------------------------------------------
Mostly Rail (Sites)
----------------------------------------------------------------------------------------------------------------
Truck (6)..................................................     3,122        8,657,000          6          91
Rail to NV (77)............................................    18,935       37,484,000        364         727
Rail in NV.................................................     6,312        2,039,000         20          40
----------------------------------------------------------------------------------------------------------------
Current Capabilities (Sites)
----------------------------------------------------------------------------------------------------------------
Truck (25).................................................    27,435       65,784,000         46         691
Rail to NV (52)............................................    14,886       28,353,000        275         550
Rail in NV.................................................     4,962        1,603,000         16         31
----------------------------------------------------------------------------------------------------------------
* NA--Not Available.

             transportation accident and terrorism impacts
    In the Draft and Final EISs, DOE acknowledges that a very severe 
highway or rail accident, or a successful terrorist attack using high 
energy explosives, could release radioactive materials from a shipping 
cask, resulting in radiation exposures to members of the public and 
latent cancer fatalities (LCFs) among the exposed population
    In the Draft EIS, DOE evaluated a ``maximum reasonably foreseeable 
accident scenario'' involving a rail at a generic urban location. 
Following the accident severity categories designated by the NRC Modal 
Study, DOE estimated the consequences of the most severe (category 6) 
rail accident using the RISKIND computer code. DOE estimated that the 
accident would release and disperse enough radioactive materials to 
inflict a collective population dose of 61,000 person-rem (enough to 
give 61,000 persons a one rem dose) and cause about 31 latent cancer 
fatalities.
    In the Final EIS, DOE changed the basis of its transportation risk 
assessment, relying solely upon a controversial new NRC contractor 
report prepared by Sandia National Laboratories (NUREG/CR-6672). As a 
result, DOE's estimated consequence of the `` maximum reasonably 
foreseeable accident scenario'' involving a rail cask was reduced to a 
collective dose of 9,900 person-rem and 5 latent cancer fatalities. 
[FEIS, Pp. 6-45 to 6-47, 6-49 to 6-50]
    The FEIS acknowledges that the July 2001 Baltimore rail tunnel fire 
was so severe that it would have resulted in a release of radioactive 
materials if a rail cask had been involved. [FEIS, p. 6-50] The FEIS 
also acknowledges that clean-up costs following a severe transportation 
accident could range from $300,000 to $10 billion. [FEIS, p. J-73]
    As part of its review of the Draft EIS, the State of Nevada 
commissioned several SNF accident consequence analyses by Radioactive 
Waste Management Associates (RWMA). In 2000, RWMA reexamined the DEIS 
truck and rail accident estimates, using the RADTRAN and RISKIND 
computer models and a range of credible alternative assumptions. In 
2001, RWMA estimated the consequences of a rail SNF accident similar to 
the July 2001 Baltimore rail tunnel fire. Also in 2001, RWMA studied 
the consequences of credible worst case truck and rail accidents at 
representative urban and rural locations along potential Nevada highway 
routes. These studies concluded that DOE systematically underestimated 
the consequences of severe transportation accidents. The results of 
these studies are reported in State of Nevada impact report, A Mountain 
of Trouble, which can be accessed on the web at www.state.nv.us/
nucwaste, or obtained in hardcopy by request from the Nevada Agency for 
Nuclear Projects (phone: 775-687-3744).
    The Nevada-sponsored study of the July 2001 Baltimore rail tunnel 
fire concluded that it would have resulted in significant release of 
radioactive materials. It burned for more than three days with 
temperatures as high as 1500 deg. F. A single rail cask in such an 
accident could have released enough radio-cesium to contaminate an area 
of 32 square miles. Failure to cleanup the contamination, at a cost of 
$13.7 billion, would cause 4,000 to 28,000 cancer deaths over the next 
50 years. Between 200 and 1,400 latent cancer fatalities would be 
expected from exposures during the first year.
    In both the Draft and Final EISs, DOE acknowledges that SNF truck 
casks are especially vulnerable to terrorist attack and sabotage. DOE 
and NRC testing in the 1980s demonstrated that a high-energy explosive 
device (HED) such as a military demolition charge could breach the wall 
of a truck cask. DOE sponsored a 1999 study of cask sabotage by Sandia 
National Laboratories (SNL) in support of the DEIS. The SNL study 
demonstrated that HEDs are ``capable of penetrating a cask's shield 
wall, leading to the dispersal of contaminants to the environment.'' 
[DEIS, p. 6-33] The SNL study also concluded that a successful attack 
on a truck cask would release more radioactive materials than an attack 
on a rail cask. [DEIS, p. 6-34]
    In the Draft EIS, DOE estimated that a successful attack on a GA-4 
truck cask in an urbanized area under average weather conditions would 
result in a population dose of 31,000 person-rem, causing about 15 
cancer fatalities among those exposed to the release of radioactive 
materials. In the Final EIS, DOE updated its sabotage analysis, 
assuming the cask contained more radioactive SNF and assuming a higher 
future average population density for U.S. cities. The Final EIS 
estimated that the same successful attack on a truck cask would result 
in a population dose of 96,000 person-rem and 48 latent cancer 
fatalities. [FEIS, Pp. 6-50 to 6-52] In neither case did DOE evaluate 
any environmental impacts other than health effects. In particular, DOE 
ignored the economic impacts of a successful act of sabotage in both 
the Draft and Final EIS.
    Analyses prepared for Nevada by RWMA estimated sabotage impacts 
would be considerably greater than DOE's estimate. RWMA replicated both 
the Draft and Final EIS sabotage consequence analyses, using the 
RISKIND model for health effects and the RADTRAN model for economic 
impacts, the SNL study average and maximum inventory release fractions, 
and a range of population densities and weather conditions.
    The Nevada-sponsored study of the Final EIS scenario concluded that 
an attack on a GA-4 truck cask using a common military demolition 
device could cause 300 to 1,800 latent cancer fatalities, assuming 90% 
penetration by a single blast. Full perforation of the cask, likely to 
occur in an attack involving a state-of-the art anti-tank weapon, such 
as the TOW missile, could cause 3,000 to 18,000 latent cancer 
fatalities. Cleanup and recovery costs would exceed $10 billion.
    Public perception of transportation risks could result in massive 
economic costs in communities along transportation routes. Even without 
an accident or incident, property values near routes could decline by 
3% or more. In the event of an accident, residential property values 
along shipping routes could decline between 8% and 34 %, depending upon 
the severity of the accident.
         rail shipments, dedicated trains, and railroad safety
    Even if DOE is able to implement the ``mostly rail'' transportation 
plan, DOE's opposition to dedicated trains and other accident 
prevention measures raise grave concerns about DOE's commitment to 
transportation safety. The Association of American Railroads (AAR) has 
long contended that spent fuel should only be shipped in so-called 
special trains--dedicated or unit trains hauling only spent fuel and 
other radioactive materials, operating under special safety protocols 
such as speed restrictions (now 35 to 55 mph), buffer car 
specifications, and train passing rules.
    Current USDOT regulations allow shipment of spent fuel casks in 
general freight service. The July 19-23, 2001, Baltimore rail tunnel 
fire has been cited as a prime example of the dangers of shipping spent 
fuel in mixed freight trains. The Baltimore fire has also rekindled 
calls for Federal regulation of spent fuel rail routing.
    Nevada believes the following safety measures should be mandatory: 
(1) spent fuel should never be shipped in mixed freight trains; (2) 
spent fuel should always be shipped in dedicated trains; (3) these 
trains should operate under strict speed limits (35-55 mph) and special 
passing rules; (4) U.S. DOT should regulate the selection of rail 
routes to minimize shipments through urban areas; (5) federal emergency 
response teams and security escorts should accompany all rail shipments 
at all times. DOE and the nuclear industry oppose these mandatory 
safety regulations.
       full-scale physical testing for spent fuel shipping casks
    NRC does not currently require full-scale physical testing of 
shipping casks as part of its certification process. Cask designers are 
allowed to demonstrate compliance with the NRC performance standards 
through a combination of scale-model testing and computer simulations. 
Nevada has long urged NRC to require full-scale testing as part of 
certification. Alternately, Nevada has suggested that DOE require full-
scale testing as part of the procurement process. NRC is currently 
proposing demonstration testing of a ``representative'' shipping cask 
as part of the Package Performance Study being conducted by Sandia 
National Laboratories. Nevada has not formally opposed NRC's proposal, 
but it is not an acceptable substitute for full-scale testing of each 
new cask design prior to certification.
    Nevada has proposed a five-part approach to full-scale testing: (1) 
meaningful stakeholder participation in development of testing 
protocols and selection of test facilities and personnel; (2) full-
scale physical testing (sequential drop, fire, puncture, and immersion) 
prior to NRC certification; (3) additional computer simulations to 
determine performance in extra-regulatory accidents and to determine 
failure thresholds; (4) reevaluation of previous risk study findings, 
and if appropriate, revision of NRC cask performance standards; and (5) 
evaluation of costs and benefits of destructive testing of a randomly-
selected production model cask.
    Nevada believes that comprehensive full-scale testing would not 
only demonstrate compliance with NRC performance standards. It would 
improve the overall safety of the cask and vehicle system, and 
generally enhance confidence in both qualitative and probabilistic risk 
analysis techniques. It could potentially increase acceptance of 
shipments by state and local officials and the general public, and 
potentially reduce adverse social and economic impacts caused by public 
perception of transportation risks.
    Nevada estimates that the cost of a full-scale regulatory fire test 
for a truck cask would be less than $5 million. Comprehensive 
regulatory testing (drop, fire, puncture, and immersion) of a truck 
cask (up to 30 tons) would be between $8 million and $15 million. 
Comprehensive regulatory testing of a large rail cask (up to 125 tons) 
would cost $12 million to $25 million for the first cask, including the 
cost of required upgrading at the testing facility. By comparison, 
Nevada estimates the life-cycle cost of the repository transportation 
system at about $9.2 billion.
    None of the SNF shipping casks currently used in the United States 
have ever been tested full-scale. This fact was confirmed by NRC 
Chairman Richard Meserve in letters to Senator Harry Reid dated April 
2, 2002 and April 24, 2002. DOE has no plans for full-scale testing of 
the casks which would be used for shipments to Yucca Mountain. DOE and 
the nuclear industry oppose mandatory full-scale testing.

    The Chairman. Thank you very much.
    Before we proceed with the witnesses, let me see if Senator 
Murkowski or Senator Craig have a statement they'd like to make 
here at the beginning.

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Senator Bingaman.
    I want to welcome the witnesses, and please do not mis-
characterize my comments, because I do appreciate your input.
    I was under the impression this was the opportunity for 
Nevada to be heard, and I'm looking over the list of the 
witnesses. I see Wisconsin, Michigan, Maryland, Utah, 
Sacramento. I don't see representation from Nevada. I can only 
conclude that perhaps Nevada's interest is not of the intensity 
that I once thought it was. Otherwise, we would be hearing from 
Nevada.
    I've been on this committee for 22 years. We've had 
hundreds of witnesses discussing all facets associated with 
Yucca Mountain--at least 30 hearings. And they've all been 
worthwhile. However, they're a rehashing of issues that are 
associated with Yucca, such as transportation. And evidently 
the discussion today is going to involve pretty much around 
transportation, which to me is a separate issue that involves 
the licensing.
    As you and I know, there is an extraordinary amount of 
high-level nuclear material that moves across our country 
safely. It's moved for many decades and will continue to move. 
So I'm not particularly motivated by the concern again over 
transportation, because these are ``what ifs.''
    And the reality of this particular issue is nobody wants 
the stuff. It's got to go somewhere. Those that have it want to 
get rid of it. The only way to get rid of it is to transport 
it. And you're still left with the reality that nobody wants 
it.
    I was just looking over here, relative to the circumstances 
that the Government finds itself in because of this dilemma, 
and as you may recall, gentlemen, the Federal Government was 
supposed to take this waste in 1998 under a contract with the 
nuclear power industry.
    Well, the Government wasn't ready to take that waste even 
though the rate payers have paid in some $17 billion. The 
claims against the Federal Government for not taking the waste 
in 1998 are estimated to be somewhere between $40 and $80 
billion. I grant you most of this will go to lawyers. But 
nevertheless we've seen a significant industry develop just on 
litigation. And, of course, the fall guy is the U.S. taxpayer.
    I would hope that today's hearing would lead into a 
recognition that we want to resolve this issue and get on with 
it. So I'm a little disappointed that we've not heard from the 
State of Nevada, because it's my understanding that that was 
the proposed schedule, to hear from the State of Nevada on the 
reasons why the Governor vetoed the selection of Yucca Mountain 
as a repository for high-level wastes and spent nuclear fuel.
    Now, as a sidelight for the mayor of Salt Lake, it would be 
interesting to see if the Goshute--I've been out there and 
looked at it, and they got a pretty rough piece of real estate 
when they were handed that particular land selection. I think 
you'd probably agree with me. There wasn't anything else left. 
They drew the short straw. But in any event they have offered 
to take this waste and store it in a temporary repository. It 
would be interesting to see if this is ever resolved, because 
it addresses an issue that--for those of us in the west--have 
always speculated on. Is there really a tribal sovereignty 
government-to-government relationship, where they can bypass 
the attitude of the State or the city of Salt Lake? We may come 
to a resolution of that. We may not. But that would be an 
interesting issue for the courts. But I'm fearful that it would 
take so long that we'd never get to it.
    Now, I was looking forward to hearing from the Governor and 
the legislature about the reason for the State's veto, as well 
as for many other Nevadans who may be opposed to this. I think 
this would have been important, because while the Nuclear Waste 
Policy Act is very clear on the administration's responsibility 
for site selections, it's ambiguous on the criteria for the 
State of Nevada to accept or veto that decision. Unfortunately, 
we're not going to have the opportunity today, because no one 
from the State is appearing to speak on behalf of the State.
    Instead, we have a slate of witnesses who will speak to 
issues that I think are unrelated to the limited question 
before this committee, and that is the question of the 
sufficiency of the site selection. The concerns that our 
witnesses will raise go to other issues--transportation--that 
will be addressed by the administration and the Nuclear 
Regulatory Commission during the licensing process, where it is 
most appropriate. Because the witnesses will not be speaking to 
the direct issue before the committee, one could easily assume, 
as I have implied, that the State does not have an issue with 
the site selection.
    In any event, Mr. Chairman, we've provided an opportunity 
for the Governor, the delegation, and other officials from the 
State of Nevada to appear before the committee to discuss the 
veto, and they have chosen to decline.
    I do not want to suggest, however, that the issues these 
witnesses will address are not important. They are very, very 
important. They are simply not pertinent to the decision on the 
resolution before our committee at this time.
    The fact is, like it or not, we are now transporting spent 
fuel and legacy waste and will continue to do so, whether the 
destination is Yucca or Hanford or the Goshute reservation or 
in New Mexico or in the granite depositories associated with 
Vermont. But I'm not going to push that too far, although it 
comes to mind once in a while.
    Even if we were to uphold the Governor's veto and all the 
spent fuel and waste remained permanently on site, say in New 
York or several sites in California or the shores of the 
Chesapeake Bay, Lake Michigan, or elsewhere, we would still 
continue to transport waste. The committee, however, should 
take comfort in knowing that apparently the State of Nevada 
doesn't seem to have any objection to the actual site selection 
decision itself, and when all is said and done that is the only 
issue before the committee at this time.
    My good friend from Nevada, on my left, may have a 
difference of opinion. But we are disappointed that Nevada is 
not here to speak on the issue.
    Thank you, Senator Bingaman.
    The Chairman. Let me--we usually just have opening 
statements from the chair and the ranking member. Let me just 
ask if any of the other committee members wish to make an 
opening statement. If they do, they could.
    Senator Craig. No, Mr. Chairman. I'm anxious to hear from 
the witnesses. Thank you.
    The Chairman. Senator Thomas.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman. Just very briefly.
    I just want to indicate that in our home paper in Wyoming, 
some deputy assistant attorney from Nevada had this stuff in 
there about transportation, that every 10 minutes there's going 
to be something going through all of our towns and so on. The 
fact is that isn't true. The projection here is 175 annual 
shipments. There's three million shipments of radioactive waste 
done every year now. So I just hope that when we talk about 
this issue, we can try to get down some facts and not the scare 
tactics that are being used currently, at least as I see it in 
my paper.
    Thank you, Mr. Chairman.
    The Chairman. Next we'll hear from Dr. James David Ballard, 
who is with Grand Valley State University, Office of Criminal 
Justice, in Grand Rapids, Michigan.
    I'm very glad to have you here. Please go ahead.

STATEMENT OF JAMES DAVID BALLARD, Ph.D., ASSISTANT PROFESSOR OF 
CRIMINAL JUSTICE, GRAND VALLEY STATE UNIVERSITY, GRAND RAPIDS, 
                               MI

    Dr. Ballard. Good morning, Mr. Chairman and members of the 
committee. As you mentioned, my name is James David Ballard. 
And I am a former resident of Nevada, a graduate of UNLV. So I 
kind of represent the State even though I live in Michigan 
these days.
    The proposed shipments to Yucca Mountain facility will come 
from energy-, research-, and defense-related facilities. These 
shipments will traverse the roadways, railways, and shipping 
lanes of America. The proposed program will require decades of 
effort to complete. Removing such radioactive cargoes from the 
confines of their existing safe and secure facilities and 
exposing them to the dangers inherent in a massive 
transportation effort is not an optimal safety or security risk 
reduction strategy. Make no mistake. Terrorism is a threat to 
these shipments.
    Counter-terrorist experts recognize these cargoes for what 
they could become, potential weapons of mass radiological 
contamination. September 11 showed that terrorists would use 
weapons of mass victimization, multiple attack locations, 
asymmetrical tactics that could wreak havoc on our economic, 
social, and political stability. Let me reiterate. These 
cargoes have the potential to be used as weapons of mass 
victimization.
    The potential effects of a human-initiated release of the 
radiation contained in these shipments include massive public 
health impacts, cascading response demands on the emergency 
response infrastructure, severe impacts on the social fabric of 
the country, economic impacts that could dwarf those seen by 
September 11, and severe stigmatization of the communities 
where release would occur. Remember that for radiological 
dispersion to occur, only two components are needed. The first 
is explosives or a physical release mechanism. The second is 
radiological materials. Clearly, with these shipments and their 
cargoes, we only need to add the first.
    It is also important to recognize that these shipments are 
an attractive target for a variety of terrorist organizations. 
For example, because of the connection between some cargoes and 
our military infrastructure, there exists the potential for 
retaliation attacks from international groups. Likewise, 
attacks on energy-related targets are not uncommon 
internationally and were of real concern at a recent G8 meeting 
held in Detroit. The shipments may also attract considerable 
attention from domestic groups, who have already demonstrated 
their abilities with a 1986 attempt to derail a train carrying 
spent nuclear fuel just outside of Minneapolis.
    No matter the origin of the adversaries, I would ask you to 
think of the impact of the attack on the long-term viability of 
the energy industry and the negative economic impacts on the 
commodities markets if an attack was to be perpetrated. The 
effects of September 11 may pale in comparison.
    America is not immune to external or internal attacks. But 
the primary reason why these shipments will be a target is 
their symbolic value to terrorists. What does this mean? Just 
as the World Trade Center was not just a building, an attack 
against these waste shipments is not just an inconsequential 
incident probability to be explained away by statistics. To 
understand these facts, we should not forget that these 
shipments are radioactive and the general public fears this 
fact.
    Secondly, the cargoes are dangerous, not only in a symbolic 
sense, but they represent a potentially viable weapon of mass 
radiological contamination.
    Third, the whole shipment effort has the potential to 
create a mass counterculture-based revolutionary opposition 
movement.
    Several examples of attack scenarios should help illustrate 
what is at stake. They are exemplars of asymmetrical tactics 
that could be used by terrorists.
    The first is a capture and breach scenario. If the 
transportation vehicle and cargo were to be captured, it would 
be susceptible to the application of explosives and/or a human-
engineering breach.
    Secondly, we should consider a transportation 
infrastructure attack. The huge variety of topography and the 
enormous number of tunnels, bridges, and interchanges that 
would be traversed in the nationwide shipment of these 
materials need to be considered.
    Third, we must address the risk of an attack using current 
generation weapons, weapons like readily available anti-tank 
missiles, like armor-piercing weapons, and the emerging 
category of weapons that are able to penetrate and/or destroy 
these cargoes or at least their containers.
    Knowing how to attack a shipment is not enough. We should 
consider if a terrorist group could locate these cargoes. 
Potential shipment saboteurs and attackers will be presented 
with what is called a target-rich environment, due to the 
frequent and persistent shipping pattern, as well as the 
physical size and unique configuration of the shipment 
containers.
    Clearly, the shipments will not be as safe and secure 
during transit as they are where they now reside. They will 
become a symbolic target, face a variety of adversaries, both 
foreign and domestic, be subject to asymmetrical tactics, and 
have the potential to be used as a weapon of mass radiological 
contamination. In short, moving them increases our risk of 
terrorist attack. It does not decrease the risk.
    The alternative available to you today and in the next 
weeks is far easier and more logical than going forward with 
the Yucca Mountain proposal. If allowed to be stored at their 
existing facility for 50 to 100 years, these wastes will become 
less viable as a weapon. Thus, one option is to make the DOE 
shelter them in place.
    Terrorism is a viable threat to nuclear waste shipments. 
The engineered controls put into the shipment containers are 
not equal to the challenge of asymmetrical terrorist tactics 
and motivated adversaries willing to commit what they consider 
altruistic suicide in the name of their cause.
    The multiple attacks on September 11 changed how we live. 
In this instance, to counteract the enduring threat posed to 
our way of life, we must reconsider the logic of the Yucca 
Mountain proposal. Allowing the DOE and NRC to proceed is 
tantamount to endorsing bureaucratic indifference of 
unimaginable consequences. Please, not on this watch and not 
with these dangerous cargoes.
    Mr. Chairman, members, thank you for the opportunity to 
testify.
    [The prepared statement of Dr. Ballard follows:]
 Prepared Statement of James David Ballard, Ph.D., Assistant Professor 
  of Criminal Justice, Grand Valley State University, Grand Rapids, MI
    Mr. Chairman and Members of the Committee, my name is Dr. James 
David Ballard. I am an Assistant Professor of Criminal Justice at Grand 
Valley State University in Grand Rapids, Michigan where I teach a 
variety of courses on terrorism, research methods, criminology, and 
criminal justice. I am a sociologist and my training at the University 
of Nevada, Las Vegas was in political sociology, deviance, and 
criminology.
    Currently, around the world research is being done on the potential 
for attacks against nuclear facilities and radioactive waste shipments. 
I am involved in one such working group. This international effort 
includes a number of researchers from Stanford University, experts tied 
to various government agencies, and is being funded by a grant from the 
North Atlantic Treaty Organization [NATO].
    For the last seven years, I have studied the risk of terrorism 
attacks on nuclear waste shipments to the proposed Yucca Mountain 
storage facility. In particular, I study the changing nature of 
terrorism and the terrorist tactics that could be employed against 
nuclear waste shipments. I appreciate the opportunity to provide this 
body with some information on the potential of terrorism attacks 
against the shipments of spent nuclear fuel [SNF] and high-level 
radioactive wastes [HLRW] that could be made to the proposed Yucca 
Mountain facility.
                              introduction
    Several factors are important to recognize when considering the 
potential of terrorism against nuclear waste shipments to the Yucca 
Mountain facility. The proposed shipments to the Yucca Mountain 
facility will come from energy, research, and defense related 
facilities. These shipments will traverse the roadways, rail corridors, 
and shipping lanes of America and require decades of effort to transfer 
from their existing safe and secure facilities and to the proposed 
repository.
    This process could happen under a variety of circumstances. For 
example, it could start once the Yucca Mountain facility is licensed 
for use by the Nuclear Regulatory Commission [NRC]. If that process is 
completed, and the decision then passes expected legal challenges, the 
Department of Energy [DOE] would then have to finalize the planning for 
the construction of the Yucca Mountain repository, construct a huge 
fleet of shipment containers, and only then would the proposed facility 
be ready to accept shipments from around the country. Other 
possibilities exist, but what matters is that you have a chance to 
influence the eventual outcome. Understanding terrorism as a risk to 
these shipments may help that policy decision.
    Most experts would agree that removing such highly radioactive 
cargoes from the confines of their existing safe and secure facilities 
and exposing them to the dangers inherent in the massive transportation 
effort necessary to move them to Nevada is not an optimal safety and 
security risk reduction strategy. For example, two significant and 
unique risks would arise when removing these cargoes from their 
existing facilities and the subsequent transportation effort: 
Transportation accidents and in-transit terrorism attacks. The 
discussion that follows is focused around several of the most common 
questions surrounding the risk posed by these shipments with respect to 
in-transit terrorism attacks.
               is terrorism a threat to these shipments?
    When we ask the question is terrorism a threat to these shipments, 
the answer is a definitive yes. The attacks of September 11, 2001 
demonstrated that terrorists continue to develop an interest in weapons 
of mass victimization and have seemingly perfected the use of 
asymmetrical tactics that can wreak havoc on the economic, social, and 
political stability of our nation with a single act of terror. 
Subsequent investigations of the infrastructure behind these particular 
attacks revealed an active interest by al Qaeda and others in the 
development of nuclear weapons of mass destruction and radiological 
weapons of mass contamination. The latter category is where the risks 
lie for shipments of radioactive wastes like SNF and HWRW to the 
proposed Yucca Mountain facility.
    What is being transported sounds benign when it is labeled ``waste 
products'' or ``spent fuel rods,'' but terrorists and counter terrorism 
experts recognize these cargoes for what they could become: Potential 
weapons of mass radiological contamination. Each of these shipments 
represents a huge inventory of highly radioactive materials including 
such cargoes as pressurized fuel assemblies, transuranic wastes, and 
surplus weapon grade plutonium. If these materials were to be 
deliberately released into the environment during transit, they would 
create potentially massive public health impacts, cascading response 
demands on the emergency response infrastructure of the United States, 
severe impacts on the social fabric of this country, economic impacts 
that could dwarf those seen from the September 11, 2001 attacks, and 
severe radiological contamination based stigmatization of the 
communities where the release occurs.
    Obviously, a human initiated release from any one of these 
shipments has the potential to contaminate the local community where an 
incident occurs with radiation. To avoid long-term national level 
dislocation of vital services that such an attack could induce, and to 
counteract potential negative human health consequences that would 
occur from such a deliberate exposure to these radioactive cargoes, 
would require immediate intervention, extensive environmental 
remediation, and would ultimately require an unprecedented national 
response equal or greater than that mounted to counteract the September 
11, 2001 attacks.
    Nuclear and radiological terrorism encompass two large categories 
of weapons. The first category is related to bombs that create a 
nuclear reaction and involve a massive explosion, radiation dispersion, 
and widespread destruction of property. The materials in SNF and HLRW 
cargoes will not be equal to these types of weapons in terms of overall 
effect, but they can be weaponized and thus fall into the second 
category of radiological weapons. The weaponization process using 
radioactive source materials like SNF and HLRW is referred to as a 
radiological dispersion device. The human initiated release of these 
particular radioactive cargoes would constitute a potential large-scale 
radiological dispersion incident.
    For radiological dispersion to occur, two components are needed: 
(1) explosives or a physical release mechanism and (2) radioactive 
source materials. The larger the inventory of source materials, and the 
more dangerous the inventory of radionuclides, the greater the impact 
of dispersion into the environment an incident would have. SNF and HLRW 
shipments clearly have the potential for use as radiological dispersion 
devices under certain circumstances. These circumstances depend on a 
variety of factors and several are noted in the discussion below.
     why target these shipments and not other hazardous materials, 
              radioactive cargoes, or radioactive sources?
    Several factors would make these shipments prime targets for a 
terrorist attack and attract the attention of potential adversaries. 
These include both factors that may attract international groups and 
those that may inspire domestic groups to commit an act of violence 
against the shipment. After noting these factors, it will be argued 
that another more important factor has been neglected in the discussion 
of safety and security; that is the symbolic value of the attack 
against radioactive waste shipments and disposition of the cargoes 
thereafter.
    First, it is important to recognize that these shipments might be 
an attractive target for international groups. They will represent an 
easily identifiable target, one that is predictable, and one that 
because of the longevity of the shipping campaign will allow for 
detailed planning and support from transnational sources. Because of 
the connection between the cargoes and our military infrastructure, 
there also exists the potential for retaliation attacks. Likewise, 
attacks on energy infrastructure have been a concern of terrorist 
experts for decades and were the discussion topic de jour for a recent 
G8 Energy Ministers meeting in Detroit. Also, anyone attacking these 
cargoes would be able to create an enormous economic impact by the 
introduction of ``event risk'' into the energy industry and its related 
commodities markets. These and many other factors all raise the 
international terrorism risk profile for the agencies and industries 
wishing to transport shipments of highly radioactive wastes, especially 
on the scale proposed for the Yucca facility.
    The shipments may also attract considerable attention from domestic 
groups willing to perpetrate violence to press their political and 
social agendas. These domestic terrorists could be motivated by a 
variety of factors. For example, they could be opposed to the forced 
acceptance of energy wastes into their state. Deeply held distrust of 
the DOE and its motives with respect to nuclear wastes may inspire 
individuals to commit violence against SNF and HLRW shipments.
    Domestic groups could also be motivated to commit violent acts in 
opposition to the shipments and nuclear facilities by using a variety 
of tactics. One example that is illustrative of the potential for 
attacks was a 1972 hijack incident where the perpetrator threatened to 
crash an airplane into a research facility at Oak Ridge, Tennessee.
    Additionally, potential domestic adversaries could include radical 
groups similar in philosophy to the Earth First and Sagebrush Rebellion 
movements. Such groups, and those who would emerge over the lifespan of 
the proposed project, could represent as large a threat as a well-
financed international terrorist organization.
    Domestic groups may have different motives than international 
terrorists, but we must recognize that America is not immune to 
internal attacks, even potential devastating attacks using mass 
radiological contamination tactics. After all, we have already 
witnessed a 1986 domestic terrorist incident where a group was willing 
to remove a rail section in front of a train carrying SNF at a location 
just outside of Minneapolis, Minnesota. While not successful, this was 
an organized attempt to derail the radioactive cargo and draw attention 
to the groups'' opposition to the shipment of nuclear wastes.
    Make no mistake, interest in radiological terrorism is not only on 
the terrorists' radar, but should be on policy makers' radar as well, 
since counter terrorist experts recognize that the future is not 
without serious risk of such attacks. While noting which groups could 
mount an attack is one way to begin to identify the risks these 
shipments pose, this exercise misses one of the most important aspects 
of why these shipments will become targets. The primary reason why SNF 
and HLRW shipments could become targets is their symbolic value to 
terrorists. The next section addresses this critical issue.
 what is the link between symbolic value and terrorism attacks against 
                        nuclear waste shipments?
    Terrorism is generally defined in terms of the tactics used in the 
attacks, by use of a typology of potential adversaries, and/or within 
the confines of criminal law. Another way of understanding terrorism is 
to focus on why certain targets are more attractive than others.
    For example, why was the World Trade Center the target of repeated 
attacks? To answer that question we must understand that these 
buildings represented more than just steel and concrete. To the 
terrorists that attacked the complex in February 1993 and again in 
September 2001, this office and commercial complex represented American 
economic strength. These attacks were against the core values of this 
society and the financial force behind American global economic 
dominance. They were not merely attacks against buildings, nor were the 
buildings just a target for random violence. The attacks meant 
something and were designed to convey a message to America and the 
world community.
    So, could an attack against SNF and HLRW shipments be seen as such 
a symbolic act? Absolutely. To examine this idea, it is important to 
note several relative features that will help in an understanding of 
the symbolic value of these shipments.
    First, at a most basic level, we should not forget that these 
shipments are radioactive and the general public fears this fact. The 
cultural conditioning represented by such historical facts as the 
decades long Cold War doctrine of mutual assured destruction, and the 
images of mass victimization and destruction documented after the use 
of nuclear weapons during WW II, has contributed to a generalized and 
specific anxiety about radioactivity and all things nuclear.
    These historical facts are coupled with a generalized public 
distrust of the DOE and its management of the nation's nuclear weapons 
arsenal, the by-products of the weaponization of the atom, and what 
some consider the trivializing attitude taken by the energy industry 
and this federal agency when it comes to the safety and security of the 
public health, environment, and economic well being of the nation. 
Critics would point out that this is, after all, the same federal 
agency that was responsible for unethical medical tests on humans to 
determine the health effects of radiation and it is the agency most 
responsible for the serious mismanagement of such radioactive sites as 
Hanford, Washington and Rocky Flats, Colorado.
    Regardless of the actual health hazards posed by these shipments, 
any incident involving these cargoes would elicit a public response of 
fear, panic, and distrust of any authority figure wishing to explain 
the health science of radioactivity over the reality of the public 
perception of the risks they were exposed to during a contamination 
event. The symbolic value of an attack against highly radioactive waste 
shipments should not be underestimated, since such perceptions are very 
real in their adverse political, economic, and social consequences.
    Secondly, the cargoes are dangerous. The DOE itself reports that 
truck and rail casks will carry inventories of between hundreds of 
thousands to millions of curies respectively. Thus, they are not only 
dangerous in a symbolic manner, they represent a potential weapon of 
mass radiological contamination. A weapon that if used would create a 
backlash against the continued use of nuclear power in America, a 
backlash against federal agencies and their efforts at transporting 
these materials, and a backlash against anyone in charge at the time of 
the attack, and responsible for protecting public health and welfare 
against such actions.
    For example, imagine if you will how an attack, successful or not, 
would threaten all nuclear power and research, create an immediate 
stoppage of shipments and cause an extensive investigation into safety 
and security procedures. Additionally, it would be a publicity disaster 
of unimaginable proportions for those charged with the moral, legal, 
and ethical responsibility of protecting the public.
    A proactive search for a more viable and safe alternative, like a 
50-100 year term strategy of sheltering the wastes in place at their 
existing storage facilities, would allow the public to gain a semblance 
of acceptance for DOE actions and thus reduce the potential impact of 
this particular symbolic effect. The current DOE efforts to push ahead 
with the Yucca Mountain proposal, without completing the scientific 
study of the proposed repository, can only fuel fear of the DOE and 
increase the symbolic impact of this type of attack. Likewise, the 
failure by the NRC and DOE to adjust to the new reality of terrorism 
may have an equal or greater devastating consequence.
    Lastly, the whole shipment effort has the potential to create a 
mass counter culture based revolutionary opposition movement similar to 
that seen in recent years regarding the negative effects of 
globalization. Here, public safety and security experts saw the banding 
together of dissimilar groups like anarchists, labor advocates, and 
human rights activists to symbolically fight what they may consider the 
negative aspects of globalization.
    This is an illustrative model for future large-scale opposition 
groups who will oppose the shipments to the proposed Yucca facility. 
The result of this social development is that America will be facing 
what has already transpired in Germany and other industrial nations: 
Widespread anti nuclear protests from well-organized and highly 
motivated protest groups. These shipments have the symbolic value of 
sparking such protests and these in turn increase the risks of an 
attack when transporting the materials, not necessarily by the groups 
themselves, but by others and within the context of their protests.
    The symbolic nature of terrorism is multifaceted and difficult to 
codify into risk assessment methodologies, especially when those 
methods do not account for asymmetrical situations that could lead to 
an increased risk of an attack. Likewise, it is difficult to assess the 
risk of attacks when the DOE and NRC consider few, if any, non-
traditional terrorist tactics that may form the basis of a human 
initiated mass contamination event using radioactive wastes. The 
connection between symbolic events and waste shipments is examined in 
the next section of this testimony.
 what types of symbolic or everyday situations could be envisioned and 
              could they be a threat to shipment security?
    One symbolic issue not necessarily recognized in shipment planning, 
and that is subject to change over time as America becomes more 
populated, is that of geographic location. The attack location plays an 
important symbolic part in the identification and assessment of 
situational terrorism risks for SNF and HLRW shipments from the 
existing production and storage sites and to the proposed repository. 
Examples include:
    1. Highly populated urban locations, especially large downtown 
office buildings, shopping districts, hotel complexes, convention 
centers, and specialized tourism areas are a different area of concern. 
These locations are different from other populated areas since urban 
attacks pose a different level of logistical challenge to the first 
responder community. Urban attacks may also create an initial higher 
public relations profile for the terrorist cause because of their 
proximity to a more intense concentration of media outlets.
    2. Locations of special events such as the Olympics, the Super 
Bowl, and other major sporting events, major international trade shows 
or conventions, and national political party conventions are examples 
of other types of situational events that will offer attractive 
symbolic target opportunities. These events have a symbolic value that 
could potentially draw an adversary because of the potential media 
coverage and/or because of the adversary's ability to communicate a 
message by attacking a particular type of event.
    3. Suburban locations near residences and difficult-to-evacuate 
facilities such as schools, hospitals, airports, shopping malls, 
industrial plants, amusement parks, sports stadiums, race tracks, and 
concert halls. The symbolic value of these targets and the motivation 
to perpetrate an attack in close proximity to these types of areas 
differs from that found in other areas. For example, a terrorist could 
choose to perpetrate an attack on these geographic areas to create a 
highly disruptive mass evacuation event.
    4. Rural locations near environmentally sensitive activities and 
resources such as farms, ranches, surface and underground water 
supplies, resorts, wildlife refuges, parks, and other public recreation 
facilities. Such areas have a different symbolic factor than that posed 
by other geographic areas, and the aggravated use of that value depends 
on the motives of the adversary.
    While location and situational factors are important, the outcome 
of a human initiated mass radiological contamination event can vary, 
depending on a number of variables. These factors could include the 
motivation of the adversary, the type of attack, the weaponry used, and 
other salient variables. Proactive terrorist risk assessment 
methodologies would account for such variations in tactics and 
recognize the variability of the symbolic value a terrorist could 
attach to such tactical considerations.
    For example, when considering these shipments and the contemporary 
terrorism threat potential, it is important to consider a range of 
terrorist attack outcomes such as:
    1. Attacks designed to induce a breach of the cask where the 
contents are damaged, where the various radioactive cargoes to be 
transported are released into the environment, and where the effects of 
radiation emissions as a result of the loss of shielding could be a 
danger to human health.
    2. Attacks can also yield a result where the cask is damaged, but 
with no large-scale release of radioactive materials. This could result 
in a measurable radiation emission from loss of shielding, but not a 
radiological dispersion equal to that from a full breach.
    3. An attack could also yield a cask, the transportation vehicle, 
or the transportation infrastructure being damaged during the attack, 
but because of the engineered controls and physical design of the cask, 
the shipment would suffer no release and no loss of shielding. The 
recovery effort for such an incident would be delicate since there 
would exist a potential loss of containment and/or shielding, but in 
general this would be a less risky situation than that posed by a full 
or partial breach of the shielding.
    4. The fourth category is where the cask is undamaged and the 
attack fails to yield any chance, or actuality, of a radiological 
dispersion. Under this scenario the actual attempt itself would have 
symbolic ramifications as noted above.
    Considering the range of outcomes of an attack against these 
shipments by use of such a typology is a critical omission in current 
analytical and methodological assessment models being used by the DOE, 
NRC, and various agencies and contractors who are assessing the 
security of these shipments. In the next section specific types of 
attack scenarios are discussed to help illustrate the evolving nature 
of the vulnerability of these shipments and how transportation planners 
who focus only on past experiences with shipments, and not on the 
future risk realities that these shipments will face, underestimate the 
impact of the changing face of terrorism.
       what types of attacks are viable against these shipments?
    The attack scenarios presented below are composites of more 
detailed work presented by Nevada and various academic experts from 
around the world. They represent several of the many varieties of in-
transit terrorism tactics that have yet to be studied in any meaningful 
way as very real and probable transportation events during the lifespan 
of the proposed shipment effort. They also represent one way to 
understand the risks these shipments pose, since they are exemplars of 
asymmetrical tactics not addressed by DOE/NRC regulation and/or 
security practice in the American radioactive waste transportation 
industry.
    The first is a capture and breach scenario. If the transportation 
vehicle and cargo were to be captured and placed in an immobile state 
by any number of means, it would be susceptible to the application of 
explosives and/or a human engineered breach.
    Traditionally, most regulatory and security tactics focus on denial 
of the opportunity to capture and transport the radioactive cargoes 
thereafter, but this is an altogether different tactic and requires 
different responses.
    Success by the terrorists at fielding a capture and breach tactic 
would depend on how long the incident response would take and how 
effective the terrorists could be at holding off local emergency 
responders. Thus, depending on their success, the cargo could become a 
radiological dispersion device if the attackers were to breach cargo 
shielding and release the radioactive contents into the environment 
wherever the location of the incident.
    Several relative capture and breach factors not currently 
anticipated, or underestimated, by waste shipment risk analysis and 
security practice, include the presence of pressurized cargoes and the 
potential radiological dispersion effect of internal cask gasses, the 
preexisting physical degradation of the fuel pellets in SNF cargoes 
that could increase the amount of respiratable particles subject to 
dispersion, and the potential to further degrade the integrity of the 
cargoes as a result of a co-existent fire resulting from the terrorist 
attack, and thus increasing the radioactive dispersion plume.
    The capture and breach scenario may represent one variety of a 
maximum severe incident and could result in a release of radioactive 
cargo not anticipated by current regulations and/or cask design 
specifications. Compounding the analysis of this scenario would be such 
variables as the type of cargoes, the preexisting integrity of the 
cargoes, and the potential for a co-existent fire that may increase the 
distribution of the plume after an incident would transpire.
    A transportation infrastructure attack scenario would likewise 
represent a risk to these cargoes. The huge variety of topography, and 
the enormous range of infrastructure components that would be traversed 
in the nationwide shipment of SNF and HLRW present unique challenges to 
Yucca Mountain transportation safety and security planners. For 
example, a deliberate collapse attack on a radioactive waste shipment 
in a tunnel could expose the cargo to risks of an impact breach, a 
crush breach, and/or a fire related incident sufficient to cause a 
failure of the controls engineered into the physical design of the 
casks that would eventually be used to move these cargoes. Likewise, an 
attack that took place on a bridge and in proximity to populated areas 
(e.g., the Hudson, Delaware, etc.) may also pose unique security 
challenges.
    The transportation infrastructure breach is likewise a type of 
asymmetrical scenario that may represent a maximum severe incident and 
could potentially result in a release of radioactive cargo not 
anticipated by current regulations and/or cask design specifications.
    Another scenario example is that of a remote attack using current 
generation weapons. If the transportation vehicle and its cargo were to 
become vulnerable to line of sight or direct attack tactics and weapons 
(e.g., readily available anti-tank missiles, stolen military armor 
piercing weapons, and/or one of an emerging generation of munitions 
with sufficient penetrating power), an adversary could use existing 
regulatory protocols like the disabling device on these vehicles, and/
or in conjunction with geographically disadvantageous locations, to 
isolate the moving target, fix that target, and attack the vehicle from 
a distance of upwards of 3000 meters.
    Remote attacks using such weapons as the Milan or TOW II missiles 
are a type of scenario that may represent a maximum severe incident and 
could potentially realize a release of the radioactive cargo not 
anticipated by current regulations and/or cask design specifications. 
This type of attack scenario will evolve over time and as increasingly 
more sophisticated weapons become available on the black market.
        why repository shipments are more vulnerable to attack 
                       than fixed site locations
    Once repository shipments begin, saboteurs and attackers will be 
presented with what is called a ``target rich'' environment. This 
tactically advantageous environment will provide them the opportunity 
to plan and execute a terrorist attack, using features of the proposed 
transportation effort to their advantage. The shipments will not be as 
secure as they would be if stored at nuclear power plants or DOE 
facilities, since it would be impossible to recreate the same level of 
safety and security used in these facilities. In fact, these waste 
shipments will be more vulnerable than if they were left where they 
currently are. They will become a symbolic target, face a variety of 
adversaries both foreign and domestic, and have the potential to be 
used as weapons of mass radiological contamination.
    The overall time and effort necessary to transport the materials 
across the country is an advantage to terrorists. The choice of a 
single centralized repository that is located far from the majority of 
production sites is another advantage, since these shipments will need 
to travel long distances. Such sustained transportation efforts will 
produce easily identifiable and predictable shipment characteristics 
such as set times of day when a shipment is most likely to pass an 
attack location and large numbers of shipments along identifiable 
routes from which adversaries could pick and choose their targets.
    Such a massive shipment effort also affords the terrorist multiple 
and simultaneous attack opportunities. After September 11, 2001 it is 
hard to disregard the potential for large-scale suicide based terrorist 
attacks transpiring in different locations at the same time and focused 
on the same type of symbolic target. The numbers of shipments (be they 
in the form of the DOE's mostly rail plan, the mixed rail/highway plan, 
or the primary highway shipment plan) will increase the likelihood of 
an adversary being able to acquire the target (shipment) and thereafter 
execute an attack on one or more of the many highway, railway, or 
waterway shipments that will transpire.
    Massive numbers of shipments, predictable schedules, identifiable 
cargoes, and the overall length of the transportation routes, are all 
factors that add additional risks to the proposed Yucca Mountain 
program. The additional miles equal many more insecure areas and lower 
the potential for appropriate security defenses that can be planned and 
executed. Moving these materials out of their current safe and secure 
locations decreases the potential defense options available to counter 
terrorism planners, since the ability to secure tens of thousands of 
miles of roadways, railways, and waterways at the same level as that 
available at a power plant would be nearly impossible to achieve.
    The policy alternative available to you today is far easier and 
more logical than adding more targets for terrorists to attack across 
the span of America's transportation infrastructure. From a strictly 
security and safety standpoint, these materials are better off where 
they sit, behind the security of walls and fences, protected by trained 
and professional plant security, and secured by regulations and 
procedures that have been designed to protect fixed site locations 
where nuclear wastes are stored.
    If allowed to be sheltered in place at those facilities for 50 to 
100 years, these wastes will become less and less toxic. That means 
that their radioactive inventory will become less of a risk to move, 
and the symbolic value of an attack will be reduced. We are in an 
enduring period of threat by terrorists and since this nation will not 
soon be abandoning its use of nuclear energy, allowing these cargoes to 
be sheltered in place is a viable alternative.
                           concluding remarks
    Terrorism is a viable threat to nuclear waste shipments and the 
engineered controls put into the shipment casks are not equal to the 
challenge of asymmetrical tactics and motivated adversaries willing to 
commit what they consider altruistic suicide in the name of a cause. 
Current regulations, practice, and engineering do not account for the 
potential of 21st century terrorism and emerging modifications in 
terrorism tactics and philosophy.
    Terrorism is changing, and to counteract the enduring threat posed 
to our way of life, we must reconsider our existing and future tactics 
and security arrangements. Until a safe and secure transportation plan 
capable of protecting the public interest can not only be articulated 
but battle tested, a plan that accounts for the radical change in 
terrorism illustrated by the September 11, 2001 attacks, we should stop 
the forward movement of this risky process.
    Without due consideration and contingencies for the emerging 
asymmetrical terrorism tactics, it is folly to proceed with the Yucca 
Mountain project. Likewise, allowing the DOE and NRC to proceed without 
due consideration of the actual risks posed by terrorism is tantamount 
to endorsing bureaucratic indifference of unimaginable consequences.
    I urge this body to solicit testimony not only on the historical 
safety and security records of these agencies, but to seek out the 
actual plans that have been developed to face the world we live in 
today, a world where large groups of well trained and highly motivated 
adversaries are willing to commit mass suicide to achieve an objective. 
A world where the unwritten prohibitions against mass murder by 
terrorist attack has not only been replaced, but what has been embraced 
in its place is a world where the terrorists are rewarded for mass 
victimization.
    While no assurances can be made for the future, one thing is 
certain--if we offer an attractive target, someone will make an attempt 
to attack it. Do not allow the nation's nuclear waste products to 
become the golden carrot for would be terrorists. Nuclear waste 
shipments will be targets and unlike other targets, these shipments 
will have sufficient symbolic value to attract well-motivated and 
dangerous adversaries. Do not give them the easy opportunity to prove 
us unprepared once again.
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify and answer questions today.

    The Chairman. Thank you very much.
    Next we'll hear from Dr. Victor Gilinsky, who is a former 
member of the U.S. Nuclear Regulatory Commission and is now a 
consultant.
    Go right ahead, Dr. Gilinsky.

   STATEMENT OF VICTOR GILINSKY, Ph.D., FORMER COMMISSIONER, 
                 NUCLEAR REGULATORY COMMISSION

    Dr. Gilinsky. Thank you, Mr. Chairman. I am Victor 
Gilinsky. I am an energy consultant and a former NRC 
commissioner. I've been engaged by Nevada to help out on Yucca 
Mountain issues.
    I'd like a few minutes to concentrate on the two issues 
that I think are most important for your upcoming vote. The 
first is the relation of Yucca Mountain to the future of 
nuclear power in the United States. Some people think that is 
the real issue and a reason for approving the project no matter 
what. I'd like to persuade you that nuclear power is not at 
stake in this vote.
    My second point concerns the validity of the assurances 
that you've received that the project is based on sound 
science. Here I want to underline the importance of the 
reservations of the nuclear waste technical review board.
    To consider the first point, what Yucca Mountain means for 
nuclear power, we can learn something from history. You know, 
the Government's plan in the early 1970's for long-term waste 
management was for what we would now call ``monitored 
retrievable storage.'' The Government moved away from that plan 
and adopted the current deep geologic permanent repository 
concept primarily because this was thought at the time 
necessary to protect the nuclear industry's immediate future.
    To fight off court challenges at the time by environmental 
opponents, it was thought essential by top officials, top 
nuclear officials, to be able to say there was a permanent 
solution to the nuclear waste problem. And so in this way, 
without much further thought, the Government lashed itself to 
the concept of permanent disposal. And this concept then took 
on a life of its own. Because permanent disposal entails or 
carries with it the possibility of irretrievable and 
irremediable error, the whole area became enmeshed in 
controversy, which continues.
    Now, I bring this up because the current effort to stampede 
the Nation into Yucca Mountain continues to be premised on the 
mistaken assumption that the future of nuclear power in this 
country depends on this project. It does not. The truth is that 
Yucca Mountain is not needed to continue or even expand nuclear 
power use. There is ample opportunity to expand existing NRC-
approved on-site storage. In time the spent fuel casks should 
be collected at locations specifically dedicated to spent fuel 
storage. But the important thing is that there is time to do 
this and to do a good a responsible job in terms of safety and 
security and to do it at far lower cost than would be done at 
Yucca Mountain.
    And also do not think that if we go forward with Yucca 
Mountain this is going to be a plus for the nuclear industry. 
It's more likely to be a continuing source of contention that 
will spill over into other aspects of nuclear power, 
contentions over safety, over the environment, over Federal 
preemption, over licensing shortcuts, over transportation, and 
over its huge and growing expense.
    DOE actually brags about the money spent so far in 
researching this site, as if to say billions of dollars can't 
be wrong. This brings me to the issue of sound science.
    Now, proponents obviously accept the assurances; opponents 
don't accept the assurances. But significantly everyone agrees 
that you have to be convinced that the project is based on 
sound science in order to approve it.
    So now consider what the real experts, the members of the 
nuclear waste technical review boards say about it. As you 
know, the board has termed the technical basis for DOE's 
repository performance estimates as ``weak to moderate.'' 
That's not a very good grade and not a very good report.
    Among other things, the board has criticized lack of 
critical corrosion data on the metal waste containers that 
would be deposited in the repository. Now that's especially 
important as DOE relies almost entirely on the integrity of the 
waste containers to meet NRC's licensing standards. More 
generally, the board has made clear that categories of 
technical work that should have been done by DOE before site 
selection have not been done.
    Now, I've said the board members are experts. More 
importantly, they are your experts, your technical watchdogs. 
Congress created the board in 1987, and the law says, ``to 
evaluate the technical and scientific validity of activities 
undertaken by the Secretary.'' In this sea of controversy, they 
are just about the only ones you can rely on for highly 
competent and impartial advice. If the board doesn't give this 
project its strong endorsement for sound science, how can 
Congress do so? This question is especially important 
concerning the suitability of the site, that is, the site apart 
from the waste container and the engineered barriers.
    I know that DOE says this site has been studied to death. 
But DOE never evaluated the site against its own geologic 
criteria, even though it is required to do so by the waste act. 
NRC is not going to do this either. It has other 
responsibilities.
    By default, therefore, if you go forward, you will not just 
be endorsing a site suitability finding by the Energy 
Department or have the consolation of knowing that if you do go 
forward this will be checked by NRC. You will be making the 
technical evaluation of the site suitability yourselves, which, 
it seems to me, makes the cautionary message of the technical 
review board all the more critical.
    We know that DOE is not remotely ready to file an NRC 
application soon after your approval, as is required by law. It 
seems to me this is not the time to give the department a green 
light. It would reinforce the wrong kind of behavior. This is 
the time to rethink the present course.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Gilinsky follows:]
  Prepared Statement of Victor Gilinsky, Ph.D., Former Commissioner, 
                     Nuclear Regulatory Commission
    Mr. Chairman, Members of the Committee:
    I am Victor Gilinsky. I am an energy consultant and have been 
engaged by the State of Nevada to assist on Yucca Mountain issues. I am 
here to present my views on the Senate Joint Resolution to approve 
Yucca Mountain as the site for a national high-level nuclear waste 
repository.
    My involvement with nuclear power and nuclear waste issues is long-
standing. I served two terms as a Commissioner with the U.S. Nuclear 
Regulatory Commission (NRC), having been appointed by President Ford 
and re-appointed by President Carter. Prior to the NRC, I was head of 
the Physical Sciences Department at the Rand Corporation in California. 
In the early 1970s, I was on the planning staff of the NRC's 
predecessor agency, the Atomic Energy Commission.
                the issue is not nuclear power's future
    At that time the government's plan for long-term storage of nuclear 
waste was what would now be called monitored retrievable storage. After 
the reorganization of nuclear agencies in 1975, the government 
abandoned this approach and adopted the permanent geologic repository 
concept. This was done not to protect public safety in the distant 
future, but to protect the licensing of nuclear plants against then-
ongoing court challenges by environmental activists and other 
opponents. The supporters of nuclear power thought it was essential for 
the industry's immediate future to be able to say the nuclear waste 
problem was solved permanently. In this way, without much consideration 
of its wisdom or thought to the difficulty of actually carrying it out, 
the government lashed itself to this concept and its long-term 
obligations. Because permanent, deep geologic disposal of nuclear waste 
carries with it the possibility of irretrievable and irremediable 
error, the subject quickly became enmeshed in controversy that 
continues to this day.
    I mention this because the current effort to stampede the nation 
into adopting Yucca Mountain as the site for a deep geologic repository 
continues to be premised on the mistaken assumption that the immediate 
future of nuclear power in this country depends on bringing this 
project to fruition. This view was expressed by the Wall Street 
Journal's editorial page: ``The real debate here,'' the Journal said, 
``is less about Yucca than it is about nuclear power,'' and has been 
echoed by several other major newspapers. The truth is that Yucca 
Mountain is not needed to continue, or even expand, nuclear power use. 
In fact, there is ample opportunity to expand existing, NRC-approved, 
on-site storage. In time, we should collect the spent fuel casks at 
locations dedicated to long-term spent fuel storage. But the important 
thing now is to recognize that there is no immediate crisis, that there 
is time to do this and to do a good and responsible job in terms of 
safety and security, and to do it at a much lower cost to ratepayers 
than Yucca Mountain represents.
    Yucca Mountain is not likely be a boon to nuclear power, as some 
industry people seem to think it will be. Indeed, Yucca Mountain is 
much more likely to become an unhelpful and continuing reminder of 
nuclear power's history of contentions--over safety, over the 
environment, over federal preemption, over licensing short-cuts, over 
transportation, and over expense.
               the project has taken on a life of its own
    The expense associated with Yucca Mountain is already huge, and 
continues to grow--approaching as much as $100 billion. Like other 
projects that don't meet a pressing need or have a definite measure of 
performance, it has taken on a life of its own--it is propelled by 
public money, supported by interested lobbies, and protected by a 
shifting array of arguments. These arguments don't, however, stand up 
to serious examination. You should not accept them as a basis for 
approval.
       yucca mountain is not the answer to current concerns over 
                          spent fuel security
    The most egregious of the pro-Yucca arguments has to do with spent 
fuel security--egregious because it exploits public fears in the wake 
of September 11th. People have been given the idea that spent fuel from 
around the country will be moved quickly to Yucca Mountain where it 
will be placed deep underground. The mantra is ``better one site than 
131.'' But even if Yucca Mountain opened on schedule, according to the 
Department's projections, it would be several decades before the spent 
fuel could be shipped to Nevada, and probably decades more before the 
fuel actually went underground. And this scenario plays out even if we 
never license another nuclear plant. If we do license more nuclear 
power plants (which is in large part the point of opening a spent fuel 
repository), we will have lots of spent fuel in storage at reactor 
sites indefinitely. Because of the built-in delays involved, Yucca 
Mountain is not the answer to the current spent fuel security problem. 
The best thing we can do right now in this regard is to get the spent 
fuel at the reactor sites promptly moved into secure storage casks in a 
protected area at the reactor site. Such casks have already been 
licensed by the NRC and are in use at several sites.
             appeal to national security is quite a stretch
    DOE also diverts attention from the important long-term Yucca 
Mountain issues with the claim that Yucca Mountain is important to our 
national security. The claim is that without Yucca Mountain our nuclear 
Navy operations could be constrained and U.S. nonproliferation policy 
could be undermined. First, let's face it; Naval operations are not 
going to be constrained no matter what happens at Yucca Mountain. 
That's a hollow argument. Second, DOE has the nonproliferation argument 
backwards. The proposed U.S.-Russian plutonium-recycling program to 
which DOE refers--the waste from which DOE wants to put in Yucca 
Mountain--would in my view raise the risks of proliferation and nuclear 
terrorism by encouraging the commercial use of plutonium.
    Aside from the deficiency of these DOE arguments, there is 
something basically worrisome about the lopsided appeal to national 
security interests in support of Yucca Mountain. Is the Department 
merely distracting attention from the problems of the site's geology? 
Or is it setting the predicate for future national security exemptions 
from safety and environmental requirements?
            doe did not apply its own geologic site criteria
    The site obviously has problems, the chief one being lots more 
water than anyone expected. (I was myself surprised to find water 
dripping on my head in the test cavity in the center of the Mountain.) 
Water promotes corrosion and movement of radioactive material and so 
its presence in a repository is a serious drawback. The current design 
concept now includes titanium drip shields--in effect, titanium 
umbrellas--over the waste packages to be placed in the Yucca Mountain 
tunnels. But the water problems don't end there. The 15 years of 
geologic investigation and the several billions that DOE spent don't 
make this a good site. The bottom line is that the site didn't pass 
DOE's own geologic selection criteria--DOE never risked applying them. 
In fact, in December 2001, shortly before it forwarded the site 
recommendation to the president, DOE threw out the set of geologic 
criteria it had adopted as a formal rule in 1984. In its place, DOE 
then adopted a new rule that made site geology irrelevant if the metal 
container encasing the waste was good enough.
             doe site selection did not comply with the act
    This action was at odds with DOE's responsibilities under the 
Nuclear Waste Policy Act. The Act tells DOE to do two separate things--
(1) select a suitable site, and (2) make sure it can be licensed by NRC 
for its intended purpose. First, DOE was to recommend or reject Yucca 
Mountain, with geologic considerations to be the primary criteria. DOE 
sloughed off this responsibility and decided all it had to do was 
satisfy NRC's licensing limit on potential radiation doses to the 
nearby human population. But NRC's licensing rule doesn't have any 
separate requirement for effectiveness of geologic barriers. In short, 
DOE avoided the Act's demand for an answer to the question of site 
suitability by ``deferring'' to NRC, but NRC will not answer the 
question either. This cannot be what Congress intended.
    It now appears that DOE's waste bureaucracy has rationalized its 
failure to comply with the Act's tough geologic requirements on their 
view that Congress already selected Yucca Mountain back in 1987. 
Congress was not, however, lowering the geologic standards in selecting 
Yucca Mountain for characterization. Indeed, that was also DOE's 
reading of the 1987 Amendment to the Act up until about 1996. Since DOE 
has now abandoned its geologic criteria, Congress is now being asked 
not merely to ratify a DOE site suitability decision, but instead to 
make one itself in view of DOE's default. Under this approach, a site 
suitability analysis and recommendation, as contemplated in the Act, 
will never be made. Congress should not allow this and should insist 
that DOE comply with the Act.
   if doe will rely mainly on its miracle metal container--why then 
                            yucca mountain?
    As it is, DOE plans to get around Yucca Mountain's geologic 
deficiencies with its ``miracle metal'' container (to use the Nuclear 
Energy Institute's appellation), which is purported to meet NRC's 
licensing standards all by itself. If we are to suppose this is true, 
and therefore the repository site doesn't need favorable natural 
characteristics, why then should such a repository be in Nevada as 
opposed to anywhere else? Why not store the miracle containers at or 
near existing reactor sites and eliminate the risk of transporting 
high-level radioactive waste by truck, rail and barge thousands of 
miles across the country?
  congress should rely on nwtrb regarding ``sound science'' assurances
    A phrase that appears over and over in documents in support of 
putting the waste in Yucca Mountain is ``sound science.'' We are 
assured that the project is based on ``sound science.'' Significantly, 
the Secretary of Energy has said he would not have recommended the site 
were he not convinced that it was based on ``sound science.'' That says 
this body, the United States Senate, should not be approving the site 
if you are not similarly convinced.
    So now consider what the real experts--the members of the U.S. 
Nuclear Waste Technical Review Board--have said. If there are any 
heroes in this struggle, they are the Board members and their Chairman. 
They have carried out their responsibilities competently and even-
handedly in difficult circumstances and have expressed themselves 
clearly and precisely. In the din of exaggeration on all sides it is 
possible to miss the vital importance of their message. You will hear 
from them directly tomorrow, but we should listen today to what they 
have already said.
       nuclear waste technical review board: technical basis is 
                          ``weak to moderate"
    The Board has termed the technical basis for DOE's repository 
performance estimates as ``weak to moderate''--not an encouraging 
evaluation. The Board has criticized the lack of critical corrosion 
data on the metal waste containers to support DOE's basic design 
concept. That's especially important as DOE relies almost entirely on 
the integrity of the metal waste containers to meet NRC's licensing 
standard. As one of the Board members said, ``We are betting the 
performance of the systems on the long term performance of these 
effectively new materials.''
    Parenthetically, earlier this year a steel pressure vessel at an 
Ohio nuclear plant was found to be severely and dangerously corroded, 
to the point that a serious accident was barely averted. I mention this 
only because the metals involved and their environment were much better 
known than those planned for use in Yucca Mountain, and yet the 
corrosion came as a great surprise. In short, the lack of corrosion 
data the Board points to is a serious deficiency.
    In March the Board wrote DOE expressing concern that important 
water flow processes around Yucca Mountain ``remain poorly understood'' 
and should be studied. DOE wrote back with the bureaucratic equivalent 
of ``don't call us, we'll call you.'' It wasn't the response of an 
agency dedicated to assuring a firm project basis in sound science. In 
a more general comment, at last week's meeting of the Technical Review 
Board, the Board chairman said very simply and clearly that technical 
work that should have been done before site selection has not been 
done.
    The Board members are not only experts; they are your experts, your 
technical watchdogs. Congress created the Board in 1987 to ``evaluate 
the technical and scientific validity of activities undertaken by the 
Secretary.'' In this sea of controversy, they are the ones you 
appointed and can rely on for highly competent and impartial advice. If 
the Board doesn't give this project its strong endorsement for ``sound 
science,'' how can Congress do so?
                         time to stop to think
    One thing is clear. DOE is not remotely ready to comply with the 
law's requirement to file an NRC license application 90 days after 
Congressional approval. DOE is talking about applying to NRC for a 
license in 2004, and there are some suggestions that it will be even 
later. They say they are keeping all options open--that it may be a 
high temperature repository or it may be a low temperature repository. 
That's another way of saying they don't even have a design. The trouble 
is, one concept may require a much larger repository than the other, 
and so the cost is up in the air, too.
    The project doesn't make sense in terms of expense, security, or 
safety, or even in terms of the future of nuclear power. This is not 
the time to give the Department a green light. This is the time to 
rethink the present course.

    The Chairman. Thank you very much. Appreciate your 
testimony.
    Our next witness is the Honorable Rocky Anderson, who is 
mayor of Salt Lake City, Utah.
    We're very pleased to have you here, Mr. Mayor.

        STATEMENT OF ROSS C. ``ROCKY'' ANDERSON, MAYOR, 
                       SALT LAKE CITY, UT

    Mr. Anderson. Thank you, Mr. Chairman, members of the 
committee. I certainly appreciate the opportunity to comment on 
the wholly inadequate proposal to transport deadly nuclear 
waste and the most deadly material known to man today across 
country for storage at Yucca Mountain and the shortsighted 
national nuclear policy that has led to this proposal.
    The people of Salt Lake City are intimately familiar with 
the tragic politics of nuclear exploitation. Tens of thousands 
of Utah downwinders and downwinders across America have 
suffered and died and continue to suffer and die as the result 
of nuclear weapons testing in Nevada during the Cold War. And 
now a coalition of electric utilities is seeking to exploit the 
impoverished Goshute Indian tribe to create a purported 
temporary storage site for spent nuclear fuel rods just 70 
miles from Salt Lake City.
    From experience, we know that the Yucca Mountain proposal 
would put most Americans, including all the citizens of Salt 
Lake City, at tremendous risk, by creating tens of thousands of 
highly lethal dirty bombs and shipping them through large 
metropolitan areas and 43 States on a daily basis.
    Now, the issue has recently arisen as to how many shipments 
this would really be, and Senator Thomas mentioned just a 
moment ago that DOE is now saying it would be 175 shipments per 
year. This has been truly a moving target in terms of DOE's 
analysis. In a review of department oversight from the Office 
of the Secretary, Department of Transportation, just within the 
last 4 months, they note there that according to DOE forecasts, 
there would be nearly 1,700 shipments by the year 2015, ten 
times as many as now DOE is asserting.
    To make matters worse, the Yucca Mountain project would not 
be a long-term solution to the problem of nuclear waste, as 
contemplated by the 1982 act. The project only further 
accommodates the irresponsible actions of our Nation's nuclear 
industry, facilitating the production of even more nuclear 
waste, without addressing the fundamental issue of how to deal 
with the ever increasing amounts of these deadly substances.
    A detailed transportation plan for shipping nuclear waste 
to Yucca Mountain has not yet been developed and not one actual 
full-size transportation cask in use has been physically tested 
to withstand plausible accident or terrorism scenarios. Without 
adequate research as to the safety of transporting this waste, 
without details of where and how it will travel, the American 
public, our representatives in Congress, and our Federal 
regulatory agencies are being asked to sign off on one of the 
most expensive projects and perhaps the most dangerous project 
in the history of the United States. Catastrophic loss of life 
could accompany a single major accident or terrorist strike in 
a metropolitan area, such as Chicago, Atlanta, and St. Louis, 
or in a major watershed area like Salt Lake City's. Such a 
scenario is almost a certainty. Human error is inevitable.
    Scientists predict as many as 340 transportation accidents 
and almost 2,400 incidents involving the waste during the 
transport period. These numbers do not include the risks of 
terrorism, a very real possibility even before the September 
11, 2001, terrorist attacks. A single terrorist attack, which 
could be carried out with far less planning and resources than 
the September 11 attacks, could result in thousands of cancer 
fatalities and cost upwards of $17 billion simply to clean up 
and respond to.
    Protecting the Salt Lake, 2002, Winter Olympic Games for 
less than 2 weeks in a relatively constrained geographical area 
was a monumental task, requiring over 15,000 law enforcement 
officers and costing over $310 million. Adequately protecting 
tens of thousands of highly lethal shipments of nuclear waste 
as they travel thousands of miles through dozens of major 
cities over a period of 38 years will be impossible.
    With tragic ramifications, our Federal Government has 
failed in the past to responsibly deal with major terrorism-
related security concerns. We implore you to acknowledge the 
horrendous terrorism-related security risks entailed in 
transporting by rail and truck highly lethal spent nuclear fuel 
and to assume the responsibility that is yours to protect the 
people of this country, including later generations, and to 
protect our economy from those risks.
    Perhaps the most astounding fact about all the 
transportation risks inherent in the Yucca Mountain proposal is 
that they serve no fundamental long-term purpose. The safety of 
communities where nuclear waste is generated will not be 
significantly increased. Plants will still produce waste on 
site and will still be just as likely to fail in generation and 
storage operations. They will also remain just as likely 
targets of terrorist attack, as they are today.
    There are no plans for the storage of waste after the year 
2036, when Yucca Mountain will be at capacity. Therefore, after 
creating all of the significant risks to millions of Americans, 
resulting from the Yucca Mountain project, we will not be able 
to say that we have solved the long-term problem of nuclear 
waste storage. We will only have facilitated the continuation 
and exacerbation of a dangerous situation that has no 
foreseeable solution short of vastly reducing or eliminating 
the production of nuclear waste.
    There is a better approach.
    First, nuclear fuel should be stored where it is produced 
until a comprehensive, safe, and permanent solution to the 
entire storage and transportation problem is found. This cannot 
be characterized as a ``not in my back yard'' argument. And to 
characterize the position of Utahans and Nevadans as simply a 
``not in my back yard'' argument epitomizes the crass hypocrisy 
of the industries and communities that have welcomed 
inexpensive nuclear power at their doorsteps, but now refuse to 
take responsibility for it in their back yards.
    Utilities proposing temporary storage of nuclear fuel at 
the Goshute Reservation or Salt Lake City have represented that 
these lethal materials can be safely stored in above-ground 
casks. If that is true, the materials can be stored in those 
casks where the materials are produced while Congress plans for 
an effective long-term solution to nuclear waste in America.
    Second, we must decommission nuclear powerplants at least 
until reprocessing or some other technology eliminates the 
problems of nuclear waste. Only 20 percent of electricity 
generated in the United States comes from nuclear power. We can 
and should make investments in construction and alternative 
general technologies that will make up for the energy generated 
by nuclear powerplants.
    We know that reversing the momentum behind the Yucca 
Mountain proposal will not be easy. It will take political 
courage. It will take an honest admission of failure, and it 
will take a return to integrity in the process, but it is the 
only way to take real steps toward reaching a permanent 
solution to the long-term problems of nuclear waste in America. 
Together we can make the hard decisions and take a leadership 
role in global environmental responsibility. While seeking to 
make good on broken promises of the past regarding the safe 
permanent storage of nuclear waste, Congress can finally set 
right our nation's nuclear policy for the long-term benefit of 
our country's public health, safety, and security.
    Thank you, Mr. Chairman.
    [The prepared statement of Mayor Anderson follows:]
       Prepared Statement of Ross C. ``Rocky'' Anderson, Mayor, 
                           Salt Lake City, UT
    I am Ross Anderson, Mayor of Salt Lake City, Utah. I appreciate the 
opportunity to comment on the wholly inadequate proposal to transport 
deadly nuclear waste across country for storage at Yucca Mountain and 
the shortsighted national nuclear policy that has led to that proposal.
    The people of Salt Lake City are intimately familiar with the 
tragic politics of nuclear exploitation. Thousands of Utah downwinders 
have suffered and died--and more continue to suffer and die--as the 
result of nuclear weapons testing in Nevada during the Cold War. 
Private companies target Utah as a prime dumping ground for so-called 
``low-level'' radioactive wastes. Further, a coalition of electric 
utilities is seeking to exploit the impoverished Goshute Indian tribe 
to create a purported ``temporary'' storage site for spent nuclear fuel 
rods just 70 miles from Salt Lake City.
    From experience, we know that the Yucca Mountain proposal would put 
most Americans, including all the citizens of Salt Lake City, at 
tremendous risk, by creating tens of thousands of highly lethal ``dirty 
bombs'' and shipping them through large metropolitan areas on a daily 
basis. To make matters worse, even if there were no serious risks from 
the transportation of this high-level nuclear waste, the Yucca Mountain 
project would not be a long-term solution to the problem of nuclear 
waste. The project only further accommodates the irresponsible actions 
of our nation's nuclear industry facilitating the production of even 
more nuclear waste and worsening our federal government's addiction to 
nuclear power, without addressing the fundamental issue of how to deal 
with the ever-increasing amounts of these deadly substances.
                          transportation risks
    A detailed transportation plan for shipping nuclear waste to Yucca 
Mountain has not yet been developed, and not one transportation cask in 
use has been physically tested to withstand plausible accident or 
terrorism scenarios.\1\ These facts illustrate the irresponsible and 
undemocratic manner in which this project is being developed. Without 
adequate research as to the safety of transporting this waste, without 
details of where and how it will travel, the American public, our 
representatives in Congress, and our federal regulatory agencies are 
being asked to sign off on one of the most expensive projects--and 
perhaps the most dangerous project--in the history of the United 
States.
---------------------------------------------------------------------------
    \1\ Resnikoff, Marvin. The Next Nuclear Gamble. New York: Council 
on Economic Priorities, 1983. Reference also: United States. Nuclear 
Regulatory Commission. Discussion Draft: An Updated View of Spent Fuel 
Transportation Risk. Office of Nuclear Material Safety and Safeguards: 
Washington, D.C., 2000. Reference also: Direct communication with Diane 
D'Arrigo. Nuclear Information and Resource Center, Washington, D.C., 13 
August, 2001.
---------------------------------------------------------------------------
    If the Yucca Mountain proposal were approved, huge amounts of 
nuclear waste would be transported through Salt Lake City every day for 
many years. Virtually all of the major shipping routes to Yucca 
Mountain from the eastern U.S., both rail and highway, traverse 
Utah.\2\ Salt Lake City will, by all estimations, see more traffic of 
nuclear waste than any other U.S. city except Las Vegas. Utah will be 
second only to Nevada in the number of high-level waste and spent 
nuclear fuel shipments routed through the state.\3\
---------------------------------------------------------------------------
    \2\ United States Map of Probable Routes. Map. State of Nevada 
Agency for Nuclear Projects, 1995.
    \3, 4\ Clark County, Nevada. Comments on Draft Environmental Impact 
Statement for a Geologic Repository for the Disposal of Spent Nuclear 
Fuel and High-Level Radioactive Waste at Yucca Mountain, Nye County, 
Nevada. Clark County, Nevada. Clark County, Nevada, 1999.
---------------------------------------------------------------------------
    Rail lines that may be used to transport spent fuel rods through 
Salt Lake City to Yucca Mountain lie 25 feet from residents'' 
backyards. The trains travel within 100 feet of playgrounds. Six 
schools are within half a mile of transportation routes, well in range 
to receive measurable daily doses of radiation from incident-free 
transportation. Two interstate highways, the major arterials for truck 
transport from the east coast, run right through the heart of our city. 
Trains stopped at crossings and trucks stopped in traffic will sit only 
a few feet away from our citizens on a daily basis.
    Scientists estimate that incident-free transportation, mostly by 
truck, will cause as many as 31 cancer fatalities nationwide.\3\ This 
incident-free scenario assumes transportation utopia and does not take 
into account the Department of Energy estimates for transportation 
incidents and accidents.
    Catastrophic loss of life could accompany a single major accident 
in a metropolitan area or in a major watershed area like Salt Lake 
City's. Such a scenario is almost a certainty. Human error is 
inevitable. Scientists predict as many as 340 transportation accidents 
and 2,395 incidents involving the waste during the transport period.\4\ 
These numbers do not include the risks of terrorism--a very real 
possibility even before the September 11, 2001 terrorist attacks. A 
single terrorist attack, which could be carried out with far less 
planning and resources than the September 11th attacks, could result in 
thousands of cancer fatalities and cost up to $17 billion in adverse 
economic impacts.\5\
---------------------------------------------------------------------------
    \5\ Marvin Resnikoff, Ph.D. ``Testimony to the U.S. House of 
Representatives, Committee on Transportation and Infrastructure, 
Subcommittee on Highway and Transit, Subcommittee on Railroads,'' 25 
April, 2002.
---------------------------------------------------------------------------
    Protecting the Salt Lake 2002 Winter Olympic Games for less than 
two weeks, in a relatively constrained geographical area, was a 
monumental task, requiring over 15,000 law enforcement officers and 
costing over $310 million. Adequately protecting tens of thousands of 
highly lethal shipments of nuclear waste as they travel thousands of 
miles through dozens of major cities over a period of 38 years will be 
impossible.
    With tragic ramifications, our federal government has failed in the 
past to responsibly deal with major terrorism-related security 
concerns. We implore you to acknowledge the horrendous terrorism-
related security risks entailed in transporting, by rail and truck, 
highly lethal spent nuclear fuel and to assume the responsibility that 
is yours to protect the people of this country, including later 
generations--and to protect our economy--from those risks.
the yucca mountain proposal is not a solution to our long-term nuclear 
                         fuel storage problems
    The most astounding fact about all the transportation risks 
inherent in the Yucca Mountain proposal is that they serve no 
fundamental long-term purpose. The safety of communities where nuclear 
waste is generated will not be significantly increased. Plants will 
still produce waste on site and will still be just as likely to fail in 
generation and storage operations. They will also remain just as likely 
targets of terrorist attack as they are today.
    There are no plans for the storage of waste after 2036, when Yucca 
Mountain will be at capacity.\6\ Therefore, after creating all of the 
significant risks to millions of Americans resulting from the Yucca 
Mountain project, we will not be able to say we have solved the long-
term problem of nuclear waste storage. We will only have facilitated 
the continuation--and exacerbation--of a dangerous situation that has 
no foreseeable solution short of vastly reducing or eliminating the 
production of nuclear waste.
---------------------------------------------------------------------------
    \6\ Honorable Shelly Berkley, NV. ``Opening Statement at the Joint 
Hearing on Transportation of Spent Rods to the Proposed Yucca Mountain 
Storage Facility, Subcommittee on Highways and Transit Subcommittee on 
Railroads,'' 25 April, 2002. Reference also: ``Abraham: Yucca Not 
Enough For Waste.'' Guardian Unlimited, 17 May, 2002.
---------------------------------------------------------------------------
    Congress has created a process with a foregone conclusion.\7\ It 
has made promises to the nuclear utilities that it cannot keep and 
continues to appease the utilities that have profited while creating 
this enormous, dangerous dilemma for our nation. It is guaranteeing 
that an ever-growing amount of nuclear waste will be strewn across the 
United States, putting many generations of Americans at serious risk.
---------------------------------------------------------------------------
    \7\ Fueled by enthusiasm for cheap power generation, Congress set 
up the circumstances for us to push forward with nuclear power without 
stopping to consider its pitfalls. Indeed, the designated role of the 
first nuclear agency, the Atomic Energy Commission, rife with conflicts 
of interest between advocacy and regulation, set the stage for the 
reckless pursuit of nuclear power by our federal government. Ford, 
Daniel. The Cult of the Atom: The Secret Papers of the Atomic Energy 
Commission. New York: Simon and Schuster, 1982.
---------------------------------------------------------------------------
                      a better, long-term approach
    There is a better approach. Instead of pursuing half-measures that 
put millions of Americans at risk, we can take effective steps now to 
accomplish permanent solutions, including the reduction of threats 
posed by the disposal of existing spent nuclear fuel and vastly 
curtailing the production of nuclear waste in the future.
    First, nuclear fuel should be stored where it is produced until a 
comprehensive, safe, and permanent solution to the entire storage 
problem is found. While nuclear power advocates dismiss this plea of 
Nevadans and Utahns as a ``Not-In-My-Backyard'' argument, they 
epitomize the crass hypocrisy of the industries and communities that 
welcomed inexpensive nuclear power at their doorsteps but now refuse to 
take responsibility for it in their backyards. The utilities proposing 
``temporary'' storage of nuclear fuel at the Goshute Reservation near 
Salt Lake City have represented that these lethal materials can be 
safely stored in above-ground casks. If that is true, the materials can 
be stored in those casks where the materials are produced while 
Congress plans for an effective, long-term solution to nuclear waste in 
America.
    Second, we must decommission nuclear power plants, at least until 
reprocessing or some other technology eliminates the problems of 
nuclear waste. Only 20% of electricity generated in the U.S. comes from 
nuclear power.\8\ We can and should make investments in conservation 
and alternative generation technologies that will make up for the 
energy generated by nuclear power plants. In the same way we led the 
atomic age, the United States has the opportunity to be a leader in 
conservation and alternative production technologies.
---------------------------------------------------------------------------
    \8\ Recommendation by the Secretary of Energy Regarding the 
Suitability of the Yucca Mountain Site for a Repository Under the 
Nuclear Waste Policy Act of 1982. February 2002: 1.
---------------------------------------------------------------------------
                               conclusion
    The people of Utah were lied to repeatedly when told that 
government plans were safe. We will not be lied to again. We will not 
allow Congress and the Department of Energy to treat Utah and Nevada as 
remote, disposable places, where the self-inflicted problems of the 
reckless nuclear power industry--and of a federal government that has 
been astoundingly irresponsible in its nuclear policy--can be 
conveniently dumped.
    Reversing the momentum behind the Yucca Mountain proposal will not 
be easy. It will take political courage. It will take an honest 
admission of failure. It will take a return to integrity. But it is the 
only way to take real steps toward reaching a permanent solution to the 
long-term problems of nuclear waste in America. Together, we can make 
the hard decisions and take a leadership role in global environmental 
responsibility. While seeking to make good on broken promises of the 
past regarding the safe, permanent storage of nuclear waste, Congress 
can finally set right our nation's nuclear policy--for the long-term 
benefit of our country's public health, safety and security.

    The Chairman. Thank you very much, Mr. Mayor.
    Our next witness is Michael J. Ervin, Sr., who is the vice 
president of the Peace Officers Research Association of 
California, located in Sacramento, California.
    Mr. Ervin, why don't you go right ahead.

   STATEMENT OF MICHAEL J. ERVIN, SR., VICE PRESIDENT, PEACE 
          OFFICERS RESEARCH ASSOCIATION OF CALIFORNIA

    Mr. Ervin. Thank you, Mr. Chairman, and good morning.
    My name is Sergeant Mike Ervin. I live right outside of Los 
Angeles, and I'm a law enforcement officer with the city of 
Pomona Police Department in California. I have been a police 
officer for 22 years.
    Before becoming a police officer, I was a professional 
truck driver. I drove tractor-trailers, either 48-foot-long 
single trailers or short doubles, on the interstates of 
southern California for 5 years and logged approximately a half 
a million miles.
    I realize this hearing is about the proposal to transport 
and store nuclear waste and Yucca Mountain in Nevada. I have 
been asked to tell you what I know about truck driving and 
truck safety.
    I am still licensed to drive tractor-trailers along with 
combination vehicles and even a bus. I take a written test 
every 4 years or so before my license expires. There is no 
requirement to take a road test. I have never hauled hazardous 
materials, although if I wanted to drive a combination vehicle 
carrying hazardous materials, I could. All I would have to do 
is take another written test. In California, that's all that is 
required for a truck driver to be licensed to drive a truck 
carrying hazardous materials is pass the written test and have 
a clean driving record.
    As a truck driver and a police officer, I have seen a lot 
of truck crashes. I have concluded there are two elements to 
truck safety. The first is mechanical, the truck itself. It is 
important to understand that an 80,000 pound 18-wheeler is 
inherently dangerous. The fact is borne out by statistics. 
According to data from the National Highway Traffic Safety 
Administration, 457,000 large trucks were involved in traffic 
crashes in 2000.
    There are a number of factors that make trucks so 
dangerous. The first is the weight of a truck. A heavy tractor-
trailer tends to have a higher center of gravity because the 
extra weight is typically stacked vertically. The higher center 
of gravity increasing the risk of dangerous rollovers. Heavy 
tractor-trailers are likely to accelerate more slowly and have 
difficulty maintaining speeds on upgrades, increasing speed 
differentials with other traffic and increasing the risk of 
accidents.
    If a truck is perfectly maintained, it will be a lot less--
excuse me--it will be less likely to be involved in a crash. 
Some trucking companies do an excellent job of maintaining 
their trucks. They are checked daily and needed repairs are 
made immediately. However, I operate in the real world. And 
there are other truck companies that are not so scrupulous. 
They put off repairs because they are expensive. In addition, 
sometimes with even the best-maintained trucks, mechanical 
things do go wrong. The way I see it, the only way to have a 
perfectly maintained truck is if God came down himself and 
turned the wrenches.
    What does this mean? It means that when brakes are in need 
of adjustments and pumped, a great heavy truck barreling down a 
highway may need hundreds more feet to stop. It means that the 
steering of those heavy trucks, which is always difficult, will 
be more so. It means that sharp turns made to avoid smaller 
vehicles that are too close will result in rollovers. I think 
of a tractor-trailer rig as a missile. The question is, Is it 
under control or out of control?
    These are all factors that this committee should take into 
account when considering any proposal to transport nuclear 
waste on public highways.
    A second element of truck safety is the human element. 
Again, there are many very good, experienced, responsible 
drivers who work for trucking companies which are very strict 
about limiting the hours that the drivers are on the road and 
which they insist that they get enough rest. Some of these 
companies don't even put sleepers on their cabs, because they 
want the drivers to get out of their trucks and sleep in 
hotels. And truck drivers often feel that they must keep moving 
in order to make enough money to support themselves. They 
cannot afford to stop by the side of the road and rest when 
they are tired. These tired truck drivers make the roads unsafe 
for all of us.
    Long-haul truck driving is extremely stressful and tiring. 
You must--have to monitor your speed, make sure you keep a safe 
distance from cars in front of you, and adjust for any wind, 
rain, or bumps in the road, and all with the knowledge that you 
are the heaviest vehicle out there. That is a huge obligation. 
You always have to think about what could go wrong, and what 
would you do if it actually happened?
    Besides truck drivers, there are other human elements that 
make the roads dangerous. Trucks share the roads with 
automobile drivers. Most automobile drivers are not trained to 
deal with trucks that take up most of the lane. They are not 
aware that they should stay out of our blind spots.
    There are automobile drivers who can just be careless and 
some who are just plain weird. I can remember a number of 
instances where I was driving along, tired, fighting wind, when 
a car would pull along right beside me so the driver could look 
into my cab. He would stay with me, very close, peering, and it 
was very nerve wracking, to say the least. The fact is that all 
truck drivers run into strange people on the road. Dealing with 
them is part of the job. But it makes truck driving more 
dangerous. And if you throw in the congestion of traffic 
conditions, poor roads, inclement weather, it seems almost 
impossible for a truck accident not to occur.
    I feel that truck drive--excuse me--I feel that truck 
driving is a profession. A driver must be licensed. And I 
personally felt a great responsibility to everyone on the road. 
I felt that while I was driving everyone on the road was 
depending on me to do my job faithfully and carefully. If I 
drove past my skills or beyond my truck's capacity, the results 
could be disastrous.
    I understand that trucks in the question would--excuse me--
I understand that the trucks in question would be typically 
80,000-pound tractor-trailers. But the heavier trucks may be 
used as well. Everything I have said to you today is about 
mechanical and human elements of driving heavy trucks. Even 
more important, if the truck gets heavier, more accidents will 
occur.
    The University of Michigan Transportation Research 
Institute found that a strong statistical link that some truck 
configurations between higher weight and greater risk--with 
higher weights and greater risk for fatalities. If weights go 
from--when weights went from 65,000 to 80,000 pounds, the risk 
of accidents involving a fatality went up 50 percent. Just 
imagine the fatality rate of 120,000 pounds or more.
    In conclusion, Mr. Chairman, there are hundreds of 
thousands of truck crashes every year in this country. In the 
real world, there's no such thing as a perfect truck, a perfect 
road, or a perfect weather condition. Even if there were, you 
will still always have the human element. You can have the best 
trained truck drivers, but if they are tired, you can never 
predict how the truck and its driver will interact with 
motorists.
    Thank you very much.
    [The prepared statement of Mr. Ervin follows:]
     Prepared Statement of Michael J. Ervin, Sr., Vice President, 
           Peace Officers Research Association of California
    Thank you, Mr. Chairman. My name is Sergeant Mike Ervin. I live 
right outside of Los Angeles. I am a police officer with the Pomona, 
California Police Department. I have been a police officer for 22 
years.
    Before becoming a police officer I was a professional truck driver. 
I drove tractor trailers--either 48-foot-long single trailers or short 
double trailers--on the interstates in Southern California for five 
years and logged about half a million miles.
    I realize that this hearing is about the proposal to transport and 
store nuclear waste at Yucca Mountain in Nevada. I have been asked to 
tell you what I know about truck driving and truck safety.
    When I was 23, I became a police officer. I had always wanted to be 
one, and thought that I had better do it when I could. I am still 
licensed to drive trucks though. I can drive Class I or combination 
vehicles or a bus. I take a written test every four years or so, before 
my license expires. There is no requirement that I take a road test. I 
have never hauled hazardous materials, although if I wanted to drive a 
combination vehicle carrying hazardous materials, I could. All I would 
have to do is to take another written test. In California, that is all 
that is required for a truck driver to be licensed to drive a truck 
carrying hazardous materials--pass a written test and a have clean 
driving record.
    As a truck driver and as a police officer, I have seen a lot of 
truck crashes. I have concluded that there are two elements to truck 
safety. The first is mechanical the truck itself. It is important to 
understand that an 80,000-pound 18-wheeler is inherently dangerous. 
This fact is borne out by statistics: According to data from the 
National Highway Traffic Safety Administration, 457,000 large trucks 
were involved in traffic crashes in 2000.
    There are a number of factors that make trucks so dangerous. The 
first is the weight of a truck. Heavy tractor-trailers tend to have a 
high center of gravity because the extra weight is typically stacked 
vertically. The higher center of gravity increases the risk of 
dangerous rollovers. Heavy tractor-trailers are likely to accelerate 
more slowly and have difficulty maintaining speed on upgrades, 
increasing speed differentials with other traffic and increasing the 
risk of accidents.
    If a truck is perfectly maintained it will be a lot less likely to 
be involved in a crash. Some trucking companies do an excellent job of 
maintaining their trucks. The trucks are checked thoroughly every night 
and needed repairs are made immediately. However, I have to operate in 
the real world. And there are other trucking companies that are not so 
scrupulous. They put off some repairs because they are expensive. In 
addition, sometimes with even the best-maintained trucks, mechanical 
things go wrong. The way I see it, the only way to have a perfectly 
maintained truck is if God turns all the wrenches.
    What does this mean? It means that when brakes that need adjustment 
are pumped, that great big heavy truck barreling down the highway may 
need hundreds of more feet to stop. It means that steering those heavy 
trucks, which is always difficult, will be more so. It means that a 
sharp turn, made to avoid a too close motorist, will result in a 
rollover. I think of a tractor-trailer rig as a missile. The question 
is, is it under control or out of control?
    These are all factors that this Committee should take into account 
when considering any proposal to transport nuclear waste on public 
highways.
    The second element to truck safety is the human element. Again, 
there are many very good, experienced, responsible drivers who work for 
trucking companies which are very strict about limiting the hours that 
their drivers are on the road, and which insist that they get enough 
rest. Some of these companies do not put sleepers in their cabs because 
they do not want their drivers sleeping in their trucks. They give them 
hotel vouchers--they want them sleeping in beds and getting a good 
night's rest. But again, there are other trucking companies that are 
not so careful. And truck drivers often feel that they must keep moving 
in order to make enough money to support themselves. They cannot afford 
to stop by the side of the road to rest when they are tired. These 
tired truck drivers make the roads unsafe for all of us.
    Long haul truck driving is extremely stressful and tiring. You have 
to monitor your speed, make sure you keep a safe distance from the car 
in front of you, and adjust for any wind or rain or bumps in the road, 
all with the knowledge that you are the heaviest vehicle out there. 
That is a huge obligation. You always have to think about what could go 
wrong and what you would do if it actually happened.
    Besides truck drivers, there are other human elements that make the 
road dangerous. Trucks must share the roads with automobile drivers. 
Most auto drivers are not trained to deal with trucks that take up most 
of a lane. They are not as aware as we would like them to be of the 
``no-zone'' area around a truck where they are hidden from a truck 
driver's view. There are automobile drivers who can be careless, and 
some that are just plain weird. I can remember a number of instances 
where I was driving along, tired, fighting the wind, when a car would 
pull along right beside me so that the driver could peer into my cab. 
He would stay with me, very close, peering. It was nerve wracking. The 
fact is, all truck drivers run into strange people on the road. Dealing 
with them is part of the job. But, it makes truck driving more 
dangerous, and if you throw in congested traffic conditions, poor 
roads, inclement weather, it seems almost impossible for truck 
accidents not to occur.
    I feel that truck driving is a profession. A driver must be 
licensed, and I personally felt a great responsibility to everyone on 
the road. I felt that while I was driving, everyone on the road with me 
was depending on me to do my job faithfully and carefully. If I drove 
past my skill level or beyond my truck's capacity, the result would be 
disaster.
    I understand that the trucks in question would be typical 80,000-
pound tractor-trailers, but that heavier trucks may be used, as well. 
Everything I have said here today about the mechanical and human 
elements of driving heavy trucks is even more important as trucks get 
heavier. The University of Michigan Transportation Research Institute 
found that there is a strong statistical link within the same truck 
configuration between higher weights and a greater risk of fatalities. 
As weights go from 65,000 to 80,000 pounds the risk of an accident 
involving a fatality goes up 50%.\1\ Just imagine the fatality rate at 
120,000 pounds or more.
---------------------------------------------------------------------------
    \1\ U.S. DOT Comprehensive Truck Size and Weight Study, Phase 1, 
Working Paper 1 & 2, 1995, P. 37.
---------------------------------------------------------------------------
    In conclusion, Mr. Chairman, there are hundreds of thousands of 
truck crashes every year in this country. In the real world, there is 
no such thing as a perfect truck, a perfect road and perfect weather 
conditions. Even if there were, you will always have the human element. 
You can have the best-trained truck drivers, but they may be tired. And 
you can never predict how the truck and its driver will interact with 
the motorist.
    I am happy to answer any questions.

    The Chairman. Thank you very much, Mr. Ervin.
    And our final witness on this panel is Dr. Stephen 
Prescott, who is the executive director of the Huntsman Cancer 
Institute in Salt Lake City, Utah.
    Dr. Prescott, why don't you go right ahead.

       STATEMENT BY STEPHEN M. PRESCOTT, M.D., EXECUTIVE 
    DIRECTOR, HUNTSMAN CANCER INSTITUTE, SALT LAKE CITY, UT

    Dr. Prescott. Mr. Chairman and members and guests. I'm a 
physician and medical scientist. It is in these roles that I 
appear today.
    At the Huntsman Cancer Institute we conduct research into 
the causes of cancer. We work to prevent cancer. And we treat 
cancer patients. Most of the patients we serve are from Utah. 
Many are from Nevada or other neighboring States, including 
Idaho, Wyoming, Colorado, Arizona, and even New Mexico.
    Every day we see patients who come from families who have 
borne the burden of environmental exposure to radiation, 
exposure that resulted from Federal policy. This began in the 
1950's with the atmospheric testing of nuclear devices at the 
Nevada test site, the location now proposed for the storage of 
spent nuclear fuel and high-level radioactive waste. Citizens 
of Nevada were exposed to this fallout, and because of the 
typical weather patterns, individuals in Utah, Arizona, and New 
Mexico were as well.
    One of our cancer patients recently told me a horrifying 
story. As children in southern Utah, he and his brothers would 
take a Geiger counter out into the pasture of their farm to 
find the areas that gave the loudest response. Why did their 
parents allow this behavior that now appalls us? It wasn't 
because of disinterest in the well-being of their children, but 
because those parents had been reassured that there was no 
danger.
    As illustrated by the experience of these downwinders, the 
residents of the intermountain west already have been asked to 
stand in harm's way with respect to nuclear exposure more than 
the other citizens of the United States. And yet there's 
another historical example.
    During the same time period, it was deemed important to 
have large stockpiles of uranium, and our region--the same one 
I mentioned--was a key area for mining and refining uranium 
ore. For many years I've kept this photograph of a man who had 
worked as a uranium miner. He gave me this photograph when he 
was my patient while I was an intern at the Veterans 
Administration Hospital in Salt Lake City. I would talk with 
him every evening when my rounds were done, because he had no 
family and he was lonely and he knew he was dying, and I 
couldn't stop it. He was dying from metastatic lung cancer, a 
type that is caused by the radon gas that he breathed in the 
uranium mines. He died, alone, in the Salt Lake VA Hospital.
    This is another example of how some individuals in the 
intermountain west were exposed to radiation that caused cancer 
and took their lives. They were assured that the mines and 
refineries were safe.
    Now the citizens of the same region are being asked to 
assume the risk of a third round of radiation exposure. We are 
told again that the risk will be low. But will an unanticipated 
accident during the transportation cause my neighbors to 
develop lung cancer, leukemia, bone tumors? What suffering will 
come this time to the people of Utah, Nevada, Colorado, 
Arizona, New Mexico? Will my colleagues and I be able to stop 
their premature deaths?
    I recognize that there are difficult questions to answer 
regarding nuclear waste. My purpose today is to emphasize that 
there are serious consequences if we err on the side of not 
enough safety.
    In the course of this public debate, I've heard it claimed 
that the risk from radiation has been overstated. We should be 
clear. Decades of medical research showed exposure to radiation 
causes many types of cancer. Whether an individual will develop 
cancer is hard to predict, because the risk depends on the type 
of radiation, the amount received, and how quickly it is 
received. But we know that high-level waste, as we're 
discussing here, is much more dangerous than low-level waste. 
We must be certain that precautions are in place to prevent the 
release of stored material, either rapidly, as might happen in 
a natural disaster, like an earthquake, or gradually, as would 
happen if the design did not prevent the leakage. Likewise, the 
procedures for transporting high-level waste must prevent 
sudden release, which could cause severe radiation exposure if 
it were to occur in a populated area.
    In conclusion, I plead with you today to not repeat the 
mistakes of the past. Please do not create a situation in which 
my successor will be sitting in front of your successors 
reporting on an excess of cancer deaths in Utah, in Nevada, and 
Colorado, because there were accidents during the transport of 
this material to Yucca Mountain or Skull Valley or because the 
protocol had an unanticipated flaw. None of us will be here to 
answer for our mistakes, because cancer isn't apparent until 
years after the radiation exposure. But posterity will not let 
us escape the responsibility today to ensure that we have done 
everything feasible to protect our neighbors.
    Thank you.
    [The prepared statement of Dr. Prescott follows:]
 Prepared Statement of Stephen M. Prescott, M.D., Executive Director, 
             Huntsman Cancer Institute, Salt Lake City, UT
    Mr. Chairman, Members of the Committee, and Guests: My name is 
Stephen Prescott. I am the Executive Director of the Huntsman Cancer 
Institute in Salt Lake City, Utah. I am a physician and a medical 
scientist and it is in these roles that I appear today. At the Huntsman 
Cancer Institute we conduct research into the causes of cancer, we work 
to prevent cancer, and we treat cancer patients. Most of the patients 
we serve are from Utah, or Nevada, or our other neighboring states. 
Every day we see patients who come from families who have borne the 
burden of environmental exposure to radiation--exposure that resulted 
from federal policy. This began in the 1950s with the atmospheric 
testing of nuclear devices at the Nevada Test Site--the location now 
proposed for storage of spent nuclear fuel and high level radioactive 
waste. Citizens of Nevada were exposed to this fallout and, because of 
the typical weather patterns, individuals in Utah, Arizona, and New 
Mexico were as well.
    One of our cancer patients recently told me a horrifying story; as 
children in Southern Utah he and his brothers would take a Geiger 
counter out into the pasture on their farm to find the areas that gave 
the loudest response. Why did their parents allow behavior that now 
appalls us? Not because of disinterest in the well-being of their 
children, but because they had been reassured that there was no danger.
    As illustrated by the experience of the Downwinders, the residents 
of the intermountain west already have been asked to stand in harm's 
way, with respect to nuclear exposure, more than other citizens of the 
United States. And yet, there is another historical example. During the 
same time period, it was deemed important to have large stockpiles of 
uranium, and our region was a key area for mining and refining uranium 
ore. For many years I have kept this photograph of a man who had worked 
as a uranium miner. He gave me this photograph when he was my patient 
while I was in intern at the VA Hospital in Salt Lake City. I would 
talk with him every evening when my rounds were done because he had no 
family to visit him; he was lonely and he knew that he was dying. And I 
couldn't stop that. He was dying from metastatic lung cancer--a type 
that is caused by the radon gas he breathed in uranium mines. He died, 
alone, in the VA hospital.
    This is another example of how some individuals in the 
intermountain west were exposed to radiation that caused cancer. They 
were assured that the mines and refineries were safe. Now the citizens 
of the same region are being asked to assume the risk of a third round 
of radiation exposure. We are told, again, that the risk will be low. 
But, will an unanticipated accident during the transportation cause my 
neighbors to develop lung cancer? Leukemia? Bone tumors? What suffering 
will come again to the people of Utah? Nevada? Colorado? Arizona? New 
Mexico? Will my colleagues and I be able to stop their premature 
deaths?
    I recognize that there are difficult questions to answer regarding 
nuclear waste. My purpose today is to emphasize that there are serious 
consequences if we err on the side of not enough safety. In the course 
of this public debate I've heard it claimed that the risk from 
radiation has been overstated. We should be clear: decades of medical 
research show that exposure to radiation causes many types of cancer. 
Whether an individual will develop cancer is hard to predict because 
the risk depends on the type of radiation, the amount received, and how 
quickly it happens. Thus, high-level waste is more dangerous than low-
level. We need to be certain that precautions are in place to prevent 
the release of the stored material either rapidly, as might happen in a 
natural disaster like an earthquake, or gradually, as would happen if 
the design did not prevent leakage. Likewise, the procedures for 
transporting high-level waste must prevent sudden release, which could 
cause severe radiation exposure if it were to occur in a populated 
area.
    In conclusion, I plead with you today to not repeat the mistakes of 
the past. Please do not create a situation in which my successor will 
be sitting in front of your successors reporting on an excess of cancer 
deaths in Utah and Nevada and Colorado because there were accidents 
during the transport of this material to Yucca Mountain or Skull 
Valley. Or, because the storage protocol had an unanticipated flaw. 
None of us will be here to answer for our mistakes because cancer isn't 
apparent until years after the radiation exposure. But posterity will 
not let us escape the responsibility today to insure that we have done 
everything feasible to protect our neighbors. Thank you.

    The Chairman. Well, thank all of you very much.
    Let me take the first round here, and we'll take about 6 
minutes each to ask questions.
    First, Mr. Halstead, as I understand your testimony, you 
cite a whole series of inadequacies and failures to properly 
plan for safety in connection with the transportation. But is 
it your view that if the proper precautions were taken and if 
the proper planning were to occur, that nuclear waste could be 
transported safely, or is it your view that that is not 
something that's achievable?
    Mr. Halstead. Well, Mr. Chairman, over the past almost 14 
years now that I've worked for the State of Nevada, the State 
of Nevada has made consistently constructive recommendations to 
the Department of Energy on the types of accident prevention 
and accident mitigation programs that the Department of Energy 
should adopt. And certainly it is possible to reduce both the 
probability and the consequences of accidents through proper 
planning. And the Department of Energy should be doing that.
    Nonetheless, it is important to know that even if all the 
recommendations that the State of Nevada has made were adopted, 
there would still be a residual risk of accidents involving 
release of radioactive materials. And it would behoove us to 
always be honest with the public.
    I think it's a difficult situation for the Department of 
Energy that they cannot stand before the public and say, ``We 
have adopted the best available control technologies. We have 
adopted the best engineering practices.'' And in particular one 
issue alone affects radiological risk. And that is the amount 
of cooling time before the spent fuel has been shipped.
    It will sound ironic, but one of the few areas of this life 
that I am aware of where procrastination enhances safety 
actually has to do with the amount of cooling time that the 
spent nuclear fuel at reactors stays on site before it is 
shipped off site. And I state this in my testimony. That 
basically if you--at the 40- or 50-year storage level, you get 
a 90 to 95 percent reduction in the radiological hazard, 
because the short-lived radionuclides, particularly Strontium 
90 and Cesium 137 have relatively short half lives, compared to 
some of the things we worry about, like the long-uranium and 
trans-uranic and plutonium isotopes. So the single most 
important thing we can do for safety is to ship the oldest fuel 
first and not ship any waste until it's been stored for 40 or 
50 years. And this was the original assumption when the 
Department of Energy issued its environmental impact statement 
in favor geologic disposal in 1980.
    And so, first of all there are things we can do to make the 
transportation system safer in terms of preventing accidents.
    Secondly, we can reduce the radiologic hazard by not 
shipping waste until it has been stored for 4 to 5 decades.
    Third, there is still the area of terrorism risk, which I 
think everyone is more aware of now than they were before, but 
it's important to note that the State of Nevada brought the 
terrorism risk to the attention of Nuclear Regulatory 
Commission in June 1999, taking the same approach, saying what 
we know now about the consequences of a successful terrorist 
attack means that we should immediately strengthen the what are 
called safeguards and physical protection regulations.
    And then secondly, we need to do more scientific research 
on what the consequences of a release would actually be. It's 
in this latter area of protecting shipments from becoming dirty 
bombs that I am most pessimistic about our ability to actually 
protect the public health and safety.
    But in the first two areas, the areas of shaping up the 
transportation system to prevent accidents, yes, there are many 
things we can do. And secondly, we can reduce the radiological 
hazard by extended cooling time.
    The Chairman. Let me ask, Dr. Gilinsky, one of the concerns 
that you--as I understand your position on this, you believe 
that a preferable solution to the problem of all of this 
nuclear waste having been produced, the preferable solution to 
putting it in a permanent repository would be to put it in what 
you call monitored retrievable storage at various locations.
    Now, is what the Goshute tribe planning to do, or what is 
being discussed there, one of these, because as I understand 
the mayor of Salt Lake City's testimony, he believes that a 
very objectionable proposal? What are your thoughts as to if we 
pick a variety of places for monitored retrievable storage, 
don't we buy a whole series of safety problems in shipping the 
waste to that as well?
    Dr. Gilinsky. Well, first, the proposal in Utah, I'm not 
familiar with it, and I can't speak to that one. I do think 
that we will in time want to collect the waste at more central 
locations. I think it makes sense in deciding where those are 
to minimize the amount of transportation rather than maximize 
it, as this proposal would do.
    I didn't say anything about transportation in my comments, 
but however you look at it and however you evaluate it, I think 
everyone has to conclude that it's the weakest link in the 
system of waste management. So however you----
    The Chairman. Transportation is the weakest link--is that 
what you're saying?
    Dr. Gilinsky. I would think so, yes. And so however you 
organize your management system, I would think you would want 
to minimize that aspect of it rather than maximize it.
    I mean, most of our plants are in the East. The Yucca 
Mountain of course is way in the West. So what we're doing is 
just maximizing the amount of transportation. And that it seems 
to me doesn't make a lot of sense. There's going to be a 
certain amount of it certainly.
    The Chairman. Let me just ask one additional question. Then 
I'll defer to Senator Craig.
    Mr. Anderson, your position is that you oppose the 
repository, the establishment of the repository or the approval 
of the site for the repository, but you really do believe we 
should go ahead and decommission the existing nuclear 
powerplants and recognize that this is not a safe way to be 
producing power, and until we come up with a different and 
adequate solution to the waste problem, we shouldn't be using 
nuclear power. Is that an accurate paraphrase of your position?
    Mr. Anderson. Absolutely. And I might also say, there was a 
comment earlier by Senator Murkowski that--because Governor 
Guinn or other people from Nevada weren't on this panel that 
apparently they weren't opposing this. Governor Guinn has 
provided very compelling comments to the House committee in 
this regard in terms of both the science of the site and the 
transportation difficulties. And I think there are very 
significant issues going to the very bad science between the 
siting decision to this point, the transportation safety 
issues--not only is it the weakest link, but the science hasn't 
even been done. There haven't been actual tests as to the 
casks. And the third thing that Congress needs to get a hold of 
is that ultimate question of what are the long-term solutions 
to this problem?
    I think in 1982, when Congress was looking to determine 
what one place would be the final repository--we now know that 
Yucca Mountain would be at capacity by the year 2036, and we're 
going to continue to have all of these problems.
    The Chairman. Let me defer to Senator Craig.
    Senator Craig. Mr. Chairman, thank you very much. 
Gentlemen, thank you all for your testimony. I too am not here 
to question your sincerity or your knowledge. I have looked at 
this issue, debated it, studied it for over a decade now, and 
probably Dr. Gilinsky and I have been more involved in it over 
a longer period of time than most.
    I see you were testifying back in 1982, Doctor, and I'd 
like to quote some of your testimony at that time, because 
obviously you were thinking then about the need for a more 
permanent repository. The question is here, what about the 
interim? And this is a speech that you gave as a member of the 
commission in 1982.
    You said, ``We have seen that there is essentially no 
practical limit to the amount of spent fuel that can be stored 
at most reactor sites. This does not mean, however, that it 
would be a good idea to leave it there.'' And I think some of 
your comments today reflect that concern.
    A lot of folks think you can just leave it where it is--and 
I've heard that said reflectively today by several--even though 
the sites were temporary in the beginning, designed for only 
temporary storage, until such time as we, the country, not 
private sector individuals, determined a permanent solution to 
the nuclear high-level waste stream coming off from especially 
commercial reactors at that time, but also public purposes of 
the Federal Government.
    You went on to say, ``There has been a lot of exaggeration 
of the dangers of commercial spent fuel storage and disposal.''
    I don't see anything contradictory in that statement, but I 
think way back then you and I and others were involved. I was a 
freshman congressman or a sophomore congressman in the early 
1980's, looked at it and voted. So this is not a rush to 
judgment or this is not a last-minute debate, or I believe, 
Doctor, you referenced the word ``current effort to stampede.'' 
We have been at this effort ad nauseam, since 1982, when you 
first became involved. I see no stampede today. I see time 
lines and decisions to be made, pro or con. And you know and I 
know that decisions are triggered by law, and these are not 
efforts at stampeding anybody.
    Now the Senate by law has a responsibility to make a 
determination whether to move a step further and allow the 
Nuclear Regulatory Commission, which you once served on, to 
make a determination as to whether DOE was correct in its 
assumption, its scientific studies.
    So I can't argue stampede. I do believe that's a bit of 
false imagery. We're all entitled to our own language. But 
you've been involved in this too long to suggest that it's a 
stampede. A snail's pace or a desert tortoise's trot, possibly.
    Now you can comment to that, if you wish, but I only make 
comment on it, because I think you and I go back too long to 
suggest that we are rushing to a decision. The decision we are 
about today we determined several years ago. We would be on a 
time line to make that decision, based on an act of Congress 
and the findings of the EPA and DOE. That would be my only 
comment to your testimony.
    We have an interesting reflection today. I was at the 
hearing the other day and anticipated that we would have Nevada 
and Nevada citizens here. And, of course, that's not the case 
today. And I understand the politics of this and that we're 
really in the business of trying to generate as much fear as is 
possible on the issue of transportation, even though we have 
nothing to do with it at this moment. Transportation is being 
looked at and will be looked at in a much higher degree if the 
Nuclear Regulatory Commission makes decisions.
    But, mayor, I guess I'm a little concerned about some of 
the language you used. We politicians love to use fear. It's a 
great motivating factor. I'm surprised that in fear of a 
terrorist attack and the world focused on Salt Lake, you did 
not cancel the Olympic Games. Everybody said that was the 
ultimate target. And yet I would think that citizens of your 
area were very fearful that they might come under attack. And 
yet I didn't hear you speak out in the cancellation of those 
games. And frankly I'm glad you didn't. You're to be 
congratulated for a marvelous production.
    But the world was focused and every television camera in 
the world was there, and it was the ultimate target. And yet 
fear did not stop you from allowing the games to go forward. 
And I know that we invested a good deal in them, and I voted 
for that.
    And so, in other words, we could prepare against fear, and 
we could most importantly prepare against a terrorist attack, 
which we did in Salt Lake. And as a result of, I think, the 
$310 million you're speaking to, we survived and the world and 
the country and Utah are prouder for it. I won't suggest the 
profits made or the monies recognized. That's neither here nor 
there. But this is something to be said, that if this Senate 
decides to go forward with allowing the Nuclear Regulatory 
Commission to determine that the soonest possible date for 
movement of any material would be around 2010, now I would 
suggest to any of you on this dais today who are using 9/11 to 
heighten your argument of fear and terrorism, if this country 
doesn't have its act together by 2010 on the issue of 
terrorism, then maybe your arguments will be relevant. 
Certainly your arguments to engender alertness and preparedness 
and reexamination are extremely valuable.
    But I must tell you, and I look at the State of Maryland, 
with 1,160 metric tons of high-level waste stored in a 
temporary facility on everybody's map today, including probably 
most terrorists, Michigan, with 1,862 metric tons of waste 
temporarily stored in a static or a known location, seems like 
it's a much more reasonable target than a mobile target. And 
then I guess we could say Wisconsin, with 1,146 metric tons of 
high-level waste stored, California with 2,457, all of it in 
temporary storage, both pools and dry casks. Now, if the 
terrorist world believes that this is a right approach toward 
intimidating American citizens, then my guess is they know 
where every one of those locations is today. I cannot 
understand how you would suggest that that is not a level of 
high vulnerability.
    I know what your task is today. I understand it. But to 
prejudge how we're going to mow the lawn before we've even 
poured the concrete to build the structure is in itself a 
fascination. It seems to me that fear is the element you tried 
to generate today, not the logic, the reality, or the 
application of good science and a country dedicated to solving 
a problem, because we proved in Salt Lake, mayor, that if we 
are dedicated to doing something, we can get it done and you 
can profit by it. And so can we and the world.
    It would have been a shame, out of fear, to deny the world, 
our country, and Salt Lake an opportunity to have the winter 
games of 2002. Thank you for not succumbing to fear.
    Dr. Gilinsky. May I say a word, Senator?
    The Chairman. Did any witness wish to respond? If so, go 
ahead.
    Dr. Gilinsky. I certainly would like to, Mr. Chairman, 
Senator.
    Senator Craig, your reference to my speech years ago gives 
me the opportunity to say that I supported this concept at that 
time.
    Senator Craig. I didn't go that far. I wanted you to say 
that.
    Dr. Gilinsky. And which I had omitted in my remarks and had 
forgotten to mention. So what I'm saying is pretty much what I 
was saying back then.
    Senator Craig. Yes.
    Dr. Gilinsky. I had questions about the permanent 
repository disposal concept. And I thought we ought to go to a 
system of management where we continue to monitor the waste. I 
think DOE itself is having second thoughts about the disposal 
concept and is now talking about possibly keeping Yucca 
Mountain, if it is approved, open up to 300 years. And I think 
really that's saying forever. So they're really talking about a 
monitor retrieval system at Yucca Mountain, but a thousand feet 
down. It's a sort of a mixture of the old concept and the new 
concept. I think it's just an outdated relic of earlier 
thinking.
    In reference to your point about stampede, we know that DOE 
is not ready to file an application within 90 days, as required 
by law. And yet they're talking about filing an application in 
2004. They're not just going to miss this by a few days. 
They're going to miss this by years. So what's the hurry? So I 
think stampede really is an appropriate word.
    You mentioned that after all this is all going to be 
reviewed by NRC. Certain aspects of it will be, but not the 
basic site suitability determination that by law DOE is 
required to make. And they interpreted the law that way for 
many years, up to about 1996, and said so, that they had two 
responsibilities. One was site suitability, which was quite 
apart from the man-made structures and the container. And the 
other is to meet NRC's licensing requirements. Now they've 
dropped that first requirement and just said, ``We're just 
going to meet NRC's licensing requirements.'' So there's a gap 
here. And I frankly can't see how you can let them get away 
with this.
    Senator Craig. Well, 1990, we hadn't put EPA into it pre-
1996, had we?
    Dr. Gilinsky. No.
    Senator Craig. No. And that did change the dynamics of the 
effort at Yucca Mountain.
    Dr. Gilinsky. But it didn't change the standards for site 
suitability. There are still two jobs.
    Senator Craig. We raised it to a 10,000-year standard, did 
we not?
    Dr. Gilinsky. It's one aspect of it. There's the licensing 
aspect.
    Senator Craig. But we did change it.
    Dr. Gilinsky. You did change it, but you didn't relieve 
them of that other responsibility.
    Senator Craig. I see what you're saying.
    Dr. Gilinsky. And let me just go to one other point, which 
is the mention of the word ``temporary.'' Now, as if somehow 
this is something terrible, you know, because these were 
intended to be temporary storage facilities at the reactors. 
Now, in fact, they were intended to be even more temporary than 
they are. Originally, we intended to reprocess all the fuel. 
And we were----
    Senator Craig. I didn't go that far. I studied them very 
closely.
    Dr. Gilinsky. Well, we both go back a long way. But we were 
just going to have the fuel there, you know, 1 to 3 years and 
then ship it off to reprocessing. We've learned something. And 
to say that this is--it wasn't meant to be this way 34 years--
--
    Senator Craig. Don't use those words, Doctor, 'cause I 
don't want to engender fear of the current situation.
    Dr. Gilinsky. I don't know if you've read the 
recommendations of the Secretary of Energy.
    Senator Craig. I have.
    Dr. Gilinsky. But he is engendering fear. He has put stuff 
in there that I was just absolutely amazed. He lists all the 
cities that are within 75 miles of a reactor. He says these 
things are decaying. They could go into waterways. I haven't 
heard or seen stuff like this in the Union of Concerned 
Scientists. And then he says----
    Senator Craig. Well, you should listen to some of the 
testimony before this committee, then.
    Dr. Gilinsky. Well, maybe. But then he says once you get it 
into a truck and you take it over to Nevada, even if the 
container fails, even if everything fails, nothing is going to 
leak because this is ceramic. So somehow the ceramic sitting at 
the reactor site is vulnerable, but the ceramic sitting--the 
same piece of material sitting in Yucca Mountain isn't going to 
do anything. There's a real disconnect here. And if there's 
fear mongering, I think they've been engaged in.
    But the thing I wanted to say about the temporary, we 
shouldn't let all errors of the past become hereditary. We can 
learn some things. And if we've changed our mind and the thing 
of it makes sense, if we have a new way that makes sense, let's 
do it.
    The Chairman. Thank you.
    Any other response? Yes.
    Mr. Anderson. If I may, yes.
    And, Senator Craig, I absolutely agree with you that it was 
important to this country and I think the peace-loving people 
throughout the world to move forward with the Olympics even in 
view of the events of September 11. I advocated that. And 
following the Olympics, I've spoken a number of times about how 
moving forward with our lives and holding these kinds of 
events, especially where we bring people together from 
throughout the world in celebration and peace, that that in 
itself is a triumph over terrorism.
    But to characterize the presentations today as somehow fear 
mongering I think is an absolute mischaracterization. We are 
attempting to point out some of the massive security risks. I 
think you don't defeat terrorism by simply saying that there 
may be risk, but we're going to march merrily along and ignore 
those risks. And I felt that it was also important to talk 
about solutions. And I ended my remarks by discussing the need 
to, number one, come up with a good, long-term solution, as I 
think Congress intended in 1982.
    But we're facing very different circumstances now. We have 
131 storage sites throughout this country that will still be 
targets. As soon as Yucca Mountain goes into operation, if that 
in fact occurs, we're not going to be getting rid of these 
materials from these sites all at once. In fact, we're only 
going to have about a net depletion at these sites of about a 
thousand tons per year. Three thousand tons will be shipped 
each year. Two thousand new tons are projected to be produced. 
And we'll have 64,000 tons in place in the year 2010 or 2011, 
when these shipments commence. So these sites are still going 
to have these materials. We'll still have 103--at least at 
present we have 103 nuclear plants in 66 locations that will 
still be prime targets and still will be vulnerable to the same 
kinds of accidents and the human error and the technological 
problems that we already know about.
    So I think the three things that Congress must take a hold 
of, and I would submit that it's Congress's responsibility, not 
something you delegate to NRC, is that you make sure the 
science is good. And again, I would refer to Governor Guinn's 
testimony before the House committee--and I hope that's been 
submitted to this committee--where he references a new report, 
a peer review report commissioned by the DOE, that excoriates--
those were his words--the scientific work of the Department of 
Energy in connection with Yucca Mountain.
    Secondly, that there be an insistence that actual tests on 
actual casks being utilized be performed and that these casks 
meet plausible terrorist acts and scenarios; that's not been 
done. And I think Martin Resnikof's analogy to what happened in 
1970 when NRC--who apparently someone on this committee wanted 
to delegate this authority to--NRC said, with regard to the 
shipment by air of plutonium, that drop tests of 30 feet were 
sufficient.
    And when the attorney general of New York made its case, 
NRC argued against New York's position, and it took Congress 
taking that decision away from the NRC--I think that's exactly 
what Congress ought to be doing today, demanding that actual 
tests be done on the very casks that are used.
    And then third, there will be no security. We're being 
absolutely foolhardy to move forward with any of this without a 
long-term final solution. And that means conservation. That 
means other technology that's not going to continue us on this 
disastrous course.
    Thank you.
    Senator Craig. Gentlemen, thank you. Thank you, Mr. 
Chairman.
    The Chairman. Thank you very much.
    Senator Reid.
    Senator Reid. Thank you, Mr. Chairman.
    People would like this hearing to be Nevada complaining 
about Yucca Mountain. And we could do that. And we've done it 
for years. But it's time the American people heard that this is 
not a problem that relates to Nevada. It's a problem that 
relates to our country. And that's why this panel of witnesses 
has been put together, and you've done on outstanding job.
    Now, for anyone to suggest that John Ensign, Harry Reid, 
and especially Kenny Guinn, Governor of Nevada, does not oppose 
nuclear waste is a dream that someone has. What good would a 
hearing do for Ensign and I to be down there and Governor Guinn 
to come and say we don't want nuclear waste? None. We've been 
doing it for 20 years. But what has developed now is a picture 
of what will happen if nuclear waste is attempted to be 
transported in this country. And that's why the Nuclear Energy 
Institute and these other people, who have this fetish to 
transport nuclear waste are upset about this panel that we've 
got here.
    Now, mayor, thank you very much for being here. I think it 
says it all, on the piece of paper that you have, introducing 
your testimony, which shows a cowboy on a horse, and it shows a 
nuclear bomb going off with the mushroom cloud. And this was 
from an Atomic Energy Commission booklet, 1957, Atomic Tests in 
Nevada. And under it, under this cartoon-like figure, and it 
turned out to be a real cruel cartoon, are the words, ``There 
is no danger.'' That's what we're hearing.
    We heard it with the above-ground nuclear tests--and that's 
what this illustrated--when we have people who are still dying, 
as Dr. Prescott has said, from these tests that took place in 
Nevada.
    You know, I used to watch them go off. And I was lucky, 
because they always made sure the wind did not blow toward Las 
Vegas. It blew toward Lincoln County, Nevada, and into southern 
Utah, where people are now dead and are dying. So anyone who 
suggests that the Federal Government has this under control is 
walking in dreamland.
    I wanted to go through the resumes of each of you here. 
Everyone within the sound of my voice should understand that 
the panel of witnesses here is above reproach. No one can touch 
their veracity, their educational, or professional backgrounds. 
Every one of you. Now, some of you have been hired by the State 
of Nevada. So what?
    We know that--I say this to you, Mr. Halstead, and I think 
you did a good job answering this already--the increase in 
shipments and the distance covered and the number of vehicles 
on the road, does that effect the risk of an accident? I mean, 
does it take much of a mathematician to figure that out?
    Mr. Halstead. No, Senator, it doesn't. And, in fact, many 
people would be surprised to find that, to begin with, the past 
statistical accident record of the industry is pretty average. 
And that's why, when we project their past accident rate 
forward with the large increase in shipment miles, that we get 
the numbers of projections of about 150 to as high as 400 
accidents over the shipments that are being proposed.
    The bottom line is that the Department of Energy, once they 
reach their full level of operations, would be shipping as much 
waste every year for certainly 24 years as they have shipped in 
the entire past 40 years. And the shipment distance would 
increase from about five to six hundred miles in the past to 
well over 2,000--about 2200 miles on average, creating more 
opportunities for equipment failure and human error.
    Senator Reid. And as Michael Ervin has said, he's a police 
officer and has been for several decades, but he could go out 
tomorrow, jump in a truck, and whip it through the country 
hauling nuclear waste or hazardous waste. Now, as alert as you 
appear, I think that you have--some of your driving skills, you 
may have to brush up on them a little bit; isn't that right?
    Mr. Ervin. Yes, Senator. Those are what I would consider 
perishable skills. The longer you're away from the business, 
the lower your skill level becomes. So you have to go out and 
restart again and practice.
    Senator Reid. I drove a truck, but a small one, that hauled 
oil, gas in it. And I was taught that you could drive as safely 
as you wanted, but the concern you had was with other people. 
And it's the same with driving one of these big trucks, isn't 
it?
    Mr. Ervin. Very much so. In fact, I was blessed and 
fortunate enough to learn from my father, who drove for 45 
years. And the big thing he taught me was not only to take care 
of yourself, but you need to predict what the people around you 
are going to do.
    And his favorite term was, ``If you think it's crazy or 
stupid for them to do, they'll probably do it, so be prepared 
for it.''
    And he was right more times than not.
    Senator Reid. Dr. Ballard--again, we have a panel here of 
witnesses who are extremely well qualified. Dr. Ballard is no 
exception to that.
    Secretary Abraham testified that the EIS considered the 
probability of a worst-case scenario to be 2.8 in 10 million 
per year over 24 years. In addition, the new threat post-
September 11 has reflected that nuclear waste shipments could 
become targets for terrorists. In your opinion, how do these 
changes affect these safety projections, and do these 
projections still reflect the risk realistically?
    Dr. Ballard. Senator, thank you for having me here today. I 
have several comments that I'd like to bring to that particular 
point.
    Senator Reid. Your professional academic life is terrorism, 
isn't that right?
    Dr. Ballard. Yes, sir. I teach a variety of classes of 
terrorism, both domestic and international. I have spent the 
last seven years studying this area exclusively. My training is 
in political sociology, deviance, and criminology, though I 
teach in a criminal justice department, where I train police 
officers for their future careers.
    This particular issue has been one that's motivated me to 
become an academic. It seems like we're having a convention of 
former truck drivers here, 'cause in a former life, in southern 
California, I have driven a truck myself too.
    The answer to your question is very complex, but I have 
three points that I'd like to make. And I hope that they can 
get to some of the misperceptions I think that people may have 
about the risk of terrorism and the reason why somebody like 
myself, who's an academic of the terrorist tactics that could 
be used, would be testifying.
    First of all, I want to talk about the current threat 
environment. Yes, it has been heightened since September 11, 
but that is only true in the United States. Around the world, 
people are very concerned about attacks against nuclear 
facilities. This is an important point I'll get to in a moment. 
But as we've seen in the recent G8 meeting attended by Spencer 
Abraham, this concern is not just in the United States.
    We've seen mass protest in Germany and other countries that 
indicate what might happen after a large-scale shipment program 
could begin. We also do not hear very much in the United States 
about those attacks that are being perpetrated in places like 
Russia--in the former Soviet Union--pardon me--and the newly 
independent States. Have to get the acronyms right.
    There's a researcher named Lyudmilla Zaitseva at Stanford, 
who has documented 16 attacks against these type of facilities 
in the year 2000. I haven't talked to her recently about her 
newest research. The point of that is terrorists and those who 
would perpetuate mass violence are interested in radiological 
targets. That's what we should be discussing here today.
    There's also a process that's being more and more 
understood by the academic community. And this is a diffusion 
of tactics. If we have a successful terrorist attack, using an 
airplane, for example, to take down a building, other people 
are going to become interested in it. We have to be proactive, 
to stop that diffusion of tactics. So we have to start planning 
for these events much before there will be any other 
consideration. And part of that is a transportation issue. Part 
of that is a security issue. Part of it is a national security 
issue. All of those come to bear on this particular topic.
    Secondly, I spoke in my written comments about the symbolic 
value of these targets. These targets will be different than 
the shipments that are being made now. They'll be different 
because it's a large-scale planned campaign of federalization 
program that may be opposed by domestic groups because of its 
connection to military targets; it may be opposed by 
international groups. We have to be forward thinking in this 
process. And we have to address those potential risks.
    Lastly, because this is an energy committee, I will defer 
to some of the economic literature and talk about the event 
risk that this particular shipment program poses to the energy 
industry and the energy commodities market. It's very 
interesting to me to hear people not address those issues.
    If there was a single terrorist attack or major accident 
involving these materials, it would have a significant impact 
on these industries and the commodities market. They call that 
event risk these days. So after September 11 we saw a 
significant impact into the financial markets. The same would 
be true in the event of a terrorist attack.
    I hope that answers your question, sir.
    The Chairman. Thank you very much.
    Senator Ensign. Thank you, Mr. Chairman. And once again 
thank you very much for holding this hearing and allowing a 
little different side than I think most senators have been 
exposed to on the whole issue of storing nuclear waste and 
transporting nuclear waste.
    As Senator Reid mentioned, one of the reasons that we 
wanted the panel made up of different people today was that 
Nevada's side has been told. We have been telling it from every 
angle that we can tell it from and why we think that Yucca 
Mountain is a bad idea. But unfortunately people seem to have 
already made up their mind in a lot of cases. And so we didn't 
want to take why just Yucca Mountain is a bad idea.
    We want to also discuss why transportation is a bad idea, 
because then it impacts individual people in their own cities 
and towns across the country. And I think that it's very 
important as a national issue for these--the dangers--not to 
use fear, but for the dangers, the real dangers, to be 
explored, so that if we do currently as we are currently 
transporting nuclear waste, we need to explore those dangers 
and to try to correct them, to try to make it safer for the 
transportation that we're currently doing.
    All of us looked at September 11. And the reason I disagree 
with Senator--the Senator from Idaho and his characterization 
about fear is that--is that September 11 changed everything in 
this country. We need to look at everything differently. We 
need to look at the way that all of our security of all of our 
capital complex is different today, post September 11. And we 
need, I think, to look at the transportation of nuclear waste. 
As Dr. Ballard has talked about, these are huge targets. And so 
we need to think, I think, in different ways than we have 
thought about in the past.
    I want to explore a few of the areas that have been talked 
about. Senator Thomas, when he first opened his--or the one 
comment that he made was the 175 shipments that have been--that 
are going to be made. And I've heard that and I've heard that 
and I've heard that. And Dr. Gilinsky and I think Mr. Halstead, 
in your testimony, between the two of you, the Department of 
Energy--and I'd like to submit for the record the Department of 
Energy in their final EIS, on page J10 and page J11, those two 
pages, really point out--first of all, that they only did the 
final EIS on 77 of the sites, if I'm correct. Is that correct, 
Mr. Halstead?
    Mr. Halstead. That's correct, Senator.
    Senator Ensign. And there's 131 sites total?
    Mr. Halstead. That's right.
    Senator Ensign. Under their lowest case scenario, they're 
talking about between--and if it's mostly rail--and that would 
be the lowest, lowest number that we have--under their lowest 
case scenario, over the 23 years, they're looking at about 
10,600 shipments. Is that number correct to you?
    Mr. Halstead. That's correct.
    Senator Ensign. This is all documented according to the 
DOE. Well, divide 10,600 by 23 years. I'm not exactly a 
mathematician, but I think that that's close to 500 per year. 
So--and that's on their lowest case scenario, with just 77 of 
the sites. So when somebody says 175 shipments per year----
    Mr. Halstead. Big shipments.
    Senator Ensign. Yeah. They're going to be a lot bigger 
shipments than the ones they're talking about.
    Mr. Halstead. Might I add to that, Senator Ensign, that 
what is unfortunately not made clear to the reader--and I have 
my document open also to page J11, because that's perhaps the 
most important page in the whole environmental impact statement 
for transportation--they forget to mention that in order to 
make that low case mostly rail work, they have to make 1,600 
barge shipments and they have to make 600 to 800 heavy haul 
truck shipments just on the reactor end alone. And then, since 
they haven't put forward a route for a railroad in Nevada, the 
possibility would certainly be there that they would have to 
move each of those rail casks onto a heavy haul truck, which 
because they would be separately permitted, would have to be 
counted as a separate shipment. And that adds another 9,600 
shipments. So that's why in my statement I added the more 
appropriate numbers. In order to make this mostly rail program 
work, you have to add a bunch of shipments that the Department 
of Energy has conveniently omitted from the table, which even 
in itself shows much larger numbers than the Secretary has been 
quoting publicly.
    Senator Ensign. Right. And once again that's only 77 sites, 
correct?
    Mr. Halstead. That's right.
    Senator Ensign. Which is amazing to me that they only 
covered 77 sites and forgot that there were--everybody's been 
talking about the 131 sites. So I thought that was important to 
get on the record.
    Dr. Gilinsky, you mentioned something about viability of 
nuclear power. And I hear a lot that the reason that people 
want to build Yucca Mountain is they think that it will make 
nuclear power more viable. You mentioned on-site dry cask 
storage cost, transportation risks, and some of those kind of 
things. Can you just explore that a little more, as far as the 
viability of nuclear power, of putting $60 billion-plus into 
Yucca Mountain and what that does to the possible cost of 
nuclear power in the future and we know the politics of 
transporting this waste.
    Dr. Gilinsky. Well, the cost of this project is already 
estimated by DOE to be $60 billion. And that has been growing 
rather rapidly. So to put a $100 billion label on it I think 
wouldn't be appropriate--wouldn't be inappropriate.
    Somehow or other the people who are most involved with 
nuclear power have convinced themselves that the thing that's 
holding up public approval, which is usually the phrase, to an 
expansion of nuclear power is the lack of a permanent 
repository. I think this is a complete misreading of what their 
problems are and what the pros and cons of nuclear power are 
and what the future of it will turn on. I think mostly it will 
turn on the quality of the generators, the economics and the 
safety of the generating plants.
    But somehow they have convinced themselves of this, and 
they think this is the be all and end all. And I think that 
Washington lobbyists have not done them a favor in convincing 
them of this. And so this to me is the driving consideration.
    I've talked to people in the Department of Energy. They're 
not personally concerned about the safety of the waste sites as 
they are now. They think the public out there is concerned. And 
so we must do this in order to convince the public to have more 
nuclear power.
    Well, this--even if it were true, I think it's not a good 
reason to spend public money this way. But I don't think it's 
right. And we have a system that works. The on-site storage is 
there. It's NRC approved. We can store fuel this way for many 
years, decades. And as I said, in time we'll want to collect, 
not because it isn't safe to be at those sites. But I think you 
want fuel generally to be in the hands of people whose 
principal business that is to limit the distraction of the--for 
the operators. But that's a matter of degree. And I think we 
have plenty of time to do it and to do a good and responsible 
job.
    I did want to make just one comment going back to your 
transportation comment. And that is I haven't myself gotten 
into this subject, but I have done a little arithmetic here 
while everybody was talking. And if you divide the 2,000 tons 
per year by 175, you get about 11. And that's 11 tons of spent 
fuel per shipment. And that implies cask weight several times 
that. So we're talking about tens of tons per shipment. I'm not 
aware that DOE has vehicles that can handle this at least at 
the present time. So that's a question I think that they ought 
to be asked.
    Senator Ensign. Mr. Chairman, if I may just follow up with 
one other question for Mr. Gilinsky, because I thought this was 
maybe the most important part of your testimony. It's something 
that I've been emphasizing that we have time. The point about 
Yucca Mountain, the point about a nuclear waste repository is 
we have time. And as a matter of fact, what I thought about 
your testimony is taking time actually improves the situation, 
because of the cooling time. The radioactive nucleotides that 
actually decrease their toxicity over 40 to 50 years.
    Waiting 40 to 50 years is actually a benefit 
scientifically. Not emotionally, not fear mongering, but from a 
scientific basis, it would actually be better, even if you were 
going to build Yucca Mountain, to do it 40 to 50 years from 
now, to ship that stuff and to bring it to the site. I thought 
that was very important.
    Do you care to comment further?
    Dr. Gilinsky. I agree with that, Senator. And, in fact, 
DOE's plans--they talk about two possibilities, a hot 
repository, which was their original plan, and the waste board 
raised a lot of questions about that--the technical review 
board. And so they're now thinking about a cool repository.
    Now, if you go to a cool repository, when they bring the 
stuff to Yucca Mountain, they're going to have to leave it on 
the surface for decades before they put it down there. So 
they're talking about collecting it and then leaving it on the 
surface. I mean, they will reconfigure it and change it from 
this kind of cask to that kind of cask and so on. But they're 
basically going to have to leave it on the surface, because 
they can't put it down right away.
    And this is why it's also extremely misleading that they've 
been putting out this idea, one is better than 131, as if all 
of a sudden we've had this terrorist attack, people are 
worried, and they're sort of suggesting, and a lot of editorial 
writers have bought this message, that we're going to collect 
this stuff really fast, get it out of all these sites, put it 
in one place and underground, and isn't that better?
    Well, ``A,'' it's not going to get collected for decades 
and then very likely it's going to sit--I mean, if we go 
forward with this proposal, it's going to sit on the surface 
there, and there will still be lots of waste at those sites. So 
I think this is not a good idea.
    Senator Reid. Mr. Chairman, I know that you have--like all 
of us----
    The Chairman. Go ahead. We still have time if you have an 
additional question.
    Senator Reid. We have a vote at 11:30.
    I want to say this, Mr. Chairman. First of all, I am 
grateful to you and your staff for allowing us to have this 
hearing. You could have jammed this through, as happens a lot 
of times in Congress.
    I want to say this. My friends came earlier, who are in 
support of Yucca Mountain, and in effect bad-mouthed this 
hearing. I'm disappointed they didn't stay for the hearing. 
They may have learned something.
    Here on this panel we have two Ph.Ds, one of the foremost 
medical doctors in the country, people who are experienced--one 
is a mayor of a major city in Utah--we have an eminent panel of 
witnesses here. And I'm so disappointed with people who come in 
and smear mud all over this hearing and then leave. I think 
that's not the right way to go.
    The situation is this. We don't like Yucca Mountain. Of 
course, we don't like Yucca Mountain. But the fact of the 
matter is the people of this country are going to react just 
like the people in Germany that Dr. Ballard talked about. They 
have dropped their plans in Germany to transport, to have a 
repository, 'cause why? They can't move it. We are never going 
to haul nuclear waste in America. Understand that.
    Now, it doesn't matter what--they can say, ``Okay, we're 
going to haul it to Yucca Mountain in 2010.'' It will never 
ever happen. Believe me.
    They are not going to allow nuclear waste to be transported 
in this country unless there are some changes made in 
procedures. You can't haul these trucks up and down the 
highways and rail. We have evil people in this country today 
who are looking for targets of opportunity. That's what we've 
been told here today. If fear has been generated today, it's 
the right thing to do. People should be concerned about what's 
taking place.
    The Department of Energy, led by the Secretary of Energy, 
who is from the State of Michigan, who was in love with nuclear 
waste when he was in the Senate--he's still in love with 
nuclear waste--gave some very bad advice to a President who I'm 
convinced wanted to do the right thing. He didn't do the right 
thing, and I won't go into how I feel about that.
    But we have a situation here that we at least have been 
able to let the people of this country know by people who have 
qualifications about what's about to happen to this country, 
and it's too bad.
    The Chairman. Senator Ensign, did you have any final 
question?
    Senator Ensign. I don't, Mr. Chairman, other than just to 
say thank you. I think it--I agree with Senator Reid. It is a 
shame that actually all the Senators to the committee on such 
an important issue--I mean, we're not talking about a $100 
million program; we're talking a $60 to $100 billion program 
that is of such import that it really is a shame that the rest 
of the Senators were not here to hear this, because I think 
that if an objective listener were listening to the testimony 
here, what Secretary Abraham did, just the going back and forth 
of all the facts, if anybody was objective on this, I think 
that it--the evidence is so clear against Yucca Mountain, it 
amazes me that people are still wanting to go forward with it.
    Thank you.
    The Chairman. Well, thank you. Tomorrow we have our final 
hearing on this issue with the various boards and oversight 
organizations that have been looking into this. And so we will 
convene again tomorrow.
    Thanks to all the witnesses. I think it was good testimony.
    The Witnesses. Thank you, Mr. Chairman.
    [Whereupon, at 11:20 a.m., the hearing was recessed, to be 
reconvened on May 23, 2002.]








                 YUCCA MOUNTAIN DEPOSITORY DEVELOPMENT

                              ----------                              


                         THURSDAY, MAY 23, 2002

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. We will call the hearing to order. The 
committee meets this morning for the last of three hearings on 
S.J. Res. 34, which is a joint resolution approving the site at 
Yucca Mountain, Nevada, for the development of the nuclear 
waste repository.
    The question posed to us by the joint resolution is whether 
Congress should allow the Secretary of Energy to apply to the 
Nuclear Regulatory Commission for a license to build a nuclear 
waste repository at Yucca Mountain. Last week we heard the 
Secretary of Energy explain that we should. Yesterday, we heard 
spokesmen for the State of Nevada explain why we should not. 
And today, we will hear from the agencies charged with 
regulating or overseeing the repository program.
    Our first panel will consist of the Nuclear Regulatory 
Commission, which will be responsible for deciding whether to 
authorize construction of a repository, if Congress approves 
the President's site recommendation.
    Following the panel made up of the Commissioners, we will 
hear from a second panel consisting of Dr. Jared Cohon, who is 
the Chairman of the Nuclear Waste Technical Review Board, which 
was established to provide independent experts, scientific and 
technical advice about the program to the Secretary of Energy 
and the Congress.
    Second on this panel is the Honorable Jeffrey R. Holmstead, 
who is the Assistant Administrator for Air and Radiation at the 
Environmental Protection Agency, which is responsible for 
setting radiation protection standards for the repository.
    Third on the second panel is Ms. Gary Jones, the Director 
of the Natural Resources and Environment Team of the General 
Accounting Office, which monitors the nuclear waste program for 
Congress.
    And finally on that panel is Mr. Robert Card, who is the 
Under Secretary of Energy.
    Before we hear from these two panels, however, we want to 
hear from Jim Hall on behalf of the Transportation Safety 
Coalition. Mr. Hall was originally invited to testify yesterday 
with Nevada's other witnesses, but was unable to be here 
yesterday. So, we have agreed to hear from him first this 
morning.
    As at the prior two hearings, we have again invited 
Senators Reid and Ensign to sit with the committee this 
morning, and ask questions if they desire to do so.
    I see my ranking member, Senator Murkowski, just arriving. 
Let me see if he has any opening statement before we turn to 
Mr. Hall for his testimony.
    [A prepared statement from Senator Reid follows:]
    Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada
    I want to thank you Chairman Bingaman and Senator Murkowski for 
allowing me the opportunity to participate in this hearing and for 
understanding the importance of this issue to me and to my state, and 
really to almost every state.
    The resolution this committee is considering refers to the 
President's recommendation of Yucca Mountain, Nevada as the site for 
disposal of high-level radioactive waste.
    But this limited description fails to take into account the full 
implications of developing a repository there (or anywhere else) 
namely, that before dumping the nation's nuclear waste on Nevada, it 
has to be shipped through 43 states, including the states most members 
of this committee represent.
    Today we are going to hear from witnesses who will tell us about 
the risks the Department of Energy's program will entail--these include 
risks in Nevada and more importantly, risks all over the country where 
this waste will be shipped.
    The Secretary said it best last week when he acknowledged that the 
Department of Energy has only had preliminary thoughts about a 
transportation plan for this waste. That's like someone building a 
hospital with no doctors.
    So while there are many fundamental problems with the site itself 
and concerns about the process that led to the President's 
recommendation of the site, I want to first address the dangers of 
transporting massive amounts of deadly nuclear waste along the nation's 
major highways, railroad tracks and waterways.
    Bush plan for moving thousands of tons of deadly high-level 
radioactive waste requires 100,000 shipments by truck, 20,000 by train 
and perhaps thousands more by barge over 40 years.
    This idea would be risky at any time, but after September 11, 2001 
it is just unthinkable.
    The long term radiation contained in each shipment is 240 times 
radiation released by the Hiroshima bomb.
    Shipments will pass by homes, schools, parks, churches, offices.
    Shipments jeopardize the safety, health, environment and the lives 
of many people who live in cities and towns all over the country.
    We know there will be hundreds of accidents involving shipments of 
nuclear waste.
    It's not a question of if, but when and where and how severe will 
these accidents be. And an accident involving a container of deadly 
nuclear waste is no routine fender-bender. A collision or fire 
involving a 25-ton payload of nuclear waste could kill thousands.
    Yet, the Department of Energy despite knowing there will be 
accidents recommended this plan without developing a plan for the 
shipments.
    In addition, DOE has failed to provide the millions of people who 
live near the proposed routes the information they need to understand 
the risk their families face.
    Deadly accidents are not the only concern. Shipping nuclear waste 
across the country increases our vulnerability to terrorist attack, by 
adding hundreds of thousands of targets for terrorists to attack with a 
missile or to hijack or to sabotage.
    So transporting deadly nuclear waste is dangerous and it's a risk 
our country shouldn't take.
    The nuclear power industry and some of its backers suggest it would 
be better to have nuclear waste at a single site instead of scattered 
around the country. But this is a false promise, because the nation's 
nuclear waste will never be consolidated at a single site.
    It will continue to be at every one of the operating reactor sites. 
Spent nuclear fuel rods are so hot and radioactive that they have to be 
stored at the nuclear reactor site in a cooling pond for 5 years before 
they can be moved. So developing Yucca Mountain would add to the number 
of sites with nuclear waste, not reduce it.
    There are also risks about Yucca Mountain itself and hundreds of 
unanswered questions about whether it can be a safe storage facility.
    Independent federal experts agree that the science done on Yucca 
Mountain is incomplete.

          The General Accounting Office, a credible independent agency, 
        chastised the Secretary of Energy for making a decision on 
        Yucca Mountain when almost 300 important scientific tests 
        remain incomplete.
          The experts at the Nuclear Waste Technical Review Board, 
        another independent agency, concluded that the technical basis 
        for Yucca Mountain is weak to moderate.
          The Inspector General at the Department of Energy found the 
        that law firm they hired was working for the nuclear power 
        industry at the same time.

    There is an alternative. We can safely leave the waste on site, 
where it will be any way as new waste is added to the existing waste. 
It will be safe there while we develop the technology for reprocessing 
or safe disposal without shipping 100,000 nuclear dirty bombs through 
your states.
    Again, I want to thank you for the opportunity to discuss this 
important issue.

      STATEMENT OF HON. FRANK H., MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Senator Bingaman. I had the 
pleasure of making sure these hearings started on time when I 
was chairman. I am glad to see that you are continuing the 
effort. I am pleased to see that we have a witness from Nevada 
this morning.
    It looks like we have a pretty good list of witnesses 
representing the Nuclear Regulatory Commission, the Waste 
Technical Review Board, the Government Accounting Agency, 
Department of Energy, and the Environmental Protection Agency.
    I am sure we are going to get some objective views on this. 
And I am also pleased to note that evidently the Honorable 
Robert Card is here from the Department of Energy, and I hope 
that he will feel free to jump in at any time to respond to 
questions or comments from both witnesses or members. I think 
he is very knowledgeable.
    As we know, we have had 20 years of study on this, over $4 
billion invested in determining whether this site is 
scientifically and technically suitable for the development of 
a repository.
    For those of you who say we are moving too fast, why, I am 
not sure that I would agree. This is a decision that has been 
made after 24 years of study by some of the world's best 
scientists, not that there are not other scientists out there 
that would disagree. But, at some point in time, you have to 
reach a decision. You can not vacillate forever, and then you 
have to be held accountable for that decision. So I am 
confident that the work done today by the Department of Energy, 
while it will continue, at least we are in a position now to 
move on, make recommendations and so forth, relative to the 
scientific investigations and analysis that will continue, of 
course, for the life of the repository.
    I personally believe that at some date that repository will 
be used for reprocessing of the waste which is what the French 
have done, what the Japanese are proceeding with, and I think 
is the appropriate way to proceed. But evidently, we are not 
quite there yet.
    We have got a realization that the $4 billion is not 
Federal dollars. Those are the dollars that have been paid into 
this by the rate payers. Now that money was paid in exchange 
for an obligation to take the nuclear waste. Remember, that was 
due in 1998. So far, no waste has been removed, despite the 
fact that the nuclear waste fund is now in excess of $17 
billion.
    If the spent fuel is not taken soon, we are told at least 
one reactor will shut down, Prairie Island in Minnesota. And I 
do not think that we can afford to sacrifice nuclear power, not 
in Minnesota or anywhere else.
    We have got 1,860 tons in California, 2,300 tons in New 
York, 5,800 tons in Illinois, and the recognition that the 
nuclear industry is still 20 percent of our power generation.
    We also have a responsibility to clean up our Cold War 
legacy and the Department of Energy weapons sites. Well, have 
them all over the United States. They have to be cleaned up. 
And to accomplish cleanup, waste must be removed. Sites like 
Rocky Flats in Colorado, Hanford in Washington, and Savannah 
River in South Carolina.
    It is rather ironic that those who are concerned about 
transportation, they want it out of their States, but they do 
not recognize the reality to get it out of their State--it is 
not going to disappear. It has got to be moved. So for a 
variety of reasons, all based on sound science, we must proceed 
to affirm the President's site designation of Yucca Mountain as 
our Nation's central remote nuclear waste repository. This is a 
decision before the committee, and what we will have to vote on 
the 5th of June.
    So, I look forward to proceeding, Mr. Chairman. I wish our 
witnesses a good day.
    The Chairman. All right. Thank you very much.
    Let me also just advise for anybody watching that we do 
have all of the testimonies at these hearings on our web site 
at energy.senate.gov.
    So, Mr. Hall, please go right ahead.

STATEMENT OF JIM HALL, FORMER CHAIRMAN, NATIONAL TRANSPORTATION 
 SAFETY BOARD, ON BEHALF OF THE TRANSPORTATION SAFETY COALITION

    Mr. Hall. Thank you, Mr. Chairman and Senators.
    My name is Jim Hall. For almost 7 years I served as 
Chairman of the National Transportation Safety Board. I 
previously served as a member of Governor Ned McWherter's 
cabinet and director of the Tennessee State Planning Office, 
where I worked on spent nuclear fuel transportation and storage 
issues. I also directed the State's oversight of DOE operations 
during the cleanup and restructuring of the Oak Ridge National 
Nuclear Weapons Complex. I currently serve on the National 
Academy of Engineering's committee on combating terrorism.
    Mr. Chairman, I should state that at the outset that I am 
not anti-nuclear. My house gets electricity from a nuclear 
powerplant that I see from a nearby ridge. I have no position 
on whether or not Yucca Mountain is a safe site for nuclear 
waste.
    I am here today representing the Transportation Safety 
Coalition, an ad hoc group of organizations concerned about the 
transportation of nuclear waste on America's roads, rails, and 
waterways. This is not solely an issue that affects the 
citizens of the State of Nevada, but all Americans, because 
shipments of nuclear waste would travel through 44 States, 
affecting over 200 million people.
    I want the committee to know exactly why I joined this 
effort. I joined for three reasons. First, in my role at the 
NTSB, I became all too familiar with the human and economic 
toll caused by air, rail, truck, and marine accidents. Since 
September 11, we have learned that we must protect our Nation's 
transportation system from intentional acts, as well.
    Second, from my work with the State of Tennessee, I know 
that the Department of Energy operations need careful oversight 
to ensure that safety is considered at all levels of an 
operation. The Oak Ridge cleanup will cost taxpayers over $6.5 
billion, and could have been avoided if a plan for safe 
disposal had been in place when testing began.
    Finally, Mr. Chairman, I hope that my entrance into this 
discussion will raise the level of discussion on transportation 
safety issues surrounding this important decision.
    As you evaluate legislation for a nuclear waste repository, 
you are considering a proposal for which there is no 
transportation plan. As the Secretary of Energy told you last 
week, and I quote his words, ``The Department of Energy is just 
beginning to formulate its preliminary thoughts about a 
transportation plan.''
    There is no plan, or even answers to basic questions. There 
is no post 9/11 risk assessment, no finalized modes and routes, 
no full scale test of the shipping containers.
    The Department of Energy has spent approximately $7 billion 
to study Yucca Mountain, but they have spent less that $200 
million over 20 years on transportation of nuclear material.
    Based on my review of the relevant materials and 
discussions with other experts in the field, it appears clear 
to me that much more work needs to be done. The proposal to 
send tens of thousands of shipments of high-level nuclear waste 
across country by truck, rail, and barge, will be, I believe, 
the biggest transportation safety decision made by this 
Congress in the next 50 years.
    The Department of Energy has not yet designated routes or 
modes of transportation. The DOE does not even support the use 
of dedicated trains, which would greatly enhance safety and 
security, in my opinion. We do not know what criteria the DOE 
will use to weigh safety against the cost of different 
transportation modes.
    According to a letter to Congress from the NRC, there have 
been no full scale tests on the casks that will be carrying 
high-level nuclear waste. According to news reports, terrorists 
have identified nuclear materials as their target of choice. 
And we do not know if the casks can withstand explosives or a 
missile.
    I know, from my work at the National Transportation Safety 
Board, that safe vehicles undergo vigorous tests for crash 
worthiness, structural integrity, and engineering reliability. 
Congress should demand vigorous tests on full scale shipping 
casks.
    A transportation plan for nuclear waste shipments should 
have a zero accident goal. The zero accident goal would reflect 
a culture in which safety is paramount and drives all aspects 
of the transportation system.
    Instead, the DOE estimates there will be over 66 truck 
accidents and 10 rail accidents over the first 24 years. 
Whatever the number, the fact is that one accident resulting in 
radioactive release will have long-term, devastating results.
    In the months following September 11, nearly every Federal 
agency has been engaged in evaluating the preparedness to deal 
with terrorist attacks and adopting measures to counter this 
new threat. Congress has approved billions of dollars for 
protecting Federal facilities from terrorist attacks, and is 
considering legislation to adapt the country's public health, 
emergency preparedness and response system to new threats. 
These ongoing efforts to protect citizens and infrastructure 
from terrorist acts, even those we have not yet been able to 
confirm. In contrast, we know that transporting nuclear waste 
is a hazard, and we need a full risk assessment of transporting 
nuclear waste.
    The DOE's proposal for transporting large amounts of high-
level nuclear waste over long distances many times every year 
is a dramatic increase in the amount of waste we have moved in 
the past. The number of things that can go wrong will increase 
significantly.
    History has shown us, time and time again, that if the 
essential elements of a safety plan are not put into place 
before an activity begins, the momentum of the activity 
overcomes safety considerations. Congress has the obligation to 
protect the public safety of the American people.
    The members of this committee are very familiar with the 
record of Federal agencies to respond to mandates once 
appropriations have been made and projects are underway. It is 
essential, I believe, to the American people that Congress is 
satisfied with a transportation plan before proceeding with the 
Yucca Mountain project.
    Thank you very much, and I thank the members of the 
committee for their attention.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Jim Hall, Former Chairman, 
                  National Transportation Safety Board
    Members of the Committee: My name is Jim Hall, and for more than 
seven years I served as Chairman of the National Transportation Safety 
Board (NTSB). In that capacity, I acted as the ``eyes and ears'' of the 
American people at transportation accidents across the country and 
around the world. Since leaving the National Transportation Safety 
Board in January of 2001, I have continued to work on transportation 
safety issues and serve as a strategic counselor in transportation 
safety and crisis management. In addition, I currently serve on the 
National Academy of Engineering's Committee on Combating Terrorism. 
This project is aimed at helping the Federal Government, and more 
specifically the Executive Office of the President, effectively use the 
nation's and the world's scientific and technical community in a timely 
response to the threat of catastrophic terrorism. The specific audience 
for the study will be the Office of Homeland Security, federal and 
state legislators, and state and local government officials responsible 
for mitigating terrorist threats.
    Prior to coming to Washington, I served as a member of Governor Ned 
McWherter's cabinet and director of the Tennessee State Planning 
Office. In that role, I was deeply involved with spent nuclear fuel 
transportation and storage issues while Tennessee was being considered 
a potential host state for Department of Energy's (DOE) proposed 
Monitored Retrievable Storage Facility. Additionally, I directed the 
State's oversight of DOE operations at Oak Ridge during the cleanup and 
restructuring of the national nuclear weapons complex. I also directed 
Tennessee's participation in the Southern States Energy Board Advisory 
Committee on Transportation of High-Level Radioactive Material and in 
the Southeast Compact Commission for Low-Level Radioactive Waste 
Management.
    I am here today representing the Transportation Safety Coalition, a 
group of organizations concerned about the safety of transporting 
dangerous nuclear waste on America's roads, railroads, and waterways. 
The coalition is composed of environmental, public health, and safety 
organizations, including the American Public Health Association, the 
Environmental Working Group, the National Environmental Trust, 
Physicians for Social Responsibility, U.S. Public Information Research 
Groups, and the Nevada Agency for Nuclear Projects. This coalition has 
come together to inform policy makers and the public on the dangers of 
proceeding with a nuclear waste repository without a thorough risk 
assessment of transporting nuclear waste.
                     doe has no transportation plan
    As the Chairman of the National Transportation Safety Board, I saw 
the results of a failure to adequately build a safety culture into 
transportation systems. I also saw how hard it can be for government 
bureaucracies to change directions to respond to new safety concerns. 
The National Transportation Safety Board's Strategic Plan states that 
it is often difficult for Federal, State and local agencies to 
``recognize and acknowledge when their safety regulations or programs 
are ineffective.''
    From my work with the State of Tennessee, I know firsthand about 
the failure to build a safety culture into the planning stage of an 
operation. The DOE's activities at the Oak Ridge National Laboratory 
site have contaminated soil, groundwater and rivers, even drinking 
water sources, as a result of leaks, spills, and past waste disposal 
practices. The resulting cleanup will cost taxpayers over $6.5 billion 
and could have been avoided if a plan for safe disposal had been in 
place when testing began.
    What I find most shocking about the Yucca Mountain Project is that 
DOE has no plan to transport spent nuclear fuel to its proposed 
repository. Secretary Abraham testified last week that the DOE is 
``just beginning to formulate its preliminary thoughts about a 
transportation plan.''
    In fact, DOE's spending history suggests that transportation 
planning has never been a high priority. The Department has spent 7 
billion dollars looking into Yucca Mountain's geology, but less than 
200 million dollars on transportation of nuclear waste. That works out 
to less than 10 million dollars a year for the last twenty years. This 
is a fundamental flaw in the Department's approach. While some might 
have accepted this approach before 9/11, no one should now. Failing to 
plan for the safe and secure transport of nuclear waste is 
irresponsible.
    We should not move ahead with this project without a plan for the 
most critical element of the project, the element that affects more 
people directly than any other element--that is the lesson of September 
11th. The issue of safe transportation cannot be separated from the 
issue before Congress today, that of deciding whether or not to 
override Governor Guinn's veto and move ahead with a Yucca Mountain 
site license. The Nuclear Regulatory Commission, which will evaluate 
the DOE's work on Yucca Mountain, has no authority to require a 
transportation plan before deciding on a site license. Only Congress 
can demand that the DOE develop a credible, safety-based transportation 
plan.
    Today, we all live under the constant threat of terrorism. It is 
reckless and irresponsible to move ahead without a transportation plan. 
Congress must immediately demand a detailed transportation plan that 
protects our citizens before it considers a vote on this project.
                     transportation mode and routes
    Secretary Abraham testified last week that DOE has made no 
decisions on the mode or mechanism of transport. DOE's Final 
Environmental Impact Statement (FEIS) simply predicts the maximum 
number of shipments that would occur under two scenarios: (1) shipments 
mostly by truck, and (2) shipments mostly by rail, which would require 
barge shipments from some reactors to rail lines.
    DOE's stated preference is to ship spent nuclear fuel mainly by 
rail. The rail industry concurs that safety and security are maximized 
by rail transport; however the Association of American Railroads 
testified to Congress that ``the safest possible method of transporting 
spent nuclear fuel is through the use of dedicated trains.'' DOE has 
not committed to using dedicated trains.In fact the Department appears 
to be resistant to the idea because it is cheaper to ship nuclear waste 
on a train that can also take on other types of cargo. Yet it appears 
there would be greater safety and security risks if the DOE does not 
use dedicated trains. A transportation plan should outline how the DOE 
will weigh safety against economic concerns. We don't know how the DOE 
is going to develop its transportation plan, and we don't know whether 
in fact it will rely on rail as its primary transportation mode.
    Construction of a rail line to Yucca Mountain would be the largest 
new rail construction undertaking in America since World War I and cost 
1.5 billion dollars or more. If there is no rail spur to Yucca 
Mountain, then high-level nuclear waste must be trucked. Without a new 
rail line to Yucca Mountain, large rail casks would have to move long 
distances on public highways by heavy haul trucks through the country's 
fastest growing urban area. In this scenario the waste would have to be 
transferred three times, increasing the risk and the exposure to the 
general public.
    The United States is undergoing a major demographic shift involving 
migration from rural areas to urban areas, meaning that both the 
population of urban areas and the size of urban areas will dramatically 
increase over the next ten to twenty years. Many of the interstate 
highways near urban areas already experience significant rush-hour 
congestion, which is expected to increase as the number of drivers 
increases. These interstates--such as I-75 through Atlanta, I-95 
through Connecticut and New York, and I-24 through Nashville--are the 
routes that will most likely be used for truck shipments of nuclear 
waste. Nowhere in DOE's materials was I able to locate any use of 
projected traffic patterns, demographics, or highway expansion, which 
should be a critical element of a transportation plan. A route that 
might take a commuter--or a truck carrying nuclear waste--15 minutes 
today may take over an hour in future conditions, and transportation 
planning must include this kind of forward thinking.
    It is worth noting here that even if shipments were to begin today, 
there are more than 200 million Americans living in the 700-plus 
counties that are traversed by DOE's potential roads and rail-lines. 
This population is only going to grow, and grow quickly, during the 24 
years DOE needs to move nuclear waste across the country.
    The DOE does not account for the fact that while nuclear waste 
shipments begin at scattered locations around the country, these 
shipments will begin to converge along certain routes as they near the 
proposed repository site. In these areas, nuclear waste shipments will 
become everyday occurrences, and the routes will become well known. 
This raises two concerns. First, risk is not constant across the 
country but may be higher along routes that converge near the 
repository, and a transportation plan should consider this. Second, in 
the past the DOE has usually been able to transport nuclear waste in 
relative secrecy. The proposed movement of 77,000 tons of nuclear waste 
is unprecedented, and in certain parts of the country, shipments will 
be frequent and predictable. We know that nuclear waste is an 
attractive target for terrorists--I have heard that al Qaeda has 
identified nuclear material as its target of choice--and it is unlikely 
that the DOE will be able to maintain a low profile for these shipments 
throughout the 24 years of shipments.
                             shipment casks
    No government agency has demonstrated the safety of the casks that 
will be used to transport spent nuclear fuel under conditions that 
would be encountered in an accident or terrorist attack. Neither the 
Department of Transportation nor the Nuclear Regulatory Commission 
(NRC) has tested the truck or rail waste containers, which is why I 
have called for immediate full scale testing of the shipping casks. 
Before transportation vehicles are allowed to carry passengers, the 
vehicles undergo vigorous tests for crash-worthiness, structural 
integrity and engineering reliability. The only tests that have been 
done on these casks to date were conducted on small-scale models or 
simulated with computer programs. These tests are no substitute for 
full-scale testing of the actual casks that will be used for 
transporting waste. This is especially true given the fact that these 
canisters, if breached in an accident or terrorist attack, could spread 
radioactive waste across many square miles and endangering the health 
of thousands of people.
    Full-scale testing of truck and rail casks would provide cask 
designers, regulators, and policy makers with the information necessary 
to determine whether the casks could withstand such damage, and what 
corrective actions, if any, need to be taken. The experts I have 
consulted tell me that full-scale physical tests should include, at a 
minimum, the following elements: meaningful stakeholder participation 
in the development of testing protocols and the selection of test 
facilities and personnel; full-scale sequential testing (drop, fire, 
puncture, and water immersion) on a single example of each new truck 
and rail cask type; and physical testing of casks against currently 
available armor-piercing weapons and other explosive devices.
                            the human factor
    Rather than setting a goal of zero accidents and zero releases, the 
DOE estimates that there will be over 66 truck accidents and 10 rail 
accidents over the first 24 years of transportation to a repository. 
Based on information from the DOE and the department's past 
performance, other experts are estimating that there will be more than 
150 truck or 360 rail accidents over 38 years. Whatever the number, the 
fact is that one accident resulting in radioactive release will have 
long-term devastating results.
    A transportation plan for nuclear waste shipments should have a 
zero-accident goal. The zero-accident goal would reflect a culture in 
which safety is paramount and drives all aspects of the transportation 
system. The goal encourages a culture of safety. The FAA and individual 
airline companies have set a goal of zero accidents and zero 
fatalities. The DuPont Corporation, with a 99.1 percent safety record, 
has set a zero tolerance policy for accidents and employee injuries. 
The company noted that if we all accepted 99.1 percent in other aspects 
of our lives, we would then accept:

  <bullet> 4,500 incorrect surgical operations each year;
  <bullet> 18 unsafe landings at O'Hare Airport in Chicago each day; 
        and
  <bullet> 150,000 pieces of mail lost each hour.

    A transportation plan should include a careful look at all the 
human factors that contribute to risk in transporting nuclear waste. 
Over 80% and possibly up to 90% of all transportation accidents are 
caused by human error. In investigating the causes of accidents, the 
National Transportation Safety Board examines such human factors as 
operating practices and procedures; training; duty/rest cycles; 
fatigue; workload; control/display systems; crew coordination; 
situational awareness; and decision-making. These are all elements that 
should be in a transportation plan to ensure a culture of safety.
    September 11th and the anthrax mail incident have highlighted the 
importance of having a well-articulated communications system in place 
before it might become necessary to use such a system. But even before 
last fall, past incidents had already taught us that a strategy for 
crisis communication is essential. One of the most striking failures 
during the Three Mile Island incident was the series of 
miscommunications between plant operators, federal agencies, local 
officials, the press and the public. The widespread public panic that 
followed the first announcement of problems with the nuclear reactor 
has generally been blamed on poor communications, and the incident 
itself was in part caused by communication problems. It will be a huge, 
but critical, undertaking to develop a nationwide communications system 
as part of a nuclear waste transportation plan.
                          full risk assessment
    In the months following September 11th, nearly every federal agency 
has been engaged in evaluating their preparedness to deal with 
terrorist attacks and adopting measures to counter this new threat. 
Congress has approved billions of dollars for protecting federal 
facilities from terrorist attacks and is considering legislation to 
adapt the country's public health, emergency preparedness, and response 
systems to new threats (H.R. 3555). In 1998, federal agencies were 
directed to conduct vulnerability assessments of critical 
infrastructure (PDD 63). These ongoing efforts aim to protect citizens 
and infrastructure from terrorist acts, even those we have not yet 
confronted. In contrast, we already know that terrorists view nuclear 
material as the target of choice, and yet safeguarding the 
transportation of nuclear waste--a known hazard--has not received the 
same level of scrutiny.
    The issues I have just raised must be addressed before the DOE can 
tell us where, how and for how long shipments will occur. To address 
these issues, the Department must make some difficult decisions and 
initiate long-range planning. The DOE's decisions must be safety-
driven, and safety-driven decisions are often not the most economical. 
The process by which the DOE makes these choices must be transparent 
and based on a system-wide risk analysis. What does that entail? In 
general terms, DOE must perform a comprehensive risk assessment that 
considers current and future conditions; identifies known hazards and 
anticipates unknown hazards; analyzes where, how, and how much the 
public may be at risk; and estimates how much each alternative--
including security--will cost. It is essential that state and local 
officials, particularly transportation experts and emergency response 
providers, are involved in the risk assessment process. This risk 
assessment will provide the information needed to decide whether the 
unprecedented nationwide mobilization of spent nuclear fuel can be done 
safely and securely.
                               conclusion
    Secretary Abraham admitted last week that no decision on routes or 
transportation modes has been made, and that any suggestion to this 
effect is ``completely fictitious.'' He further stated that those 
decisions can't be made until the ``DOE has the opportunity to work 
with affected States, local governments, and other entities on how to 
proceed.''
    I couldn't agree more with the Secretary, but I disagree that this 
work can wait until after a site is designated. The Secretary argues 
that because the DOE has shipped nuclear materials before, there is a 
record of safety. But I can assure you as someone intimately familiar 
with transportation in this country that we have never shipped waste in 
the vast quantities or with the frequency that the DOE is proposing 
now. Before Yucca Mountain is approved Congress should demand that DOE 
conduct a full risk assessment of transporting nuclear waste.
    My testimony is no different than what Secretary Abraham told the 
Committee last week with regard to the DOE's plan for transporting 
nuclear waste. There is no plan for shipping nuclear waste to Yucca 
Mountain. The potential consequences of an accident or terrorist attack 
on a nuclear waste shipment would be devastating, and the American 
people need to understand that their highways, their communities, and 
their neighborhoods are the sites for potential releases of this high 
level waste.
    History has shown us time and time again that if the essential 
elements of a safety plan are not put into place before an activity 
begins, the momentum of the activity overtakes safety considerations. 
We all have an obligation to ensure that everything that can be done is 
being done to protect the American people. I believe every member of 
Congress will fulfill their obligation by requiring DOE to develop a 
transportation plan with a full risk assessment before any repository 
site is approved.

    The Chairman. Well, thank you very much.
    Let me start with a few questions. As I understand your 
statement, your testimony, your position is that there has not 
been near enough work done related to transportation issues in 
connection with Yucca Mountain, but that you are not saying 
that those issues--that there is anything that necessarily 
leads us to conclude those issues can not be adequately dealt 
with. Is that right?
    Mr. Hall. Well, Mr. Chairman, I look at this as two 
different decisions that this Congress has to make. One 
decision, obviously, is the designation of a permanent 
repository, and the decisions--you know, the questions, that 
need to be asked, and the decision that needs to made 
associated with that site, wherever it is.
    The other decision, obviously, is the safe transport of the 
waste from over 70 different locations around the United States 
to wherever that permanent repository is. There has been an 
expenditure of over $7 billion, and a great deal of work that 
has been done on one of those decisions.
    The second decision, as I pointed out in my testimony, over 
20 years, less--about $200 million has been spent on that 
decision. It would appear to me, however, that that decision is 
probably the most important decision to the constituents in the 
50 States of the United States, because these materials are 
going to be transported through their homes, their communities, 
their neighborhoods. And, therefore, Congress needs to be sure 
that this material can be transported safely, before it makes a 
decision on a final site for this material.
    The Chairman. What is your view? My impression, though, has 
always been that the Nuclear Regulatory Commission has 
authority to set requirements that have to be met related to 
transportation and to the adequacy of the shipping casks being 
used, and any other aspect of the project--the transportation 
aspects of the project that concern them, they can set those 
requirements and can condition a license on the meeting of 
those requirements. Is that wrong?
    Mr. Hall. Well, I would like to submit, for the record, a 
letter that was given to me that was sent to Senator Durbin on 
May 10, 2002 in which one of the questions was, ``What role 
would your energy play regarding transportation of spent fuel 
if Congress approves Yucca Mountain?''
    And the response was, ``If DOE takes custody of the spent 
fuel at the licensee's site, DOE regulations would control the 
actual spent fuel shipment.'' But, I think the important point 
here----
    The Chairman. This is from the Nuclear Regulatory 
Commission to Senator Durbin?
    Mr. Hall. Yes, sir, and I will submit that for the record.
    The important point to me, Mr. Chairman, I believe, is that 
after 9/11, a risk assessment should take place; a risk 
assessment that would identify what can go wrong, what is the 
likelihood of it, and what are the consequences. And then 
Congress should make a decision on exactly who should set up 
the regulatory scheme for the transport of this material, 
because it possibly might be--it should be the responsibility 
of the United States military to handle the transport of this 
material.
    The Chairman. So, your view is that since 9/11 occurred, or 
as a result of 9/11 having occurred, the Secretary should not 
have gone forward with a recommendation to the President. The 
Secretary of Energy should not have done that until he did this 
risk assessment, is that right?
    Mr. Hall. Well, my position, sir, is that I would certainly 
not speak for the Secretary. I would certainly recommend, from 
my background at the NTSB and in Tennessee with the Oak Ridge 
facility, that I would like to recommend to Congress that I 
think it is your responsibility to ensure that there is a 
transportation plan in place that satisfies the members of 
Congress for the safe handling and the transport through the 
neighborhoods and homes of their constituents prior to 
approving this decision.
    The Chairman. Well, you understand, I'm sure, the legal 
framework in which this is coming before the Congress, in that 
when the Secretary of Energy made his recommendation to the 
President, the President had a limited period of time in which 
to rule on that. Then the Governor in Nevada had an 
opportunity, again a limited period of time, in which to veto 
it. And now Congress has a limited period of time in which to 
override that veto. And it is your recommendation to Congress 
that we not override that veto, and that we essentially 
terminate work on the project until this issue is adequately 
dealt with?
    Mr. Hall. Sir, I do not know all the options that might be 
available to the Congress in this situation, but I do strongly 
feel that a transportation plan is an essential ingredient to 
making the decision to transport this waste to a final 
repository.
    The Chairman. All right. Thank you very much.
    Senator Campbell.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thanks, Mr. Chairman. Sorry I could not 
have attended yesterday. I had to chair another hearing for 
Senator Inouye, who is gone. But, I was particularly interested 
in hearing Jim Hall's testimony.
    I have not been a big supporter of the moving of this 
waste, as you probably know, Jim. And I think you pointed to 
one of the main reasons, and that is the transportation 
problem. I've mentioned two or three times our concerns in 
Colorado. And I have read all of the testimony of today, and I 
noticed in the Department of Transportation's testimony, they 
talk about using beltways, when available, and that the, you 
know, Governors can recommend designated routes and so on, but 
that is not an iron-clad way of dealing with it, I don't think, 
because most towns in the West do not have beltways, and the 
Governors do not have the authority to overrule the Federal 
agencies, as you probably know.
    And, so, we get down, you know, to really a question of 
what is the safest thing to do? It seems to me we have got 
three problems when we talk about transporting. You mentioned 
the opportunity of targets for terrorists. I was just musing 
about that. If you leave it where it is, they have an 
opportunity at the location where it is. If you move it, they 
have a second opportunity, and that opportunity is where it is 
and en route. And if you put it in Nevada, you have a third 
opportunity for terrorists, and one is where it is now, one is 
en route, and where you are going to put it, because it is not 
going to be done overnight. It is going to take long time to 
transport all that stuff.
    So it seems to me, if you are dealing with the opportunity 
for terrorists, they have got three opportunities, if we move 
it, instead of one opportunity. I think that is wrong to do 
that.
    I also read some of the tests. I did not bring them with me 
so I can not repeat them exactly, but the tests of how these 
casks were dropped on a hard surface, on a six-inch stake from 
a certain number of feet. I forgot the number of feet, if it 
was 50, 60, or something of that nature, but living in a State 
where it is nothing to have automobiles sometimes fall 800 or 
1,000 feet off some of those cliffs that they have missed the 
road. It seems to me that that is not an ironclad test as to 
whether that thing is going to break.
    And I read about how it was subjected to an amount of heat. 
Well, let me tell you, if steel beams can melt in the 9/11 
catastrophe in New York, that thing is sure going to melt under 
less heat. If you get enough heat, anything will melt. And I do 
not know where that leaves those pellets, frankly, if that does 
melt. And I have heard, a number of times, that diesel fuel in 
itself will fuel a fire hotter than this container can 
withstand.
    And when you talk about impact, there was also a study done 
on the impact of a moving impact to an immovable object, but I 
don't think there are any studies the other way around dealing 
with ballistics, at least not that I know of. Maybe it does.
    So it seems to me that there is so much based on 
hypothetical scenarios that we do not know, I just have to tell 
you I think it is safer leaving it all where it is. And I know 
that I come from a State that wants to get rid of it, and I get 
some criticism because of it, but it just seems to me that we 
are dealing with so much unknown that we ought to know a lot 
more.
    And my big concern, of course, is that I--part of the 
transportation that would go through Colorado is on I-25, that 
goes through Denver and down the Glenwood Canyon. Even if you 
could re-route it around Denver, there is no other route to get 
over the Continental Divide that is four-lane, except I-25, 
that goes through a lot of towns, but there is a railroad, as 
you know, that goes right beside the highway.
    Whether you ship it by railroad or ship it by truck, you 
have got the same problem. And one is on one side of the river, 
if you have ever been there, and the other is on the other side 
of one of the tributaries that goes into the Rio Grande. If 
something happened there, and it seems to me that it certainly 
is in the realm of possibility, considering we average eight to 
ten trucks per year that crash going down that I-25 west side 
of the Continental Divide, that water goes into Nevada, goes 
into California, goes into Mexico, and our international 
compacts. I cannot imagine the catastrophic results if that 
water is contaminated for millions and millions of people 
downstream.
    I do not really have any questions, Mr. Chairman, but I do 
want to throw that out, because I think I have learned a lot 
from Jim's testimony. Thank you.
    The Chairman. Thank you.
    Senator Thomas.
    Senator Thomas. Thank you for being here. It is correct, 
then, that you have no opinion on the siting issue.
    Mr. Hall. No, sir.
    Senator Thomas. That is what this hearing is about, as you 
know, is siting. What--do you not think--as the chairman 
pointed out, we have a sequence of determining the site, and 
then the obligation to determine the transportation 
requirements. Does that not seem reasonable? Why do you suggest 
that the Congress is going to ignore transportation 
requirements just because we already have a site?
    Mr. Hall. Well, sir, it is just my personal opinion. Let me 
say my opinion, in regard to the site, I have no opinion as to 
where the site should be. I do have a very strong opinion that 
I attempted to express, that I felt that it would be in the 
wisdom of Congress to ensure that there is the ability to 
safely transport this.
    Senator Thomas. That is what I am asking you. Why do you 
think that the Congress will not do that?
    Mr. Hall. My experience, sir, with--I think the Congress 
will exercise, obviously, the responsibilities. However, I have 
seen in my experience, both at the Federal level and State 
level, that many times agencies that have split authorities, 
given the emphasis to do one thing--we had a discussion, if you 
remember, with the Federal Aviation Administration during my 
tenure at the NTSB----
    Senator Thomas. Could you kind of come to the----
    Mr. Hall. Over there is a divided authority in regard to 
safety versus the promotion of aviation.
    Senator Thomas. My question is what makes you think that we 
are not going to address the safety transportation issue?
    Mr. Hall. My experience in government.
    Senator Thomas. I see. And you were there for how long?
    Mr. Hall. I was with the National Transportation Safety 
Board for over 7 years, and the State of Tennessee over 7 
years.
    Senator Thomas. We have been transporting nuclear materials 
for 30 years, over 16 million miles, and you do not have a 
safety arrangement from the Transportation Board? What did you 
do during that 10 years?
    Mr. Hall. What, sir?
    Senator Thomas. Well, we have been doing this--this is not 
the first nuclear waste that we have transported. We are 
transporting it right now.
    Mr. Hall. Well, I did not--I certainly did not----
    Senator Thomas [continuing]. And you have been on the 
Transportation Board who was responsible for the safety on 
transportation.
    Mr. Hall. Yes, sir, the National Transportation Safety 
Board is empowered by Congress for the investigation of 
transportation accidents--all aviation accidents and major 
transportation accidents in other modes. We do look at 
accidents of hazardous materials.
    The point in my testimony is there has been transport of 
hazardous materials and some radioactive materials. I am very 
familiar with that, and very familiar from my experience with 
the State of Tennessee. But you were talking----
    Senator Thomas. Have there been any real serious problems 
with that?
    Mr. Hall. There have been accidents and incidents----
    Senator Thomas. Have there been any accidents that have 
been nuclear?
    Mr. Hall [continuing]. But none that have resulted, that I 
am aware of, in any releases to this point, sir, but we are 
talking about the volume and distances that have never been 
looked at before. And we are discussing this issue post 9/11.
    Senator Thomas. Oh, I understand. And the Congress is aware 
of 9/11. I am a little offended that you say, ``Well, you are 
not going to look at the transportation.'' The obligation of 
these hearings is the site. And that is what is being done. Are 
you a paid consultant for the State of Nevada?
    Mr. Hall. Yes, sir.
    Senator Thomas. Okay. So you are representing the point of 
view of the State of Nevada.
    Mr. Hall. I am representing my own point of view, sir.
    Senator Thomas. I see.
    Mr. Hall. I am a representative and safety consultant, and 
transportation consultant for a number of clients, as I 
expressed in my opening testimony. I chose to get involved in 
this issue because of my experience at the NTSB, at Oak Ridge, 
and also because I did not think adequate attention was being 
given to the transportation safety issues. And I thought that 
by my participation and the possible potential, I understood, 
of others to attack my participation, it would at least serve 
to raise the level of issue of the Transportation Safety Plan, 
which I think does not exist.
    Senator Thomas. I see. I guess I am just interested that 
you served on the board responsible for that for 10 years, and 
you act as if there has never been----
    Mr. Hall. No, sir. We did not have a regulatory 
responsibility.
    Senator Thomas. It is the safety board, is it not?
    Mr. Hall. The safety board has a responsibility to make 
recommendations out of major transportation accidents.
    Senator Thomas. And it is your view, then, that probably 
once the site is done, there will be no more talk about 
transportation from the Congress.
    Mr. Hall. My concern is that if you look at the past 20 
years, that some $7 billion has been spent on the site, less 
that $200 million over 20 years in trying to look at very 
serious safety issues.
    When I was at the State of Tennessee, there was discussions 
at that time that there was no way that this material was going 
to be transported any other way than dedicated trains.
    You fast forward now and there is the discussion of not 
only putting this on our highways, but putting it on our 
waterways, as well. And I think, post 9/11, again, and I know 
the members of Congress much more than any other Americans are 
aware of 9/11----
    Senator Thomas. Waterways to Yucca Mountain?
    Mr. Hall. What, sir?
    Senator Thomas. Waterways to Yucca Mountain?
    Mr. Hall. No, barging from some of the 70 sites.
    Senator Thomas. I see. It is a little hard to barge to 
Yucca. But, in any event, I guess I am just kind of 
disappointed in the way you picked out one thing and suggest 
that despite 35 years of transportation of nuclear power 
without any notable incidents that the DOE is not going to take 
a look at the transportation, I think that is wrong, sir. They 
will look at it, and that will be the second phase to 
understand whether that is safe or not. Thank you.
    The Chairman. Senator Burns.

         STATEMENT OF HON. CONRAD BURNS, U.S. SENATOR 
                          FROM MONTANA

    Senator Burns. Good to see you, Jim. I had not seen you for 
a while.
    Mr. Hall. Nice to see you, Senator.
    Senator Burns. We are still having wrecks.
    [Laughter.]
    Senator Burns. Let the public be reminded the only thing 
that we got in that hole out there in Yucca Mountain, Nevada, 
is $7 billion. And we still have not resolved this thing. And 
let us also quiet the nerves of the American people that 
nuclear waste is being transported on waterways, and on land, 
surface transportation all over the world.
    If we want anyone to be responsible, then we should take a 
very close look on how it is being done in Europe. I have been 
in both of those reprocessing plants, have taken a look at 
their transportation. They have not had one loss of life, and 
some of that waste comes as far into France as far away as 
Japan. So it is on our high seas. I have seen these rods--stood 
within 10 feet of them with only ten feet of water between you. 
How it is unloaded; how it is handled; how it is reprocessed; 
and how the waste that is leftover is vitrified and stored. All 
that process and that technology was developed, for the most 
part, here in the United States of America. And yet, we go 
through this exercise like we are doing something here that is 
going to make those folks or those animals or whatever, on or 
near Yucca Mountain, or on or near a nuclear site glow at 
night, when we should be taking a look at common sense and the 
tools and technology that we have to deal with the challenge of 
nuclear waste.
    It defies common sense to me that the experience that we 
have had in the generation of power using nuclear fuels, the 
record that they have. Some folks point to Three-Mile Island. 
Who died? Did the system work? Did we learn from that accident 
up there that there are some weak points? But, those weak 
points held up, but we found out things and we learned things, 
and we changed our method of dealing with it in the correct 
way. We put emotion into it and hearsay, and misinformation to 
the point where we can not make a solid, sound, political or 
common sense decision on how to deal with nuclear waste 
produced from making power for this country. That simply defies 
common sense.
    And I know we all have our interests and we still have to 
do business in this 17 square miles of logic-free environment, 
and try to come to some conclusion on how to solve this 
challenge. It is not a problem. Problems are challenges, and 
they are opportunities, but it gets in the way--of all the 
rhetoric that is flying around here, it gets in the way of 
making a solid, sound decision.
    So, I have studied it. I have been around this thing--I 
have been on this committee for 13 years now--13 years. I can 
remember when the estimated cost was, what, around $2.5 or $3 
billion, Mr. Chairman? Something like that.
    The Chairman. I am sure it was.
    Senator Burns. And we ripped right by it, folks. I mean, it 
is just like trying to buy a house within 4 miles of where we 
sit. You can go past that peg of what you want to get for a 
house so fast it will make your head swim. And we still have 
not resolved the question that is at hand.
    So, I am going to continue to read and to watch, and Jim, I 
appreciate your testimony, and I appreciate your written 
testimony. And I know you kind of have a handle on that. But, 
it is also transported all over this world, and there has not 
been an accident there either.
    So we are doing something right. That is not to say that 
questions should not be asked. And some of the doubts that you 
have or some of the weakness that you see is valuable to us. So 
we appreciate you coming today and bringing those up. They will 
be studied and looked at, because we do want to make a prudent 
decision. But keep in mind, folks, we have been doing this for 
35 years. And the only people who got reckless about it were 
the folks that paid the price, and we know where that is. It is 
not here, and it is not in Europe. And 80 percent of the power 
that is being produced for the country of France is being 
produced by nuclear fission. So thank you for coming today. I 
appreciate that.
    Mr. Hall. Thank you, Senator.
    The Chairman. Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman.
    I want to clear up just a couple of things. First of all, 
the Senator from Wyoming, when he was talking about the barges, 
that is according to the DOE. That is one of the possibles. If 
they go with mostly train scenarios, they have to go with 
barges. To get it from the sites to Yucca Mountain, and that is 
where--Mr. Hall, I think that that is where your comments came 
about the barge scenarios, and the potential for a terrorist 
attack.
    I want to get back to the 9/11 comment. People have talked 
about doing this thing for years and years and we thought about 
high rises or skyscrapers for years, we did not think about a 
missile--an airplane used as a missile going into those, and 
forming the kinds of devastation that happened in New York 
City.
    And not to use fear, but I think that when we are talking 
about some of the deadliest substances known to the planet, we 
need to look at worst-case scenarios. We need to study that, 
and I think that that is what you are talking about. Could you 
comment--I do not know how familiar you are with the train 
accident last year in Baltimore, the Baltimore Tunnel fire--
just on some of the temperatures maybe and the canisters and if 
those have been studied, and would these things withstand some 
of the temperatures that were reached in the Baltimore Tunnel 
fire?
    Mr. Hall. Well, thank you very much, Senator. And let me 
say that I am sorry that the gentleman I have a great deal of 
respect for, Senator Burns, has left, but my purpose here is to 
raise what I think are issues that are important issues to this 
Committee. And I would not be here for any other reason. I 
think it is a fact that many people are concerned. I live in 
Tennessee. The TVA is--20, 25 percent of the power, the power 
for my home is generated nuclear.
    But there is a concern. We saw that in the reaction after 
the Three Mile Island incident. And not to take those things 
into consideration when we are talking about the amount of 
waste and the distance that we are talking about transporting 
this, that is the issue that I am trying to raise, and I 
certainly hope I am doing it responsibly.
    In regard to the accident in Baltimore, that occurred after 
my term at the NTSB. However, I am familiar with the accident. 
There is an ongoing investigation being conducted by the 
National Transportation Safety Board. I am told from the 
reports I have read, that the temperatures were in excess of 
1500 degrees. As you know, there was a study done by the State 
of Nevada looking at the economic and human consequences had 
that train, obviously, been one of the trains carrying this 
type of material. And I do not think that that is irresponsible 
at all.
    I think that is what any Senator here, if the material was 
going to their State, would be doing, wanting to be sure that 
this is being handle safely, because although it is coming from 
70 different locations, there is--that material is going to 
accumulate in large quantity at several Western States and 
eventually in the State of Nevada. So looking, obviously, at 
the amount of material and the amount of responsibility, it is 
extremely important.
    I have asked Dr. Merritt Berkey who was a fire and 
explosive expert at the National Transportation Safety Board, 
to look at some of these issues and to provide his opinion for 
this committee's evaluation. And I hope that if it is 
permissible with the chairman, that Dr. Berkey's comments, as 
soon as he has them prepared, could be submitted to the 
committee for its record.
    The Chairman. We will be glad to consider those comments, 
if we receive them in time to do so.
    Mr. Hall. Okay, Mr. Chairman. But those types of--I have 
seen, regrettably, many, many situations--as you know, our 
cockpit voice recorders and flight date recorders are built to 
withstand tremendous impact forces and heat. And yet, we have 
had accidents while I have been at the Board during my tenure 
in which we basically lost the use of those recorders because 
of many--usually because of the fire.
    So that is certainly a very important part of a risk 
assessment that needs to be done.
    Senator Ensign. Well--and correct me if I am wrong. But I 
think losing information in a flight date recorder is not 
nearly as serious as, obviously, you know, having a leak. And I 
think that the point of them going on barges or the point of 
these things happening in a major city is just the idea that, 
even if you are not concerned that--because they are in a 
pellet form or whatever, the release of radiation, I think we 
do have to--if you are not concerned about the health 
consequences, we do have to consider the economic consequences 
if nothing else.
    I mean, the reputation, if this happened, that we had a 
radiation leak in a tourist destination or in a business area 
or something like that and you are shutting down commerce 
because nobody is going to want to go to that area, and they 
have to seal the area off because of--to make sure that there 
is no radiation there, we know what happens with these places 
when they seal it off, and how long it takes the government to 
certify that an area was radiation-free, and the public 
perception.
    We saw from 9/11 how nobody wanted to fly for a while. They 
slowly came back, but a lot of economic damage was done at the 
time. And that, I think, is part of the study that needs to be 
done when we are talking about the transportation.
    I, frankly, think it is irresponsible for the Congress to 
go ahead with building Yucca Mountain when we do not have these 
answers done. And I appreciate you being here today and raising 
some of these questions for us.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Reid.
    Senator Reid. Thank you very much, Mr. Chairman.
    I want to follow up on the last statement Senator Ensign 
made. Just being logical, I understand Senator Thomas--my staff 
told me Senator Thomas said that transportation is going to be 
the second phase of the nuclear waste program. Is that your 
understanding?
    Mr. Hall. Well, it is--yes, sir.
    Senator Reid. Now, if we cannot--if we find that 
transportation cannot be done safely, does it not seem to you 
that we would be better off finding out if we can do the 
transportation before you spend $100 billion? That is the 
latest figures we have on the program out there.
    Mr. Hall. Senator, what I was trying to respectfully say to 
Senator Thomas is that my experience with government and well-
intentioned government employees and a very well-intentioned 
Congress--and I point to the example of ValuJet, where a 
government policy was made to try to accelerate the entrance of 
low-cost airlines into the market without thoroughly and 
clearly thinking out, you know, the regulatory and safety 
responsibility in advance. It can end up with consequences 
that, obviously, no one on this committee or anyone else could 
have intended.
    The most important part of this decision is not the site. 
The most important part of this decision is the safe transport 
of this material to the site. And I think, quite respectfully, 
that in this situation the cart is before the horse in the fact 
that we must know--the Congress must know and be satisfied that 
this material can be transported safely before it makes a 
decision on a final site for the material.
    Senator Reid. The State of Nevada has for almost 20 years 
been attempting to show, and I think it has been proven 
conclusively in the minds of many that Yucca Mountain is not a 
place that you should store nuclear waste. But that issue is no 
longer important to the Congress. And what Senator Ensign and I 
have been trying to do with the hearing we had yesterday and 
through other witnesses is show that the transportation is not 
a Nevada problem. Nuclear waste is not suddenly going to show 
up at Yucca Mountain some morning, ``Oh, we have 40,000 tons or 
70,000 tons. I wonder how that--that is nice. I am glad it is 
here.''
    The fact of the matter is it is going to have to come in 
thousands of different truckloads and hundreds and hundreds if 
not thousands of trainloads. And as we learned yesterday, using 
one transportation scenario, it will have to have thousands of 
barge trips before it can get to where it is. And it would seem 
to me that common sense would indicate that before you have a 
siting decision, you should decide if there is any way of 
putting the stuff there, before you site it. But we have not 
done it that way. And I think it is really wrong, and I do not 
think it takes a degree in calculus to figure that out.
    Mr. Hall. Well----
    Senator Reid. So I appreciate your testimony.
    Mr. Hall. I appreciate that, Senator. Obviously, in 
aviation, we are sure that we have redundant systems and an 
airplane is very well tested before we put passengers on it.
    Senator Campbell. Mr. Chairman, may I ask one more question 
of this witness?
    The Chairman. Certainly. Go right ahead, Senator Campbell.
    Senator Campbell. Senator Thomas's comment about barges not 
going to Nevada I think is well taken. But where are some of 
the places where barges might be used? Do they just come across 
the Great Lakes, for instance, or----
    Mr. Hall. Senator Campbell, I know that I only have a 
Tennessee public school education, which I am very proud of, 
but even I know that there are not barges to Yucca Mountain. 
But I was referring to the EIS study in which it relates--and I 
do not know specifically. There was some transport, I think, up 
in the northeast and other areas where at present the only way 
that----
    Senator Campbell. Well, then let me ask something else, 
because I consider you pretty much of an expert on 
transportation because of your background. Does that mean that 
there is a possibility that these containers could be loaded 
and unloaded three times? For instance, it has to come from 
somewhere, and could then have to be put on a barge, and then 
taken off the barge and put back on something else, trucks or 
trains.
    Mr. Hall. Senator----
    Senator Campbell. Is that correct?
    Mr. Hall. Yes, sir. And the thing that concerns me and the 
reason I have asked for the full-scale testing is that is just 
one part of it. You know, we had many failures in our pipeline 
system in the United States as a result of a phenomena called 
``railroading.''
    We were making what we thought were good steel pipe to the 
specifications that were required. They were being put and 
placed on railroad cars and being shipped to their 
destinations. Some 10, 15, 20 years later, we began finding 
leaks and ruptures that were then discovered later to become a 
phenomena of the transportation of this particular container.
    Senator Campbell. Okay.
    Mr. Hall. So the handling of the specifications obviously 
for the container itself, what it can do in terms of accidents 
or intentional terrorist attacks is important. Looking at the 
human factors issues in regard to the handling of the cask is 
going to be extremely important; and testing, obviously, what 
impact the transportation is going to have on the container 
itself.
    All of these are issues that again--and I understand that 
there is a difference of opinion here possibly. But I think the 
responsible--my personal opinion is that the responsible thing 
to do is to know that this material can be safely transported 
before a decision is made that you are going to start a site 
and set it in motion.
    Senator Campbell. Well, I happen to have gotten through--I 
got through college by driving an 18-wheeler. I think I am 
still the only member of the Senate that still has a CDL. And 
as I remember from those years when I did drive, the biggest 
amount of damage was never in transport; it was in loading and 
unloading. If we broke something or did something, it was 
almost always when we were loading or unloading it.
    But it also brings up another question. And that is that 
when you are transporting by truck, there are all kinds of 
regulations now with the Department of Transportation for 
truckers, such as hours of service, as an example. As you know, 
they can only drive a certain number of hours, and then they 
have to park those things for a certain number of hours. You 
know that.
    It would seem to me that we have a whole bunch of other 
problems. I mean, what truck stop wants nuclear waste parked in 
his backyard with a bunch of other trucks? Nobody is going to 
want to.
    And in addition to that, some of the regulations now say 
that you cannot be over 100 feet from the cab of your trucker 
if you--when you are parked, as you probably know. And that is 
under the guidelines for any hazardous waste, not just nuclear, 
but hazardous waste. They cannot even leave the darn tractor to 
go to the bathroom if it is over 100 feet from the terminal.
    And it seems to me there are all kinds of things that have 
not been well thought out on the transportation issue.
    Mr. Hall. Well, Senator, I hesitate to comment on the 
transportation plan because my feeling is, after reading the 
material, I came to the same conclusion that Secretary Abraham 
had last week. There is no plan.
    Senator Campbell. Yes.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    We appreciate your testimony very much, Mr. Hall. Why do we 
not----
    Mr. Hall. Mr. Chairman, let me just personally thank you. I 
apologize to the committee that I was unable to be here; I had 
a commitment that I could not break. And I appreciate your 
willingness to let me appear this morning.
    The Chairman. Well, we understood that. I think you have 
given useful testimony and we appreciate you coming today.
    Mr. Hall. Thank you, sir.
    The Chairman. Our next witnesses are four of the members 
from the Nuclear Regulatory Commission: Richard Meserve, Greta 
Joy Dicus, Nils Diaz and Ed McGaffigan. Thank you all for being 
here.
    [Pause.]
    Mr. Meserve. Thank you very much, Senator. We are very 
pleased to join you this morning.
    The Chairman. All right. Why do we not start with you, Mr. 
Meserve? And then if the other members have statements, we are 
glad to hear from them, too.

 STATEMENT OF RICHARD A. MESERVE, CHAIRMAN, NUCLEAR REGULATORY 
COMMISSION; ACCOMPANIED BY GRETA JOY DICUS, COMMISSIONER; NILS 
J. DIAZ, COMMISSIONER; AND EDWARD McGAFFIGAN, JR., COMMISSIONER

    Dr. Meserve. Mr. Chairman, members of the committee, the 
Commission is pleased to join you today to testify on behalf of 
the Nuclear Regulatory Commission's regulatory oversight role 
in the U.S. program for management and disposal of high-level 
radioactive waste and spent nuclear fuel.
    I am joined, as you indicated, by Commissioners Dicus, Diaz 
and McGaffigan. Commissioner Merrifield, who is the fifth 
member of the Commission, regrets that he is unable to attend 
the hearing. Prior to receiving the invitation, he had 
scheduled visits to two nuclear power stations, and had already 
coordinated the visits with another Federal agency.
    I have a prepared statement I have submitted for the 
record, but I would like to just briefly summarize a few 
points.
    The Commission believes that a permanent geologic 
repository can provide the appropriate means for the United 
States to manage spent nuclear fuel and other high-level 
radioactive wastes in a safe manner. We also believe that 
public health and safety, the environment, and the common 
defense and security can be protected by deep underground 
disposal of these wastes. However, the Commission takes no 
position on whether such a repository should be located at 
Yucca Mountain, Nevada. Our views on that question must be 
shaped by the results of the congressionally mandated licensing 
process.
    The Nuclear Waste Policy Act provides that it is the NRC's 
responsibility to establish licensing criteria for a potential 
repository, to provide preliminary views on the sufficiency of 
certain DOE information collected during site characterization, 
and to comment, along with other Federal agencies, on the 
Environmental Impact Statement prepared by DOE for Yucca 
Mountain. It is also the Commission's obligation to be prepared 
to make a fair, informed, and timely licensing decision, if the 
Congress should approve the President's recommendation.
    If the President's recommendation is accepted by the 
Congress, it represents a determination that the Department of 
Energy may apply to the NRC for construction authorization.
    I would like to point out that if that is the case, several 
important steps must be taken before the Commission can decide 
whether to authorize construction. First, DOE must submit a 
high-quality application. Second, staff at the NRC must conduct 
an independent safety review and issue a safety evaluation 
report. Third, we must conduct a full and fair public hearing 
on the DOE application. Only after these steps are complete 
will NRC be in a position to determine whether the DOE's 
license application complies with the NRC's regulations. Our 
decision will be based on the information before us at that 
time.
    Federal regulation of spent fuel transportation safety is 
shared by the U.S. Department of Transportation and the NRC. 
DOT regulates the transport of all hazardous materials, 
including spent fuel, and has established regulations for 
shippers and carriers regarding radiological controls, hazard 
communication, training, and other aspects. For its part, NRC 
establishes design standards for the casks used to transport 
licensed spent fuel, and reviews and certifies cask designs 
prior to their use. Further, cask design, fabrication, use and 
maintenance activities must be conducted under an NRC-approved 
Quality Assurance program.
    NRC also conducts an inspection and enforcement program, 
and reviews and approves physical security plans for spent fuel 
shipments.
    NRC has reviewed and certified a number of package designs 
intended to be used for transport of spent fuel to a 
repository, and has additional designs under review.
    We believe the safety protection provided by the current 
transportation regulatory system is well established. 
Nonetheless, we continually examine the transportation safety 
program.
    Mr. Chairman, this completes my statement. My colleagues 
and I will be pleased to answer any questions that you or other 
members may have. Thank you.
    The Chairman. Thank you very much.
    [The prepared statement of Mr. Meserve follows:]
          Prepared Statement of Richard A. Meserve, Chairman, 
                     Nuclear Regulatory Commission
    Mr. Chairman, members of the Committee, I am pleased to join you to 
testify on behalf of the Nuclear Regulatory Commission (NRC) concerning 
the NRC's regulatory oversight role in the U.S. program for management 
and disposal of high-level radioactive waste and spent nuclear fuel.
    The Commission has long believed that a permanent geologic 
repository can provide the appropriate means for the United States to 
manage spent nuclear fuel and other high-level radioactive waste in a 
safe manner. We also believe that public health and safety, the 
environment, and the common defense and security can be protected by 
deep underground disposal of these wastes. However, the Commission 
takes no position on whether such a repository should be located at 
Yucca Mountain, Nevada. Our views on that question must be shaped by 
the results of the Congressionally mandated licensing process.
    Congress provided in the Nuclear Waste Policy Act of 1982 (NWPA) 
and the Energy Policy Act of 1992 that the NRC would serve as an 
independent regulator to ensure that any repository adequately protects 
the public health and safety and the environment. I am pleased to state 
that the NRC has consistently met the obligations established by these 
Acts. We are now in the midst of preparations for an important 
transition--from the pre-licensing role defined for NRC in statute, to 
the role of regulator and licensing authority--if a decision is made to 
authorize the Department of Energy (DOE) to submit a license 
application for Yucca Mountain.
                     the president's recommendation
    As you know, on February 15 of this year, President Bush accepted 
the Secretary of Energy's recommendation that the Yucca Mountain site 
be developed as a potential repository for the disposal of high-level 
nuclear wastes and spent nuclear fuel. If the Congress approves a 
resolution of siting approval, the President's recommendation becomes a 
final decision and DOE could then apply to the NRC for construction 
authorization. If DOE does so, several important steps must be taken 
before the Commission can decide whether to authorize construction of a 
potential repository at Yucca Mountain. First, DOE must submit a high-
quality application. Second, staff at the NRC must conduct an 
independent safety review and issue a safety evaluation report. Third, 
we must conduct a full and fair public hearing on the DOE application. 
Only after these steps are complete will NRC be in a position to 
determine whether the DOE's license application complies with NRC 
regulations. Our decision will be based on the information before us at 
that time.
    The Nuclear Waste Policy Act provides that it is NRC's 
responsibility to establish licensing criteria for a potential 
repository, to provide our preliminary views on the sufficiency of 
certain DOE information collected during site characterization, and to 
comment, along with other federal agencies, on the Environmental Impact 
Statement prepared by DOE for Yucca Mountain. It is also the 
Commission's obligation to be prepared to make a fair, informed, and 
timely licensing decision, if the Congress should approve the 
President's recommendation. I will discuss each of these activities in 
turn.
                        the regulatory framework
    Under the Energy Policy Act of 1992, the Environmental Protection 
Agency (EPA) was directed to establish dose-based environmental 
standards for Yucca Mountain. Congress required EPA to base these 
standards on the recommendations of the National Academy of Sciences. 
The NRC was directed to modify its regulations to be consistent with 
final EPA standards within one year of their issuance. Because of the 
short period given to NRC to issue final implementing regulations, the 
Commission initiated its own rulemaking in parallel with that of the 
EPA.
    Immediately upon publishing our proposed regulations at 10 C.F.R. 
Part 63 for public comment in February 1999, our staff embarked on a 
series of public meetings to encourage involvement by members of the 
public in Nevada. From these meetings, together with written 
submittals, we received more than 1000 comments on our proposed 
criteria. The Commission carefully considered and analyzed these 
comments, and last November promulgated the health and safety 
regulations that will guide any licensing decision on Yucca Mountain. 
Our regulations are consistent with the health and safety standards 
established by the EPA. We are confident that any repository that can 
be shown by DOE to comply with these demanding standards and 
regulations will protect the people living near the proposed repository 
today and in the future.
                    doe's collection of information
    In forwarding his recommendation to the President, Secretary 
Abraham included the Commission's preliminary comments on DOE's 
examination of Yucca Mountain. As required by the NWPA, our comments 
addressed ``. . . the extent to which the at-depth site 
characterization analysis and waste form proposal . . . seem to be 
sufficient for inclusion in [a license application to the NRC].'' 42 
U.S.C. Sec. 10134(a)(1)(E). In offering these comments, the NRC drew no 
conclusions about the suitability of the Yucca Mountain site. Rather, 
we commented on whether sufficient information will exist to begin a 
potential licensing review, if the President's recommendation becomes a 
final decision and if DOE submits an application. To evaluate the 
adequacy of DOE's information for this purpose, the NRC staff reviewed 
all major program documents for Yucca Mountain, as well as the 
available supporting technical documents. Our staff's reviews of DOE's 
program documents and technical material were performed over many years 
of extensive pre-licensing interactions with DOE staff and various 
stakeholders, including the State of Nevada, Indian Tribes, affected 
units of local government, representatives of the nuclear industry, and 
interested members of the public.
    Based on our technical reviews and pre-licensing interactions, we 
believe that sufficient information can be available at the time of a 
license application. The DOE and NRC have reached and documented 
numerous agreements regarding additional information that will be 
needed for a licensing review. Approximately two-thirds of these 
agreements call for DOE to document the bases for assumptions or 
conclusions. The remainder oblige DOE to perform specific tests or 
analyses, to document prior tests or studies, or to provide other 
information. As DOE completes the actions necessary to fulfill these 
agreements, NRC will review the results promptly and notify DOE of our 
findings. Based on these agreements, we are confident that DOE can 
assemble the information necessary for an application that NRC can 
accept for review.
    It is important to note that NRC is as concerned about the quality 
of documentation supporting the recommendation of the Yucca Mountain 
site as about the quantity of information. Over the course of our pre-
licensing interactions we have discussed with DOE the need to verify 
the quality of the documents it has generated to support the site 
recommendation. We are aware that DOE performed extensive reviews of 
this documentation, including dedicated reviews to determine the root 
causes of any errors. We acknowledge DOE's intention to qualify all 
data, software, and models fully if they are to be used to support a 
license application. Quality management continues to be a challenging 
program area for DOE, one which the NRC staff routinely monitors.
                doe's final environment impact statement
    As required by the NWPA, Secretary Abraham included a final 
Environmental Impact Statement (EIS) with his recommendation to the 
President along with the comments agencies provided on the final EIS, 
including those of NRC. Our comments were developed on the basis of 
reviews of DOE's draft EIS for Yucca Mountain, the supplement to the 
draft EIS and the final EIS. Like the sufficiency comments I discussed 
earlier, our reviews were supported and informed by extensive pre-
licensing interactions with DOE, the State of Nevada, Indian Tribes, 
affected units of local government, representatives of the nuclear 
industry, and interested members of the public.
    As a result of our reviews, we believe that the final EIS contains 
sufficient information about the environmental impacts of the proposed 
action to provide a foundation for a site recommendation. The analyses 
provided in the EIS appear to bound appropriately the range of 
environmental impacts. We expect that DOE's commitment to refine the 
repository design and define transportation modes and routes will allow 
for more precise estimates of impacts and possibly result in future 
revisions to the National Environmental Policy Act analyses. We expect 
that any such additional reviews will be completed in support of a 
license application. If the President's recommendation becomes a final 
decision, NRC will, of course, continue interactions with DOE and other 
interested stakeholders, to resolve outstanding technical and 
environmental issues, as needed.
                     nrc preparations for licensing
    As part of our overall pre-licensing strategy, our staff has 
applied the experience gained in the reviews of DOE documents and pre-
licensing interactions to the preparation of a Yucca Mountain review 
plan that will eventually guide the NRC's review of any license 
application. The NRC staff recently published a draft of the review 
plan which is on our website for public comment. This week, members of 
our technical staff are conducting public information meetings in 
Nevada to seek public input on our draft review plan. As our 
preparation for possible licensing progresses, NRC will continue to 
conduct public technical exchanges between members of the NRC and DOE 
technical staffs and with NRC's Advisory Committee on Nuclear Waste.
    In addition, our Atomic Safety and Licensing Board Panel has begun 
to evaluate hearing-related aspects, including location, and the 
development of the automation tools necessary to meet the time 
restrictions imposed by the Nuclear Waste Policy Act. These activities 
include development of an electronic hearing docket to expedite a 
possible hearing and completion of an Internet-based Licensing Support 
Network (LSN) that will provide access to all the key documents. Noting 
delays in entering key licensing documents due to security concerns 
after the events of September 11, it is important that DOE, which is 
the stakeholder with the most documents, enters its documents into the 
system as soon as possible. The NRC staff also is working to provide 
guidance to DOE on developing an electronic High Level Waste repository 
license application. In late June, NRC will conduct a public meeting 
with DOE on this issue in Las Vegas.
            safety and security of spent fuel transportation
    The Commission believes that the spent nuclear fuel and high-level 
radioactive waste stored at multiple sites can be safely and securely 
transported to a single location for geologic disposal.
    Responsibility for federal regulation of spent fuel transportation 
safety is shared by the U.S. Department of Transportation (DOT) and the 
NRC. DOT regulates the transport of all hazardous materials, including 
spent fuel, and has established regulations for shippers and carriers 
regarding radiological controls, hazard communication, training, and 
other aspects. For its part, NRC establishes design standards for the 
casks used to transport licensed spent fuel, and reviews and certifies 
cask designs prior to their use. Further, cask design, fabrication, use 
and maintenance activities must be conducted under an NRC-approved 
Quality Assurance program.
    NRC also conducts an inspection and enforcement program, and 
reviews and approves physical security plans for spent fuel shipments. 
These plans provide information on how shippers and carriers comply 
with NRC spent fuel shipment protection requirements, including advance 
notification of each shipment to Governors' designees, the 
establishment of redundant communication capability with the shipment 
vehicle, the arrangement of law enforcement contacts along the route, 
and provision of shipment escorts.
    The Nuclear Waste Policy Act requires DOE to utilize NRC-certified 
casks for spent fuel shipments to a repository, follow NRC's advance 
notification requirements, and to provide emergency response training 
along shipment routes. NRC has reviewed and certified a number of 
package designs intended to be used for transport of spent fuel to a 
repository, and has additional designs under review.
    The NRC believes the safety protection provided by the current 
transportation regulatory system is well established. Nonetheless, we 
continually examine the transportation safety program. In FY 2000, NRC 
re-evaluated its generic assessment of spent fuel transportation risks 
to account for the fuel, cask and shipment characteristics likely to be 
encountered in future repository shipping campaigns. Over two years 
ago, NRC began the Package Performance Study to study cask performance 
under severe impact and fire accident conditions. The study plan calls 
for full-scale testing of a cask to confirm computer models of cask 
response to severe accident conditions. NRC is also supporting a study 
by the National Academies' Board on Radioactive Waste Management that 
will examine radioactive material transportation, with a primary focus 
on spent fuel transport safety. As a part of its evaluation, the NRC 
staff is analyzing appropriate national transportation accidents, such 
as the 2001 train accident in Baltimore, Maryland, to determine if 
lessons learned from that event should be included in our 
transportation requirements or analyses. The results of our 
confirmatory analytical studies, the significant history of safe 
shipments, the rigor of our pre-certification design reviews, and our 
inspections form the basis for our confidence that spent fuel can be 
shipped safely today and in the future. Finally, NRC is sponsoring a 
study to update its evaluation of cask response to acts of sabotage. 
NRC plans to utilize the results of these studies as input into its 
comprehensive review of security in light of the events of September 
11. These studies should be available at the time possible licensing is 
being considered.
                               conclusion
    The Commission believes that deep geologic disposal is appropriate 
for high-level radioactive wastes and spent nuclear fuel and that such 
wastes can be safely and securely transported to a disposal location. 
We take no position, however, on whether the site recommendation for a 
Yucca Mountain repository should be approved. Our role is to put in 
place a licensing system that will ensure adequate protection of public 
health and safety and the environment and to review and evaluate any 
license application submitted, to ensure its compliance with regulatory 
requirements. As I believe this statement makes clear, we take that 
obligation very seriously.
    I will be pleased to answer any questions you may have.

    The Chairman. Do any of you have other statements you want 
to make before we do questions?
    [No response.]
    The Chairman. Okay. Let me go right to the issue that Mr. 
Hall raised in his testimony just a minute ago. That is the 
question of whether or not the NRC can insist that a safe 
transportation plan be presented before you issue a license to 
use this facility. I mean, I am a little confused. We have a 
split of responsibility here between the Department of 
Transportation and the NRC and the DOE.
    And I guess where I come out on it is: Regardless of the 
split of jurisdiction here, I would like to know whether the 
NRC believes it can refuse to issue a license until it is 
satisfied that a safe transportation plan has been developed?
    Dr. Meserve. Well, let me give you my understanding of the 
way in which we would approach that issue. As part of the 
requirements of the National Environmental Policy Act, the 
Department of Energy is required to prepare an environmental 
impact statement that analyzes all of the possible impacts of 
the decision that would be before us. And then we have to 
review that and be satisfied with it. That impact statement has 
to include transportation as a component.
    We have commented on the environmental impact statement 
that DOE has prepared at this juncture to say that we expect 
that there will be further development of the transportation 
plan and that will be reflected in supplementation of the 
environmental impact statement that has been produced to date.
    And we have to be satisfied with that environmental impact 
statement so that we can rely on it as part of our licensing 
decision.
    So the short answer to your question is: Yes, we will be 
looking at transportation safety as part of our process.
    As I indicated in my statement, we also have to license the 
casks that would be used for the transport of the spent fuel. 
We would have regulatory requirements that we would impose and 
do impose to assure that these casks are suitable for that use. 
So we have multiple levers by which we get at the 
transportation issue.
    The Chairman. One of the concerns that I believe Mr. Hall 
raised, and I believe Senator Campbell also alluded to it here, 
is the question of whether the NRC would require full-scale 
testing of these shipping casks; the concern being, I gather, 
that they have gone through some testing, but it is not 
adequate considering the risks involved.
    What is your view on that? I mean, will you make that 
decision as to how full-scale the testing will be as you go 
along, or do you plan--have you made that decision as a sort of 
generic decision, or what is your view?
    Dr. Meserve. We have licensed casks, as I indicated in my 
testimony. And we have not required full-scale testing of the 
casks. We do have stringent requirements that the licensees 
have to demonstrate that the casks satisfy. And the way they 
try to demonstrate that those requirements can be met is by 
smaller scale testing, sometimes of components, and a computer 
analysis of the engineering associated with the casks.
    These are relatively simple engineering structures, and 
they are ones that are susceptible to that kind of analysis in 
that there are reliable computer codes that can be used to 
assess the situation. And we know how the performance of the 
casks would scale with size, so the measurement of effects on a 
smaller scale model are sufficient, we believe, to be able to 
assess the effects of an accident on a larger cask.
    All of that being said, we recognize that there is a 
concern. We have undertaken what we call a package performance 
study that was started and that we will be continuing in which 
we do contemplate some full-scale testing of casks in order to 
verify that the analytical methods that I have described and 
the testing methods that we have described are accurate.
    The Chairman. So I guess the answer is that you will 
conduct the full-scale testing that you think is necessary in 
order to satisfy you that these casks can withstand whatever 
they encounter.
    Dr. Meserve. That is our plan.
    The Chairman. Okay. We have this issue that the law 
requires, as I understand it, that the Department of--if we go 
ahead and override the veto of the Governor of Nevada, if the 
Congress were to do that, then the law contemplates that the 
Department of Energy would file an application within 90 days, 
I believe is what the law says.
    And Secretary Abraham told us last week that the Department 
of Energy will not be prepared to file an application before 
2004. What is your understanding about this 90-day provision 
that is in the Nuclear Waste Policy Act? What happens if you 
wind up getting an application in 2004 instead of in the 90 
days provided for in the law?
    Dr. Meserve. Well, let me say that there is a 90-day 
provision in the statute as you have indicated. It is my 
understanding that the Department of Energy construes that as a 
permissive and an enabling authority within which to file the 
application.
    We do understand that the Department intends to file an 
application if permission is given in the 2004 period. From the 
Commission's point of view, we believe that that time before 
the filing is going to be important because there are issues, 
some of which have been raised here today, that we believe 
should be addressed and should be part of a license 
application.
    And so we are looking for a high-quality application that 
will provide the foundation for us to be able to conduct the 
necessary and thorough review. And it is going to take some 
time for the Department of Energy to pull that information 
together.
    So as a policy matter, we think that we are all served by 
there being a high-quality application. We are expecting to 
receive such an application in 2004 and we will docket it if it 
is a complete one.
    The Chairman. Let me ask one other question. Mr. Gilinsky 
yesterday, Victor Gilinsky, who previously served on your 
Commission, testified that the NRC's licensing rule does not 
have any separate requirement for effectiveness of geologic 
barriers. I just wonder what your view on that is. Is that 
true? What is your read on that?
    Dr. Meserve. Let me say that I think that Mr. Gilinsky's 
testimony may reflect some misunderstanding of both the statute 
and of our regulatory requirements, in that the statute 
requires a consideration of both natural and engineered 
barriers, as do our regulatory requirements. This reflects a 
general philosophy that we would apply of defense in depth. We 
look for a variety of different means to assure that the 
regulatory requirements can be satisfied.
    And that would include both natural and engineered 
barriers. We would anticipate that any Department of Energy 
application for the site would reflect the effectiveness of 
various of these barriers.
    We do not have separate requirements for each of the 
barriers. That, of course, is consistent with the advice that 
the Department of Energy and we received from the National 
Academy of Sciences that the system should be viewed as an 
integrated whole and that all of the barriers should work 
synergistically with each other, and that we should see the 
integrated picture rather than looking at each barrier in 
isolation.
    The Chairman. Let me ask probably the bottom-line question 
for the committee and for the Congress here: Do you see any 
reason why Congress should not allow the DOE to go ahead and 
file an application?
    Dr. Meserve. Well, we have indicated that the final 
environmental impact statement, we thought, was sufficient to 
allow a site recommendation. We are not aware of anything that 
would foreclose the--either decision that the Congress might 
make in this matter.
    I do not want to be seen as pre-judging how we would 
respond to an application. All of that work remains in front of 
us.
    The Chairman. Thank you very much.
    Senator Campbell.
    Senator Campbell. Mr. Meserve, who does the actual testing 
of containers, as an example? Does your agency do that, or is 
that hired out to private contractors, or who does it?
    Dr. Meserve. Typically--well, let me express how I 
understand it to work, and let me say that I will supplement my 
response for the record if I have anything wrong.
    The requirements are ones that we establish as part of the 
process, and an applicant seeking to have a cask certified will 
submit information to us that will include the test results and 
the analysis.
    The NRC staff will then undertake its own review, an 
independent review of the cask design using the tools that are 
available to it. Typically, in this process, the applicant 
would provide the scale model tests.
    We have the authority to undertake independent scale-model 
testing. We would probably--if we were to do that, we would not 
do it ourselves. We would probably hire an independent 
contractor to do that work.
    Senator Campbell. Okay.
    Mr. McGaffigan. It would probably be one of the National 
Laboratories.
    Senator Campbell. One of the National Labs, okay.
    Mr. McGaffigan. And our intent would be----
    Senator Campbell. The computer analysis that you spoke of, 
some of the preliminary testing, was that also done by the 
National Laboratories?
    Mr. McGaffigan. The package performance study, if we go to 
full-scale testing, the intent is to--the tests would be done 
at Sandia, I believe. Sandia did the full-scale tests back in 
the 1980's.
    Senator Campbell. Sandia. Okay.
    Thank you, Mr. Chairman. It just seems to me that when we 
talk about the billions of dollars we have spent and billions 
of more dollars we are going to spend, that we ought to--I do 
not know. Maybe I have something wrong here. But it seems to me 
that all of that complete testing ought be done before, not 
after the fact.
    What if we spend billions more and find out that it is--
through some strange way that they are not as indestructible as 
we would like them to be? I mean, where does that leave us? 
That is a rhetorical question, I guess. You do not have to 
answer it.
    But I think we are making a big mistake in not doing the 
complete testing before we spend any more money on the 
development. But I just wanted to make that statement.
    Thank you, Mr. Chairman.
    The Chairman. Senator Carper.
    Senator Carper. Yes. Let me yield to Senator Ensign. He has 
been waiting.
    The Chairman. Senator Ensign.
    Senator Ensign. Thank you, Senator.
    I thought that was interesting, what you just said. You 
said that ``We are planning on going ahead with full-scale 
testing,'' but then you said ``if.''
    Mr. McGaffigan. I did not mean to contradict the chairman. 
We do--the ``if'' is subject to congressional appropriations. 
Our intent is to ask for money in the fiscal year 2004 budget 
for the conduct of a full-scale test. We have said that in a 
letter to Senator Reid dated the 24th of April. But we do not 
want to presume on the congressional appropriations process. 
Hopefully, you will----
    Senator Ensign. Do you think that--without full-scale 
testing, do you think that you can ensure that these transport 
canisters will be safe?
    Dr. Meserve. Let me say in response to that, that we have 
been licensing the canisters. We think we have been responsible 
in licensing these transportation packages, based on the 
information that is available to us.
    Senator Ensign. Okay. Could the ones--those current ones 
that are licensed, could those have withstood--if one of those 
would have been exposed to the fires in the Baltimore Tunnel, 
could they have withstood the heat from that, or would they 
have actually been breached?
    Dr. Meserve. Well, let me say that part of the package 
performance study is to look at the performance of the casks in 
what we call severe accidents. There has been a preliminary 
analysis that has been conducted by the staff based on 
assumptions about the conditions that existed in the Baltimore 
fire, as to the temperatures, temperature profile over time, 
duration of the fire, which do indicate that the cask that they 
analyzed would survive. There would be no failure of the welds. 
In fact, there would not have been any melting of the fuel.
    But let me emphasize, it is a preliminary analysis, and I 
would not want you to rely on that. We are going to continue to 
look at these sorts of issues very carefully as part of our 
package performance study.
    Senator Ensign. When you are dealing with testing--because 
I think this is absolutely critical to the safety, when you are 
dealing with the testing. because I do not think that, you 
know, when they were--and I keep going back to 9/11. When they 
were thinking about building skyscrapers, I do not think that 
they foresaw the idea of terrorists taking planes into the 
World Trade Center, and the unusual circumstances.
    And it would seem to me that testing should take in not 
normal, every-day circumstances, but worst-case scenarios 
especially because we are dealing now with the most--if not the 
most, certainly one of the most deadly substances on the 
planet, and that we have to do everything possible, full-scale 
testing.
    And I agree with Senator Campbell. I think it is putting 
the cart before the horse. I think it is ridiculous that we are 
going forward with this thing before we know that we can 
address these problems.
    And I guess what I want is that your assurances that you 
will not license the site if you cannot get these things tested 
to make sure that we are protecting the citizens of America, 
because you are the ones responsible for the testing.
    Will you guarantee this committee and this Senate and the 
people of America that you will not license the site if you 
cannot guarantee the safe transportation?
    Dr. Meserve. Well, let me say that we are going to comply 
with every element of the statute as to what conditions and 
circumstances under which we should allow the licensing of the 
site to occur. Part of that process does require a full 
evaluation, as I have indicated, of the transportation issues 
as part of the assessment.
    We also have an obligation to assure the public health and 
safety in the context of the certification of casks. And we 
take that obligation very seriously. And we will be satisfied, 
before we certify the casks, that they meet the necessary 
requirements.
    You mentioned 9/11. This is an area in which there is 
continuing examination by the Commission of the possible 
vulnerability of all elements of our nuclear enterprise. That 
work is continuing. But in the period since 9/11, we have 
augmented the security that exists at various of our facilities 
including the transport of nuclear materials. But that work is 
also going to continue. And that may be manifested in some 
further requirements down the road.
    Senator Ensign. Let me rephrase the question, then. You 
know, can you--well, will you guarantee the American people 
that you will not license the site if, for instance, things 
that are commonly available to terrorists, if deployed against 
these canisters, that they will breach these canisters--will 
you guarantee and will you promise us that, that you will not 
license the site if that is the case?
    Dr. Meserve. Well, I think there is a separate question 
about licensing the site versus certification of canisters. And 
we certainly are examining all of those, the nature of the 
requirements that should be imposed on the certification of 
canisters. And included in that evaluation is certainly going 
to be the issue of dealing with possible terrorist attacks that 
might occur on canisters, and what kinds of requirements, if 
any, that we should add to the current requirements to deal 
with the terrorist threat.
    We are in an evolving situation where we are all learning 
about the nature of this threat, and it does require very 
thorough consideration and careful consideration, which we have 
undertaken. But in the interim, we have taken steps to assure 
that these materials can be safely transported, and we are 
going to continue that work.
    Senator Ensign. Well, I mean--and we obviously are 
transporting nuclear waste today.
    Dr. Meserve. That is correct.
    Senator Ensign. And I guess what we have to determine and 
what I am trying to get you to say, basically, is that your 
responsibility is to the safety of the American people, to make 
sure that those things, if they are being transported through 
major cities, on waterways, where the public is in potentially 
in danger, that it is your responsibility to make sure that 
those things are licensed, that something, obviously, with 
every possible scenario that we can think of, that they cannot 
be breached.
    And from what I understand, one of these things during 
transport--if they are surrounded by concrete, they will not. 
But during transport, one of these things can be breached by a 
TOW Missile. Have you seen the testing that has been done on 
some of that?
    Dr. Meserve. I am aware of some testing some years ago, in 
which a particular cask was subject to a TOW Missile attack, 
and there was a penetration of the cask. The significance of 
that is something that is--well, it was obviously an 
unfortunate event.
    Whether that would have resulted in a significant release 
of material or of hazard to the public is yet another matter.
    But we are aware of the fact that the nature of the tactics 
that might be used by terrorists, the nature of equipment that 
might be available to them, is something that is changing, and 
we need to consider these matters as we undertake our 
obligation to assure the protection of the public health and 
safety in the usage of the casks. And we will do that.
    Senator Ensign. The last concern I want to raise to you is 
that Israel is--probably there is no country more concerned 
about their own safety and their own prevention of terrorist 
attacks than the state of Israel. But yet, even today, I guess, 
there was a bomb put on a fuel container there that they tried 
to do everything they could to prevent something like that from 
happening.
    So I guess my charge would be to you, because you have such 
an awesome responsibility for making sure that the American 
people are safe, that whatever you think that you have done so 
far, you know, post-9/11, we have to rethink and rethink and 
rethink, and re-cross every ``t'' and re-dot every ``i,'' and 
do every kind of full-scale testing that you can possibly do.
    And I would think that if Congress does not give you the 
type of resources to do the testing, we would be irresponsible.
    But I still think, Mr. Chairman, we are completely 
irresponsible in going ahead with Yucca Mountain without doing 
this testing ahead of time.
    Thank you very much.
    The Chairman. Thank you.
    Mr. McGaffigan. Mr. Chairman.
    The Chairman. Yes, sir.
    Mr. McGaffigan. Could I just make one comment with regard 
to the transportation issue?
    The Chairman. Yes.
    Mr. McGaffigan. In the security issue in particular, we 
need to look at the security of our facilities--of our 
transportation casks against reasonable threats.
    But if a terrorist gets a TOW Missile, which I hope is not 
widely available in America, there are targets available to 
them where, instead of getting possible radiological 
consequences that might cause cancer sometime down the road, 
where they can get guaranteed large, tens of thousands of 
deaths potentially.
    There was an article in the Washington Post a few months 
ago about taking the chlorine tanks out of the Blue Plains 
facility, which is not far from this site, when they 
discovered, without the use of TOW Missiles, that they had too 
much chlorine there and if a terrorist had attacked at that 
site, there would have been very large numbers of deaths in 
Washington.
    So you have to put the radiological consequences of an 
attack--we have these massive containers that, unlike other 
things, actually can do pretty well against a TOW Missile. You 
have hazardous materials in the transportation system daily in 
this country that are, you know, no-risk opportunities for 
terrorists.
    So putting some of this in context, I think, is very 
important.
    Senator Ensign. Well, the reason I brought that up, Mr. 
Chairman----
    The Chairman. Senator Carper is about to sprint out of here 
to preside.
    Senator Ensign. Okay. I am sorry.
    The Chairman. Let me just give him a couple of minutes to 
say what he has to, and then we can ask additional questions. 
Go ahead.
    Senator Carper. Mr. Chairman, thank you for that because I 
have an 11 o'clock start. I appreciate your indulgence.
    Let me just ask two quick questions. One, in your view, 
what are the greatest risks that are posed to us as a people by 
the transportation of these materials? If they are indeed 
transported some years down the road, what is the greatest 
threat that we face? What are you doing about it? What do we 
need to do about it?
    Dr. Meserve. Well, let me say I think as to the transport 
of the material, that we have a record in which for commercial 
waste that they have gone nearly one million miles of transport 
without a radiological release. We cannot prevent the 
possibility that there will be ordinary traffic accidents that 
occur. If there were such an accident, we try to assure that 
there will not be a breach of a cask that would result in a 
radiological release. And that has been the focus of our 
requirements. And we have been successful in over one million 
miles of transport.
    We are going to continue that effort and expand it to make 
sure that we are dealing adequately with the terrorist threat 
that might be posed to these sorts of packages. And that is 
part of what our package performance study is intended to do, 
is to make sure we understand the severe events to which these 
sorts of casks might be confronted and to satisfy ourselves 
that they could survive those events adequately.
    Dr. Diaz. Senator, if I might----
    Senator Carper. The second half of my question is: What do 
we need to do? What do we need to do about it? I think you may 
have telegraphed the pitch by talking about an appropriation 
for 2004.
    Dr. Meserve. That is correct.
    Senator Carper. What do we need to do in the Congress to 
help avert a catastrophe?
    Dr. Meserve. Well, I know Dr. Diaz wants to respond, but 
let me just say quickly on that, I think that we will be 
seeking funds to support the kinds of full-scale testing that 
has been discussed here this morning, and to do other aspects 
of the package performance study. And I think that we would 
encourage you to review such a request favorably.
    Senator Carper. All right. Thank you.
    Yes, sir.
    Dr. Meserve. Dr. Diaz.
    Dr. Diaz. Yes, I just wanted to say, Senator, that a 
catastrophe where significant life would be lost involving a 
transportation accident, is very difficult to imagine. 
Fundamentally, not only is the--not only are the casks very 
robust, but the amount of material in the casks that would 
potentially leak is, in our analysis, most of the time, not 
likely to result in immediate deaths or significant problems 
except for those who would be located right by the cask.
    Our concern, the Commission's, is always public health and 
safety. And so we look at the consequences very carefully. And 
we really do not see tremendous catastrophic results or 
disasters occurring from accidents with the casks.
    Yes, there is the potential of breaching the cask. There is 
a potential of radiation. Radiation is a very strange fellow. 
It is easily detectable. It can easily be measured. And in this 
country, we always have been and we always will be ready to 
take protective measures for our people. So it is not that 
something happens, and you have all of these immediate 
casualties.
    The American people are protected by many layers, we are 
one of those layers. And we do not see this tremendous 
catastrophic disasters occurring from a cask being breached.
    Senator Carper. All right. Thank you, sir.
    Mr. Chairman, I have a couple of other questions. I am not 
going to ask them now, but I am interested in knowing how some 
other countries are handling the transportation of their high-
level nuclear and radioactive waste.
    And the other thing I wanted to ask for you input on--and I 
will do this or ask for something in writing. But I have just 
an inquiry with respect to the future likelihood of our ability 
to reprocess this fuel, to recycle it, to reduce the amount of 
space that it takes up in the future.
    Dr. Meserve. We would be happy to respond to those, for the 
record.
    Senator Carper. Thank you very much.
    And I thank my colleagues, as well.
    The Chairman. Thank you very much.
    Let me go ahead. Senator Campbell indicated he had another 
question or two.
    Senator Campbell. I think they answered most of my 
questions, Mr. Chairman. I do not think anybody can absolutely 
guarantee total and absolute safety under all conditions. My 
gosh, we kill 55,000 people a year on American highways with 
accidents. And I do not think that that is in the mix.
    But I also do not think that there is anything known to man 
that cannot be cut into or destroyed, and I do not mean with a 
TOW Missile. I mean with a--my gosh, anybody, good guys and bad 
guys, can buy a cutting torch that will melt steel at any local 
hardware store. So I think that ought to be in the mix, too, 
that that is--that they can be penetrated, I think. But the 
danger of how far it leaks and so on, I think Dr. Diaz, he 
addressed that a little bit.
    But I had one question, but I think I will just go ahead 
and submit that in writing because I am going to have to leave 
in a minute, too. But thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Campbell. And I thank this panel.
    The Chairman. Thank you very much.
    Senator Ensign, did you have additional questions?
    Senator Ensign. Yes, just briefly in that I just wanted to 
go back to when you are talking, and I agree with you, that 
there are a lot of things that we need to restudy. We need to 
make our current facilities, nuclear facilities, safer. We need 
to put more security into those.
    And, Dr. Diaz, the point that you made about that if there 
is a leak that, you know, the possibility of mass deaths is 
very low and all of that, when you are talking about radiation, 
you are talking about fear. Okay? And sometimes it is 
irrational fear, but fear nonetheless.
    We all know of the device called an MRI. It is very, very 
commonly known to us as magnetic resonance imaging. The 
original name of that NMR. It contained the word ``nuclear.'' 
Anytime you use the word ``nuclear,'' people are fearful. 
Nobody would have gone in for an NMR. They go in commonly for 
MRIs. They are the same exact technology, but because it evokes 
fear, that people become necessarily irrational.
    Terrorists play on people's fears. The reason that the 
terrorists--we know in our intelligence gathering that is why 
they are looking for nuclear types of targets is because they 
know that people are irrational with when it comes to any kind 
of radiation, anything to do with any kind of nuclear thing.
    So that is one of the big reasons, is that--it is that we 
know that these things are going to be targets, much more than 
a chlorine tank is a target, even though a chlorine tank may do 
more damage, that people are much more afraid of a radiation 
leak than they are of chlorine leaks even though chlorine does 
much more damage.
    Mr. McGaffigan. That may speak to the American educational 
system and perhaps the terrorists' educational system.
    Dr. Diaz. Senator----
    Senator Ensign. Right. But we all know up here. And, Mr. 
Chairman, we have learned very, very, very, very clearly in our 
dealings up here that perception is reality.
    The Chairman. Yes.
    Senator Ensign. And that is people's perception.
    Mr. McGaffigan. You work in a very high radiation 
environment. Last year, my son was a page in the Senate for 
Senator Warner, and I took my MicroR meter around the Capitol 
and got measurements in the 20 to 30 MicroR per hour range. You 
also travel a lot by air, and every time you go home to Nevada, 
you get about 4 millirems round trip so we may want to monitor 
you. You may be a radiation worker.
    [Laughter.]
    Senator Ensign. I am going to start wearing a lead apron.
    [Laughter.]
    Dr. Diaz. Mr. Chairman, I just wanted to add that I think 
the point is very well taken, and that is one of the things 
that I think and believe is our responsibility; that is to 
allay unnecessary fears. Our concern is always with respect to 
public health and safety, Unnecessary fears might actually 
detract from our society and might not let us use every useful 
thing that is possible, whether it is chemical or whatever it 
is. To allay unnecessary fear is certainly part of our 
responsibilities. And we take that very seriously, sir.
    The Chairman. All right. Well, thank you all very much. I 
think it has been useful testimony. We appreciate it.
    Dr. Meserve. Thank you.
    The Chairman. And we will go to the final panel. We have 
Dr. Jared Cohon, the Chair of the Nuclear Waste Technical 
Review Board; Ms. Gary Jones, the Director of the Natural 
Resources and Environment Team at the General Accounting 
Office; the Honorable Jeffrey Holmstead, Assistant 
Administrator for Air and Radiation at the EPA; and the 
Honorable Robert Card, who is the Under Secretary for the 
Department of Energy.
    Thank you all very much for being here.
    [Pause.]
    The Chairman. Dr. Cohon, please go ahead and begin.
    Dr. Cohon. Thank you very much, Mr. Chairman.
    The Chairman. Let me just, before you start, indicate that 
I understand this may be your last appearance before the 
committee, and we should take the opportunity to thank you for 
your many years of service on the Board, and particularly the 
last five during which you have been the Chair of the Board.
    Dr. Cohon. Thank you very much, Mr. Chairman. I appreciate 
it.
    The Chairman. You have done an excellent job, and we 
appreciate it very much. So go ahead with your testimony.

STATEMENT OF JARED L. COHON, CHAIRMAN, NUCLEAR WASTE TECHNICAL 
                          REVIEW BOARD

    Dr. Cohon. Thank you. In fact, as the Chairman knows, I am 
one of only ten members of the Board, and I am pleased that two 
of the other members could be with us today. I would like to 
introduce them very briefly and ask them to rise as I do so.
    Debra Knopman is a senior scientist at RAND Corporation. 
And Richard Parizek is a professor of hydrogeology at Penn 
State University.
    As the chairman noted at the beginning of the hearing, our 
Board was created by Congress in the 1987 amendments to the 
Nuclear Waste Policy Act. And you did so specifically to create 
a body that would provide to you independent technical review 
of the DOE's work related to Yucca Mountain and the management 
of high-level nuclear waste.
    Based on that, we did a review and, Mr. Chairman, I would 
like to summarize my testimony and ask that the full text be 
included in the record.
    The Chairman. We will include each of the witnesses' full 
testimony, and please do summarize your points.
    Dr. Cohon. Thank you.
    As part of that ongoing independent technical review that 
we provide, we notified the Secretary in December 2001 that we 
would be issuing our comments with regard to the site 
recommendation that we knew was forthcoming.
    That was contained in a letter on January 24 of this year, 
which was conveyed both to the Secretary and to Congress. I 
would like to just point out to you some of the key points in 
that letter. Based on our review of all of the relevant work 
that DOE had done to that point, the Board's view is that, when 
that work is taken as a whole, the technical basis for the 
DOE's repository performance estimates is weak to moderate at 
this time.
    The Board concurs with the consensus of the international 
scientific community that deep geologic disposal is technically 
feasible at a suitable site. The Board, however, makes no 
judgment on the suitability of Yucca Mountain itself. We 
believe and we are very clear in understanding the mandate that 
Congress gave us, which is to provide technical insight and 
technical review and not to make policy decisions of that sort. 
We defer to the policy-making process which is to say Congress 
now, on the suitability of Yucca Mountain.
    At this point, the Board found no individual technical or 
scientific factor that would automatically eliminate Yucca 
Mountain from consideration. The Board considers this minimum 
threshold to be a necessary, but by itself not a sufficient 
technical condition, for a positive determination of site 
suitability.
    The DOE's performance estimates are based on a complicated 
and large model called ``Total System Performance Assessment,'' 
or TSPA for short. There are many uncertainties due to gaps in 
data and basic understanding as it relates to this model and 
its use. This creates limited confidence for the Board in the 
current performance estimates, which are a product of this TSPA 
model.
    The Board made several recommendations in its January 
letter that, if implemented fully, would likely improve the 
Board's view of the technical basis for DOE's performance 
assessments. Just to highlight some of those recommendations 
that we made, we strongly recommend that DOE continue a 
vigorous scientific investigation so as to increase basic 
understanding of the potential behavior of the proposed 
repository system.
    We note that high temperatures in the DOE's base case 
design increase uncertainties and, therefore, decrease 
confidence in the performance of waste package materials which 
are a key part of the system. Adopting a low-temperature design 
might reduce uncertainties; we do not know. But in any event, 
we strongly recommend that the DOE do a full and objective 
comparison of both high temperature designs and low temperature 
designs.
    Among the other recommendations we made was urging DOE to 
identify, quantify and communicate clearly the uncertainties 
associated with their estimates of performance. We point out 
the importance of DOE identifying other data or other arguments 
they could use to buttress their performance estimates other 
than TSPA. And we point out the importance of defense in depth.
    I should emphasize, Mr. Chairman, that even if all of these 
recommendations are in fact pursued, one cannot predict whether 
performance estimates would be better or worse after 
implementing these recommendations.
    Finally, Mr. Chairman, your letter conveyed a question 
seeking the Board's view on whether sufficient technical 
information is or will be available to the NRC to enable it to 
assess the safety and environmental impact of a repository at 
Yucca Mountain. I would like to respond to that question now in 
full.
    The NRC issued a sufficiency statement on this subject in 
November 2001. The NRC and the DOE have agreed on a list of key 
technical issues that need to be addressed in the DOE's license 
application. The NRC, and not our Board, will judge whether or 
not DOE's efforts to resolve these issues are, in fact, 
adequate.
    However, the Board believes that given the significant 
uncertainties associated with the DOE's current performance 
estimates, addressing all of the key technical issues in the 
2004 time frame that has been discussed will be an ambitious 
undertaking.
    Finally, in closing, let me just note: The Board is 
certainly aware and the chairman and the other members of this 
committee are as well, that it is not possible to avoid all 
technical uncertainty associated with Yucca Mountain or any 
other potential repository site.
    It is up to policy makers to decide how much uncertainty is 
acceptable at the time that you make your decision.
    That concludes my statement. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    [The prepared statement of Dr. Cohon follows:]
Prepared Statement of Jared L. Cohon, Chairman, Nuclear Waste Technical 
                              Review Board
    Good morning, Mr. Chairman and members of the Committee. I am Jared 
Cohon, Chairman of the Nuclear Waste Technical Review Board. All 
members of the Board are appointed by the President and serve on a 
part-time basis. In my case, I also am president of Carnegie Mellon 
University in Pittsburgh, Pennsylvania.
    I am pleased to be here today to present the Board's technical and 
scientific evaluation of the Department of Energy's work related to the 
recommendation of a site at Yucca Mountain in Nevada as the location of 
a permanent repository for spent nuclear fuel and high-level 
radioactive waste and to respond to questions posed by the Committee in 
its invitation letter. We hope that the Committee and other policy-
makers will find the Board's testimony useful as you consider the 
various issues that will affect a decision on whether to proceed with 
repository development. With your permission, Mr. Chairman, I will 
summarize the Board's findings, and I request that my full statement 
and the Board's January 24, 2002, letter report to Congress and the 
Secretary of Energy be included in the hearing record.
    As you know, Mr. Chairman, Congress created the Board in the 1987 
amendments to the Nuclear Waste Policy Act. Congress charged the Board 
with performing an ongoing independent evaluation of the technical and 
scientific validity of activities undertaken by the Secretary of Energy 
related to disposing of spent nuclear fuel and high-level radioactive 
waste. The Board also reviews the DOE's activities related to 
transporting and packaging such waste. Since the Board was established, 
its primary focus has been the DOE's efforts to characterize a site at 
Yucca Mountain in Nevada to determine its suitability as the location 
of a potential repository.
    Early last year, Secretary of Energy Spencer Abraham indicated that 
he would make a decision at the end of 2001 on whether to recommend the 
Yucca Mountain site for repository development. As the Secretary's 
decision approached, the Board decided it was important to comment to 
the Secretary and Congress, within the context of the Board's ongoing 
evaluation of the technical and scientific validity of DOE activities, 
on the DOE's work related to a site recommendation. So, in November 
2001, the Board met to review comprehensively the DOE's efforts in this 
area. In December 2001, the Board sent a letter to the Secretary 
indicating that the Board would provide its comments within a few 
weeks. The Board conveyed those comments in a letter, which included 
attachments with supporting details, that was sent to Congress and the 
Secretary on January 24, 2002.
    I will now summarize the Board's review procedures and the results 
of the Board's evaluation. Questions posed by the Committee in its 
invitation letter are addressed in the context of the Board's 
evaluation.
    The Board's evaluation of the DOE's work represents the collective 
judgment of its members and was based on the following:

  <bullet> The results of the Board's ongoing review of the DOE's Yucca 
        Mountain technical and scientific investigations since the 
        Board's inception;
  <bullet> An evaluation of the DOE's work on the natural and 
        engineered components of the proposed repository system, using 
        a list of technical questions identified by the Board;
  <bullet> A comprehensive Board review of draft and final documents 
        supplied by the DOE through mid-November 2001;
  <bullet> Field observations by Board members at Yucca Mountain and 
        related sites.

    To focus its review, the Board considered the following 10 
questions for components of the repository system:
    1. Do the models used to generate input to the total system 
performance assessment (TSPA) and the representations of processes and 
linkages or relationships among processes within TSPA have a sound 
basis?
    2. Have uncertainties and conservatisms in the analyses been 
identified, quantified, and described accurately and meaningfully?
    3. Have sufficient data and observations been gathered using 
appropriate methodologies?
    4. Have assumptions and expert judgments, including bounding 
estimates, been documented and justified?
    5. Have model predictions been verified or tested?
    6. Have available data that could challenge prevailing 
interpretations been collected and evaluated?
    7. Have alternative conceptual models and model abstractions been 
evaluated, and have the bases for accepting preferred models been 
documented?
    8. Are the bases for extrapolating data over long times or 
distances scientifically valid?
    9. Can the repository and waste package designs be implemented so 
that the engineered and natural barriers perform as expected?
    10. To the extent practical, have other lines of evidence, derived 
independently of performance assessments, been used to evaluate 
confidence in model estimates?
    In evaluating the DOE's work related to individual natural and 
engineered components of the proposed repository system, the Board 
found varying degrees of strength and weakness. For example, the Board 
considers the DOE's estimates of the probabilities of volcanic events 
and earthquakes at Yucca Mountain strengths and the lack of data 
related to corrosion of materials proposed for the waste packages under 
conditions that would likely be present in the repository and the very 
short experience with these materials weaknesses.
    This kind of variability is not surprising, given that the Yucca 
Mountain project is a complex, and, in many respects, a first-of-a-kind 
undertaking. An important conclusion in the Board's January letter is 
that when the DOE's technical and scientific work is taken as a whole, 
the Board's view is that the technical basis for the DOE's repository 
performance estimates is weak to moderate at this time. However, if all 
the recommendations in the Board's January 24, 2002, letter report * 
are implemented and no surprises are found, the Board's view of the 
technical basis would likely improve. The predicted repository 
performance, however, might be either better or worse, depending on 
what is discovered.
---------------------------------------------------------------------------
    * The letter has been retained in committee files.
---------------------------------------------------------------------------
    The Board concurs with the consensus within the international 
scientific community that deep geologic disposal is technically 
feasible at a suitable site. However, the Board made no judgment in its 
January letter on the question of whether the Yucca Mountain site 
should be recommended or approved for repository development. Those 
judgments, which involve a number of public-policy considerations as 
well as an assessment of how much technical uncertainty is acceptable 
at various decision points, go beyond the Board's congressionally 
established mandate.
    Let me explain in a little more detail, Mr. Chairman, the basis for 
the Board's conclusion on performance estimates. The DOE uses a 
complex, integrated performance assessment model to project repository 
system performance. Performance assessment is a useful tool because it 
assesses how well the repository system as a whole, not just the site 
or the engineered components, might perform. However, gaps in data and 
basic understanding cause important uncertainties in the concepts and 
assumptions on which the DOE's performance estimates are now based. 
Therefore, while no individual technical or scientific factor has been 
identified that would automatically eliminate Yucca Mountain from 
consideration at this point, the Board has limited confidence in 
current performance estimates generated by the DOE's performance 
assessment model.
    But first let me expand a bit on the comment I just made that at 
this point, no individual technical or scientific factor has been 
identified that would automatically eliminate Yucca Mountain from 
consideration. The Board considers this minimum threshold finding to be 
a necessary, but by itself not a sufficient, condition for a positive 
determination of site suitability.
    How can confidence in the DOE's performance estimates be increased? 
As noted in the Board's January letter report, the Board believes that 
a fundamental understanding of the potential behavior of a proposed 
repository system is very important. Therefore, if policy-makers decide 
to approve the Yucca Mountain site, the Board strongly recommends that, 
in addition to demonstrating regulatory compliance, the DOE continue a 
vigorous, well-integrated scientific investigation to increase its 
fundamental understanding of the potential behavior of the repository 
system. Increased understanding could show that components of the 
repository system perform better than or not as well as the DOE's 
performance assessment model now projects. In either case, making 
performance projections more realistic and characterizing the full 
range of uncertainty could improve the DOE's performance estimates.
    The DOE's estimates of repository performance currently rely 
heavily on engineered components of the repository system, making 
corrosion of the waste package very important.
    As the Board has mentioned in many of its previous reports and 
letters, we believe that high temperatures in the DOE's base-case 
repository design increase uncertainties and decrease confidence in the 
performance of waste package materials. Confidence in projections of 
waste package and repository performance potentially could increase if 
the DOE adopts a low-temperature repository design. However, the Board 
continues to believe that the DOE should complete a full and objective 
comparison of high- and low-temperature repository designs before it 
selects a final repository design concept.
    Over the last several years, the Board has made several other 
recommendations that could improve the DOE's projections of repository 
performance. For example, the Board recommended that the DOE identify, 
quantify, and communicate clearly the extent of the uncertainty 
associated with its performance estimates. The Board also recommended 
that the DOE use additional lines of evidence and argument to 
supplement the results of its performance assessment. Moreover, the DOE 
could strengthen its arguments about how multiple barriers in its 
proposed repository system provide ``defense-in-depth'' (or 
redundancy). Although the DOE has made progress in each of these areas, 
more work is needed.
    Other actions that might be considered if policy-makers approve the 
Yucca Mountain site include systematically integrating new data and 
analyses produced by ongoing scientific and engineering investigations; 
monitoring repository performance before, during, and after waste 
emplacement; developing a strategy for modifying or stopping repository 
development if potentially significant unforeseen circumstances are 
encountered; and continuing external review of the DOE's technical and 
scientific activities.
    Mr. Chairman, your letter of invitation asked what the Board's 
views are on whether sufficient technical information is or will be 
available to the Nuclear Regulatory Commission to enable it to assess 
the safety and environmental impact of a repository at Yucca Mountain.
    This is the Board's answer to that question. The NRC issued the 
following statement in November 2001, ``The NRC believes that 
sufficient at-depth site characterization analysis and waste form 
proposal information, although not available now, will be available at 
the time of a potential license application such that development of an 
acceptable license application is achievable.'' The NRC and the DOE 
have agreed on a list of ``key technical issues'' (KTI) that need to be 
addressed in the DOE's license application. The NRC, not the Board, 
will judge the adequacy of the DOE's efforts to resolve these issues 
for a license application. However, the Board believes that given the 
significant uncertainties associated with the DOE's current performance 
estimates, addressing all of the KTI's in the 2004 time frame that has 
been discussed will be an ambitious undertaking.
    Mr. Chairman, let me close by observing that eliminating all 
uncertainty associated with estimates of repository performance would 
never be possible at any repository site. Policy-makers will decide how 
much scientific uncertainty is acceptable at the time various decisions 
are made on site recommendation or repository development. The Board 
hopes that the information provided in this testimony and in its letter 
report to Congress and the Secretary will be useful to policy-makers 
faced with making these important decisions.
    Thank you for the opportunity to present the Board's views. I will 
be happy to respond to additional questions from the Committee.

    The Chairman. Ms. Jones, why don't you go right ahead?

        STATEMENT OF MS. GARY JONES, DIRECTOR, NATURAL 
      RESOURCES AND ENVIRONMENT, GENERAL ACCOUNTING OFFICE

    Ms. Jones. Thank you, Mr. Chairman.
    We are pleased to be here today to discuss DOE's project to 
develop a nuclear waste repository at Yucca Mountain, Nevada.
    This morning I would like to focus on three points. First, 
DOE has a significant amount of work ahead to prepare to submit 
an acceptable license application to NRC. Second, DOE is 
unlikely to achieve its goal of opening a repository by 2010. 
And third, DOE needs to reestablish a cost and schedule 
baseline for the project and use that baseline as one of the 
basic tools to manage the project.
    The President's recommendation of the Yucca Mountain site 
to the Congress on February 15th triggered specific statutory 
time frames for the next step in the repository project. For 
example, if the Congress enacts legislation overriding the 
State's disapproval. The Nuclear Waste Policy Act requires DOE 
to then submit a license application within 90 days. However, 
DOE's managing contractor concluded that DOE would not be in a 
position to submit the application to NRC until January 2006 or 
about four years from now. This conclusion was based on a 
September 2001 detailed reassessment of the work required to 
submit a license application that would be acceptable to NRC.
    DOE did not accept this schedule and directed the 
contractor to shorten the time to a license application to 
December 2004 or about 2\1/2\ years from now.
    One of the key factors that drive DOE's ability to submit 
an acceptable license application is satisfactory completion of 
the 293 agreements with NRC under which DOE agreed to collect 
more scientific data and/or improve its technical assessment of 
that data.
    These agreements generally relate to uncertainties about 
three aspects of the long-term performance of the proposed 
repository: One, the expected lifetime of engineered barriers 
particularly the waste containers; two, the physical properties 
of the Yucca Mountain site; and three, supporting information 
for the mathematical models used to evaluate the performance of 
the planned repository.
    Minimizing uncertainties about the waste containers is 
especially critical because DOE's estimates of the repository 
system's performance depend heavily on the waste containers, in 
addition to the natural features of the site. According to NRC, 
as of March 4, 2002, DOE had satisfactorily completed work on 
38 of these agreements and could resolve another 22 by 
September 30 of this year.
    DOE is also continuing to address similar technical issues 
raised by the Board. As Dr. Cohon has testified, the Board's 
most recent report in January concluded that when DOE's 
technical and scientific work is taken as a whole, the 
technical basis for DOE's repository performance estimates is 
weak to moderate at this time. The Board added that gaps in 
data and basic understanding cause important uncertainties in 
the concepts and assumptions on which DOE's performance 
estimates are now based.
    With regard to opening the repository, it is unlikely that 
DOE can meet its goal of opening the repository in 2010. 
According to program estimates, 7 years would be needed after 
license application until the facility was operational, 3 years 
to obtain a license, and 4 years to construct the facility.
    Depending on the license application date, this would 
extend the opening date until about 2012 or 2013. However, even 
these time frames may be questionable. A repository at Yucca 
Mountain would be a first-of-a-kind facility, meaning that any 
scheduled projections might be optimistic. The contractor's 
reassessment statement that the proposed schedule to reach 
license application did not include any cost or schedule 
contingencies.
    Further, a contractor who independently reviewed the 
Nuclear Waste Program reported that the 4-year construction 
period was too optimistic and recommended that the construction 
phase be extended by a year and a half.
    Finally, unless the program receives the funding level 
assumed, the budget might become the determining factor when 
DOE will be able to accept wastes.
    DOE currently does not have a reliable estimate of when and 
at what cost a license application can be submitted, including 
the late 2004 date, or when a repository can be opened. This is 
because DOE stopped using its cost and schedule baselines to 
manage the site investigation in 1997.
    Further, DOE has accepted only the fiscal year 2002 portion 
of the baseline its contractor proposed. And DOE is currently 
reviewing the contractor's plan for submitting a license 
application to NRC by December 2004.
    Our December 2001 report recommended that DOE reestablish a 
baseline for the repository program that accounts for the 
outstanding technical work needed to prepare an acceptable 
license application and the estimated cost and schedule to 
achieve this milestone and use that baseline to manage the 
program. This would help to ensure that when changes occur, 
such as adding or modifying technical work, or unanticipated 
funding shortfalls, alternative courses of action can be 
assessed on the basis of each action's potential effect on the 
baseline. DOE has told us that the new baseline will be 
established by September 2002.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    [The prepared statement of Ms. Jones follows:]
 Prepared Statement of Ms. Gary Jones, Director, Natural Resources and 
                 Environment, General Accounting Office
    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to discuss the Department of Energy's (DOE) project to 
develop a nuclear waste repository. As required by law, DOE has been 
investigating a site at Yucca Mountain, Nevada, to determine its 
suitability for disposing of highly radioactive wastes in a mined 
geologic repository. On February 14, 2002, the secretary of energy 
recommended to the president approval of this site for the development 
of a nuclear waste repository. The next day, the president recommended 
approval of the site to the Congress. The president's recommendation 
began a statutory review process for the approval or disapproval of the 
site, including action by the state of Nevada, the Congress, DOE, and 
the Nuclear Regulatory Commission (NRC) within specified time frames. 
If the site is approved, DOE must apply to NRC for authorization (a 
license) to construct a repository. If the site is not approved for a 
license application, or if NRC denies a license to construct a 
repository, the administration and the Congress will have to consider 
other options for the long-term management of existing and future 
nuclear wastes.
    Our testimony, which is based on our recent report on the Yucca 
Mountain Repository Project,\1\ addresses (1) DOE's readiness to submit 
a license application within the statutory time frame, (2) the extent 
to which DOE can meet its goal of opening a repository at Yucca 
Mountain in 2010, and (3) the extent to which DOE is managing the 
project consistent with applicable departmental procedures.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Nuclear Waste: Technical, 
Schedule, and Cost Uncertainties of the Yucca Mountain Repository 
Project, GAO-02-191 (Washington, D.C.: Dec. 21, 2001).
---------------------------------------------------------------------------
                                summary
    DOE is not prepared to submit an acceptable license application to 
NRC within the statutory limits that would take effect if the site is 
approved. The president's recommendation of the Yucca Mountain site to 
the Congress triggered specific statutory time frames for the next 
steps in the repository project. Nevada, which had 60 days from 
February 15 to disapprove the site, did so on April 8. The Congress now 
has 90 days (of continuous session) from that date in which to enact 
legislation overriding the state's disapproval. On May 8, the House of 
Representatives passed a joint resolution approving the site for a 
repository. If the Senate also passes this resolution--resulting in 
final approval of the site--the Nuclear Waste Policy Act requires DOE 
to then submit a license application to NRC within 90 days of the 
effective date of the legislation. Thus, the process gives DOE about 5 
to 8 months from the date of the president's recommendation to submit 
the license application. However, a September 2001 detailed assessment 
of the repository program by DOE's managing contractor concluded that 
DOE would not be ready to submit a license application that would be 
acceptable to NRC until January 2006. DOE did not accept the 
contractor's proposed new schedule and directed the contractor to 
develop a proposal to shorten the time to a license application to 
December 2004, or about 19 months from now. The contractor has now 
developed such a proposal, which is under review within DOE. Moreover, 
while a site recommendation and a license application are separate 
processes, essentially the same data are needed for both. Waiting until 
DOE was closer to having the additional information needed to support 
an acceptable license application would have put DOE in a better 
position to submit the application within the time frames set out in 
the law, and to respond to questions and challenges that may emanate 
from the statutory review process subsequent to the president's 
recommendation.
    DOE is unlikely to achieve its goal of opening a repository at 
Yucca Mountain by 2010. On the basis of DOE's managing contractor's 
September 2001 reassessment, sufficient time would not be available for 
DOE to obtain a license from NRC and construct enough of the repository 
to open it in 2010. Even under the more recent proposal to submit a 
license application as early as December 2004, it is questionable 
whether DOE could open the repository in 2010. A key factor in the 
future licensing and construction of a repository is whether DOE will 
be able to obtain the increases in annual funding that would be 
required to open the repository by 2010. Because of the uncertainty of 
meeting the 2010 goal, DOE is exploring alternative approaches, such as 
developing surface facilities for storing waste at the site until 
sufficient underground disposal facilities can be constructed. Had DOE 
elected to defer a site recommendation until it was closer to having an 
acceptable license application, it could have ensured that the site 
recommendation was based on the approach to developing a repository 
that it intends to follow. This would have enabled DOE to develop an 
estimated schedule to design and build the preferred approach and to 
estimate its cost, including the annual funding requirements, as part 
of the information on which to make a site recommendation.
    DOE currently does not have a reliable estimate of when, and at 
what cost, a license application can be submitted or a repository can 
be opened because DOE stopped using its cost and schedule baselines to 
manage the site investigation in 1997. DOE needs to reestablish a 
baseline for the repository program that accounts for the outstanding 
technical work needed to prepare an acceptable license application and 
the estimated schedule and cost to achieve this milestone. In 
conjunction, DOE needs to use the baseline as a tool for managing the 
program, in accordance with the department's policies and procedures 
for managing major projects. Therefore, our December 2001 report 
recommended that the secretary of energy reestablish the baseline 
through the submission of a license application and follow the 
department's management requirements, including a formal procedure for 
changing program milestones. According to DOE, it is currently in the 
process of establishing a new baseline for the nuclear waste program.
                               background
    Recognizing the critical need to address the issue of nuclear waste 
disposal, the Congress enacted the Nuclear Waste Policy Act of 1982 to 
establish a comprehensive policy and program for the safe, permanent 
disposal of commercial spent fuel and other highly radioactive wastes 
in one or more mined geologic repositories. The act created the Office 
of Civilian Radioactive Waste Management within DOE to manage its 
nuclear waste program. Amendments to the act in 1987 directed DOE to 
investigate only the Yucca Mountain site.
    The Nuclear Waste Policy Act also set out important and 
complementary roles for other federal agencies:

  <bullet> The Environmental Protection Agency (EPA) was required to 
        establish health and safety standards for the disposal of 
        wastes in repositories. EPA issued standards for the Yucca 
        Mountain site in June 2001 that require a high probability of 
        safety for at least 10,000 years.\2\
---------------------------------------------------------------------------
    \2\ The Energy Policy Act of 1992 required EPA to establish 
specific health and safety standards for a repository at Yucca 
Mountain.
---------------------------------------------------------------------------
  <bullet> NRC is responsible for licensing and regulating repositories 
        to ensure their compliance with EPA's standards. One 
        prerequisite to the secretary's recommendation was obtaining 
        NRC's preliminary comments on the sufficiency of DOE's site 
        investigation for the purpose of a license application. NRC 
        provided these comments on November 13, 2001. If the site is 
        approved, then NRC, upon accepting a license application from 
        DOE, has 3 to 4 years to review the application and decide 
        whether to issue a license to construct, and then to operate, a 
        repository at the site.\3\
---------------------------------------------------------------------------
    \3\ The acceptance of a license application is not the same as 
approving an application. A decision to approve or disapprove any 
application would be made by NRC following extensive review and 
testing.
---------------------------------------------------------------------------
  <bullet> The Nuclear Waste Technical Review Board (the board) reviews 
        the technical and scientific validity of DOE's activities 
        associated with investigating the site and packaging and 
        transporting wastes. The board must report its findings and 
        recommendations to the Congress and the secretary of energy at 
        least twice each year, but DOE is not required to implement 
        these recommendations.

    DOE has designated the nuclear waste program, including the site 
investigation, as a ``major'' program that is subject to senior 
management's attention and to its agency-wide guidelines for managing 
such programs and projects. The guidelines require the development of a 
cost and schedule baseline, a system for managing changes to the 
baseline, and independent cost and schedule reviews. DOE is using a 
management contractor to carry out the work on the program. The 
contractor develops and maintains the baseline, but senior DOE managers 
must approve significant changes to cost or schedule estimates. In 
February 2001, DOE hired Bechtel SAIC Company, LLC (Bechtel), to manage 
the program and required the contractor to reassess the remaining 
technical work and the estimated schedule and cost to complete this 
work.
   doe will not be ready to submit a license application within the 
                          statutory time frame
    DOE is not prepared to submit an acceptable license application to 
NRC within the statutory limits that would take effect if the site were 
approved. Specifically, DOE has entered into 293 agreements with NRC to 
gather and/or analyze additional technical information in preparation 
for a license application that NRC would accept. DOE is also continuing 
to address technical issues raised by the board. In September 2001, 
Bechtel concluded, after reassessing the remaining technical work, that 
DOE would not be ready to submit an acceptable license application to 
NRC until January 2006. DOE did not accept the 2006 date. Instead, it 
directed the contractor to prepare a new plan for submitting a license 
application to NRC by December 2004. DOE's current plan is that, by the 
end of September 2002, Bechtel will develop, and DOE will review and 
approve, a new technical, cost, and schedule baseline for submitting a 
license application to NRC in December 2004.
    Moreover, while a site recommendation and a license application are 
separate processes, DOE will need to use essentially the same data for 
both.\4\ Also, the act states that the president's recommendation to 
the Congress is that he considers the site qualified for an application 
to NRC for a license. The president's recommendation also triggers an 
express statutory time frame that requires DOE to submit a license 
application to NRC within about 5 to 8 months.
---------------------------------------------------------------------------
    \4\ See General Guidelines for the Recommendation of Sites for 
Nuclear Waste Repositories; Yucca Mountain Site Suitability Guidelines 
(preamble), 66 Fed. Reg. 57298, 57322 (Nov. 14, 2001).
---------------------------------------------------------------------------
            doe lacks information for a license application
    The 293 agreements that DOE and NRC have negotiated address areas 
of study within the program where NRC's staff has determined that DOE 
needs to collect more scientific data and/or improve its technical 
assessment of the data. According to NRC, as of March 2002, DOE had 
satisfactorily completed work on 38 of these agreements and could 
resolve another 22 agreements by September 30 of this year. These 293 
agreements generally relate to uncertainties about three aspects of the 
long-term performance of the proposed repository: (1) the expected 
lifetime of engineered barriers, particularly the waste containers; (2) 
the physical properties of the Yucca Mountain site; and (3) the 
supporting information for the mathematical models used to evaluate the 
performance of the planned repository at the site.
    The uncertainties related to engineered barriers revolve around the 
longevity of the waste containers that would be used to isolate the 
wastes. DOE currently expects that these containers would isolate the 
wastes from the environment for more than 10,000 years. Minimizing 
uncertainties about the container materials and the predicted 
performance of the waste containers over this long time period is 
especially critical because DOE's estimates of the repository system's 
performance depend heavily on the waste containers, in addition to the 
natural features of the site, to meet NRC's licensing regulations and 
EPA's health and safety standards
    The uncertainties related to the physical characteristics of the 
site center on how the combination of heat, water, and chemical 
processes caused by the presence of nuclear waste in the repository 
would affect the flow of water through the repository.
    The NRC staff's concerns about DOE's mathematical models for 
assessing the performance of the repository primarily relate to 
validating the models; that is, presenting information to provide 
confidence that the models are valid for their intended use and 
verifying the information used in the models. Performance assessment is 
an analytical method that relies on computers to operate mathematical 
models to assess the performance of the repository against EPA's health 
and safety standards, NRC's licensing regulations, and DOE's guidelines 
for determining if the Yucca Mountain site is suitable for a 
repository. DOE uses the data collected during site characterization 
activities to model how a repository's natural and engineered features 
would perform at the site.
    According to DOE, the additional technical work surrounding the 293 
agreements with NRC's staff is an insignificant addition to the 
extensive amount of technical work already completed--including some 
600 papers cited in one of its recently published reports and a 
substantial body of published analytic literature. DOE does not expect 
the results of the additional work to change its current performance 
assessment of a repository at Yucca Mountain.
    From NRC's perspective, however, the agreements provided the basis 
for it to give DOE its preliminary comments on the sufficiency of DOE's 
investigation of the Yucca Mountain site for inclusion in a future 
license application. In a November 13, 2001, letter to the under 
secretary of energy, the Chairman of the NRC commented that:

        [a]lthough significant additional work is needed prior to the 
        submission of a possible license application, we believe that 
        agreements reached between DOE and NRC staff regarding the 
        collection of additional information provide the basis for 
        concluding that development of an acceptable license 
        application is achievable.

    The board has also consistently raised issues and concerns over 
DOE's understanding of the expected lifetime of the waste containers, 
the significance of the uncertainties involved in the modeling of the 
scientific data, and the need for an evaluation and comparison of a 
repository design having a higher temperature with a design having a 
lower temperature. The board continues to reiterate these concerns in 
its reports. For example, in its most recent report to the Congress and 
the secretary of energy, issued on January 24, 2002, the board 
concluded that, when DOE's technical and scientific work is taken as a 
whole, the technical basis for DOE's repository performance estimates 
is ``weak to moderate'' at this time. The board added that gaps in data 
and basic understanding cause important uncertainties in the concepts 
and assumptions on which DOE's performance estimates are now based; 
providing the board with limited confidence in current performance 
estimates generated by DOE performance assessment model.
    As recently as May 2001, DOE projected that it could submit a 
license application to NRC in 2003. It now appears, however, that DOE 
may not complete all of the additional technical work that it has 
agreed to do to prepare an acceptable license application until January 
2006. In September 2001, Bechtel completed, at DOE's direction, a 
detailed reassessment in an effort to reestablish a cost and schedule 
baseline. Bechtel estimated that DOE could complete the outstanding 
technical work agreed to with NRC and submit a license application in 
January 2006. This date, according to the contractor, was due to the 
cumulative effect of funding reductions in recent years that had 
produced a ``. . . growing bow wave of incomplete work that is being 
pushed into the future. Moreover, the contractor's report said, the 
proposed schedule did not include any cost and schedule contingencies. 
The contractor's estimate was based on guidance from DOE that, in part, 
directed the contractor to assume annual funding for the nuclear waste 
program of $410 million in fiscal year 2002, $455 million in fiscal 
year 2003, and $465 million in fiscal year 2004 and thereafter.\5\ DOE 
did not accept this estimate because, according to program officials, 
the estimate would extend the date for submitting a license application 
too far into the future. Instead, DOE accepted only the fiscal year 
2002 portion of Bechtel's detailed work plan and directed the 
contractor to prepare a new plan for submitting a license application 
to NRC by December 2004. Bechtel has prepared such a plan and the plan 
is under review by DOE. Although we have not reviewed the entire plan, 
we note that the plan (1) assumes that the program receives the $525 
million in funds requested by the Administration for fiscal year 2003, 
which would be more than $100 million above the funds provided for 
fiscal year 2002, and (2) work on 10 of the department's 293 agreements 
with NRC would not be complete by the target license application date 
of December 2004.
---------------------------------------------------------------------------
    \5\ DOE's budget request for fiscal year 2003 is about $527 
million, or $72 million more than assumed in Bechtel's reassessment. 
The preliminary amounts for fiscal years 2004 and 2005 are $538 million 
and $550 million, respectively.
---------------------------------------------------------------------------
 essentially the same information is needed for a site recommendation 
                       and a license application
    Under the Nuclear Waste Policy Act, DOE's site characterization 
activities are to provide information necessary to evaluate the Yucca 
Mountain site's suitability for submitting a license application to NRC 
for placing a repository at the site. In implementing the act, DOE's 
guidelines provide that the site will be suitable as a waste repository 
if the site is likely to meet the radiation protection standards that 
NRC would use to reach a licensing decision on the proposed repository. 
Thus, as stated in the preamble (introduction) to DOE's guidelines, DOE 
expects to use essentially the same data for the site recommendation 
and the license application.
    In addition, the act specifies that, having received a site 
recommendation from the secretary, the president shall submit a 
recommendation of the site to the Congress if the president considers 
the site qualified for a license application. Under the process laid 
out in the Nuclear Waste Policy Act, once the secretary makes a site 
recommendation, there is no time limit under which the president must 
act on the secretary's recommendation. However, when the president 
recommended, on February 15, that the Congress approve the site, 
specific statutory time frames were triggered for the next steps in the 
process. Figure 1 shows the approximate statutory time needed between a 
site recommendation and submission of a license application and the 
additional time needed for DOE to meet the conditions for an acceptable 
license application. The figure assumes that the Congress overrides the 
state's disapproval of April 8, 2002. As shown in the figure, Nevada 
had 60 days--until April 16--to disapprove the site. The Congress now 
has 90 days (of continuous session) from that date in which to enact 
legislation overriding the state's disapproval. If the Congress 
overrides the state's disapproval and the site designation takes 
effect, the next step is for the secretary to submit a license 
application to NRC within 90 days after the site designation is 
effective. In total, these statutory time frames provide about 150 to 
240 days, or about 5 to 8 months, from the time the president makes a 
recommendation to DOE's submittal of a license application. On the 
basis of Bechtel's September 2001 and current program reassessments, 
however, DOE would not be ready to submit a license application to NRC 
until January 2006 or December 2004, respectively.
        doe is unlikely to open a repository in 2010 as planned
    DOE states that it may be able to open a repository at Yucca 
Mountain in 2010. The department has based this expectation on 
submitting an acceptable license application to NRC in 2003, receiving 
NRC's authorization to construct a repository in 2006, and constructing 
essential surface and underground facilities by 2010. However, Bechtel, 
in its September 2001 proposal for reestablishing technical, schedule, 
and cost baselines for the program, concluded that January 2006 is a 
more realistic date for submitting a license application. Because DOE 
objected to this proposed schedule, the contractor has now proposed a 
plan for submitting the application in December 2004. Because of 
uncertainty over when DOE may be able to open the repository, the 
department is exploring alternatives that might still permit it to 
begin accepting commercial spent fuel in 2010.
      extension of license application date will likely postpone 
                          2010 repository goal
    An extension of the license application date to December 2004 or 
January 2006 would likely preclude DOE from achieving its long-standing 
goal of opening a repository in 2010. According to DOE's May 2001 
report on the program's estimated cost, after submitting a license 
application in 2003, DOE estimates that it could receive an 
authorization to construct the repository in 2006 and complete the 
construction of enough surface and underground facilities to open the 
repository in 2010, or 7 years after submitting the license 
application. This 7-year estimate from submittal of the license 
application to the initial construction and operation of the repository 
assumes that NRC would grant an authorization to construct the facility 
in 3 years, followed by 4 years of construction. Assuming these same 
estimates of time, submitting a license application in the December 
2004 to January 2006 time frame would extend the opening date for the 
repository until 2012 or 2013.
    Furthermore, opening the repository in 2012 or 2013 may be 
questionable for several reasons. First, a repository at Yucca Mountain 
would be a first-of-a-kind facility, meaning that any schedule 
projections may be optimistic. DOE has deferred its original target 
date for opening a repository from 1998 to 2003 to 2010. Second, 
although the Nuclear Waste Policy Act states that NRC has 3 years to 
decide on a construction license, a fourth year may be added if NRC 
certifies that it is necessary. Third, the 4-year construction time 
period that DOE's current schedule allows may be too short. For 
example, a contractor hired by DOE to independently review the 
estimated costs and schedule for the nuclear waste program reported 
that the 4-year construction period was too optimistic and recommended 
that the construction phase be extended by a year-and-a-half.\6\ 
Bechtel anticipates a 5-year period of construction between the receipt 
of a construction authorization from NRC and the opening of the 
repository. A 4-year licensing period followed by 5 years of initial 
construction could extend the repository opening until about 2014 or 
2015.
---------------------------------------------------------------------------
    \6\ U.S. Department of Energy, Independent Cost Estimate Review of 
the Civilian Radioactive Waste Management Program, 2001 Total System 
Life Cycle Cost (Washington, D.C.: Jan. 2001).
---------------------------------------------------------------------------
    Finally, these simple projections do not account for any other 
factors that could adversely affect this 7- to 9-year schedule for 
licensing, constructing, and opening the repository. Annual 
appropriations for the program in recent years have been less than $400 
million. In contrast, according to DOE, it needs between $750 million 
and $1.5 billion in annual appropriations during most of the 7- to 9-
year licensing and construction period in order to open the repository 
on that schedule. In its August 2001 report on alternative means for 
financing and managing the program, DOE stated that unless the 
program's funding is increased, the budget might become the 
``determining factor'' whether DOE will be able to accept wastes in 
2010.\7\
---------------------------------------------------------------------------
    \7\ U.S. Department of Energy, Alternative Means of Financing and 
Managing the Civilian Radioactive Waste Management Program, DOE/RW-0546 
(Washington, D.C.: Aug. 2001).
---------------------------------------------------------------------------
    In part, DOE's desire to meet the 2010 goal is linked to the court 
decisions that DOE--under the Nuclear Waste Policy Act and as 
implemented by DOE's contracts with owners of commercial spent fuel--is 
obligated to begin accepting spent fuel from contract holders not later 
than January 31, 1998, or be held liable for damages. Courts are 
currently assessing the amount of damages that DOE must pay to holders 
of spent fuel disposal contracts. Estimates of potential damages for 
the estimated 12-year delay from 1998 to 2010 range widely from the 
department's estimate of about $2 billion to $3 billion to the nuclear 
industry's estimate of at least $50 billion. The damage estimates are 
based, in part, on the expectation that DOE would begin accepting spent 
fuel from contract holders in 2010. The actual damages could be higher 
or lower, depending on when DOE begins accepting spent fuel.
       doe is reviewing alternative ways to accept wastes in 2010
    Because of the uncertainty of achieving the 2010 goal for opening 
the Yucca Mountain repository, DOE is examining alternative approaches 
that would permit it to meet the goal. For example, in a May 2001 
report, DOE examined approaches that might permit it to begin accepting 
wastes at the repository site in 2010 while spreading out the 
construction of repository facilities over a longer time period. The 
report recommended storing wastes on the surface until the capacity to 
move wastes into the repository has been increased. Relatively modest-
sized initial surface facilities to handle wastes could be expanded 
later to handle larger volumes of waste. Such an approach, according to 
the report, would permit partial construction and limited waste 
emplacement in the repository, at lower than earlier estimated annual 
costs, in advance of the more costly construction of the facility as 
originally planned. Also, by implementing a modular approach, DOE would 
be capable of accepting wastes at the repository earlier than if it 
constructed the repository described in the documents that the 
secretary used to support a site recommendation.
    DOE has also contracted with the National Research Council to 
provide recommendations on design and operating strategies for 
developing a geologic repository in stages, which is to include 
reviewing DOE's modular approach. The council is addressing such issues 
as the (1) technical, policy, and societal objectives and risks for 
developing a staged repository; (2) effects of developing a staged 
repository on the safety and security of the facility and the effects 
on the cost and public acceptance of such a facility; and (3) 
strategies for developing a staged system, including the design, 
construction, operation, and closing of such a facility. In March 2002, 
the council published an interim report on the study in which it 
addresses a conceptual framework for a generic repository program. The 
Council plans to issue a final report this fall, in which it intends to 
provide specific suggestions for incorporating additional elements of 
staged repository development into DOE's repository program.
 doe's current license application milestone date is not supported by 
                         the program's baseline
    As of December 2001, DOE expected to submit the application to NRC 
in 2003.\8\ This date reflects a delay in the license application 
milestone date last approved by DOE in March 1997 that targeted March 
2002 for submitting a license application. The 2003 date was not 
formally approved by DOE's senior managers or incorporated into the 
program's cost and schedule baseline, as required by the management 
procedures that were in effect for the program. At least three 
extensions for the license application date have been proposed and used 
by DOE in program documents, but none of these proposals have been 
approved as required. As a result, DOE does not have a baseline 
estimate of the program's schedule and cost--including the late 2004 
date in its fiscal year 2003 budget request--that is based on all the 
work that it expects to complete through the submission of a license 
application.
---------------------------------------------------------------------------
    \8\ DOE's 2003 budget request states that DOE now expects to submit 
the license application between October and December 2004.
---------------------------------------------------------------------------
    DOE's guidance for managing major programs and projects requires, 
among other things, that senior managers establish a baseline for 
managing the program or project. The baseline describes the program's 
mission--in this case, the safe disposal of highly radioactive waste in 
a geologic repository--and the expected technical requirements, 
schedule, and cost to complete the program. Procedures for controlling 
changes to an approved baseline are designed to ensure that program 
managers consider the expected effects of adding, deleting, or 
modifying technical work, as well as the effects of unanticipated 
events, such as funding shortfalls, on the project's mission and 
baseline. In this way, alternative courses of action can be assessed on 
the basis of each action's potential effect on the baseline. DOE's 
procedures for managing the nuclear waste program require that program 
managers revise the baseline, as appropriate, to reflect any 
significant changes to the program.
    After March 1997, according to DOE officials, they did not always 
follow these control procedures to account for proposed changes to the 
program's baseline, including the changes proposed to extend the date 
for license application. According to these same officials, they 
stopped following the control procedures because the secretary of 
energy did not approve proposed extensions to the license application 
milestone. As a result, the official baseline did not accurately 
reflect the program's cost and schedule to complete the remaining work 
necessary to submit a license application.
    In November 1999, the Yucca Mountain site investigation office 
proposed extending the license application milestone date by 10 months, 
from March to December 2002, to compensate for a $57.8 million drop in 
funding for fiscal year 2000. A proposed extension in the license 
application milestone required the approval of both the director of the 
nuclear waste program and the secretary of energy. Neither of these 
officials approved this proposed change nor was the baseline revised to 
reflect this change even though the director subsequently began 
reporting the December 2002 date in quarterly performance reports to 
the deputy secretary of energy. The site investigation office 
subsequently proposed two other extensions of the license application 
milestone, neither of which was approved by the program's director or 
the secretary of energy or incorporated into the baseline for the 
program. Nevertheless, DOE began to use the proposed, but unapproved, 
milestone dates in both internal and external reports and 
communications, such as in congressional testimony delivered in May 
2001.
    Because senior managers did not approve these proposed changes for 
incorporation into the baseline for the program, program managers did 
not adjust the program's cost and schedule baseline. By not accounting 
for these and other changes to the program's technical work, milestone 
dates, and estimated costs in the program's baseline since March 1997, 
DOE has not had baseline estimates of all of the technical work that it 
expected to complete through submission of a license application and 
the estimated schedule and cost to complete this work. This condition 
includes the cost and schedule information contained in DOE's budget 
request for fiscal year 2003.
    When DOE hired Bechtel to manage the nuclear waste program, one of 
the contractor's first assignments was to document the remaining 
technical work that had to be completed to support the submission of a 
license application to NRC and to estimate the time and cost to 
complete this work. The contractor's revised, unofficial baseline for 
the program shows that it will take until January 2006 to complete 
essential technical work and submit an acceptable license application. 
Also, DOE had estimated that completing the remaining technical work 
would add about $1.4 billion to the cumulative cost of the program, 
bringing the total cost of the Yucca Mountain project's portion of the 
nuclear waste program to $5.5 billion.\9\ As noted earlier, DOE 
accepted only the fiscal year 2002 portion of the proposed baseline and 
then directed the contractor to prepare a plan for submitting a license 
application to NRC by December 2004. The resulting plan is now under 
review within DOE.
---------------------------------------------------------------------------
    \9\ DOE estimated that the program cost $4.1 billion, on the basis 
of year-of-expenditure dollars from the program's inception in 1983 
through March 2002. The $5.5 billion estimate for the license 
application is based on year-of-expenditure dollars from 1983 through 
January 2006.
---------------------------------------------------------------------------
    Because of these management weaknesses, we recommended in our 
December 2001 report that the secretary of energy reestablish the 
baseline through the submission of a license application and follow the 
department's management requirements, including a formal procedure for 
changing program milestones. According to DOE, it is currently in the 
process of establishing a new baseline for the nuclear waste program.
    Mr. Chairman, this concludes our prepared statement. We would be 
happy to respond to any questions that you or members of the 
subcommittee may have.

    The Chairman. Mr. Holmstead, please go right ahead.

STATEMENT OF JEFFREY R. HOLMSTEAD, ASSISTANT ADMINISTRATOR FOR 
       AIR AND RADIATION, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Holmstead. Thank you. My name is Jeffrey Holmstead, and 
I currently serve as the Assistant Administrator for Air and 
Radiation at the United States Environmental Protection Agency.
    I am pleased to be here today to discuss EPA's role in 
setting standards for the proposed repository at Yucca 
Mountain. As you have already heard this morning, EPA's 
responsibilities with respect to the proposed repository are 
described in the Nuclear Waste Policy Act and also in the 
Energy Policy Act of 1992.
    These statutes assign EPA the task of developing public 
health and environmental radiation protection standards for the 
repository. These same statutes assign other roles and 
responsibilities to other governmental entities. The Department 
of Energy has the responsibility to determine whether the site 
is suitable for a repository. The Nuclear Regulatory Commission 
has the responsibility to review DOE's application for a 
license for the repository. And, of course, Congress has the 
responsibility for final approval for the Yucca Mountain 
repository.
    EPA issued its final standards for the Yucca Mountain site 
on June 13, 2001. These standards were developed after 
extensive consultation with DOE, NRC, the Office of Science and 
Technology Policy, and they were the subject of significant 
public comment. DOE, by law, must address these standards in 
its license application.
    NRC may issue a license only if it determines that DOE has 
demonstrated that the repository will comply with all the 
provisions of the EPA standards. EPA believes that disposal in 
compliance with the EPA standards will be protective of public 
health and the environment.
    Under EPA's standards, DOE must demonstrate compliance with 
three separate provisions: First, an individual protection 
standard; second, a human intrusion standard; and third, 
standards that are specifically intended to protect groundwater 
as a natural resource.
    The so-called individual protection standard is the core 
element of EPA's regulation. It is the most basic measure of 
how well the repository will operate. To meet this standard, 
DOE must demonstrate that the ``Reasonably Maximally Exposed 
Individual,'' which we refer to as the RMEI, will not incur an 
annual dose of radiation above 15 millirem, from all exposure 
pathways combined. The RMEI--that is the reasonably maximally 
exposed individual--is a typical person whose location and 
lifestyle would place him or her among the most highly, but not 
necessarily the highest, exposed members of the population. 
Although the NAS recommended using a ``critical group'' 
approach, it has agreed that EPA's approach was ``broadly 
consistent'' with its recommendation.
    EPA's view is that, by meeting the standard for the RMEI, 
the vast majority of the population will be protected. This 
approach is preferable to hypothesizing unrealistic scenarios 
to protect those whose lifestyles might lead to unusually high 
exposures, and is consistent with the NAS recommendation to use 
``cautious, but reasonable'' assumptions.
    The second standard, the Human Intrusion Standard, accounts 
for the possibility that future human activity could compromise 
the integrity of the repository sometime over the next 10,000 
years and cause releases of radioactive material. The NAS found 
that there is no credible means of predicting whether, when, or 
how often such an intrusion might occur at Yucca Mountain, so 
analyzing a simple event to determine how well the repository 
responds would be appropriate. In accordance with the NAS 
recommendation, EPA's Human Intrusion Standard requires DOE to 
meet the same RMEI standard as in the individual-protection 
analysis.
    Perhaps most importantly, EPA adopted a separate 
groundwater protection standard because it is long-standing 
Agency policy to protect groundwater as a natural resource, 
particularly when that resource is a significant current or a 
likely future source of drinking water.
    EPA believes that ground water should be protected to 
ensure that the Nation's drinking water resources do not 
present adverse health risks and are preserved for present and 
future generations. This is particularly important in arid 
regions, such as southern Nevada, where ground water is 
precious, and cleaning up the aquifer would be challenging and 
costly. Therefore, EPA's standards require DOE to demonstrate 
that ground water will not be radioactively contaminated above 
certain standards, which are consistent with EPA's radiation 
standards for drinking water.
    EPA does not believe that an all pathway exposure standard 
with groundwater as one pathway among several, provides 
adequate public health protection against groundwater 
contamination since groundwater is, in fact, the principal 
exposure pathway.
    Although EPA's statutory role was complete with the 
issuance of its final standards, it continues to be involved in 
many of the ongoing activities of other agencies. First, EPA is 
defending its standard in court against challenges brought by 
several parties. EPA has also reviewed and provided comment on 
NRC's licensing requirements for the Yucca Mountain repository. 
We have also provided comments on DOE's site evaluation 
guidelines, and DOE's Draft, Supplemental, and Final 
Environmental Impact Statements.
    EPA is currently reviewing NRC's draft Yucca Mountain 
Review Plan, and plans to comment throughout the licensing 
process as appropriate. EPA also expects to review DOE's 
evolving plans for transportation, although the selection of 
transportation modes and routes is DOE's responsibility with 
oversight from NRC and the Department of Transportation.
    Finally, EPA continues to receive and respond to questions 
from the public, not only about EPA's own standards, but on the 
other repository-related activities listed above.
    Thank you again for the opportunity to appear today before 
the Committee to present the EPA's views. This concludes my 
prepared statement.
    The Chairman. Thank you very much.
    [The prepared statement of Mr. Holmstead follows:]
Prepared Statement of Jeffrey R. Holmstead, Assistant Administrator for 
           Air and Radiation, Environmental Protection Agency
    Mr. Chairman and Members of the Committee: Good morning. My name is 
Jeffrey Holmstead and I currently serve as the Assistant Administrator 
for Air and Radiation at the U.S. Environmental Protection Agency 
(EPA). I am pleased to be here today to discuss EPA's role in setting 
public health and environmental radiation protection standards for the 
proposed spent nuclear fuel and high-level radioactive waste repository 
at Yucca Mountain, Nevada. I appreciate this opportunity to discuss 
EPA's responsibilities related to this important national project.
                              introduction
    EPA's roles and responsibilities in the federal government's 
establishment of a repository for spent nuclear fuel and high-level 
radioactive waste are described generally in the Nuclear Waste Policy 
Act, and more specifically for the Yucca Mountain site in the Energy 
Policy Act of 1992. These statutes assign EPA the task of developing 
public health and environmental radiation protection standards for the 
repository. These same statutes assign other roles and responsibilities 
to other governmental entities. The Department of Energy (DOE) has the 
responsibility to determine whether the site is suitable for a 
repository; The Nuclear Regulatory Commission (NRC) has the 
responsibility to review DOE's application for a license for the 
repository; and Congress has the responsibility for final approval or 
denial of DOE's suitability recommendation. EPA issued its final 
standards for the Yucca Mountain repository on June 13, 2001 (40 CFR 
197). These standards were developed through extensive consultation 
with DOE, NRC, the Office of Science and Technology Policy, and were 
the subject of significant public comment. DOE must address these 
standards in its license application. NRC may issue a license only if 
it determines that DOE demonstrates a reasonable expectation that the 
repository will comply with all provisions of the EPA standards. EPA 
believes that disposal in compliance with the EPA standards will be 
fully protective of public health and the environment. In fact, EPA's 
standards are both implementable and among the most stringent in the 
world.
                               nas report
    The Energy Policy Act of 1992 also directed EPA to contract with 
the National Academy of Sciences to provide findings and 
recommendations on reasonable public health and safety standards for 
establishing a repository for spent nuclear fuel and high-level 
radioactive waste. NAS issued its report in 1995. I will refer to the 
NAS report as I discuss the EPA standards further. NAS has provided 
formal comments to EPA stating that our standards for Yucca Mountain 
are generally consistent with the NAS recommendations.
                       overview of epa standards
    Under EPA's standards, DOE must demonstrate a reasonable 
expectation of compliance with three separate provisions: an 
individual-protection standard, a human intrusion standard, and 
standards that are specifically intended to protect ground water as a 
natural resource.
    The Individual Protection Standard is the core element of EPA's 
regulation. It is the most basic measure of how well the repository 
will operate. To meet this standard, DOE must demonstrate a reasonable 
expectation that the ``Reasonably Maximally Exposed Individual,'' or 
RMEI, will not incur an annual dose of radiation above 15 millirem, 
from all exposure pathways combined. The RMEI is a typical individual 
whose location and lifestyle would place him among the most highly, but 
not necessarily the highest, exposed members of the population. 
(Although NAS recommended using a ``critical group'' approach, it 
agreed that EPA's approach was ``broadly consistent'' with its 
recommendation.) EPA's view is that, by meeting the standard for the 
RMEI, public health and safety, including the health and safety of 
those living in the immediate vicinity of Yucca Mountain, will be 
protected now and for future generations. This approach is preferable 
to postulating unrealistic scenarios to protect hypothetical 
individuals for whom lifestyles could be constructed that might lead to 
unusually high exposures, and thus is consistent with the NAS 
recommendation to use ``cautious, but reasonable'' assumptions.
    The Human Intrusion Standard accounts for the possibility that 
future human activity could compromise the integrity of the repository 
and cause releases of radioactive material. NAS found that there is no 
credible means of predicting whether, when, or how often such an 
intrusion might occur at Yucca Mountain, so analyzing a simple event to 
determine how well the repository responds would be appropriate. In 
accordance with the NAS recommendation, EPA's Human Intrusion Standards 
requires DOE to meet the same RMEI standard as in the individual-
protection analysis.
    EPA adopted separate ground-water protection standards because it 
is long-standing Agency policy to protect ground water as a natural 
resource, especially when that resource is a source of drinking water. 
EPA believes that ground water should be protected to ensure that the 
Nation's drinking water resources do not present adverse health risks 
and are preserved for present and future generations. This is 
particularly important in arid regions, such as southern Nevada, where 
ground water is precious, and cleaning up the aquifer would be 
challenging and costly. Therefore, EPA's standards require DOE to 
demonstrate that ground water will not be radioactively contaminated 
above certain standards, which are consistent with EPA's radiation 
standards for drinking water.
    To determine the location where the three basic provisions of EPA's 
disposal standards must be met, EPA's standards set the point of 
compliance south of the repository at the Nevada Test Site boundary, 
about 18 kilometers (11 miles) from the repository. EPA used regional 
ground water flow patterns, current population patterns, and near-term 
local plans, to identify this location and to calculate potential 
exposure scenarios. EPA's standards apply at the location outside this 
boundary where radionuclide concentrations in ground water could be 
highest.
    DOE must demonstrate compliance with each of these provisions for a 
period of not less than 10,000 years after disposal. In addition, EPA's 
standard requires that DOE include analyses showing the performance of 
the repository after 10,000 years in its Environmental Impact 
Statement, so that the public will have the full record before it.
    Finally, although DOE must demonstrate compliance with these 
standards to the NRC, EPA recognizes that absolute proof in the 
conventional sense will be impossible to attain for analyses extending 
ten thousand years into the future. Therefore, EPA requires that DOE 
demonstrate a ``reasonable expectation'' that the standards will be 
met. This standard should not be construed as requiring a less rigorous 
or scientific process. It is simply a recognition that there will 
inevitably be significant uncertainties in projecting the performance 
of natural and engineered systems over very long time periods, and that 
these uncertainties must be understood and managed accordingly.
              epa's role now that the standard is complete
    Although EPA's statutory role was complete with the issuance of its 
final standards, it continues to be involved in many of the ongoing 
activities of other agencies. First, EPA is defending its standard in 
court against challenges brought by several parties. EPA has also 
reviewed and provided comment on NRC's licensing requirements for the 
Yucca Mountain repository, DOE's site evaluation guidelines, and DOE's 
Draft, Supplemental, and Final Environmental Impact Statements. EPA is 
currently reviewing NRC's draft Yucca Mountain Review Plan, and plans 
to comment as appropriate. EPA also expects to review DOE's evolving 
plans for transportation, though the selection of transportation modes 
and routes is DOE's responsibility. Finally, EPA continues to receive 
and respond to questions from the public, not only on EPA's standards, 
but on the other repository-related activities listed above.
    Thank you again for the opportunity to appear today before the 
Subcommittee to present the EPA's views. This concludes my prepared 
statement. I would be happy to address any questions that you may have.

    The Chairman. Secretary Card, why don't you go right ahead.

STATEMENT OF ROBERT CARD, UNDER SECRETARY, DEPARTMENT OF ENERGY

    Mr. Card. Sure. Good morning, Mr. Chairman. I am Robert 
Card, Under Secretary of Energy.
    As you know, Secretary Spencer Abraham testified before 
this committee last Thursday. I would ask the committee to 
refer to his written and oral statements and decision document 
which laid out the scientific basis for DOE's recommendation 
and the other compelling reasons to support this project.
    Rather than repeat his testimony, I want to emphasize three 
points. First, what is this vote about? The Department's 
position on the vote facing the Senate is as follows: A ``yes'' 
vote is simply a decision to allow the expert and independent 
Nuclear Regulatory Commission to have the opportunity to rule 
on the safety on the Department's license application. If we 
fail to pass the rigorous and open review by the NRC, then no 
repository will be built.
    A ``no'' vote will indicate that the Senate either rejects 
more than two decades of national policy on creating deep 
geologic repository, or that this site policy is so hopelessly 
flawed that the NRC should be prohibited from ruling on its 
safety.
    A ``no'' vote is not a vote to delay or review or modify 
the proposal. Rather, a ``no'' vote terminates this entire 
process in its tracks, demobilizes the Yucca Mountain project 
and leaves DOE without congressional authorization to pursue 
any other path forward.
    Secondly, transportation: A ``yes'' vote, in DOE's 
interpretation, allows the DOE under NRC and other regulations 
to expand on its already substantial and successful shipping 
campaign to develop and implement a sophisticated shipping 
system to transport this material.
    A ``no'' vote does not stop either the substantial shipping 
taking place today or whatever makeshift and ad hoc shipping 
system that may arise from the actions and decisions of 
individual States and utilities to respond to the problem of 
managing would-be orphaned waste located at 131 sites in 39 
States.
    Thirdly, on capacity: While Congress has chosen to 
initially limit the capacity at Yucca Mountain to 70,000 metric 
tons, there is adequate potential capacity at the site for all 
of the high-level waste likely to be generated by all--and I 
repeat, ``all''--of the current waste sources, even assuming 
reasonable life extensions for the current fleet of nuclear 
powerplants.
    Thank you.
    The Chairman. Well, thank you all for your testimony.
    Let me ask a few questions, and then defer to my colleagues 
here.
    Dr. Cohon, as I understand your position, the position the 
Technical Review Board, you have--you believe or the Board 
believes that the Department of Energy has yet to make a 
convincing case that nuclear waste can safely be buried at 
Yucca Mountain. But you have not found any reason that would 
justify Congress terminating the project at this point.
    You believe that DOE may yet find a convincing case or yet 
may make a convincing case to the Nuclear Regulatory 
Commission. Is that a fair summary of where you come out on 
this, or not?
    Dr. Cohon. It is not unfair, but I cannot give you a clear 
yes. I would like to qualify it a bit, if you do not mind, 
which I am sure you expected.
    The Chairman. Yes.
    Dr. Cohon. We do not use the word ``convincing.'' We talk 
about both the strength of the case and that is what led to the 
phrase ``weak to moderate.''
    And we also talk about confidence. We think that is 
actually a very key concept, both in a technical sense for the 
Board and for policy makers. On that score, we say our 
confidence is low, or low to moderate--I do not want to 
misquote myself from our letter--with regard to the technical 
basis for the estimates that DOE has offered.
    The other part of your question with regard to whether we 
have ruled out or--I forgot exactly your wording--but basically 
whether there are any clearly disqualifying factors, on that 
score we have said no, we have not seen any. No factor that, 
when taken by itself, would clearly rule out Yucca Mountain as 
a suitable repository. This does not exclude, however, a 
combination of factors that policy makers, you, might find that 
taken together would lead you to conclude the site was not 
suitable. So, I hope that that nuance is understood.
    The Chairman. Let me ask if you looked into this issue 
related to safe transportation to the site. Mr. Hall's 
testimony this morning and some of the testimony yesterday went 
to the point that Congress should not allow DOE to continue 
down this road of developing this site or preparing an 
application to get a license to develop this site until we are 
persuaded that a safe system of transportation is developed.
    Did you look at that? Is that something that the Board has 
a view on?
    Dr. Cohon. Transportation is certainly within the Board's 
purview as laid out by Congress. However, the Board is 
basically reactive to DOE. That is, our role is to review work 
that DOE has done. And as you know, to date DOE's focus, quite 
appropriately we believe, has been on the site and less so on 
the transportation system or plan.
    We have reviewed what DOE has done to date. We have also 
reviewed other statements with regard to the safety of 
transportation, for example, NRC's statements on the record and 
find nothing there for us to disagree with.
    The Chairman. Okay. Let me ask: Secretary Card, what is 
your response to the position that Mr. Hall stated which is 
that you folks at DOE should be required to give us a plan for 
how this waste could be safely transported to the site before 
we make any decision to allow you to go ahead and prepare an 
application to license this site?
    Mr. Card. Well, first, let me give a general answer and 
then I will go into specifics. I want to repeat in the general 
answer that transportation is not an issue that is unique to 
this decision before the Senate.
    Waste is shipped today and we believe more will be shipped 
in the future should the Senate vote in favor of this project. 
Or should the Senate not vote in favor of this project, there 
are 131 communities in 39 States and utilities that will seek 
alternate methods to deal with the problem of what could become 
orphaned waste at that time.
    Responding, though, specifically, I would cite the track 
record where we have already shipped, made approximately half 
of the shipments anticipated in this country, over the last 40 
years safely. Europe has already shipped a comparable volume of 
waste safely, as you have heard from other members and 
witnesses, and overseas and with all other modes.
    And to say that we do not have a plan, I would be 
interested to know what they felt a plan would look like. The 
environmental impact statement has fully analyzed a variety of 
routes and options for transportation. You have heard that 
there is a regulatory infrastructure in place. We have just 
recently started up a comparable transportation system for 
WIPP, and it has already safely ensured the shipment of over 
800 shipments, which is 20 percent of the estimated 4,000 
shipments for Yucca Mountain.
    So I think we feel very comfortable with transportation. 
There is obviously a lot of work to do with communities about 
siting and their community preferences for how this would be 
handled. But I would reject the notion that we do not have a 
plan or that we have not thought about this issue.
    The Chairman. Okay. Mr. Holmstead, EPA established 
radiation protection standards for the WIPP project in my 
State, the Waste Isolation Pilot Plant, back in 1998 and 
certified that WIPP would meet those standards. How do the 
standards that you have come up with for Yucca Mountain compare 
to those WIPP standards?
    Mr. Holmstead. The standards for the two different 
repositories are essentially the same. They are--I think the 
key parts that people have focused on appropriately are the 
total allowable exposure which is 15 millirem. That is exactly 
the same. The 10,000-year time frame is also the same, and as 
is the idea that we would need a separate groundwater 
protection standard. So in that respect, they are exactly the 
same.
    We have also used the concept that we should be addressing 
the--we should be effectively evaluating these standards at the 
point at which we can possibly foresee any human habitation.
    With respect to the site in your State, I believe that that 
location is something like about 3 kilometers from the actual 
repository. In the Nevada site, that is slightly farther away 
because this site is on the Nevada test range, as you know, 
where we think it is highly unlikely there would be any human 
habitation. And so the compliance point is slightly farther 
away. I think it is about 18 kilometers.
    But in all key respects, they are exactly the same.
    The Chairman. Okay. Dr. Cohon, let me ask you one other 
question here. Are you familiar with the international peer 
review of Yucca Mountain that was performed by the 
International Atomic Energy Agency and the Organization for 
Economic Cooperation and Development?
    Dr. Cohon. Yes, sir.
    The Chairman. That review concluded that, while DOE needs 
to do more to increase confidence in its performance 
assessment, overall DOE has provided an adequate basis for the 
site recommendation decision. How does the evaluation of your 
technical review board jibe with this international peer 
review's assessment?
    Dr. Cohon. We actually agree much more than your question 
implies. And I think the level of agreement depends also on how 
one interprets the statements by that peer review panel.
    A key point on which we agree--and I think it is the 
central point made by that peer review panel--is that the total 
system performance assessment as a tool is a good one for 
estimating performance at Yucca Mountain. That was their key 
point.
    Whether or not the technical basis, that is, the results of 
applying that tool, is strong enough and provides sufficient 
confidence to support a decision about Yucca Mountain, that is 
something that we have spoken about. I do not know that the 
peer review really spoke to that.
    If they believe--well, we are on record as saying, and I 
have repeated it today, in our view, that technical basis is 
weak to moderate. And we have relatively low confidence.
    But again, with regard to the use of such a tool, we agree 
with the peer review panel. It is completely appropriate.
    The Chairman. Okay.
    Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman. I 
apologize for not being here for everyone's testimony. I have 
been to the last couple of hearings, but there was another one 
this morning that I needed to participate in.
    Secretary Card, let me focus on you for all of my 
questions, and I will read the rest of your testimony. And I 
say that to all of the panelists, because I did have a 
question, as it related to the testimony of Mr. Hill, but I--or 
Hall, but I think that has been answered.
    I think the chairman asked that question, as it related to 
a criticism leveled at the Secretary for not having a plan and 
the reality of when plans come and how they get handled. And 
so, instead of asking that question, Bob, let me ask this 
question and go back to your experience at Rocky Flats, because 
I think that is important for the record to understand that the 
DOE has been in the business of moving high-level and low-level 
waste or materials around this country for a good, long while.
    And, of course, you came to us from Rocky Flats, where you 
were involved in a major cleanup of that facility. It is 
probably one of those areas of EM or Environmental Management 
that we like to point out as a success story, as it relates to 
how it was operated and the cleanup process that you were very 
much involved in.
    You have been handed a map, which was provided to Congress 
during a briefing last month, on the status of the Rock Flats 
cleanup. What this chart shows--I wish I had a blowup for the 
audience and for the committee--is the many off-site shipments 
that have been and will be necessary in the completing of the 
cleanup of Rocky Flats.
    What this map demonstrates to me is the necessary role of 
nuclear waste transportation and how it is played out and 
continues to be played out in DOE's Environmental Management 
Program, because part of the argument here is ``Leave it in 
place, leave it in place, leave it in place.'' And if you are 
going to clean up, you cannot leave things in place. And we 
have known that throughout time and with the EM Program we have 
had going through DOE.
    I see by the WIPP figures--and that is the Waste Isolation 
Pilot Project that the chairman referred to in his State at 
Carlsbad and, of course, I have focused on that for years, 
because of the low-level transuranic waste moving now from 
Idaho's INEEL to WIPP some 279 shipments as of May 20.
    But in Rocky Flats--let us talk about the map in front of 
you. And I think the chairman and Senator Ensign have that map. 
In the Rocky Flats Environmental Technology Site, some 514 
shipments have gone to WIPP, alone. And by definition of WIPP's 
capabilities, that is low-level. But there are shipments to 
Hanford and shipments to Envirocare in Utah and Nevada Test 
Site and Lawrence Livermore and Los Alamos and Pantex and Oak 
Ridge and Savannah, and some of that was high-level.
    Could you bring us up to speed, with your experience there, 
how all of that transportation plan was developed and when that 
plan came to place, how it was managed, how it is managed, the 
security involved in it, and which came first--the idea of 
cleanup and the cleanup plan, or the transportation plan--and 
how all of that fits together? Because part of the criticism 
here is the plan before the licensing, if you will. And yet, I 
see those kinds of things going hand-in-glove.
    Most importantly, while I do not, in any way, belittle 
concern over transportation, I have known the issue well enough 
over the years not to fear it, but I think, for the record, it 
is important to demonstrate, as I think you can, where we are 
going, what we have been doing, and what we can do, as it 
relates to transportation of waste.
    Mr. Card. Sure. Well, as you point out, there--hundreds to 
thousands of shipments have taken place from Rocky Flats; 
everything from final weapons components to weapons parts to 
transuranic waste, low-level waste, mixed waste, hazardous 
waste, et cetera. It would probably be most instructive, and to 
the point of your question, to focus on the Rocky Flats to WIPP 
example.
    WIPP, as you know, is the first geologic repository. We 
already have one in this country. The WIPP site was selected 
before there was the Transportation Plan that has been referred 
to here. That Transportation Plan-- I think that project was 
selected in 1988 time frame--I mean, there were studies done in 
the eighties on it. Transportation, and many of items that are 
being discussed here at this hearing by the various witnesses, 
were largely done in the last 2 or 3 years of that project. And 
the kind of work done is that the first responders were 
trained; in the States, the governors were provided the 
opportunity to designate routes.
    I remember, in Colorado, where I was at the time, that was 
an interesting process, as people realized just how much stuff 
is moving through their State, regardless of whether there is a 
WIPP or not a WIPP. And that, interestingly, became the focus 
of the issue.
    The same sorts of Armageddon results were predicted for the 
WIPP system. We have completed--successfully completed, as 
mentioned before, 800 shipments so far. And for Rocky Flats, of 
course, the decision was made by President Clinton to shut down 
Rocky Flats. I do not think anything was thought of 
transportation at the time that decision was made. And I do not 
think that it necessarily needed to be.
    Senator Craig. And the shutdown was not for a purpose of 
just locking the doors. It was for a purpose of shutdown and 
cleanup. Was it not?
    Mr. Card. Right. It was basically load the site up into 
drums and containers, and ship it to all of these locations 
that you have discussed. That is, in essence, what the project 
is.
    We had to develop the transportation strategies to deal 
with that. And, again, they worked out successfully without a 
single significant transportation incident in all of that 
experience.
    So, it seems to me a bit ``chicken and eggs.'' Since we 
have an extensive amount of shipping already in the United 
States and worldwide, you would have to argue, we must either 
have a system, or we are all derelict in some way now, whether 
or not there is a Yucca Mountain.
    It would seem appropriate, the norm of the commercial 
industry, where I came from, is you pick where you want 
something to go, and then you figure out how to get it there. 
And I do not know how you would come up with a siting decision, 
if you had to evaluate every conceivable transportation route 
for every conceivable place this stuff might go, before you 
picked anywhere for it to go. And so, we do not think this is 
out of step at all.
    Again, the kind of work that needs to be done, as we 
already have a shipping system, is largely routing, responder 
training along new routes--there is already responder training 
on existing routes--giving stakeholders, Governors and others 
the opportunity to comment on routing, time of day, other 
things that they're concerned about, and building a system like 
we have at WIPP, which I think the Western States and Southern 
States, through which transuranic shipments are made, are 
pretty darned happy with.
    Senator Craig. Well, thank you very much. I think you have 
expressed well my concerns and the fact that we have 
substantial quantities of material moving now, both in the 
high-level and low-level category, and that they do not move at 
random. They move with plan and organization and designed 
containers and all of that.
    I have watched, Mr. Chairman, with great interest, the 
protocol involved in the movement of substantial quantities of 
transuranic out of Idaho to your State, and the containers, the 
trucks, the designs, the GPS, the strategies of walk-through, 
all of it over time, to see a highly sophisticated system in 
place that clearly has gone without incident. And that is to 
the credit of the plan and the organization, the protocol and 
the execution of it.
    Bob, thank you very much.
    Mr. Chairman, thank you.
    The Chairman. Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman.
    I want to focus a little bit on the--Dr. Cohon, the high 
temperature versus low temperature. Could you just briefly 
describe the difference between a high temperature versus low 
temperature inside Yucca Mountain?
    Dr. Cohon. Certainly. First, let me explain why the board 
has focused on this and paid so much attention to it. A key 
element of the repository system and its projected performance 
is the performance of the waste packages within which the waste 
would be placed. Those packages are made out of a thicker alloy 
that seems to be very tough and corrosion resistant. Just how 
it performs will depend very much on the kind of environment it 
sees inside the tunnels, such as the temperature and moisture 
and the chemistry of the water or water vapor.
    Therefore, the temperature is directly important, in terms 
of influencing the corrosion behavior of the waste. It is 
additionally important in influencing how water moves through 
the mountain; that is, if the repository is above boiling, that 
suggests that water will be in the form of steam and will move 
and be mobilized away from the tunnels where the waste is.
    Temperature, in this sense, is a complicating factor; that 
is, it makes it harder to predict how water will move, how much 
water will be present, and how the metals will perform.
    The Chairman. Could you just describe the design, just in 
simple lay----
    Dr. Cohon. Yes. I am sorry.
    Senator Ensign [continuing]. Person's terms, the difference 
between high temperature and low temperature.
    Dr. Cohon. That was a very long preface. I apologize for 
that.
    Senator Ensign. No problem.
    Dr. Cohon. I will do so, but I will invite Secretary Card 
to correct or to add.
    The thing about the design, which includes the temperature, 
is how densely placed the waste is, as well as the age of 
waste, and therefore, its temperature when it is placed inside 
the mountain. But the most important thing is the spacing. When 
it is close together, you get higher temperatures. When it is 
farther apart, you get relatively lower temperatures.
    The two choices here, though--you can look at many others--
DOE could look at many others--are the so-called base-case 
design, where it is estimated that the packages will see 
temperatures of up to 160 degrees centigrade, and then cooling 
over time, versus the cooler operating mode, where the 
temperatures would be maintained below, I believe, 85 degrees 
centigrade. Is that right?
    Senator Ensign. One of the reasons I asked the question is 
because yesterday Victor Gilinsky talked about--and I do not 
know if he was exactly talking about the high temperature 
versus the low temperature inside the mountain, but he 
commented that in the first 40 to 50 years, these nuclear waste 
rods cool during that period of time, because some of the 
nucleotides have shorter half-lives, and some of the ones that 
generate a lot of the heat have shorter half-lives. And if it 
was going to be a low temperature, one of the things that you 
could do is, if you do not ship it for 40 to 50 years, or if 
you keep it above ground for 40 to 50 years, obviously, you do 
not have to put these things as far apart. Is that correct?
    Dr. Cohon. That is correct.
    Senator Ensign. The reason that I wanted to follow that up, 
Ms. Jones, is--the GAO has commented a lot about the costs of 
the project. You said, when was it, back in 1997 that the DOE 
quit using their--I do not remember the exact term--cost 
baseline of how they were evaluating the project, and you want 
them--you have encouraged them to go back to using or to come 
up with a cost baseline.
    Ms. Jones. That is correct, Senator.
    Senator Ensign. I think that the important part of this is 
that right now the latest cost estimate was about $58 billion. 
And that is dramatically increased from 1995, when it was 
somewhere in the thirties, mid $30 billion range. Two years 
later, it was--or a few years later, it was in the mid $40 
billion range. And now we are at--a couple of years after that, 
we are in the high $50 billion range.
    The low temperature dramatically increases the cost. Is 
that my understanding? DOE can comment, if that is not the 
case. It would seem--obviously, common sense to make--to be 
common sense if you have to go to the low temperature design, 
the costs would dramatically increase.
    Mr. Card. Okay. Well, first of all, I will answer that 
question, but I would like to point out that the Nuclear Waste 
Fund, funded by the rate payers of one of the lowest cost power 
sources in the country, is adequate to construct this project.
    DOE conducted a formal and published periodic review of the 
fund in May 2001 and certified the fund adequacy.
    Senator Ensign. Does that include the total life cycle?
    Mr. Card. Yes, it does.
    Senator Ensign. And transportation?
    Mr. Card. Yes, it does. And, now, let me respond to your 
specific question.
    Senator Ensign. Before you go off of there, at what cost 
estimate does that work out?
    Mr. Card. I believe that was at $56 billion.
    Senator Ensign. $56 billion. What if it goes to $75 billion 
or $100 billion?
    Mr. Card. Well, I do not want to speculate. I would be glad 
to provide you a series of curves on the record, if you would 
like; however----
    Senator Ensign. Well, the reason I ask that is because if 
it is in the mid-$30 billions, just in 1995, and then it went 
to the mid-$40 billions in the later nineties, and now in 2001 
it is at $58 billion, I mean, how accurate are our estimates? I 
mean, it does not sound to me like they are going to be that 
accurate.
    Mr. Card. Can I answer that? I am comfortable that the cost 
estimates are conservative. We experienced the same issues at 
WIPP. In the planning stages, a number of conservatisms were 
introduced to--to know, everybody got to pick their favorite 
conservatism, and they were all added together.
    I am confident these costs can actually be reduced, not 
increased, from the repository. Of course, if you went to a 
cold design--and by the way, DOE continues to carry the cold 
design option, and we will until it is apparent that that is 
not necessary anymore. Obviously, the costs would be greater, 
but I am not prepared----
    Senator Ensign. Do you have any estimate of those costs?
    Mr. Card. Well, I am not prepared to say they would be 
greater than $56 billion, because I personally--I have managed 
projects, personally, at this scale before. And based on the 
reviews I have done over the last year, since I have been 
confirmed, I am not convinced that the costs are $56 billion to 
start with.
    Senator Ensign. Okay. Were the people at DOE comfortable, 
in 1995, with the cost estimates?
    Mr. Card. I was not here on the project in 1995.
    Senator Ensign. You imagine they were probably pretty 
comfortable with them, though.
    Mr. Card. I cannot speak for them.
    Senator Ensign. They probably would not have put them out 
if they were not comfortable with them, would be my guess.
    Mr. Card. That would be your presumption. I don't know.
    Senator Ensign. That would be, I think, a pretty good 
presumption. Probably, in 1999, they were comfortable with the 
mid-$40 billions on a cost estimate. You do not usually put out 
numbers that you are not comfortable with. I mean, you usually 
are--you know, because nobody likes to come back and say, ``Why 
are your numbers so bad?'' I mean, nobody likes to experience 
that. And, frankly, the numbers have been horrendous. And I 
would be curious to see what they are in another two years from 
now, especially if we have to go with the cool temperatures.
    The bottom line, to me, is that this thing has just been--
the costs are just so outrageous. The most expensive 
construction project in the history of the world. And for 
what--for something that I believe is completely unnecessary, 
because onsite dry cask storage has been shown to be effective. 
And I would like to see us put more of that money, instead of 
building Yucca Mountain, into the research in some of these 
alternatives of recycling and some of the modern technologies. 
That is my own personal--as a policy maker up here, where I 
would rather see the money go.
    Ms. Jones, would you like to comment on the costs? I know 
that GAO is--that is part of the responsibility.
    Ms. Jones. The one comment I would like to make on the 
costs, Senator, is that in the bottoms-up approach that the 
contractor took as the basis for their report at the end of 
2001, that estimated license application in 2006, there were no 
contingencies built into that, either for cost or schedule.
    Now the contractor is trying to compress that time frame 
down to 2004. There is still no cost or schedule contingencies. 
So, I think that is very, very risky for a first-of-kind 
project, when you are in the design phase and you are still 
doing research.
    Senator Ensign. So, based on what Mr. Card has said, I 
mean, how confident are you in those numbers?
    Ms. Jones. I think I would like to wait and see DOE's 
approval of Bechtel's proposal, and see if they are going to be 
adding contingency factors in. If they do add contingency 
factors in, I would imagine that it is going to increase the 
costs.
    Senator Ensign. Okay. Thank you, Mr. Chairman.
    Mr. Card. Mr. Chairman, can I just make a comment on that?
    The Chairman. Go right ahead.
    Mr. Card. As I have said, I believe we can meet the 
schedules for 2004 for the license application, and 2010 for 
the initial operations. And I would just pose two rhetorical 
questions for this issue.
    Regarding the start date and costs. For what predicted 
start date does the Senate think is so late that they should 
kill this project now and switch to an, as yet, unbounded 
alternative that has not had anywhere near the study, 
consideration and investment as this project?
    And second, what body of evidence does the Senate think 
would be appropriate to have accumulated before making such a 
momentous decision on either schedule or costs?
    And I would assert, from DOE's position, that we have an 
adequate handle on the schedule and costs to move forward at 
this point.
    The Chairman. Okay. Any other comment from any of the 
witnesses? If not, why do we not conclude the hearing? I think 
the testimony has been useful.
    And let me mention, there are four additional statements we 
will include in the record.* One is a letter from Charles 
Groat, the Director of the U.S. Geological Survey to Robert 
Card, dated October 4, 2001, related to the geology of the 
Yucca Mountain site.
---------------------------------------------------------------------------
    * Can be found in the appendix.
---------------------------------------------------------------------------
    Second is a statement from Ellen Engleman, the 
Administrator of Research and Special Programs Administration 
at the U.S. Department of Transportation, related to the safe 
transportation of nuclear waste.
    Third is a statement from Allan Rutter, who is the 
Administrator of the Federal Railroad Administration in the 
Department of Transportation, related to the transportation of 
nuclear waste by rail.
    And fourth is a statement from the National Association of 
Regulatory Utility Commissioners in support of the President's 
recommendation of Yucca Mountain as a site.
    That will conclude the hearing, and we will adjourn.
    [Whereupon, at 11:52 a.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

   Responses of Secretary Abraham to Questions From Senator Landrieu
              transportation of transuranic waste to wipp
    Question 1. Mr. Secretary, there were many concerns raised during 
the approval process of the Waste Isolation Pilot Plant (WIPP) 
regarding the safe transportation of transuranic waste from our 
national weapons complex to New Mexico--could you tell me how that 
program has progressed so far in terms of transportation issues?
    Answer. The Waste Isolation Pilot Plant (WIPP) is recognized for 
the extensive safety programs incorporated into every aspect of this 
facility's operation, including the safety of the system used to 
transport transuranic waste over our highways to WIPP. As of the end of 
May 2002, the Department has made about 870 shipments, constituting 1.7 
million miles, without a safety incident. This record represents one of 
the safest hazardous materials transportation systems on the Nation's 
highways today.
    This safety record is the result of a multi-faceted approach to the 
transportation of transuranic waste to WIPP. DOE developed 
transportation protocols to provide for the safe and uneventful 
transportation of waste to WIPP. The protocols establish organizational 
responsibilities, carrier responsibilities, shipment schedules, route 
maps, emergency plans and contacts, communication strategies, packaging 
information, and agreements that will be followed over the course of a 
shipping campaign.
    Transuranic waste is transported in Nuclear Regulatory Commission 
(NRC)-certified transportation containers, TRUPACT-IIs. The 
transportation routes to WIPP have been negotiated with States and 
tribal governments in accordance with guidelines established by the 
U.S. Department of Transportation for the movement of radioactive 
material.
    The ultimate safety of the transportation system resides with the 
people who move the waste to WIPP. WIPP has contracted with two 
carriers that provide dedicated drivers and trucks to transport TRU 
waste to WIPP. Prior to hiring a driver, each carrier performs a 
background check to ensure applicants have no criminal history and have 
a good driving record; the New Mexico State Police performs an 
independent check as well. In addition, each WIPP driver must attend 
the same emergency response courses offered to firefighters, law 
enforcement personnel, and the ambulance crews and other emergency 
response personnel along the WIPP transportation routes. They are among 
the safest, most highly trained drivers on America's highways. The 
trucks are also inspected by Commercial Vehicle Safety Alliance (CVSA)-
certified State inspectors, and periodic audits are performed on the 
contract carriers. All WIPP waste shipments receive a CVSA Level VI 
Enhanced inspection (the most rigorous) at the point of origin and are 
defect-free prior to dispatch. Some States elect to perform re-
inspections at their ports-of-entry.
    The WIPP Land Withdrawal Act requires that DOE ``provide advance 
notification to states and Indian tribes through whose jurisdiction the 
Secretary plans to transport transuranic waste to or from WIPP.'' The 
Department met this requirement by developing a transportation tracking 
and communications system to be used for shipments of radioactive 
materials and high-visibility shipping campaigns, as specified by DOE. 
The Transportation Tracking and Communications (TRANSCOM) satellite 
tracking system, which is also accessible to States, has been in 
operation since 1989.
    Communication between the TRANSCOM Control Center and WIPP drivers 
provides a constant source of information about changing weather 
conditions or any abnormal event that might occur. Safe parking areas 
are designated for use during inclement weather. Tractors are also 
equipped with backup communication capabilities. Emergency responders 
along the WIPP routes are trained to respond quickly and effectively to 
accidents. DOE also coordinates with the States on emergency response 
plans and procedures as part of the transportation planning process.
                  approving the site at yucca mountain
    Question 2. Though the recent U.S. General Accounting Report (GAO) 
report focused on the next step in Nuclear Waste Policy Act (NWPA) that 
is the licensing process vs. the current step we are here to discuss 
(site recommendation)--do you anticipate any potential show-stoppers in 
the 293 items as identified in the report?
    Answer. No, these are not showstoppers. These are technical studies 
and steps on the way to licensing. They are a checklist of items agreed 
to by the Nuclear Regulatory Commission (NRC) and the Department of 
Energy (DOE) to provide additional information related to nine key 
technical issues. NRC has issued a sufficiency letter (required by the 
Nuclear Waste Policy Act) stating its belief that DOE has obtained or 
has agreed to obtain the additional information needed for a license 
application. In fact, NRC has already formally closed 44 issues and 
about a third of the total should be closed by the end of September. 
The remainder will be addressed by the time of license application, 
planned for the end of 2004.
    Responses of Secretary Abraham to Questions From Senator Thomas
              radioactive waste shipments through wyoming
    Question 1. Could you tell me how many shipments will travel across 
Wyoming, say per week? Will it be by rail or truck?
    Answeer. According to the Environmental Impact Statement for the 
Yucca Mountain repository, under the mostly rail scenario, 2-3 rail 
shipments per week (assuming 3 casks per train) and 3-4 truck shipments 
per month would travel across Wyoming.
    Question 2. Will the Governor or appropriate state officials be 
notified upon each shipment?
    Answer. The Department will provide advance notification in writing 
to the Governor or the Governor's designee. The notification will be 
postmarked at least seven days before the scheduled shipment. In 
addition to the required formal notification, the Department intends to 
provide oral or written notification to the Governor or designated 
point of contact so that the information is received at least seven 
working days prior to actual shipment.
    Question 3. Approval of Yucca aside, how many shipments currently 
cross the State of Wyoming?
    Answer. Since 1982, the Department of Energy has made 213 spent 
nuclear fuel cask-shipments by highway and 21 shipments by rail through 
the State of Wyoming. In addition, over the past 45 years, the Naval 
Nuclear Propulsion Program has safely shipped a total of 739 containers 
of spent nuclear fuel without injury to members of the public or 
harmful releases of radioactivity. These containers have traveled over 
1.5 million miles with spent nuclear fuel sealed inside of them. About 
450 of these containers have gone through Wyoming during those 45 
years.
    Question 4. Mr. Secretary, what commitment or assurances will you 
give me that your Department will work with the Delegation and our 
Governor to ensure that the people of Wyoming are fully informed as to 
the status of shipments within Wyoming's boarders?
    Answer. The Department fully intends to work with the Governor and 
whomever else is designated regarding the status of radioactive 
shipments across and within Wyoming's borders. The Department expects 
to use an approach to interacting and communicating with States and 
Tribes similar to that used during the successful program for shipping 
radioactive waste to the Waste Isolation Pilot Plant in New Mexico.
    Responses of Secretary Abraham to Questions From Senator Bennett
                      private fuel storage efforts
    Question 1. In your testimony you mentioned your concerns that 
private efforts, like the Goshute Indians in Utah, to store spent fuel 
were not in the best interest of our nation. Would you please clarify 
your remark?
    Answer. As I have said previously, failure to proceed with a 
repository at Yucca Mountain likely will result in makeshift private 
alternatives for consolidated off-reactor site storage. As a result, 
spent fuel will end up being transported somewhere, regardless of 
whether Yucca Mountain proceeds. That being the case, it seems 
preferable for spent fuel transportation to occur by the federal 
government in the structure specified by the Nuclear Waste Policy Act 
rather than pursuant to ad hoc private arrangements.
     Responses of Secretary Abraham to Questions From Senator Craig
                    transportation of nuclear waste
    Please provide responses to the following statements regarding 
transportation of nuclear waste, which were made by Jim Hall, Former 
Chairman of the National Transportation Safety Board, during the 
Committee's May 23 hearing:
    Statement 1. ``There is no plan, or even answers to basic 
questions.''
    Response. In point of fact, for over 30 years there have not only 
been plans for moving nuclear materials, but over that period we have 
successfully shipped nuclear waste without a single harmful release of 
radioactive materials. Over 2,700 shipments have occurred in this 
country, and over 70,000 metric tons have been transported in Europe. 
We know what has to be done to transport spent fuel in a safe manner, 
and we have established an impressive safety record.
    If Congress designates the Yucca Mountain site, detailed planning 
for shipments--much of which is dependent on a site designation--will 
begin about five years before the shipments commence. This planning 
includes the finalization of shipping routes, the provision of funding 
for training of first responders, and other technical assistance. As an 
example, DOE has provided approximately $30 million in training along 
routes to prepare for the shipments of radioactive waste to the Waste 
Isolation Pilot Plant (WIPP) near Carlsbad, New Mexico. Since 1988, 
WIPP has trained nearly 24,000 State and Tribal first responders and 
emergency medical personnel in 22 States.
    Transportation to Yucca Mountain would not begin until 2010, and 
would last for 24 years. It is presumptuous to believe that there will 
be a single ``Plan'' that will address all aspects of transportation 
for the entire period. In conducting any transportation to Yucca 
Mountain, the Department expects to be responsive to evolving 
conditions, the changing needs of our stakeholders and customers, as 
well as advances in technology.
    The Yucca Mountain final environmental impact statement (FEIS) 
evaluated the potential impacts of transportation of spent fuel to 
Yucca Mountain under a variety of possible scenarios under which we may 
operate, to ensure that these potential impacts are fully understood. 
It is the Department's intent to work with our stakeholders, including 
States, Tribes and utilities, to ensure that the spent fuel is 
transported in a safe and secure manner.
    Statement 2. ``The DOE does not even support the use of dedicated 
trains, which would greatly enhance safety and security, in my 
opinion.''
    Response. The Department does not oppose the use of dedicated 
trains, and has not yet made a determination whether it will require 
the use of dedicated trains for shipments to Yucca Mountain. The 
Department of Transportation has been tasked by Congress to evaluate 
the use of dedicated trains; they currently expect to complete this 
study later this year. DOE will review the results of this study, along 
with input from our stakeholders, prior to making any determination on 
the use of dedicated trains for the transport of spent nuclear fuel.
    I would, however, like to re-emphasize my confidence in the safety 
of nuclear shipments. The Nation's outstanding and lengthy track 
record, the careful precautions taken, and the strict regulatory 
oversight to which these shipments are subject provide a sound basis 
for confidence in our ability to transport safely nuclear materials, 
either by the use of dedicated trains or in general freight.
    Statement 3. ``According to a letter to Congress from the NRC, 
there have been no full-scale tests on casks that will be carrying 
high-level nuclear waste.''
    Response. I believe the letter referred to in this statement was 
one of two pieces of correspondence that responded to a letter from 
Senator Reid dated March 12, 2002.
    In this correspondence (Commission letter to Senator Reid, April 
24, 2002), Chairman Meserve of the NRC also noted that ``casks are not 
complicated structures and that the physics and mechanical properties 
of the casks under accident conditions can be accurately predicted by 
scale model testing and computer analysis.'' That letter went on to 
state that the NRC is ``considering certain full-scale cask testing in 
order to contribute to public confidence in transportation casks,'' and 
conveyed the Commission's intent to ``include a request for NRC's share 
of the funding'' for full-scale tests in its 2004 budget request. The 
Department supports the NRC's effort on full scale testing.
    NRC regulations require that cask designs be shown to perform 
radiological safety functions under normal and accident conditions of 
transport. These safety demonstrations can be done in several ways that 
include analysis and testing. Furthermore, testing may include full and 
part scale model tests, and component tests. For casks, which are 
robust and designed with large safety margins, a combination of 
computer analysis, component tests, and scale model tests are generally 
sufficient to demonstrate safety for NRC certification. Although full-
scale testing of casks are not generally performed for NRC 
certification, studies performed for NRC in 1987 and 2000 (NUREG/CR-
4829 and NUREG/CR-6672) have shown the adequacy of the NRC 
certification process.
    Statement 4. ``. . . the DOE estimates there will be over 66 truck 
accidents and 10 rail accidents over the first 24 years--Whatever the 
number, the fact is that one accident resulting in radioactive release 
will have long-term devastating results.''
    Response. All aspects of the Yucca Mountain project are being 
conducted with a view toward having zero accidents; transportation will 
be conducted in the same manner.
    The above accident numbers were taken from the Yucca Mountain Final 
Environmental Impact Statement (FEIS), and are statistical projections 
of vehicle accidents, including minor collisions with other vehicles. 
The statistical projections do not mean that we expect these accidents 
to occur, or that they would result in any breach of a cask or release 
of material if they did occur. Furthermore, the FEIS transportation 
risk analysis used general transportation accident statistics. As such, 
the statistics used did not reflect the exemplary record of the 
movement of nuclear materials over the past 30 years. For example, the 
Department's recent WIPP transportation experience shows that over 800 
shipments were moved safely over 850,000 miles.
    Studies by the NRC have concluded there would be no release of 
radioactive materials in approximately 99.99% of all accidents. The 
comprehensive analysis in the FEIS indicates that even if there were a 
radioactive release, the results would not be considered 
``devastating'' and would be easily mitigated.
    In the Yucca Mountain FEIS, DOE described a maximum reasonably 
foreseeable accident for the mostly rail scenario that would involve a 
release of a fraction of the contents of a rail cask in an urban area 
under stable meteorological conditions. The accident scenario would 
have a likelihood of about 2.8 in 10 million, per year. In general 
however, in the highly unlikely event of a cask breach as a result of 
an accident, it is anticipated that the amount of radioactive material 
released would be small and the consequences easily mitigated. Please 
note that spent fuel is solid in form and cannot spill like a liquid. 
It is not flammable, and is not explosive.
    Statement 5. ``We know that transporting nuclear waste is a hazard, 
and we need a full risk assessment of transporting nuclear waste.''
    Response. DOE has performed an extensive assessment of the risks of 
shipping spent fuel and high-level radioactive waste to Yucca Mountain 
in the FEIS. The Department believes that the FEIS considered bounding 
scenarios that adequately envelop the risks of anticipated activities. 
As stated above, the transportation of spent nuclear fuel is not a new 
activity. The requirements for safe transport and the risks of 
transport are well understood.
    Beyond the above, due to the events of September 11, 2001, DOE, NRC 
and other agencies are presently undertaking a top to bottom review of 
their nuclear security and safeguards practices, including those 
governing the transport of spent nuclear fuel and high-level 
radioactive waste. DOE stands ready to follow the NRC lead regarding 
any changes to NRC transport regulations that the NRC may implement as 
a result of its review.
    I am confident that these reviews, and likely several that have not 
yet been conceived or initiated, will be completed and results 
implemented prior to any shipping of materials to a repository at Yucca 
Mountain. As has been stated in earlier testimony, the Department 
projects shipments to begin in 2010--8 years from now--which will allow 
for an exhaustive review of matters unique to these shipments.
                                 ______
                                 
     Response of Chairman Meserve to Question From Senator Landrieu
    Question. ``Based on NBC's technical reviews and pre-licensing 
interactions with DOE, do you anticipate any key technical issues 
pertaining to:
          a) expected lifetime of engineered barriers;
          b) physical properties of site;
          c) supporting information on mathematical models
to significantly delay DOE's license application to the NRC?''
    Answer. If Congress approves the Yucca Mountain site, DOE has 
indicated that it expects to submit a license application in December 
2004.
    Although significant additional work is needed prior to the 
submission of a possible license application, we believe that the 293 
agreements reached between DOE and NRC staff during public meetings 
regarding the collection of additional information provide the basis 
for concluding that development of an acceptable license application is 
achievable. Based on the existing schedule for addressing issues 
contained in these agreements, NRC does not expect a delay in the 
license application to result from DOE addressing these issues.
    However, it should also be noted that DOE is exploring a flexible 
design concept to allow for the possibility of operating the repository 
over a range of thermal conditions. For example, if DOE were to adopt a 
lower temperature operating mode, NRC believes that additional 
information would be needed for a potential license application.
                                 ______
                                 
                 U.S. Nuclear Waste Technical Review Board,
                                       Arlington, VA, May 31, 2002.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman: Thank you very much for the opportunity to 
present the views of the Nuclear Waste Technical Review Board at the 
hearing of the Committee on Enemy and Natural Resources on May 23, 
2002. Following up on issues raised during the hearing, the Committee 
sent questions to the Board on May 29, 2002. Enclosed are the Board's 
responses to those questions.
    As you know, the Board is charged by Congress with conducting an 
ongoing and independent review of the technical and scientific validity 
of activities undertaken by the Secretary of Energy associated with the 
management of the country's commercial spent nuclear fuel and defense 
high-level radioactive waste. The Board provides its technical views to 
help inform policy-makers as they deliberate on issues that face the 
Department of Energy related to nuclear waste disposal.
    Please do not hesitate to contact me or have your staff contact 
Bill Barnard, the Board's executive director, if you have questions 
related to the Board's responses or any other issue related to the 
Board's technical and scientific review.
            Sincerely,
                                            Jared L. Cohon,
                                                          Chairman.
  Responses to Questions Asked by the Senate Committee on Energy and 
                           Natural Resources
    Question. Could you further explain what you meant in your 
testimony about ``gaps in data and basic understanding cause important 
uncertainties in . . . DOE's performance estimates''?
    Answer. Gaps in data and basic understanding exist in a number of 
areas including: the hydraulic properties of faults and other 
significant rock-mass discontinuities at Yucca Mountain; thermal, 
hydrologic, and mechanical characteristics of the repository rock 
formations (especially thermal conductivity); the properties of the in-
drift environment; fundamental mechanisms underlying long-term 
corrosion and passive-film behavior; the chemical composition of salt 
solutions on the waste package surface that could promote corrosion; 
colloid formation and dissolution; modeling of rock-matrix diffusion 
and radionuclide transport in the drift shadow; oxidation-reduction 
conditions in the saturated zone; and consequences of igneous activity. 
Because of the cumulative effect of these and other uncertainties, the 
Board has limited confidence in current estimates of repository 
performance generated by the DOE's performance assessment model. 
Increased understanding in these key areas could show that components 
of the repository system perform better than or not as well as the 
DOE's performance assessment model now projects.
    Question. Based on the International Atomic Energy Agency's (IAEA) 
assertion that the modeling already incorporates many conservatisms, do 
you believe that many of the uncertainties in the performance estimates 
may already be well within an acceptable risk range?
    Answer. Although the IAEA peer review group pointed out a number of 
conservatisms, it also mentioned a number of potential non-
conservatisms and areas where additional data are required to achieve 
an increased level of understanding and confidence. More specifically, 
in the Board's view, the DOE's current performance estimates for Yucca 
Mountain are based on a mix of conservative, realistic, and non-
conservative models and assumptions. This mix and the gaps in data and 
basic understanding, such as those mentioned above, make it very 
difficult to estimate what the ``true'' overall level of uncertainty is 
and whether or not this uncertainty lies within an acceptable range of 
risk. So that policy-makers can determine whether the risks and 
associated uncertainties are acceptable, the Board has recommended that 
meaningful quantification of conservatisms and uncertainties be a high 
priority for the DOE.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

               U.S. Department of the Interior,    
                             U.S. Geological Survey
                                    Office of the Director,
                                       Reston, VA, October 4, 2001.
Mr. Robert G. Card,
Under Secretary, Energy, Science and Environment, U.S. Department of 
        Energy, Washington, DC.
    Dear Mr. Card: This letter summarizes the position of the U.S. 
Geological Survey (USGS) relative to the current state of scientific 
knowledge about the Yucca Mountain site to help the Secretary of Energy 
decide whether to recommend the site for development as a spent nuclear 
fuel and high-level radioactive waste repository. The USGS is 
commenting within the scope of our Earth science expertise and is 
neutral regarding other information the Secretary may consider.
    Earth scientists, many from the USGS, have long played an active 
role in studying the challenge of nuclear waste disposal. The 
conclusion drawn from these studies is that geologic disposal remains 
the only long-term approach for dealing with long-lived radioactive 
waste. Further, the USGS believes that the scientific work performed to 
date supports a decision to recommend Yucca Mountain for development as 
a nuclear waste repository. This position is based upon our 
understanding of the inherent natural attributes of the site as 
determined through extensive studies and takes into account the ability 
of the site to support waste retrieval long into the future. In 
addition to the positive attributes of the site, there is no feature or 
characteristic of the site that would preclude recommending the site. 
However, even after site recommendation, additional studies need to be 
performed, and there are some specific aspects of the proposed design 
that the USGS believes should be part of any final design.
    Physical assets of the site include its relatively uncomplicated 
geology; the lack of economic mineral or energy deposits; the ease of 
excavating stable tunnels; the arid climate; the very low rate of 
infiltration of precipitation into the subsurface; the small percentage 
of infiltrating water that could actually seep into subsurface drifts 
(tunnels); and the free drainage, through fractures on the floor of the 
drifts, of any water that enters the tunnels. Additional positive 
attributes are the natural, passive ventilation of the mountain; the 
presence of an extremely thick unsaturated zone allowing the repository 
to be built far below the land surface and above the water table; and 
natural minerals known as zeolites which tend to retard the movement of 
certain radionuclides.
    The Yucca Mountain site also has some characteristics that 
potentially may degrade repository performance and that consequently 
deserve scrutiny. If the President eventually designates Yucca 
Mountain, these attributes may require additional study and monitoring. 
During the preclosure period, critical surface facilities must be 
designed using state-of-the-art engineering practice to accommodate the 
potential for earthquakes. Whereas the engineering design is outside 
the scope of USGS studies, the USGS has confidence in the probabilistic 
earthquake hazard analyses upon which designs will be based. The 
potential for future volcanic activity has been extensively studied 
because of the presence of nearby volcanic features that are much 
younger than Yucca Mountain. The USGS concurs with expert panels that 
the probability of a repository-piercing eruption, including surface 
eruptions, is very low (on the order of 1.6 x 10<SUP>-8</SUP>/year, or 
odds of 16 in a billion per year). However, other scientists believe 
that the probability may be perhaps ten times higher. Although this 
topic continues to be discussed, the total range of current probability 
estimates remains very low. Potential contamination of a deep, potable 
aquifer beneath the site is of concern because it is a valuable 
resource for the human and natural environment of this arid region. 
However, the USGS believes that the site characteristics of an arid 
climate coupled with the hydrologic characteristics of the thick 
unsaturated zone will result in very limited contact of water and 
waste. Future climate change is inherently uncertain and can result in 
positive or negative effects on the proposed repository. Plausible 
limits on the future climate are based on records of climate change 
over the past one million years. Expected states range from present, 
and conditions to significantly cooler periods with double today's 
precipitation. It is likely that climate at Yucca Mountain in the next 
10,000 years will be intermediate between the two extremes, that is, 
semi-arid. Finally, although the local geology of Yucca Mountain is 
relatively uncomplicated, the regional hydrologic system is 
complicated, particularly when future conditions are included. This 
complexity accounts in part for the unparalleled characterization 
effort expended at Yucca Mountain.
    The discussion above is based upon the extensive studies conducted 
at Yucca Mountain. Nonetheless, it is practical and desirable to 
continue efforts to improve knowledge of the site, to reduce 
uncertainty, to apply new Earth science concepts as they develop, and 
to gather data to support refinements in repository plans.
    As the final design of the repository is prepared, the USGS 
strongly supports the inclusion of three design considerations. First, 
maintaining the surrounding rock at a temperature less than boiling at 
all times will minimize potentially negative effects of the repository 
on the site's natural attributes and thereby lower uncertainty in its 
predicted performance. Second, forced and natural ventilation should be 
used to improve repository performance by towering temperature and 
removing substantial amounts of moisture from the mountain. Third, a 
period of retrievability and monitoring preserves the options of future 
generations to make alternative disposal choices.
    Evaluation of any alternative for nuclear waste disposal is limited 
by our ability to make long-term predictions. The Department of Energy 
is proposing recommending the Yucca Mountain site in part because the 
results of the Total System Performance Assessment (TSPA) indicate that 
the amounts of radioactivity likely to be released from Yucca Mountain 
meet regulatory limits. The USGS recognizes the benefits of the TSPA 
modeling technique as an important evaluation tool, but the limits of 
quantitative prediction as embodied in the TSPA over such long time 
periods need to be recognized. This fact reinforces the importance of 
retrievability and monitoring as discussed above.
    Additional confidence in the site's long-term ability to isolate 
waste from the biosphere can be attained through the examination of 
natural analogues and through geochemical studies. Studies of 
archeological and geological sites provide analogues for the potential 
of Yucca Mountain to isolate waste. Preservation of extremely fragile 
natural and human-made items for thousands to tens of thousands of 
years in caves, rock shelters, and fissures shows the potential to 
design and operate a repository successfully in the deep unsaturated 
zone of Yucca Mountain. Geochemical studies of calcite and opal in 
Yucca Mountain have shown unequivocal evidence that the water table has 
been below the proposed repository level for millions of years and that 
the effects of past climatic shifts are greatly attenuated at the 
proposed repository depth.
    Recognizing that uncertainty in the future performance of the 
repository remains, the USGS endorses a stepwise decisionmaking process 
and phased implementation of the repository program. This approach 
allows for future decision-makers to select alternative options, if 
necessary, based upon additional information, different societal needs, 
or changing priorities.
    A more detailed discussion of the above topics is attached to this 
letter. Please let me know if I can provide additional information.
            Sincerely,
                                          Charles G. Groat,
                                                          Director.
[Enclosure.]
                      i. introduction and purpose
    The Secretary of Energy is considering the Yucca Mountain site for 
recommendation as a spent nuclear fuel and high-level radioactive waste 
repository. The Secretary's decision is based, in part, on the geologic 
and hydrologic nature of the site as determined through site 
characterization activities. The U.S. Geological Survey (USGS) has no 
regulatory or management mandates and provides impartial science that 
serves the needs of the Nation. It is appropriate, therefore, for the 
Director of the USGS to provide policy-relevant, yet policy-neutral, 
science-based, input to the Secretary of Energy to aid in his decision.
                     ii. geologic disposal concept
    Earth scientists, many from the USGS, have long played an active 
role in the examination of the problem of high-level radioactive waste 
disposal. Since the 1970s, USGS researchers have published studies of 
the concept of geologic disposal. In 1978, for example, the USGS 
considered different rock types, the effect of the waste on the rocks, 
movement of contaminants through ground water, and containment of waste 
in a philosophical discussion of the problem. Subsequently, the USGS 
studied different potential repository rocks, proposed the concept of a 
repository above the water table in arid regions, and investigated the 
hydrology and geology of Yucca Mountain.
    National panels (such as the National Academy of Sciences/National 
Research Council) and international groups (for example, the Nuclear 
Energy Agency) examined the concept of geologic disposal of long-lived 
radioactive wastes on a number of occasions. These panels have 
consistently endorsed geologic disposal as the only viable long-term 
solution to the problem of long-lived radioactive waste. Considering 
the state of knowledge today, the USGS is confident that acceptable 
geologic repositories can be constructed. However, it is important that 
a repository be developed in a stepwise manner, with wastes remaining 
retrievable for a substantial period, in order to confirm the geologic 
and hydrologic attributes of the site or permit the development of 
alternative solutions by future generations.
                      iii. the yucca mountain site
A. Natural System
    Studies of the natural system at Yucca Mountain have been of 
unprecedented extent and thoroughness. Here, we will try to put the 
natural system characterization efforts in the perspective of USGS 
studies and interpretations.
    For more than 120 years, the USGS has provided scientific support 
to help resolve the Nation's complex natural resource problems. The 
USGS began applying that expertise to the Yucca Mountain region several 
decades before Congress selected the site for study as a potential 
repository location. Major geological and hydrological studies in 
southern Nye County were conducted by the USGS in support of national 
defense programs at the Nevada Test Site.
    After the selection of Yucca Mountain for site characterization, 
USGS scientists worked with academic, national laboratory, and 
contractor geologists and hydrologists to compile a comprehensive 
description of the proposed repository site and its vicinity. The work 
included surface mapping, detailed stratigraphic measurements, studies 
of numerous soil pits and trenches, logging of hundreds of drill holes, 
observations in more than 10 kilometers (6 miles) of underground 
excavations, geophysical surveys, geochemical analyses, hydrologic 
tests, and studies of past climate records. The USGS stands firmly 
behind the quality of work that its scientists produced in the site 
characterization effort. Whereas scientific investigations commonly 
lead to additional possibilities for further work, the USGS is 
confident that the thoroughness of the work performed to date is 
sufficient to support a decision to proceed to the next step of 
repository site recommendation. At this time (October 2001), analysis 
of the extensive data by USGS scientists has found no feature or 
characteristic of the site that would preclude its designation as a 
repository site.
            Site Attributes
    Any potential repository site has attributes that are favorable for 
the isolation of waste as well as unfavorable. As site characterization 
proceeds, these attributes are studied exhaustively and the potentially 
negative attributes receive particular scrutiny. Yucca Mountain has 
been studied in this way and a number of site attributes, both positive 
and negative, have been documented. These are summarized below along 
with an explanation of why the negative attributes do not preclude a 
site recommendation decision at this time.
    Positive Attributes. National screening programs conducted in the 
1980s and site characterization studies have revealed a number of 
positive attributes of the natural system with regard to the siting of 
a potential geologic repository at Yucca Mountain. The local geology at 
Yucca Mountain is uncomplicated. Beds or layers of volcanic rocks of 
relatively uniform thicknesses dip gently to the east and are offset 
small amounts by northwesterly and northerly trending faults. The three 
dimensional geological framework of the mountain is well established by 
mapping, drilling, and underground exploration. In addition, the Yucca 
Mountain site has been thoroughly investigated for economic deposits 
that would be attractive for commercial mining and for energy 
resources, but there is no indication of either.
    The volcanic tuffs at Yucca Mountain are suitable for underground 
construction, as shown by the relative ease with which exploratory 
tunnels, drifts, and alcoves were excavated using tunnel boring 
machines and alpine miners. This feature is favorable both for worker 
safety during normal operations and for waste retrievability well into 
the future should that become necessary.
    Yucca Mountain is located in an arid climate zone of the northern 
Mojave Desert and receives about 190 millimeters (7.5 inches) of 
precipitation per year. Potential evapotranspiration exceeds 
precipitation by about an order of magnitude. Consequently, net 
infiltration is very low, averaging about 5 millimeters (0.2 inches) 
per year above the potential repository area under current climatic 
conditions. Because of the capillary barrier that surrounds underground 
openings in unsaturated rock, the percentage of net infiltration that 
can enter drifts of the potential repository as seepage is small. 
Furthermore, the interconnected fracture network within the potential 
repository host rock (Topopah Spring welded unit) will allow free 
drainage of water that might enter an emplacement drift, thereby 
inhibiting ponding of water. In addition, the interconnected fracture 
network of the Topopah Spring welded unit facilitates natural, passive 
ventilation of the repository. Such long-term passive ventilation of 
the repository would be beneficial because of the potentially large 
amounts of heat and water vapor that could be removed by this natural 
process.
    A fundamental attribute of Yucca Mountain is its location above an 
unsaturated zone that is among the thickest (500 to 800 meters or 1600 
to 2600 feet) in the United States. This allows a repository to be 
situated at a significant vertical distance below the land surface and 
above the regional water table. Such a location in the unsaturated zone 
ensures that a repository is extremely unlikely to be flooded by ground 
water. This conclusion is supported by geochemical and mineralogic 
studies that indicate that the water table has remained well below the 
repository horizon for millions of years. Another significant attribute 
of the Yucca Mountain unsaturated zone is that the rocks of the Calico 
Hills Formation beneath the repository site contain zeolites that can 
significantly retard the transport of certain radionuclides. Finally, 
Yucca Mountain is located in a closed desert basin with no discharge 
beyond the regional drainage system or to the sea.
    Negative Attributes. The principal objective of a geologic 
repository is to securely isolate nuclear waste from the biosphere (the 
environment and its inhabitants) to the greatest extent possible. In 
the previous section, we discussed natural attributes of the Yucca 
Mountain site that are favorable with respect to this goal; many of 
them are also referred to as ``natural barriers'' in Department of 
Energy (DOE) literature.
    The Yucca Mountain site also has some characteristics that 
potentially may degrade repository performance and that consequently 
deserve scrutiny. If the President eventually designates Yucca 
Mountain, these attributes may require additional study and monitoring. 
These include: (1) earthquakes; (2) potential volcanic activity; (3) 
the existence of a large aquifer of potable water at depth beneath the 
repository; (4) future climate change effects; and (5) the regional 
complexity of the hydrogeologic system. Without minimizing the 
importance of these attributes, the USGS believes that they are 
understood well enough with respect to the potential performance of a 
repository to support a decision to take the next step in repository 
development. Our reasons follow.
    The occurrence of earthquakes gives rise to strong ground motion 
and to surface faulting that primarily affects surface facilities. 
Critical operational facilities in the preclosure period, such as the 
waste-handling complex, can be designed to withstand earthquake ground 
motions following state-of-the-art engineering practice as applied to 
critical facilities. Whereas the engineering design is outside the 
scope of USGS studies, the probabilistic hazard analysis upon which 
designs will be based is supported by the USGS and follows 
internationally recognized state-of-the-art.
    The potential for volcanic activity has been extensively studied 
using probabilistic hazard analysis. The USGS concurs with expert 
panels that the probability of a repository-piercing eruption, 
including surface eruptions, is very low (on the order of 1.6 x 
10<SUP>-8</SUP>/year, or odds of 16 in a billion per year). However, 
other scientists believe that the probability may be perhaps ten times 
higher. Although this topic continues to be discussed, the total range 
of current probability estimates remains very low.
    The presence of a deep aquifer beneath the site is a primary reason 
for the two decades of efforts by scientists to characterize the 
geology, hydrology, geochemistry, and paleoclimate of the Yucca 
Mountain site. The aquifer is a valuable resource for this arid region. 
For reasons described in the final section of this paper, the USGS 
believes that the risk of possible contamination of ground water 
remains low. Nonetheless, this matter should continue to be evaluated 
and a monitoring program associated with repository construction should 
be designed with these concerns in mind.
    A variety of paleontologic, geologic, and isotopic evidence 
indicates that the climate of the Yucca Mountain area changed 
cyclically in the past million years. During this time it varied from 
that of the present--mean annual precipitation and temperature of about 
190 millimeters (7.5 inches) and 19 degrees Celsius (67 degrees 
Fahrenheit)--to a few extremely cold and wet periods that may have had 
more than double modern precipitation and perhaps more than 11 degrees 
Celsius (20 degrees Fahrenheit) colder temperature. However, during 
most of the past million years, the region is believed to have had 
intermediate climates. Predicting future climate at Yucca Mountain from 
the geologic records is uncertain, but limits observed during the past 
one million years suggest that the climate is likely to be intermediate 
between the present and the extreme climate states during the next 
10,000 years. Thus, the climate of the Yucca Mountain region would at 
such times be semi-arid, rather than arid, as it is today.
    The present-day regional hydrogeologic system is complicated, and 
is compounded by the inclusion of future climate change effects (for 
example, precipitation). Understanding this complex system is important 
in predicting repository performance. However, a substantial amount is 
known about the system, enough to understand the potential for the 
site's attributes to isolate waste.
            Continuing Studies
    The development of a high-level waste repository is a first-of-a-
kind endeavor. The challenge to predict the performance of a proposed 
repository at Yucca Mountain has resulted in extensive local and 
regional studies as summarized above. Over time, site knowledge has 
increased dramatically and uncertainty in prediction of the performance 
of the natural system has been reduced. Nonetheless, the USGS also 
supports continuing study and monitoring efforts to improve knowledge 
of the site, to further reduce uncertainty, to apply new earth science 
concepts as they develop, and to gather data to support refinements in 
repository plans.
B. Design and Engineering Considerations
            Cool Repository
    Engineered barriers can complement the natural barriers in 
isolating waste from the biosphere and can do much to offset 
uncertainties in characterizing the natural site conditions. One 
proposed engineering approach is to allow the rocks adjacent to the 
waste packages to exceed the boiling point of water, thus driving 
moisture away from the tunnels. The USGS supports a cooler operating 
regime (one in which the rock temperature never exceeds the boiling 
point of water) because of reduced impact on natural assets of the 
repository system and reduced uncertainties in predicting the 
repository system behavior. The USGS has consistently held this 
position for 23 years, since publication of USGS Circular 779, and 
continues to believe that the potential advantages of an above-boiling 
repository have not been sufficiently demonstrated to warrant changing 
our position.
            Ventilation
    In keeping with the USGS belief that the repository host rock 
temperature is kept below boiling, we support the proposed practice of 
using a combination of forced and natural ventilation of the drifts for 
the time necessary to prevent the drift wall temperatures from ever 
exceeding the boiling point of water. A substantial added benefit of 
drift ventilation is the removal of a large volume of rock moisture 
from the repository environs. This water must be replaced by 
infiltration following the end of ventilation before seepage into the 
drifts could occur. Thus, conditions for possible radionuclide 
transport could be delayed by hundreds to thousands of years. Again, 
this is a long-standing USGS position, held for 18 years, since 
publication of USGS Circular 903.
            Retrievability and Monitoring
    DOE proposes in the Yucca Mountain Preliminary Site Suitability 
Evaluation that the repository may remain open for as much as 325 years 
and will be designed to include waste package retrieval capabilities 
prior to closure. One of the advantages of locating a repository in the 
unsaturated zone is that it remains more accessible (e.g., for 
retrieval of waste) than a repository below the water table. A 
repository above the water table does not need to incorporate backfill 
in the waste-disposal drifts and will not flood after closure. As a 
result, extending the preclosure period may be economically feasible 
(as shown by DOE's consideration of a preclosure period exceeding 
proposed regulatory minimums) and retrievability after closure remains 
a possibility. The USGS remains supportive of repository designs that 
facilitate retrievability, as pointed out in USGS Circular 903.
    The USGS also supports design elements that incorporate the ability 
to monitor key attributes of the site, including moisture movement 
through the unsaturated zone, temperature, and watertable levels. A 
comprehensive monitoring plan is strongly endorsed by the USGS as a 
means to continuously evaluate the site prior to reaching a decision on 
closure. This will allow continuous validation and confidence building 
in the attributes of the natural system upon which the repository 
design is based. After waste emplacement, it is important to assure 
that the repository is functioning as expected and within accepted 
limits.
                 iv. risk to humans and the environment
    The disposal of wastes produced by human activities has been an 
ongoing problem for societies throughout the world since the beginning 
of civilization. A new challenge arose following the Industrial 
Revolution with the need for industrial societies to dispose of 
increasing quantities of toxic solid and liquid chemical wastes. The 
problem of toxic-waste disposal acquired a new dimension with the 
advent of the nuclear age in 1945 and the subsequent need to dispose of 
accumulating quantities of long-lived radioactive wastes. The disposal 
of radioactive wastes requires that these materials be isolated from 
the biosphere for time periods necessary to protect the environment and 
to ensure human health and safety. The National Research Council, in a 
recent report (``Disposition of High-Level Waste and Spent Nuclear 
Fuel''), reiterated its belief, and that of all nations with nuclear 
power, that underground disposal of nuclear wastes in a geologic 
repository is the ``only long-term solution available.''
    Radioactive-waste materials may reach the biosphere from a geologic 
repository by the mobilization and transport of radioactive substances 
by water moving through the repository system. Most proposed geologic 
repositories would be located below the water table where the wastes 
are in continuous contact with ground water. Yucca Mountain is an 
exception. Because of the thick unsaturated zone beneath this ridge, 
the waste can be emplaced several hundred meters (hundreds of feet) 
below the surface, yet also several hundred meters (hundreds of feet) 
above the water table. Because of the arid climate at Yucca Mountain 
and the hydrologic characteristics of the unsaturated rock mass in 
which the potential repository would be located, minimal quantities of 
ground water are expected to pass through the potential repository 
horizon under present-day conditions. Under expected future wetter 
climates, the natural attributes listed above in conjunction with the 
proposed engineered barriers should limit contact of waste with 
infiltrating water during the regulatory 10,000-year compliance period, 
and beyond.
    The regulations that govern development of a potential Yucca 
Mountain repository require that the collective processes that may lead 
to release of radionuclides to the environment be evaluated using the 
Total System Performance Assessment (TSPA) methodology. TSPA is an 
internationally recognized tool not only for evaluating expected future 
repository-system performance but also for identifying additional data 
and information needs and for eliminating sites that may prove to be 
unsuitable for repository development. Although the USGS has not been 
involved directly in conducting the TSPA evaluations for the Yucca 
Mountain site, the earth-science investigations, data, and 
interpretations by the USGS have provided the fundamental scientific 
basis for these evaluations. The TSPA evaluations to date indicate that 
the radioactivity released to the environment from Yucca Mountain is 
likely to meet regulatory limits. The USGS recognizes the benefits of 
the TSPA modeling technique as an important evaluation tool, but the 
limits of quantitative prediction as embodied in the TSPA over such 
long time periods need to be recognized.
    Additional confidence in the site's long-term ability to isolate 
waste from the biosphere can be attained through the examination of 
natural analogues and through geochemical studies. Fossils and 
archaeological finds in caves and in human-made openings in rock 
comprise natural analogues for the possible fate of waste emplaced in 
the thick unsaturated zone beneath Yucca Mountain. Throughout the 
southwestern United States packrat middens, delicate fossils readily 
dissolved by water, are found in caves, rock shelters, and fissures. 
These middens are as much as 40,000 years old. Spirit Cave, Nevada, is 
famous for its 9,000-year-old mummies. Even in humid climates, caves 
contain fragile items such as ice-age paintings, some as much as 32,000 
years old. These paintings have survived, in over 150 caves in the 
presently sub-humid to humid climates of southern France and northern 
Spain, presumably owing to the tendency of infiltrating water to move 
around openings within the unsaturated zone. Detailed study of calcite 
and opal deposits in cavities within the exploratory drifts in Yucca 
Mountain has shown unequivocally that the water table has been below 
the proposed repository horizon for millions of years. Additionally, 
these studies indicate that the climatic shifts recorded at the surface 
were greatly attenuated at the level of the proposed repository.
    Recognizing that uncertainty in the future performance of the 
repository remains, and that continuing monitoring and scientific work 
will enhance understanding of critical processes, the USGS endorses 
national (National Academy of Sciences/National Research Council) and 
international (Nuclear Energy Agency) positions in favor of stepwise 
decisionmaking or phased development approaches. As stated by the 
Nuclear Energy Agency, a stepwise approach ``leaves open the 
possibility of adaptation, in the light of scientific progress and 
social acceptability, over several decades, and does not exclude the 
possibility that other options could be developed at a later stage.''
                                 ______
                                 
                           The Secretary of Energy,
                         Washington, DC, February 14, 2002.
The President,
The White House, Washington, DC.
    Dear Mr. President: I am transmitting herewith, in accordance with 
section 114(a)(1) of the Nuclear Waste Policy Act of 1982 (the 
``Act''), 42 U.S.C. 10134, my recommendation for your approval of the 
Yucca Mountain site for the development of a nuclear waste repository, 
along with a comprehensive statement of the basis of my recommendation. 
In making this recommendation, I have examined three considerations.
    First, and most important, I have considered whether sound science 
supports the determination that the Yucca Mountain site is 
scientifically and technically suitable for the development of a 
repository. I am convinced that it does. This suitability determination 
provides the indispensable foundation for my recommendation. 
Irrespective of any other considerations, I could not and would not 
recommend the Yucca Mountain site without having first determined that 
a repository at Yucca Mountain will bring together the location, 
natural barriers, and design elements necessary to protect the health 
and safety of the public, including those Americans living in the 
immediate vicinity, now and long into the future.
    The Department has engaged in over 20 years of scientific and 
technical investigation of the suitability of the Yucca Mountain site. 
As part of this investigation, some of the world's best scientists have 
been examining every aspect of the natural processes--past, present and 
future--that could affect the ability of a repository beneath Yucca 
Mountain to isolate radionuclides emitted from any spent fuel and 
radioactive waste disposed there. They have been conducting equally 
searching investigations into the processes that could affect the 
behavior of the engineered barriers that are expected to contribute to 
successful isolation of radionuclides. These investigations have run 
the gamut, from mapping the geologic features of the site, to studying 
the repository rock, to investigating whether and how water moves 
through the Yucca Mountain site.
    To give just a few examples, Yucca Mountain scientists have: mapped 
geologic structures, including rock units, faults, fractures, and 
volcanic features; excavated more than 200 pits and trenches to remove 
rocks and other material for direct observation; drilled more than 450 
boreholes; collected over 75,000 feet of core, and some 18,000 geologic 
and water samples; constructed six and one-half miles of tunnels to 
provide access to the rocks that would be used for the repository; 
mapped the geologic features exposed by the underground openings in the 
tunnels; conducted the largest known test in history to simulate heat 
effects of a repository, heating some seven million cubic feet of rock 
over its ambient temperature; tested mechanical, chemical, and 
hydrologic properties of rock samples; and examined over 13,000 
engineered material samples to determine their corrosion resistance in 
a variety of environments.
    The findings from these and numerous other studies have been used 
to expand our knowledge of the rocks beneath Yucca Mountain and the 
flow of water through these rocks, including amounts, pathways, and 
rates. Yucca Mountain scientists have used this vast reservoir of 
information to develop computer simulations that describe the natural 
features, events and processes that exist at Yucca Mountain and, in 
turn, have used these descriptions to develop the models to forecast 
how a repository will perform far into the future. Yucca Mountain 
scientists have followed a deliberately cautious approach to enhance 
confidence in any prediction of future performance.
    The results of this investigation have been openly and thoroughly 
reviewed by the Department and oversight entities such as the Nuclear 
Regulatory Commission (NRC), the Nuclear Waste Technical Review Board, 
and the U.S. Geological Survey, as well as having been subjected to 
scientific peer reviews, including a review undertaken by the 
International Atomic Energy Agency. The Department also has made 
available the scientific materials and analyses used to prepare the 
technical evaluations of site suitability for public review by all 
interested parties. The results of this extensive investigation and the 
external technical reviews of this body of scientific work give me 
confidence for the conclusion, based on sound scientific principles, 
that a repository at Yucca Mountain will be able to protect the health 
and safety of the public when evaluated against the radiological 
protection standards adopted by the Environmental Protection Agency and 
implemented by the NRC in accordance with Congressional direction in 
the Energy Policy Act of 1992.
    Second, having found the site technically suitable, I am also 
convinced that there are compelling national interests that require 
development of a repository. In brief, the reasons are these:

  <bullet> A repository is important to our national security. About 
        40% of our fleet's principal combat vessels, including 
        submarines and aircraft carriers, are nuclear-powered. They 
        must periodically be refueled and the spent fuel removed. This 
        spent fuel is currently stored at surface facilities under 
        temporary arrangements. A repository is necessary to assure a 
        permanent disposition pathway for this material and thereby 
        enhance the certainty of future naval operational capability.
  <bullet> A repository is important to promote our non-proliferation 
        objectives. The end of the Cold War has brought with it the 
        welcome challenge of disposing of surplus weapons-grade 
        plutonium as part of the process of decommissioning weapons we 
        no longer need. A geological repository is an integral part of 
        our disposition plans. Without it, our ability to meet our 
        pledge to decommission our weapons could be placed in jeopardy, 
        thereby jeopardizing the commitment of other nations, such as 
        Russia, to decommission its own.
  <bullet> A repository is important to our energy security. We must 
        ensure that nuclear power, which provides 20% of the nation's 
        electric power, remains an important part of our domestic 
        energy production. Without the stabilizing effects of nuclear 
        power, energy markets will become increasingly more exposed to 
        price spikes and supply uncertainties, as we are forced to 
        replace it with other energy sources to substitute for the 
        almost five hours of electricity that nuclear power currently 
        provides each day, on average, to each home, farm, factory and 
        business in America. Nuclear power is also important to 
        sustainable growth because it produces no controlled air 
        pollutants, such as sulfur and particulates, or greenhouse 
        gases. A repository at Yucca Mountain is indispensable to the 
        maintenance and potential growth of this environmentally 
        efficient source of energy.
  <bullet> A repository is important to our homeland security. Spent 
        nuclear fuel, high-level radioactive waste, and excess 
        plutonium for which there is no complete disposal pathway 
        without a repository are currently stored at over 131 sites in 
        39 States. More than 161 million Americans live within 75 miles 
        of one or more of these sites. The facilities housing these 
        materials were intended to do so on a temporary basis. They 
        should be able to withstand current terrorist threats, but that 
        may not remain the case in the future. These materials would be 
        far better secured in a deep underground repository at Yucca 
        Mountain, on federal land, far from population centers, that 
        can withstand an attack well beyond any that is reasonably 
        conceivable.
  <bullet> And a repository is important to our efforts to protect the 
        environment. It is past time for the federal government to 
        implement an environmentally sound disposition plan for our 
        defense wastes, which are located in Tennessee, Colorado, South 
        Carolina, New Mexico, New York, Washington and Idaho. Among the 
        wastes currently at these sites, approximately 100,000,000 
        gallons of high-level liquid waste are stored in, and in some 
        instances have leaked from, temporary holding tanks. About 
        2,500 metric tons of solid un-reprocessed fuel from production 
        and other reactors also are stored at these sites. It is also 
        past time for the federal government to begin disposition of 
        commercial spent fuel, a program that was to have begun in 
        1998. A repository is necessary for accomplishment of either of 
        these objectives.

    Third, I have considered carefully the primary arguments against 
locating a repository at Yucca Mountain. None of these arguments rises 
to a level that would outweigh the case for going forward. This is not 
to say that there have not been important concerns identified. I am 
confident, however, these concerns have been and will continue to be 
addressed in an appropriate manner.
    In short, after months of study based on scientific and technical 
research unique in its scope and depth, and after reviewing the results 
of a public review process that went well beyond the requirements of 
the Act, I reached the conclusions described in the preceding 
paragraphs--namely, that technically and scientifically the Yucca 
Mountain site is fully suitable; that development of a repository at 
the Yucca Mountain site serves the national interest in numerous 
important ways; and that the arguments against its designation do not 
rise to a level that would outweigh the case for going forward. Not 
completing the site designation process and moving forward to licensing 
the development of a repository, as Congress mandated almost 20 years 
ago, would be an irresponsible dereliction of duty.
    Accordingly, I recommend the Yucca Mountain site for the 
development of a nuclear waste repository.
            Respectfully,
                                                   Spencer Abraham.
Recommendation by the Secretary of Energy Regarding the Suitability of 
the Yucca Mountain Site for a Repository Under the Nuclear Waste Policy 
                              Act of 1982
                             february 2002
1. Introduction
2. Background
    2.1. History of the Yucca Mountain Project and the Nuclear Waste 
        Policy Act
    2.2. The Nuclear Waste Policy Act and the Responsibilities of the 
        Department   of Energy and the Secretary
3. Decision
    3.1. The Recommendation
    3.2. What This Recommendation Means, and What It Does Not Mean
4. Decision Determination Methodology and the Decision-Makinz Process
5. Decision Criteria
    5.1. Scientific and Technical Suitability
    5.2. National Interest Considerations
6. Is Yucca Mountain Scientifically and Technically Suitable for 
    Development of a Repository?
    6.1. Framework for Suitability Determination
      6.1.1. General Outline
      6.1.2. Radiation Protection Standards
      6.1.3. Underlying Hard Science
7. Results of Suitability Evaluations and Conclusions
    7.1. Results of Pre-Closure Evaluations
    7.2. Results of Post-Closure Evaluations
8. The National Interest
    8.1. Nuclear Science and the National Interest
    8.2. Energy Security
    8.3. National Security
      8.3.1. Powering the Navy Nuclear Fleet
      8.3.2. Allowing the Nation to Decommission Its Surplus Nuclear 
            Weapons and   Support Nuclear Non-Proliferation Efforts
    8.4. Protecting the Environment
    8.5. Facilitating Continuation of Research, Medical, and 
        Humanitarian Pro-   grams
    8.6. Assisting Anti-Terrorism at Home
    8.7. Summary
9. None of the Arguments Against Yucca Mountain Withstands Analysis
    9.1. Assertion 1: The Citizens of Nevada Were Denied an Adequate 
        Opportunity   to Be Heard
    9.2. Assertion 2: The Project Has Received Inadequate Study
    9.3. Assertion 3: The Rules Were Changed in the Middle of the Game
    9.4. Assertion 4: The Process Tramples States' Rights
    9.5. Assertion 5: Transportation of Nuclear Materials is Disruptive 
        and Dan-   gerous
    9.6. Assertion 6: Transportation of Wastes to the Site Will Have a 
        Dramatically Negative Economic Impact on Las Vegas
    9.7. Assertion 7: It is Premature for DOE to Make a Site 
        Recommendation for   Various Reasons
      9.7.1. The General Accounting Office has concluded that it is 
            premature for   DOE to make a site recommendation now
      9.7.2. DOE is not ready to make a site recommendation now because 
            DOE   and NRC have agreed on 293 technical items that need 
            to be completed be-   fore DOE files a license application
      9.7.3. It is premature for DOE to make a recommendation now 
            because DOE   cannot complete this additional work until 
            2006. The NWPA requires   DOE to file a license application 
            within 90 days of the approval of site   designation
10. Conclusion
                            1. introduction
    For more than half a century, since nuclear science helped us win 
World War II and ring in the Atomic Age, scientists have known that the 
Nation would need a secure, permanent facility in which to dispose of 
radioactive wastes. Twenty years ago, when Congress adopted the Nuclear 
Waste Policy Act of 1982 (NWPA or ``the Act''), it recognized the 
overwhelming consensus in the scientific community that the best option 
for such a facility would be a deep underground repository. Fifteen 
years ago, Congress directed the Secretary of Energy to investigate and 
recommend to the President whether such a repository could be located 
safely at Yucca Mountain, Nevada. Since then, our country has spent 
billions of dollars and millions of hours of research endeavoring to 
answer this question. I have carefully reviewed the product of this 
study. In my judgment, it constitutes sound science and shows that a 
safe repository can be sited there. I also believe that compelling 
national interests counsel in favor of proceeding with this project. 
Accordingly, consistent with my responsibilities under the NWPA, today 
I am recommending that Yucca Mountain be developed as the site for an 
underground repository for spent fuel and other radioactive wastes.\1\
---------------------------------------------------------------------------
    \1\ For purposes of this Recommendation, the terms ``radioactive 
waste'' and ``waste'' are used to cover high-level radioactive waste 
and spent nuclear fuel, as those terms are used in the Nuclear Waste 
Policy Act.
---------------------------------------------------------------------------
    The first consideration in my decision was whether the Yucca 
Mountain site will safeguard the health and safety of the people, in 
Nevada and across the country, and will be effective in containing at 
minimum risk the material it is designed to hold. Substantial evidence 
shows that it will. Yucca Mountain is far and away the most thoroughly 
researched site of its kind in the world. It is a geologically stable 
site, in a closed groundwater basin, isolated on thousands of acres of 
Federal land, and farther from any metropolitan area than the great 
majority of less secure, temporary nuclear waste storage sites that 
exist in the country today.
    This point bears emphasis. We are not confronting a hypothetical 
problem. We have a staggering amount of radioactive waste in this 
country--nearly 100,000,000 gallons of high-level nuclear waste and 
more than 40,000 metric tons of spent nuclear fuel with more created 
every day. Our choice is not between, on the one hand, a disposal site 
with costs and risks held to a minimum, and, on the other, a magic 
disposal system with no costs or risks at all. Instead, the real choice 
is between a single secure site, deep under the ground at Yucca 
Mountain, or making do with what we have now or some variant of it--131 
aging surface sites, scattered across 39 states. Every one of those 
sites was built on the assumption that it would be temporary. As time 
goes by, every one is closer to the limit of its safe life span. And 
every one is at least a potential security risk--safe for today, but a 
question mark in decades to come.
    The Yucca Mountain facility is important to achieving a number of 
our national goals. It will promote our energy security, our national 
security, and safety in our homeland. It will help strengthen our 
economy and help us clean up the environment.
    The benefits of nuclear power are with us every day. Twenty percent 
of our country's electricity comes from nuclear energy. To put it 
another way, the ``average'' home operates on nuclear-generated 
electricity for almost five hours a day. A government with a 
complacent, kick-the can-down-the-road nuclear waste disposal policy 
will sooner or later have to ask its citizens which five hours of 
electricity they would care to do without.
    Regions that produce steel, automobiles, and durable goods rely in 
particular on nuclear power, which reduces the air pollution associated 
with fossil fuels--greenhouse gases, solid particulate matter, smog, 
and acid rain. But environmental concerns extend further. Most 
commercial spent fuel storage facilities are near large populations 
centers; in fact, more than 161 million Americans live within 75 miles 
of these facilities. These storage sites also tend to be near rivers, 
lakes, and seacoasts. Should a radioactive release occur from one of 
these older, less robust facilities, it could contaminate any of 20 
major waterways, including the Mississippi River. Over 30 million 
Americans are served by these potentially at-risk water sources.
    Our national security interests are likewise at stake. Forty 
percent of our warships, including many of the most strategic vessels 
in our Navy, are powered by nuclear fuel, which eventually becomes 
spent fuel. At the same time, the end of the Cold War has brought the 
welcome challenge to our Nation of disposing of surplus weapons-grade 
plutonium as part of the process of decommissioning our nuclear 
weapons. Regardless of whether this material is turned into reactor 
fuel or otherwise treated, an underground repository is an 
indispensable component in any plan for its complete disposition. An 
affirmative decision on Yucca Mountain is also likely to affect other 
nations' weapons decommissioning, since their willingness to proceed 
will depend on being satisfied that we are doing so. Moving forward 
with the repository will contribute to our global efforts to stem the 
proliferation of nuclear weapons in other ways, since it will encourage 
nations with weaker controls over their own materials to follow a 
similar path of permanent, underground disposal, thereby making it more 
difficult for these materials to fall into the wrong hands. By moving 
forward with Yucca Mountain, we will show leadership, set out a 
roadmap, and encourage other nations to follow it.
    There will be those who say the problem of nuclear waste disposal 
generally, and Yucca Mountain in particular, needs more study. In fact, 
both issues have been studied for more than twice the amount of time it 
took to plan and complete the moon landing. My Recommendation today is 
consistent with the conclusion of the National Research Council of the 
National Academy of Sciences--a conclusion reached, not last week or 
last month, but 12 years ago. The Council noted ``a worldwide 
scientific consensus that deep geological disposal, the approach being 
followed by the United States, is the best option for disposing of 
high-level radioactive waste.'' \2\ Likewise, a broad spectrum of 
experts agrees that we now have enough information, including more than 
20 years of researching Yucca Mountain specifically, to support a 
conclusion that such a repository can be safely located there.\3\
---------------------------------------------------------------------------
    \2\ Rethinking High-Level Radioactive Waste Disposal: A Position 
Statement of the Board on Radioactive Waste Management, Washington, 
D.C., National Academy Press, 1990.
    \3\ Letter and attached report, Charles G. Groat, Director, U.S. 
Geologic Survey, to Robert G. Card, October 4, 2001 (hereafter USGS 
Letter & Report); Letter and attached report, Hans Riotte, NEA-IAEA 
Joint Secretariat, to Lake H. Barrett, November 2, 2001 (hereafter NEA-
IAEA Letter & Report); Letter, Charles V. Shank, Director, Lawrence 
Berkeley National Laboratory, to Spencer Abraham, September 6, 200 
(hereafter Lawrence Berkeley National Laboratory Letter).
---------------------------------------------------------------------------
    Nonetheless, should this site designation ultimately become 
effective, considerable additional study lies ahead. Before an ounce of 
spent fuel or radioactive waste could be sent to Yucca Mountain, indeed 
even before construction of the permanent facilities for emplacement of 
waste could begin there, the Department of Energy (DOE or ``the 
Department'') will be required to submit an application to the 
independent Nuclear Regulatory Commission (NRC). There, DOE would be 
required to make its case through a formal review process that will 
include public hearings and is expected to last at least three years. 
Only after that, if the license were granted, could construction begin. 
The DOE would also have to obtain an additional operating license, 
supported by evidence that public health and safety will be preserved, 
before any waste could actually be received.
    In short, even if the Yucca Mountain Recommendation were accepted 
today, an estimated minimum of eight more years lies ahead before the 
site would become operational.
    We have seen decades of study, and properly so for a decision of 
this importance, one with significant consequences for so many of our 
citizens. As necessary, many more years of study will be undertaken. 
But it is past time to stop sacrificing that which is forward-looking 
and prudent on the altar of a status quo we know ultimately will fail 
us. The status quo is not the best we can do for our energy future, our 
national security, our economy, our environment, and safety--and we are 
less safe every day as the clock runs down on dozens of older, 
temporary sites.
    I recommend the deep underground site at Yucca Mountain, Nevada, 
for development as our Nation's first permanent facility for disposing 
of high-level nuclear waste.
                             2. background
2.1. History of the Yucca Mountain Project and the Nuclear Waste Policy 
        Act
    The need for a secure facility in which to dispose of radioactive 
wastes has been known in this country at least since World War II. As 
early as 1957, a National Academy of Sciences report to the Atomic 
Energy Commission suggested burying radioactive waste in geologic 
formations. Beginning in the 1970s, the United States and other 
countries evaluated many options for the safe and permanent disposal of 
radioactive waste, including deep seabed disposal, remote island 
siting, dry cask storage, disposal in the polar ice sheets, 
transmutation, and rocketing waste into orbit around the sun. After 
analyzing these options, disposal in a mined geologic repository 
emerged as the preferred long-term environmental solution for the 
management of these wastes.\4\ Congress recognized this consensus 20 
years ago when it passed the Nuclear Waste Policy Act of 1982.
---------------------------------------------------------------------------
    \4\ Final Environmental Impact Statement for Management of 
Commercially Generated Radioactive Waste, DOE/EIS0046. 1980.
---------------------------------------------------------------------------
    In the Act, Congress created a Federal obligation to accept 
civilian spent nuclear fuel and dispose of it in a geologic facility. 
Congress also designated the agencies responsible for implementing this 
policy and specified their roles. The Department of Energy must 
characterize, site, design, build, and manage a Federal waste 
repository. The Environmental Protection Agency (EPA) must set the 
public health standards for it. The Nuclear Regulatory Commission must 
license its construction, operation, and closure.
    The Department of Energy began studying Yucca Mountain almost a 
quarter century ago. Even before Congress adopted the NWPA, the 
Department had begun national site screening research as part of the 
National Waste Terminal Storage program, which included examination of 
Federal sites that had previously been used for defense-related 
activities and were already potentially contaminated. Yucca Mountain 
was one such location, on and adjacent to the Nevada Test Site, which 
was then under consideration. Work began on the Yucca Mountain site in 
1978. When the NWPA was passed, the Department was studying more than 
25 sites around the country as potential repositories. The Act provided 
for the siting and development of two; Yucca Mountain was one of nine 
sites under consideration for the first repository program.
    Following the provisions of the Act and the Department's siting 
Guidelines,\5\ the Department prepared draft environmental assessments 
for the nine sites. Final environmental assessments were prepared for 
five of these, including Yucca Mountain. In 1986, the Department 
compared and ranked the sites under consideration for characterization. 
It did this by using a multi-attribute methodology--an accepted, formal 
scientific method used to help decision makers compare, on an 
equivalent basis, the many components that make up a complex decision. 
When all the components`of the ranking decision were considered 
together, taking account of both preclosure and post-closure concerns, 
Yucca Mountain was the top-ranked site.\6\ The Department examined a 
variety of ways of combining the components of the ranking scheme; this 
only confirmed the conclusion that Yucca Mountain came out in first 
place. The EPA also looked at the performance of a repository in 
unsaturated tuff. The EPA noted that in its modeling in support of 
development of the standards, unsaturated tuff was one of the two 
geologic media that appeared most capable of limiting releases of 
radionuclides in a manner that keeps expected doses to individuals 
low.\7\
---------------------------------------------------------------------------
    \5\ The Guidelines then in force were promulgated at 10 CFR part 
960, General Guidelines for the Recommendation of Sites for Nuclear 
Waste Repositories, 1984.
    \6\ Recommendation by the Secretary of Energy of Candidate Sites 
for Site Characterization for the First Radioactive Waste Repository, 
DOE/S-0048, May 1986.
    \7\ Environmental Radiation Protection Standards for the Management 
and Disposal of Spent Nuclear Fuel, High-Level and Transuranic 
Radioactive Wastes, Final Rule, 40 CFR Part 191, December 20, 1993.
---------------------------------------------------------------------------
    In 1986, Secretary of Energy Herrington found three sites to be 
suitable for site characterization, and recommended the three, 
including Yucca Mountain, to President Reagan for detailed site 
characterization.\8\ The Secretary also made a preliminary finding, 
based on Guidelines that did not require site characterization, that 
the three sites were suitable for development as repositories.\9\
---------------------------------------------------------------------------
    \8\ Letter, John S. Herrington, Secretary of Energy, to President 
Ronald Reagan, May 27, 1986, with attached report, Recommendation by 
the Secretary of Energy of Candidate Sites for Site Characterization 
for the First Radioactive Waste Repository, DOE/S-0048, May 1986.
    \9\ Ibid.
---------------------------------------------------------------------------
    The next year, Congress amended the NWPA, and selected Yucca 
Mountain as the single site to be characterized. It simultaneously 
directed the Department to cease activities at all other potential 
sites. Although it has been suggested that Congress's decision was made 
for purely political reasons, the record described above reveals that 
the Yucca Mountain site consistently ranked at or near the top of the 
sites evaluated well before Congress's action.
    As previously noted, the National Research Council of the National 
Academy of Sciences concluded in 1990 (and reiterated last year) that 
there is ``a worldwide scientific consensus that deep geological 
disposal, the approach being followed by the United States, is the best 
option for disposing of high-level radioactive waste.'' \10\ Today, 
many national and international scientific experts and nuclear waste 
management professionals agree with DOE that there exists sufficient 
information to support a national decision on designation of the Yucca 
Mountain site.\11\
---------------------------------------------------------------------------
    \10\ Rethinking High-Level Radioactive Waste Disposal: A Position 
Statement of the Board on Radioactive Waste Management, Washington, 
D.C., National Academy Press, 1990. And: Disposition of High-Level 
Waste and Spent Nuclear Fuel: The Continuing Societal and Technical 
Challenges, Board on Radioactive Waste Management, Washington, D.C., 
National Academy Press, 2001.
    \11\ USGS Letter & Report, supra; NEA-IAEA Letter & Report, supra; 
Lawrence Berkeley National Laboratory Letter, supra.
---------------------------------------------------------------------------
2.2. The Nuclear Waste Policy Act and the Responsibilities of the 
        Department of Energy and the Secretary
    Congress assigned to the Secretary of Energy the primary 
responsibility for implementing the national policy of developing a 
deep underground repository. The Secretary must determine whether to 
initiate the next step laid out in the NWPA--a recommendation to 
designate Yucca Mountain as the site for development as a permanent 
disposal facility. The criteria for this determination are described 
more fully in section 5. Briefly, I first must determine whether Yucca 
Mountain is in fact technically and scientifically suitable to be a 
repository. A favorable suitability determination is indispensable for 
a positive recommendation of the site to the President. Under 
additional criteria I have adopted above and beyond the statutory 
requirements, I have also sought to determine whether, when other 
relevant considerations are taken into account, recommending it is in 
the overall national interest and, if so, whether there are 
countervailing arguments so strong that I should nonetheless decline to 
make the Recommendation.
    The Act contemplates several important stages in evaluating the 
site before a Secretarial recommendation is in order. It directs the 
Secretary to develop a site characterization plan, one that will help 
guide test programs for the collection of data to be used in evaluating 
the site. It directs the Secretary to conduct such characterization 
studies as may be necessary to evaluate the site's suitability. And it 
directs the Secretary to hold hearings in the vicinity of the 
prospective site to inform the residents and receive their comments. It 
is at the completion of these stages that the Act directs the 
Secretary, if he finds the site suitable, to determine whether to 
recommend it to the President for development as a permanent 
repository.
    If the Secretary recommends to the President that Yucca Mountain be 
developed, he must include with the Recommendation, and make available 
to the public, a comprehensive statement of the basis for his 
determination.\12\ If at any time the Secretary determines that Yucca 
Mountain is not a suitable site, he must report to Congress within six 
months his recommendations for further action to assure safe, permanent 
disposal of spent nuclear fuel and high-level radioactive waste.
---------------------------------------------------------------------------
    \12\ This document together with accompanying materials comprises 
the recommendation and the comprehensive statement. The accompanying 
materials are described in footnote 26.
---------------------------------------------------------------------------
    Following a Recommendation by the Secretary, the President may 
recommend the Yucca Mountain site to Congress ``if . . . [he] considers 
[it] qualified for application for a construction authorization. . . 
.'' \13\ If the President submits a recommendation to Congress, he must 
also submit a copy of the statement setting forth the basis for the 
Secretary's Recommendation.
---------------------------------------------------------------------------
    \13\ NWPA section 114(a)(2)(A).
---------------------------------------------------------------------------
    A Presidential recommendation takes effect 60 days after submission 
unless Nevada forwards a notice of disapproval to the Congress. If 
Nevada submits such a notice, Congress has a limited time during which 
it may nevertheless give effect to the President's recommendation by 
passing, under expedited procedures, a joint resolution of siting 
approval. If the President's recommendation takes effect, the Act 
directs the Secretary to submit to the NRC a construction license 
application.
    The NWPA by its terms contemplated that the entire process of 
siting, licensing, and constructing a repository would have been 
completed more than four years ago, by January 31, 1998. Accordingly, 
it required the Department to enter into contracts to begin accepting 
waste for disposal by that date.
                              3. decision
3.1. The Recommendation
    After over 20 years of research and billions of dollars of 
carefully planned and reviewed scientific field work, the Department 
has found that a repository at Yucca Mountain brings together the 
location, natural barriers, and design elements most likely to protect 
the health and safety of the public, including those Americans living 
in the immediate vicinity, now and long into the future. It is 
therefore suitable, within the meaning of the NWPA, for development as 
a permanent nuclear waste and spent fuel repository.
    After reviewing the extensive, indeed unprecedented, analysis the 
Department has undertaken, and in discharging the responsibilities made 
incumbent on the Secretary under the Act, I am recommending to the 
President that Yucca Mountain be developed as the Nation's first 
permanent, deep underground repository for high-level radioactive 
waste. A decision to develop Yucca Mountain will be a critical step 
forward in addressing our Nation's energy future, our national defense, 
our safety at home, and protection for our economy and environment.
3.2. What This Recommendation Means, and What It Does Not Mean
    Even after so many years of research, this Recommendation is a 
preliminary step. It does no more than start the formal safety 
evaluation process. Before a license is granted, much less before 
repository construction or waste emplacement may begin, many steps and 
many years still lie ahead. The DOE must submit an application for a 
construction license; defend it through formal review, including public 
hearings; and receive authorization from the NRC, which has the 
statutory responsibility to ensure that any repository built at Yucca 
Mountain meets stringent tests of health and safety. The NRC licensing 
process is expected to take a minimum of three years. Opposing 
viewpoints will have every opportunity to be heard. If the NRC grants 
this first license, it will only authorize initial construction. The 
DOE would then have to seek and obtain a second operating license from 
the NRC before any wastes could be received. The process altogether is 
expected to take a minimum of eight years.
    The DOE would also be subject to NRC oversight as a condition of 
the operating license. Construction, licensing, and operation of the 
repository would also be subject to ongoing Congressional oversight.
    At some future point, the repository is expected to close. EPA and 
NRC regulations require monitoring after the DOE receives a license 
amendment authorizing the closure, which would be from 50 to about 300 
years after waste emplacement begins, or possibly longer.
    The repository would also be designed, however, to be able to adapt 
to methods future generations might develop to manage high-level 
radioactive waste. Thus, even after completion of waste emplacement, 
the waste could be retrieved to take advantage of its economic value or 
usefulness to as yet undeveloped technologies.
    Permanently closing the repository would require sealing all 
shafts, ramps, exploratory boreholes, and other underground openings 
connected to the surface. Such sealing would discourage human intrusion 
and prevent water from entering through these openings. DOE's site 
stewardship would include maintaining control of the area, monitoring 
and testing, and implementing security measures against vandalism and 
theft. In addition, a network of permanent monuments and markers would 
be erected around the site to alert future generations to the presence 
and nature of the buried waste.\14\ Detailed public records held in 
multiple places would identify the location and layout of the 
repository and the nature and potential hazard of the waste it 
contains. The Federal Government would maintain control of the site for 
the indefinite future. Active security systems would prevent deliberate 
or inadvertent human intrusion and any other human activity that could 
adversely affect the performance of the repository.
---------------------------------------------------------------------------
    \14\ During characterization of the Yucca Mountain site, Nye County 
began to develop its Early Warning Monitoring program and boreholes. 
These boreholes not only provide information about water movement in 
the area of the site, but also can serve as monitoring points should a 
repository be built at Yucca Mountain.
---------------------------------------------------------------------------
 4. decision determination methodology and the decision-making process
    I have considered many kinds of information in making my 
determination today. I have put on a hard hat, gone down into the 
Mountain, and spoken with many of the scientists and engineers working 
there. Of course my decision-making included a great deal more than 
that. I have also personally reviewed detailed summaries of the science 
and research undertaken by the Yucca Mountain Project since 1978. I 
relied upon review materials, program evaluations, and face-to-face 
briefings given by many individuals familiar with the Project, such as 
the acting program manager and program senior staff.
    My consideration included: (a) the general background of the 
program, including the relevant legislative history; (b) the types, 
sources, and amounts of radioactive waste that would be disposed of at 
the site and their risk; (c) the extent of Federal responsibilities; 
(d) the criteria for a suitability decision, including the NWPA's 
provisions bearing on the basis for the Secretary's consideration; the 
regulatory structure, its substance, history, and issues; DOE's Yucca 
Mountain Suitability Guidelines promulgated under the NWPA; \15\ the 
NRC licensing regulations,\16\ and EPA radiation protection standards 
\17\ as referenced in the Suitability Guidelines; (e) assessments of 
repository performance, including technical data and descriptions of 
how those data were gathered and evaluated; assessments of the 
effectiveness of natural and engineered barriers in meeting applicable 
radiation protection standards, and adjustments for uncertainties 
associated with each of these; (f) the Yucca Mountain Site Suitability 
Evaluation; (g) the views of members of the public, including those 
expressed at hearings and through written comments; (h) environmental, 
socioeconomic, and transportation issues; (1) program oversight 
history, technical issues, and responses, including the role and views 
of the NRC, the Nuclear Waste Technical Review Board, the General 
Accounting Office, the Inspector General, and the State of Nevada; and 
the role and views of the National Laboratories, the United States 
Geological Survey, and peer reviews; and (j) public policy impact.
---------------------------------------------------------------------------
    \15\ 10 CFR Part 963, Yucca Mountain Site Suitability Guidelines, 
November 14, 2001.
    \16\ 10 CFR Part 63, Disposal of High-Level Radioactive Waste in a 
Geologic Repository at Yucca Mountain, Nevada, November 2, 2001.
    \17\ 540 CFR Part 197, Public Health and Environmental Radiation 
Protection Standards for Yucca Mountain, Nevada, June 13, 2001.
---------------------------------------------------------------------------
    I also requested an external review of program briefing materials. 
It was conducted by Dr. Chris Whipple, a member of the National Academy 
of Engineering and an experienced independent peer reviewer of programs 
for both the Waste Isolation Pilot Plant and the Yucca Mountain 
Project. Dr. Whipple previously had led a peer review team that 
critically analyzed Total System Performance Assessment (TSPA) work of 
the Yucca Mountain Project.
    I also reviewed the comment summary documents from both the 
Environmental Impact Statement (EIS) and NWPA Section 114 site 
recommendation hearing process in order fully to take into account 
public views concerning a possible recommendation of the Yucca Mountain 
site. This review enabled me to evaluate scientific and research 
results in the context of both strongly held local concerns and issues 
of national importance. I took particular note of comments and concerns 
raised by the Governor of Nevada, governors of other states, state 
agencies, Native American tribes, and members of the public at large.
                          5. decision criteria
    My charge to make a recommendation to the President on this matter 
stems from the Nuclear Waste Policy Act of 1982. That statute directs 
the Secretary of Energy to determine ``whether to recommend to the 
President that he approve [the Yucca Mountain] site for development of 
a repository.'' \18\ The NWPA establishes certain guideposts along the 
way to making this determination, but it also gives the Secretary 
significant responsibility for deciding what the relevant 
considerations are to be.
---------------------------------------------------------------------------
    \18\ NWPA section 114(a)(1).
---------------------------------------------------------------------------
    Pursuant to that responsibility, I concluded that I should use 
three criteria in determining whether to recommend approval of the 
Yucca Mountain Project. First, is Yucca Mountain a scientifically and 
technically suitable site for a repository, i.e., a site that promises 
a reasonable expectation of public health and safety for disposal of 
spent nuclear fuel and high-level radioactive waste for the next 10,000 
years? Second, are there compelling national interests that favor 
proceeding with the decision to site a repository there? And third, are 
there countervailing considerations that outweigh those interests?
    The first of these criteria is expressly contemplated by the NWPA, 
although the NWPA also confers considerable discretion and 
responsibility on the Secretary in defining how to determine scientific 
and technical suitability and in making a judgment on the question. The 
two other criteria are not specified by the NWPA, but I am convinced 
that they are appropriate checks on a pure suitability-based decision.
5.1. Scientific and Technical Suitability
    Under the NWPA, the first step in a Secretarial determination 
regarding Yucca Mountain is deciding whether it is scientifically and 
technically suitable as a repository site. Although the NWPA does not 
state explicitly that this is the initial step, the language and 
structure of the Act strongly suggest that this is so. Most 
significantly, section 114(a)(1) of the NWPA states that the 
Secretary's recommendation is to be made at the conclusion of site 
characterization.\19\ Section 113, in turn, makes clear that the 
function of site characterization is to provide enough site-specific 
information to allow a decision on Yucca Mountain's scientific 
suitability.\20\
---------------------------------------------------------------------------
    \19\ Ibid.
    \20\ This is apparent from two related provisions of section 113: 
section 113(c)(1), which states that, ``The Secretary may conduct at 
the Yucca Mountain site only such site characterization activities as 
the Secretary considers necessary to provide the data required for 
evaluation of the suitability of such site for an application to be 
submitted to the Commission for a construction authorization for a 
repository at such site'' (as well as for NEPA purposes); and its 
companion provision, section 113(c)(3), which states that, ``If the 
Secretary at any time determines the Yucca Mountain site to be 
unsuitable for development as a repository, the Secretary shall . . . 
terminate all site characterization activities [there].''
---------------------------------------------------------------------------
    As to what a determination of site suitability entails, the only 
real guidance the Act provides is that in several places it equates a 
favorable suitability judgment with a judgment that a repository could 
(1) be built at that site and (2) receive a construction authorization 
from the NRC.\21\ This suggests that a determination that the site is 
suitable entails a judgment on my part that a repository at Yucca 
Mountain would likely be licensable by the NRC.
---------------------------------------------------------------------------
    \21\  NWPA section 112(b)(1)(D)(ii); NWPA section 113(c)(1); NWPA 
section 113(c)(3).
---------------------------------------------------------------------------
    Beyond that, the NWPA largely leaves the question to the Secretary 
of Energy by charging him with establishing ``criteria to be used to 
determine the suitability of . . . candidate site[s] for the location 
of a repository.'' \22\ On November 14, 2001, following NRC's 
concurrence, the Department issued its final version of these criteria 
in a rule entitled, ``Yucca Mountain Site Suitability Guidelines.'' I 
shall describe these in detail in the next section of this 
Recommendation, but outline them here. In brief, DOE's Guidelines 
envision that I may find the Yucca Mountain site suitable if I conclude 
that a repository constructed there is ``likely'' to meet extremely 
stringent radiation protection standards designed to protect public 
health and safety.\23\ The EPA originally established these 
standards.\24\ They are now also set out in NRC licensing rules.\25\
---------------------------------------------------------------------------
    \22\ NWPA section 113(b)(1)(A)(iv). That section contemplates that 
these criteria are to be included in the first instance in the site 
characterization plan for each site and thereafter may be modified 
using the procedures of section 112(a).
    \23\ 10 CFR part 963.
    \24\ 40 CFR part 197.
    \25\ 10 CFR part 63.
---------------------------------------------------------------------------
    The EPA and NRC adopted the standards so as to assure that while 
the repository is receiving nuclear materials, any radiation doses to 
workers and members of the public in the vicinity of the site would be 
at safe levels, and that after the repository is sealed, radiation 
doses to those in the vicinity would be at safe levels for 10,000 
years. These radiation protection levels are identical to those with 
which the DOE will have to demonstrate compliance to the satisfaction 
of the NRC in order to obtain a license to build the repository.
    Using the Department's suitability Guidelines, I have concluded 
that Yucca Mountain is in fact suitable for a repository. The reasons 
for this conclusion are set out in section 7 of this Recommendation. 
However, I want to pause to make one thing clear at the outset. If for 
any reason I found that the site were not suitable or licensable, then, 
irrespective of any other consideration, I would not recommend it. 
Specifically, however much as I might believe that proceeding toward a 
repository would advance the national interest in other ways, those 
additional considerations could not properly influence, and have not 
influenced, my determination of suitability.
5.2. National Interest Considerations
    Beyond scientific suitability, the NWPA is virtually silent on what 
other standard or standards the Secretary should apply in making a 
recommendation. It does direct me to consider certain matters. It 
requires that I consider the record of hearings conducted in the 
vicinity of Yucca Mountain, the site characterization record, and 
various other information I am directed to transmit to the President 
with my Recommendation.\26\ 26 The Act does not, however, specify how I 
am to consider these various items or what standard I am to use in 
weighing them. And finally among the items it directs me to take into 
account is, ``such other information as the Secretary considers 
appropriate.''
---------------------------------------------------------------------------
    \26\ The statutorily required information is set out in Section 
114(a)(1) of the NWPA, which states: Together with any recommendation 
of a site under this paragraph, the Secretary shall make available to 
the public, and submit to the President, a comprehensive statement of 
the basis of such recommendation, including the following:
    (A) a description of the proposed repository, including preliminary 
engineering specifications for the facility;
    (B) a description of the waste form or packaging proposed for use 
at such repository, and an explanation of the relationship between such 
waste form or packaging and the geologic medium of such site;
    (C) a discussion of data, obtained in site characterization 
activities, relating to the safety of such site;
    (D) a final environmental impact statement prepared for the Yucca 
Mountain site pursuant to subsection (f) and the National Environmental 
Policy Act of 1969 [42 U.S.C. 4321 et seq.], together with comments 
made concerning such environmental impact statement by the Secretary of 
the Interior, the Council on Environmental Quality, the Administrator, 
and the Commission, except that the Secretary shall not be required in 
any such environmental impact statement to consider the need for a 
repository, the alternatives to geological disposal, or alternative 
sites to the Yucca Mountain site;
    (E) preliminary comments of the Commission concerning the extent to 
which the at-depth site characterization analysis and the waste form 
proposal for such site seem to be sufficient for inclusion in any 
application to be submitted by the Secretary for licensing of such site 
as a repository;
    (F) the views and comments of the Governor and legislature of any 
State, or the governing body of any affected Indian tribe, as 
determined by the Secretary, together with the response of the 
Secretary to such views;
    (G) such other information as the Secretary considers appropriate; 
and
    (H) any impact report submitted under section 116(c)(2)(B) [42 
U.S.C. 10136(c)(2)(B)] by the State of Nevada. This material is 
attached to this Recommendation, as follows:
    <bullet>  The description of the repository called for by section 
114(a)(1)(A) is contained in Chapter 2 of the Yucca Mountain Science 
and Engineering Report (YMS&ER), Revision 1.
    <bullet>  The material relating to the waste form called for by 
section 114(a)(1)(B) is contained in Chapters 3 and 4 of the YMS&ER, 
Revision 1.
    <bullet>  The discussion of site characterization data called for 
by section 114(a)(1)(C) is contained in Chapter 4 of the YMS&ER, 
Revision 1.
    <bullet>  The EIS-related material called for by section 
114(a)(1)(D) is contained in the Final Environmental Impact Statement 
(EIS) for a Geologic Repository for the Disposal of Spent Nuclear Fuel 
and High-Level Radioactive Waste at Yucca Mountain, Nye County, Nevada, 
along with letters received from the Secretary of the Interior, the 
Chair of the Council on Environmental Quality, the Administrator of the 
Environmental Protection Agency, and the Chairman of the Nuclear 
Regulatory Commission (NRC), transmitting their respective comments on 
the final EIS.
    <bullet>  The information called for by section I114(a)(1)(E) is 
contained in a letter from NRC Chairman Meserve to Under Secretary 
Card, dated November 13, 2001.
    <bullet>  The information called for by section 114(a)(1)(F) is 
contained in Section 2 of two separate reports, the Comment Summary 
Document and the Supplemental Comment Summary Document, and in a 
separate document providing responses to comments from the Governor of 
Nevada sent to the Department after the public comment periods on a 
possible site recommendation closed.
    <bullet>  Section 114(a)(1)(G) provides for the inclusion of other 
information as the Secretary considers appropriate. The report, Yucca 
Mountain Site Suitability Evaluation (DOE/RW-0549, February 2002), has 
been included as other information. This report provides an evaluation 
of the suitability of the Yucca Mountain site against Departmental 
Guidelines setting forth the criteria and methodology to be used in 
determining the suitability of the Yucca Mountain site, pursuant to 
section 113(b)(1)(A)(iv). In addition, impact reports submitted by the 
various Nevada counties have been included as other information to be 
forwarded to the President. In transmitting these reports to the 
President, the Department is neither deciding on, nor endorsing, any 
specific impact assistance requested by the governmental entities in 
those reports.
    <bullet>  The State of Nevada submitted an impact report pursuant 
to section 114(a)(1)(H). In transmitting this report to the President, 
the Department is likewise neither deciding on, nor endorsing this 
report.
---------------------------------------------------------------------------
    The approach taken in the Act led me to conclude that, after 
completing the first step of reaching a judgment as to the scientific 
suitability of Yucca Mountain, if I concluded the site was 
scientifically suitable, I should also address a second matter: whether 
it is in the overall national interest to build a repository there. In 
considering that issue, I have addressed two further questions: are 
there compelling national interests favoring development of the site, 
and if so, are there countervailing considerations weighty enough to 
overcome the arguments for proceeding with development? Sections 8 and 
9 of this Recommendation set forth my conclusions on these questions.
    In my view, the statute's silence on the factors that go into the 
recommendation process makes it at a minimum ambiguous on whether I 
should conduct any inquiry beyond the question of scientific 
suitability. In light of that ambiguity, I have elected to construe the 
statute as allowing me, if I make a favorable suitability determination 
based on science, also to consider whether development of a repository 
at Yucca Mountain is in the national interest. For several reasons, I 
believe this is the better way to interpret the NWPA. First, given the 
significance of a siting decision and the nature of the officers 
involved, one would expect that even if a Cabinet Secretary were to 
find a site technically suitable for a repository, he should be able to 
take broader considerations into account in determining what 
recommendation to make to the President. A pure suitability-based 
decision risks taking insufficient heed of the views of the people, 
particularly in Nevada but in other parts of the country as well. 
Second, it is difficult to envision a Cabinet Secretary's making a 
recommendation without taking into account these broader 
considerations. Finally, it is plain that any conclusion on whether to 
recommend this site is likely to be reviewed by Congress. Since that 
review will inevitably focus on broader questions than the scientific 
and technical suitability of the site, it seems useful in the first 
instance for the Executive Branch to factor such considerations into 
its recommendation as well. I note, however, that if my interpretation 
of the statute in this regard is incorrect, and Congress has made a 
finding of suitability the sole determinant of whether to recommend 
Yucca Mountain, my Recommendation would be the same.
   6. is yucca mountain scientifically and technically suitable for 
                      development of a repository?
    The Department of Energy has spent over two decades and billions of 
dollars on carefully planned and reviewed scientific fieldwork designed 
to help determine whether Yucca Mountain is a suitable site for a 
repository. The results of that work are summarized in the Yucca 
Mountain Science and Engineering Report, Revision 1, and evaluated in 
the Yucca Mountain Site Suitability Evaluation (YMSSE), which 
concludes, as set out in 10 CFR part 963, that Yucca Mountain is 
``likely'' to meet the applicable radiation standards and thus to 
protect the health and safety of the public, including those living in 
the immediate vicinity now and thousands of years from now. I have 
carefully studied that evaluation and much of the material underlying 
it, and I believe it to be correct.
6.1. Framework for Suitability Determination
            6.1.1. General Outline
    The general outline of the analytic framework I have used to 
evaluate the scientific suitability of the site is set out in the 
Department's Yucca Mountain Site Suitability Guidelines, found at 10 
CFR part 963.
    The framework has three key features. First, the Guidelines divide 
the suitability inquiry into sub-inquiries concerning a ``pre-closure'' 
safety evaluation and a ``post-closure'' performance evaluation. The 
``pre-closure'' evaluation involves assessing whether a repository at 
the site is likely to be able to operate safely while it is open and 
receiving wastes. The ``post-closure'' evaluation involves assessing 
whether the repository is likely to continue to isolate the materials 
for 10,000 years after it has been sealed, so as to prevent harmful 
releases of radionuclides.
    Second, the Guidelines set out a method and criteria for conducting 
the pre-closure safety evaluation. The method is essentially the same 
as that used to evaluate the safety of other proposed nuclear 
facilities; it is not particularly novel and should be recognized by 
those familiar with safety assessments of existing facilities. This is 
because, while it is open and receiving nuclear materials, a repository 
at Yucca Mountain will not be very different, in terms of its functions 
and the activities expected to take place there, from many other modern 
facilities built to handle such materials. A pre-closure evaluation to 
assess the probable safety of such a facility entails considering its 
design, the nature of the substances it handles, and the kinds of 
activities and external events that might occur while it is receiving 
waste. It then uses known data to forecast the level of radioactivity 
to which workers and members of the public would be likely to be 
exposed as a result.
    Third, the Guidelines set out a method and criteria for evaluating 
the post-closure performance of the repository. This is the most 
challenging aspect of evaluating Yucca Mountain's suitability, since it 
entails assessing the ability of the repository to isolate radioactive 
materials far into the future. The scientific consensus is, and the 
Guidelines specify, that this should be done using a ``Total System 
Performance Assessment.'' This approach, which is similar to other 
efforts to forecast the behavior of complex systems over long periods 
of time, takes information derived from a multitude of experiments and 
known facts. It feeds that information into a series of models. These 
in turn are used to develop one overarching model of how well a 
repository at Yucca Mountain would be likely to perform in preventing 
the escape of radioactivity and radioactive materials. The model can 
then be used to forecast the levels of radioactivity to which people 
near the repository might be exposed 10,000 years or more after the 
repository is sealed.\27\
---------------------------------------------------------------------------
    \27\ The selection of the 10,000-year compliance period for the 
individual-protection standard involves both technical and policy 
considerations. EPA weighed both during the rulemaking for 40 CFR Part 
197. EPA considered policy and technical factors, as well as the 
experience of other EPA and international programs. First, EPA 
evaluated the policies for managing risks from the disposal of both 
long lived, hazardous, nonradioactive materials and radioactive 
materials. Second, EPA evaluated consistency with both 40 CFR Part 191 
and the issue of consistent time periods for the protection of 
groundwater resources and public health. Third, EPA considered the 
issue of uncertainty in predicting dose over the very long periods 
contemplated in the alternative of peak dose within the period of 
geologic stability. Finally, EPA reviewed the feasibility of 
implementing the alternative of peak risk within the period of geologic 
stability.
    As a result of these considerations, EPA established a 10,000-year 
compliance period with a quantitative limit and a requirement to 
calculate the peak dose, using performance assessments, if the peak 
dose occurs after 10,000 years. Under this approach, DOE must make the 
performance assessment results for the post-10,000-year period part of 
the public record by including them in the EIS for Yucca Mountain.
    The relevance of a 10,000-year compliance period can also be 
understood by examining hazard indices that compare the potential risk 
of released radionuclides to other risks. One such analysis, presented 
in the Final Environmental Impact Statement for the Management of 
Commercially Generated Radioactive Waste, DOE/EIS-0046F, examined the 
relative amounts of water required to bring the concentration of a 
substance to allowable drinking water standards. The relative hazard 
for spent fuel compared to the toxicity of the ore used to produce the 
reactor fuel at one year after removal of the spent fuel from the 
reactor is about the same hazard as a rich mercury ore. The hazard 
index is about the same as average mercury ores at about 80 years. By 
200 years the hazard index is about the same as average lead ore; by 
1,000 years it is comparable to a silver ore. The relative hazard index 
is about the same as the uranium ore that it came from at 10,000 years. 
This is not to suggest that the wastes from spent fuel are not toxic. 
However, it is suggested that where concern for the toxicity of the ore 
bodies is not great, the spent fuel should cause no greater concern, 
particularly if placed within multiple engineered barriers in geologic 
formations, at least as, if not more, remote from the biosphere than 
these common ores.
---------------------------------------------------------------------------
            6.1.2. Radiation Protection Standards
    A key question to be answered, as part of any suitability 
determination is, ``What level of radiation exposure is acceptable?''
    DOE's Site Suitability Guidelines use as their benchmark the levels 
the NRC has specified for purposes of deciding whether to license a 
repository at Yucca Mountain. The NRC, in turn, established these 
levels on the basis of radiation protection standards set by the EPA. 
The standards generally require that during pre-closure, the repository 
facilities, operations, and controls restrict radiation doses to less 
than 15 millirem a year \28\ to a member of the public in its 
vicinity.\29\ During post-closure, they generally require that the 
maximum radiation dose allowed to someone living in the vicinity of 
Yucca Mountain be no more than 15 millirem per year, and no more than 
four millirem per year from certain radionuclides in the 
groundwater.\30\
---------------------------------------------------------------------------
    \28\ Risk to human beings from radiation is due to its ionizing 
effects. Radionuclides found in nature, commercial products, and 
nuclear waste emit ionizing radiation. The forms of ionizing radiation 
differ in their penetrating power or energy and in the manner in which 
they affect human tissue. Some ionizing radiation, known as alpha 
radiation, can be stopped by a sheet of paper, but may be very harmful 
if inhaled, ingested or otherwise admitted into the body. Long-lived 
radioactive elements, with atomic numbers higher than 92, such as 
plutonium, emit alpha radiation. Other ionizing radiation, known as 
beta radiation, can penetrate the skin and can cause serious effects if 
emitted from an inhaled or ingested radionuclide. The ionizing 
radiation with the greatest penetrating power is gamma radiation; it 
can penetrate and damage critical organs in the body. Fission products 
can emit both gamma and beta radiation depending on the radionuclides 
present. In high-level nuclear waste, beta and gamma radiation 
emitters, such as cesium and strontium, present the greatest hazard for 
the first 300 to 1,000 years, by which time they have decayed. After 
that time, the alpha-emitting radionuclides present the greatest 
hazard.
    Radiation doses can be correlated to potential biologic effects and 
are measured in a unit called a rem. Doses are often expressed in terms 
of thousandths of a rem, or millirem (mrem); the internationally used 
unit is the Sievert (S), which is equivalent to 100 rem.
    \29\ The NRC regulations also require that the annual dose to 
workers there be less than 5 rem. See 10 CFR part 63, referencing 10 
CFR part 20. This is the general standard for occupational exposure 
that applies in numerous other settings, such as operating nuclear 
facilities.
    \30\ During both pre- and post-closure, the NRC licensing rules, 10 
CFR part 63, also contain a number of more particularized standards for 
specific situations. These are referenced in the results tables 
contained in the following sections. Pursuant to EPA's groundwater 
standard, 40 CFR part 197, they also contain concentration limits on 
certain kinds of radionuclides that may be present in the water, 
whether or not their presence is attributable to a potential 
repository. These are also referenced in the results tables.
---------------------------------------------------------------------------
    This level of radiation exposure is comparable to, or less than, 
ordinary variations in natural background radiation that people 
typically experience each year. It is also less than radiation levels 
to which Americans are exposed in the course of their everyday lives--
in other words, radiation ``doses'' to which people generally give no 
thought at all.
    To understand this, it is important to remember that radiation is 
part of the natural world and that we are exposed to it all the time. 
Every day we encounter radiation from space in the form of cosmic rays. 
Every day we are also exposed to terrestrial radiation, emitted from 
naturally radioactive substances in the earth's surface.
    In addition to natural background radiation from these sources, 
people are exposed to radiation from other everyday sources. These 
include X-rays and other medical procedures, and consumer goods (e.g., 
television sets and smoke detectors).
    Americans, on average, receive an annual radiation exposure of 360 
millirem from their surroundings. The 15 millirem dose the EPA standard 
set as the acceptable annual exposure from the repository is thus 
slightly over four percent of what we receive every year right now.
    Moreover, background radiation varies from one location to another 
due to many natural and man-made factors. At higher elevations, the 
atmosphere provides less protection from cosmic rays, so background 
radiation is higher. In the United States, this variation can be 50 or 
more millirem. Thus, if the repository generates radiation doses set as 
the benchmark in the Guidelines, the incremental radiation dose a 
person living in the vicinity of Yucca Mountain would receive from it 
would be about the same level of increase in radiation exposure as a 
person would experience as a result of moving from Philadelphia to 
Denver.
    Ordinary air travel is another example. Flying at typical cross-
country altitudes results in increased exposure of about one-half 
millirem per hour. If the Yucca Mountain repository generates radiation 
at the 15 millirem benchmark, it would increase the exposure of those 
living near it to about the same extent as if they took three round 
trip flights between the East Coast and Las Vegas.
    Rocks and soil also affect natural background radiation, 
particularly if the rocks are igneous or the soils derived from igneous 
rock, which can contain radioactive potassium, thorium, or uranium. In 
these cases, the variation in the background radiation is frequently in 
the tens of millirem or higher. Wood contains virtually no naturally 
occurring radioactive substances that contribute to radiation 
exposures, but bricks and concrete made from crushed rock and soils 
often do. Living or working in structures made from these materials can 
also result in tens of millirem of increased exposure to radiation. 
Thus, if the repository generates radiation at the levels in the 
Guidelines' benchmark, it is likely to result in less additional 
exposure to a person living in its vicinity than if he moved from a 
wood house to a brick house.
    Finally, it is noteworthy that the radiation protection standards 
referenced by the Guidelines are based on those selected by the NRC for 
licensing the repository. They in turn relied on the EPA rule 
establishing these as the appropriate standards for the site. The NRC 
and EPA acted pursuant to specific directives in the NWPA, in which 
Congress first assigned to the EPA the responsibility to set these 
standards, and later in the Energy Policy Act of 1992, which directed 
the EPA to act in conjunction with the National Academy of Sciences and 
develop a standard specifically for Yucca Mountain. The EPA carefully 
considered the question of how to do so. The 15 millirem per year 
standard is the same it has applied to the Waste Isolation Pilot Plant 
in New Mexico.\31\ And it is well within the National Academy of 
Sciences-recommended range, a range developed in part by referring to 
guidelines from national and international advisory bodies and 
regulations in other developed countries.\32\
---------------------------------------------------------------------------
    \31\ 40 CFR part 191.
    \32\ Technical Bases for Yucca Mountain Standards, National Academy 
of Sciences, National Research Council, 1995.
---------------------------------------------------------------------------
    For all these reasons, there is every cause to believe that a 
repository that can meet the 15 millirem radiation protection standard 
will be fully protective of the health and safety of residents living 
in the vicinity of the repository.\33\
---------------------------------------------------------------------------
    \33\ As noted above, the EPA, in 40 CFR part 197, also established 
groundwater protection standards in the Yucca Mountain rule; these are 
compatible with drinking water standards applied elsewhere in the 
United States, and apply maximum contaminant levels, as well as a 4 
mrem/yr dose standard.
---------------------------------------------------------------------------
            6.1.3. Underlying Hard Science
    As explained in section 6.1.1, the Guidelines contemplate the use 
of models and analyses to project whether the repository will meet the 
15 millirem dose standard.\34\ To have confidence in the model results, 
however, it is important to understand the kind of science that went 
into constructing them.
---------------------------------------------------------------------------
    \34\ As well, of course, as the other radiation protection 
standards such as the groundwater standard.
---------------------------------------------------------------------------
    For over 20 years, scientists have been investigating every aspect 
of the natural processes--past, present and future--that could affect 
the ability of a repository beneath Yucca Mountain to isolate 
radionuclides emitted from nuclear materials emplaced there. They have 
been conducting equally searching investigations into the processes 
that would allow them to understand the behavior of the engineered 
barriers--principally the waste ``packages'' (more nearly akin to 
vaults)--that are expected to contribute to successful waste isolation. 
These investigations have run the gamut, from mapping the geological 
features of the site, to studying the repository rock, to investigating 
whether and how water moves through the Mountain. To give just a few 
examples:
At the surface of the repository:
  <bullet> Yucca Mountain scientists have mapped geologic structures, 
        including rock units, faults, fractures, and volcanic features. 
        To do this, they have excavated more than 200 pits and trenches 
        to remove alluvial material or weathered rock to be able to 
        observe surface and near-surface features directly, as well as 
        to understand what events and processes have occurred or might 
        occur at the Mountain.
  <bullet> They have drilled more than 450 surface boreholes and 
        collected over 75,000 feet of geologic core samples and some 
        18,000 geologic and water samples. They used the information 
        obtained to identify rock and other formations beneath the 
        surface, monitor infiltration of moisture, measure the depth of 
        the water table and properties of the hydrologic system, 
        observe the rate at which water moves from the surface into 
        subsurface rock, and determine air and water movement 
        properties above the water table.
  <bullet> They have conducted aquifer testing at sets of wells to 
        determine the transport and other properties of the saturated 
        zone below Yucca Mountain. These tests included injecting 
        easily identified groundwater tracers in one well, which were 
        then detected in another; this helped scientists understand how 
        fast water moves.
  <bullet> They have conducted tectonic field studies to evaluate 
        extensions of the earth's crust and the probability of seismic 
        events near Yucca Mountain.
Underground:
    The Department's scientists have conducted a massive project to 
probe the area under the Mountain's surface where the repository will 
be built.

  <bullet> They constructed a five mile-long main underground tunnel, 
        the Exploratory Studies Facility, to provide access to the 
        specific rock type that would be used for the repository. This 
        main tunnel is adjacent to the proposed repository block, about 
        800 feet underground. After completing the main tunnel, they 
        excavated a second tunnel, 1.6-miles long and 16.5 feet in 
        diameter. This tunnel, referred to as the Cross-Drift tunnel, 
        runs about 45 feet above and across the repository block.
  <bullet> They then mapped the geologic features such as faults, 
        fractures, stratigraphic units, mineral compositions, etc., 
        exposed by the underground openings in the tunnels.
  <bullet> They collected rock samples to determine geotechnical 
        properties.
  <bullet> They conducted a drift-scale thermal test to observe the 
        effects of heat on the hydrologic, mechanical, and chemical 
        properties of the rock, and chemical properties of the water 
        and gas liberated as a result of heating. The four yearlong 
        heating cycle of the drift-scale test was the largest known 
        heater test in history, heating some seven million cubic feet 
        of rock over its ambient temperature. This test also included 
        samples of engineered materials to determine corrosion 
        resistance in simulated repository conditions.
In various laboratory-based studies:
    Yucca Mountain scientists have supplemented with laboratory work 
the surface and underground tests previously described.

  <bullet> They have tested mechanical, chemical, and hydrologic 
        properties of rock samples in support of repository design and 
        development of natural process models.
  <bullet> They have tested radionuclides to determine solubility and 
        colloid formation that affect their transport if released.
  <bullet> They have tested over 13,000 engineered material samples to 
        determine their corrosion resistance in a variety of 
        environments.
  <bullet> They have determined the chemical properties of water 
        samples and the effects of heat on the behavior and properties 
        of water in the host rock.

    The findings from these numerous studies were used to develop 
computer simulations that describe the natural features, events, and 
processes that exist at Yucca Mountain or that could be changed as the 
result of waste disposal. The descriptions in turn were used to develop 
the models discussed in the next section to project the likely 
radiation doses from the repository.
         7. results of suitability evaluations and conclusions
    As explained above, the Guidelines contemplate that the Secretary 
will evaluate the suitability of the Yucca Mountain site for a 
repository on two separate bases.
    The Guidelines first contemplate that I will determine whether the 
site is suitable for a repository during the entire pre-closure or 
operational period, assumed to be from 50 to 300 years after 
emplacement of nuclear materials begins. To answer this question, the 
Guidelines ask me to determine whether, while it is operating, the 
repository is likely to result in annual radiation doses to people in 
the vicinity and those working there that will fall below the dosage 
levels set in the radiation protection standards.\35\ The Guidelines 
contemplate that I will use a pre-closure safety evaluation to guide my 
response.\36\
---------------------------------------------------------------------------
    \35\ 10 CFR part 963.
    \36\ Ibid.
---------------------------------------------------------------------------
    Second, the Guidelines contemplate that I will determine whether 
the repository is suitable--in other words, may reasonably be expected 
to be safe--after it has been sealed. To answer that question, the 
Guidelines ask me to determine whether it is likely that the repository 
will continue to isolate radionuclides for 10,000 years after it is 
sealed, so that an individual living 18 kilometers (11 miles) from the 
repository is not exposed to annual radiation doses above those set in 
the radiation protection standards.\37\ The Guidelines contemplate that 
I will use a Total System Performance Assessment to guide my response 
to this question.\38\
---------------------------------------------------------------------------
    \37\ Ibid.
    \38\ Ibid.
---------------------------------------------------------------------------
    The Department has completed both the Pre-Closure Safety Evaluation 
and TSPA called for by the Guidelines. These project that a repository 
at Yucca Mountain will result in radioactive doses well below the 
applicable radiation protection standards. As I explain below, I have 
reviewed these projections and the bases for them, and I believe them 
to be well founded. I also believe both the Pre-Closure Safety 
Evaluation and the Total System Performance Assessment have properly 
considered the criteria set out in the Guidelines for each period. 
Using these evaluations as set out in the Guidelines,\39\ believe it is 
likely that a repository at Yucca Mountain will result in radiation 
doses below the radiation protection standards for both periods. 
Accordingly, I believe Yucca Mountain is suitable for the development 
of a repository.
---------------------------------------------------------------------------
    \39\ Ibid.
---------------------------------------------------------------------------
7.1. Results of Pre-Closure Evaluations
    As explained in section 6.1.1, the Pre-Closure Safety Evaluation 
method I have employed is commonly used to assess the likely 
performance of planned or prospective nuclear facilities. Essentially 
what it involves is evaluating whether the contemplated facility is 
designed to prevent or mitigate the effects of possible accidents. The 
facility will be considered safe if its design is likely to result in 
radioactive releases below those set in the radiation protection 
standards.
    The Department has conducted such a Pre-Closure Safety Evaluation, 
which is summarized in the Yucca Mountain Science and Engineering 
Report, Revision 1.\40\ In conducting this evaluation, the Department 
considered descriptions of how the site will be laid out, the surface 
facilities, and the underground facilities and their operations. It 
also considered a series of potential hazards, including, for example, 
seismic activity, flooding, and severe winds, and their consequences. 
Finally, it considered preliminary descriptions of how components of 
the facilities' design would prevent or mitigate the effects of 
accidents.
---------------------------------------------------------------------------
    \40\ Yucca Mountain Science and Engineering Report, Revision 1.
---------------------------------------------------------------------------
    The Pre-Closure Safety Evaluation concluded that the preliminary 
design would prevent or dramatically mitigate the effects of accidents, 
and that the repository would therefore not result in radioactive 
releases that would lead to exposure levels above those set by the 
radiation protection standards. It considered the pre-closure criteria 
of 10 CFR 963.14 in reaching this conclusion. In particular, it found 
that the preliminary design has the ability to contain and limit 
releases of radioactive materials; the ability to implement control and 
emergency systems to limit exposures to radiation; the ability to 
maintain a system and components that perform their intended safety 
functions; and the ability to preserve the option to retrieve wastes 
during the pre-closure period. The annual doses of radiation to which 
the Pre-Closure Safety Evaluation projected individuals in the vicinity 
of the repository and workers would be exposed are set out in the 
following table. These doses fall well below the levels that the 
radiation protection standards establish.
    I have carefully reviewed the Pre-Closure Safety Evaluation and 
find its conclusions persuasive. I am therefore convinced that a 
repository can be built at Yucca Mountain that will operate safely 
without harming those in the repository's vicinity during the pre-
closure period. Finally, I would note that although many aspects of 
this project are controversial, there is no controversy of which I am 
aware concerning this aspect of the Department's conclusions. This 
stands to reason. The kinds of activities that would take place at the 
repository during the pre-closure period--essentially, the management 
and handling of nuclear materials including packaging and emplacement 
in the repository--are similar to the kinds of activities that at 
present go on every day, and have gone on for years, at temporary 
storage sites around the country. These activities are conducted safely 
at those sites, and no one has advanced a plausible reason why they 
could not be conducted equally if not more safely during pre-closure 
operations at a new, state-of-theart facility at Yucca Mountain.
    That is not an insignificant point, since the pre-closure period 
will last at least 50 years after the start of emplacement, which will 
begin at the earliest eight years from today. Moreover, the 
Department's Pre-Closure Safety Evaluation also assumed a possible 
alternative pre-closure period of 300 years from the beginning of 
emplacement, and its conclusions remained unchanged. Thus, the 
Department's conclusion that the repository can operate safely for the 
next 300 years--or for about three generations longer than the United 
States has existed--has not been seriously questioned.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

7.2. Results of Post-Closure Evaluations
    The most challenging aspect of evaluating Yucca Mountain is 
assessing the likely post-closure performance of a repository 10,000 
years into the future. As previously explained, the Department's 
Guidelines contemplate that this will be done using a Total System 
Performance Assessment. That assessment involves using data compiled 
from scientific investigation into the natural processes that affect 
the site, the behavior of the waste, and the behavior of the engineered 
barriers such as the waste packages; developing models from these data; 
then developing a single model of how, as a whole, a repository at 
Yucca Mountain is likely to behave during the post-closure period. The 
model is then used to project radiation doses to which people in the 
vicinity of the Mountain are likely to be exposed as a result of the 
repository. Finally, the assessment compares the projected doses with 
the radiation protection standards to determine whether the repository 
is likely to comply with them.
---------------------------------------------------------------------------
    \41\ Yucca Mountain Site Suitability Evaluation.
---------------------------------------------------------------------------
    The challenge, obviously, is that this involves making a prediction 
a very long time into the future concerning the behavior of a very 
complex system. To place 10,000 years into perspective, consider that 
the Roman Empire flourished nearly 2,000 years ago. The pyramids were 
built as long as 5,000 years ago, and plants were domesticated some 
10,000 years ago. Accordingly, as the NRC explained, ``Proof that the 
geologic repository will conform with the objectives for post-closure 
performance is not to be had in the ordinary sense of the word because 
of the uncertainties inherent in the understanding of the evolution of 
the geologic setting, biosphere, and engineered barrier system'' \42\ 
over 10, 000 Years. The judgment that the NRC envisions making is 
therefore not a certainty that the repository will conform to the 
standard, certainty being unattainable in this or virtually any other 
important matter where choices must be made. Rather, as it goes on to 
explain, ``For such long-term performance, what is required is 
reasonable expectation, making allowance for the time period, hazards, 
and uncertainties involved, that the outcome will conform with the 
objectives for post-closure performance for the geologic 
repository.\43\ The Nuclear Waste Technical Review Board recently 
summarized much the same thought (emphasis added): ``Eliminating all 
uncertainty associated with estimates of repository performance would 
never be possible at repository site.'' \44\
---------------------------------------------------------------------------
    \42\ Disposal of High-Level Radioactive Wastes in a Proposed 
Geologic Repository at Yucca Mountain, Nevada, Final Rule, 66 Fed. Reg. 
55731, 55804, November 2, 2001.
    \43\ Ibid.
    \44\ Nuclear Waste Technical Review Board Letter Report from all 
Board members to Speaker Hastert, Senator Byrd, and Secretary Abraham, 
January 24, 2002.
---------------------------------------------------------------------------
    These views, in turn, inform my understanding of the judgment I am 
expected to make at this stage of the proceeding in evaluating the 
likely post-closure performance of a repository at Yucca Mountain. To 
conclude that it is suitable for post-closure, I do not need to know 
that we have answered all questions about the way each aspect of the 
repository will behave 10,000 years from now; that would be an 
impossible task. Rather, what I need to decide is whether, using the 
TSPA results, and fully bearing in mind the inevitable uncertainties 
connected with such an enterprise, I can responsibly conclude that we 
know enough to warrant a predictive judgment on my part that, during 
the post-closure period, a repository at Yucca Mountain is likely to 
meet the radiation protection standards.
    I believe I can. Essentially, the reason for this is the system of 
multiple and redundant safeguards that will be created by the 
combination of the site's natural barriers and the engineered ones we 
will add. Even given many uncertainties, this calculated redundancy 
makes it likely that very little, if any, radiation will find its way 
to the accessible environment.
    Before I describe in broad terms how the TSPA results and the 
criteria used in the regulations lead to this conclusion, I would like 
to give an illustration of how this works. The illustration draws on 
the TSPA analyses, but also explains what these analyses mean in the 
real world.
An Example
    The most studied issue relating to Yucca Mountain, and the single 
most pressing concern many have felt about the post-closure phase of a 
repository there, is whether there might be a way for radionuclides 
from the emplaced nuclear materials to contaminate the water supply. 
This is not a problem unique to Yucca Mountain. Rather, besides 
disruptive events discussed later, water is the primary mechanism to 
transport radionuclides to people and is also the most likely mechanism 
for radionuclides to escape from the storage facilities we have now.
    In the case of Yucca Mountain, the concern has been that rainwater 
seeping into the Mountain might contact disposal casks and carry 
radionuclides down to the water table in sufficient amounts to endanger 
sources of groundwater. In my judgment, when one considers everything 
we have learned about the multiple natural and engineered barriers that 
lie at the core of the Department's planning for this Project, this 
concern turns out to have virtually no realistic foundation.
    Yucca Mountain is in the middle of a desert. Like any desert, it 
has an arid climate, receiving less than eight inches of rain in an 
average year. Most of that runs off the Mountain or evaporates. Only 
about five percent, less than four-tenths of an inch per year, ever 
reaches repository depth.
    In order to reach the tunnels where the waste casks would be 
housed, this water must travel through about 800 feet of densely welded 
and bedded tuffs,\45\ a trip that will typically require more than 
1,000 years. The amount of water that eventually reaches the repository 
level at any point in time is very small, so small that capillary 
forces tend to retain it in small pores and fractures in the rock. It 
is noteworthy that all our observations so far indicate that no water 
actually drips into the tunnels at this level and all of the water is 
retained within the rock.
---------------------------------------------------------------------------
    \45\ Yucca Mountain consists of alternating layers of welded and 
nonwelded volcanic material known as welded and non-welded tuff: welded 
tuff at the surface, welded tuff at the level of the repository, and an 
intervening layer of nonwelded tuffs. These nonwelded units contain few 
fractures; thus, they delay the downward flow of moisture into the 
welded tuff layer below, where the repository would be located. At the 
repository level, water in small fractures has a tendency to remain in 
the fractures rather than flow into larger openings, such as tunnels. 
Thus, the small amount of water traveling through small fractures near 
any emplacement tunnel would tend to flow around the tunnel, rather 
than seeping, forming a drip, and falling onto the drip shields below. 
Non-welded tuffs below the repository also provide a significant 
barrier to radionuclide transport. Deposits of minerals in the 
fractures demonstrate that for the last several million years the 
repository host rock has been under unsaturated conditions, even when 
higher precipitation, owing to the continent's overall glacial 
conditions, prevailed at the Mountain's surface.
---------------------------------------------------------------------------
    In spite of this finding, our TSPA ran calculations based on the 
assumption that water does drip into the tunnels. At that point, even 
just to reach radionuclides in the waste, the water would still have to 
breach the engineered barriers. These include waste packages composed 
of an outer barrier of highly corrosion-resistant alloy and a thick 
inner barrier of high quality stainless steel.
    The waste package is designed to prevent contact between the waste 
pellets and water that might seep into the tunnels unexpectedly, and 
thus to prevent release of radionuclides.\46\ In addition, anchored 
above each waste package is a titanium drip shield that provides yet 
more protection against seepage. But even assuming the water defeats 
both the titanium shield and the metal waste package, the waste form 
itself is a barrier to the release of radionuclides. Specifically, the 
spent fuel is in the form of ceramic pellets, resistant to degradation 
and covered with a corrosion-resistant metal cladding.
---------------------------------------------------------------------------
    \46\ These engineered barriers will protect the waste under a wide 
range of conditions. For example, the barriers are protected by their 
underground location from the daily variations in temperature and 
moisture that occur above ground. As a result, the Mountain provides 
favorable conditions for the performance of these barriers. Indeed, the 
battery of tests we have conducted suggests that the waste packages are 
extremely resistant to corrosion.
---------------------------------------------------------------------------
    Nevertheless, DOE scientists ran a set of calculations assuming 
that water penetrated the titanium shield and made small holes in three 
waste packages, due to manufacturing defects (even though the 
manufacturing process will be tightly controlled). The scientists 
further assumed that the water dissolves some of the ceramic waste. 
Even so, the analyses showed that only small quantities of 
radionuclides would diffuse and escape from the solid waste form. In 
order to reach the water table from the repository, the water, now 
assumed to be carrying radionuclides, must travel another 800 feet 
through layers of rock, some of which are nearly impenetrable. During 
this trip, many of the radionuclides are adsorbed by the rock because 
of its chemical properties.
    The result of all this is instructive. Even under these adverse 
conditions, all assumed in the teeth of a high probability that not one 
of them will come to pass, the amount of radionuclides reaching the 
water table is so low that annual doses to people who could drink the 
water are well below the applicable radiation standards, and less than 
a millionth of the annual dose people receive from natural background 
radiation. Extrapolating from these calculations shows that even if all 
of the waste packages were breached in the fashion I have described 
above, the resulting contribution to annual dose would still be below 
the radiation safety standards, and less than one percent of the 
natural background.\47\
---------------------------------------------------------------------------
    \47\ Yucca Mountain Science and Engineering Report, Revision 1.
---------------------------------------------------------------------------
Total System Performance More Generally
    It is important to understand that there is nothing unique about 
the kind of planning illustrated in the water seepage scenario 
described above. Rather, the scenario is characteristic of the studies 
DOE has undertaken and the solutions it has devised: deliberately 
pessimistic assumptions incorporated sometimes to the point of 
extravagance, met with multiple redundancies to assure safety. For 
example, one of our scenarios for Nevada postulates the return of ice 
ages, and examines Yucca Mountain assuming that it would receive about 
twice as much rain as it does today with four times as much 
infiltration into the Mountain.
    As in the example above, the Department evaluated physical and 
historical information used to develop models of repository components, 
and then employed those models to forecast how the repository would 
perform in the post-closure period. These results are described at 
length in the TPSA analyses and summarized in Chapter 4 of the Yucca 
Mountain Science and Engineering Report.\48\
---------------------------------------------------------------------------
    \48\ Ibid.
---------------------------------------------------------------------------
    The Department used the suitability criteria set forth in 10 CFR 
963.17 in the TSPA analyses. It carefully evaluated and modeled the 
behavior of characteristics of the site, such as its geologic, 
hydrologic, geophysical, and geochemical properties. Likewise it 
evaluated what are called unsaturated zone flow characteristics, such 
as precipitation entering the Mountain and water movement through the 
pores of the rock--in other words, natural processes which affect the 
amount of water entering the unsaturated zone above the repository and 
potentially coming in contact with wastes inside. DOE also evaluated 
and modeled near-field environment characteristics, such as effects of 
heat from the waste on waterflow through the site, the temperature and 
humidity at the engineered barriers, and chemical reactions and 
products that could result from water contacting the engineered 
barriers.
    The Department carefully studied and modeled the characteristics of 
the engineered barriers as they aged. DOE emphasized specifically those 
processes important to determining waste package lifetimes and the 
potential for corroding the package. It examined waste form degradation 
characteristics, including potential corrosion or break-down of the 
cladding on the spent fuel pellets and the ability of individual 
radionuclides to resist dissolving in water that might penetrate 
breached waste packages. It examined ways in which radionuclides could 
begin to move outward once the engineered barrier system has been 
degraded--for example, whether colloidal particles might form and 
whether radionuclides could adhere to these particles as they were 
assumed to wash through the remaining barriers. Finally, the Department 
evaluated and modeled saturated and unsaturated zone flow 
characteristics, such as how water with dissolved radionuclides or 
colloidal particles might move through the unsaturated zone below the 
repository, how heat from the waste would affect waterflow through the 
site, and how water with dissolved radionuclides would move in the 
saturated zone 800 feet beneath the repository (assuming it could reach 
that depth).
    Consistent with 10 CFR 963.17, the Department also evaluated the 
lifestyle and habits of individuals who potentially could be exposed to 
radioactive material at a future time, based, as would be required by 
NRC licensing regulations,\49\ on representative current conditions. 
Currently, there are about 3,500 people who live in Amargosa Valley, 
the closest town to Yucca Mountain. They consume ground or surface 
water from. the immediate area through direct extraction or by eating 
plants that have grown in the soil. The Department therefore assumed 
that the ``reasonably maximally exposed individual''--that is, the 
hypothetical person envisioned to test whether the repository is likely 
to meet required radiation protection standards--likewise would drink 
water and eat agricultural products grown with water from the area, and 
built that assumption into its models.
---------------------------------------------------------------------------
    \49\ 10 CFR part 63.
---------------------------------------------------------------------------
    Using the models described above, as well as a host of others it 
generated taking account of other relevant features, events and 
processes that could affect the repository's performance, the 
Department developed a representative simulation of the behavior of the 
proposed Yucca Mountain site. It then considered thousands of 
possibilities about what might happen there. For example, it considered 
the possibility that waste packages might be manufactured defectively. 
It considered the possibility that the climate would change. It 
considered earthquakes. Our studies show that earthquakes probably will 
occur at Yucca Mountain sometime in the future. Because the occurrence 
of earthquakes is difficult to predict, our models conservatively treat 
earthquakes by assuming that they will occur over the next 10,000 
years.
    Essentially, if the Department believed that there was close to a 1 
in 10,000 per year probability of some potentially adverse occurrence 
in the course of the 10,000 year post-closure period (which comes to a 
probability close to one during the entire period) the Department 
considered that possibility, unless it concluded the occurrence would 
not affect the repository's performance. It then used the simulation 
model to calculate what the resulting dose would be based on each such 
possibility. Finally, it used the mean peak values of the results of 
these calculations to project the resulting dose.
    The Department then proceeded to consider the impact of disruptive 
events, such as volcanism, with a lower probability of occurrence, on 
the order of one in 10,000 over the entire 10,000 year period (meaning 
roughly a one in a 100 million per year of occurring during that time). 
This led it to analyze, for example, the effects that a volcano might 
have on the repository's waste containment capabilities. Scientists 
started with a careful analysis of the entire geologic setting of Yucca 
Mountain. Then, with substantial data on regional volcanoes, they used 
computer modeling to understand each volcanic center's controlling 
structures. Experts then estimated the likelihood of magma intruding 
into one of the repository's emplacement tunnels. The DOE estimates the 
likelihood of such an event's occurring during the first 10,000 years 
after repository closure to be one chance in about 70 million per year, 
or one chance in 7,000 over the entire period.
    Including volcanoes in its analyses, the TSPA results still 
indicate that the site meets the EPA standards.\50\ What the 
calculations showed is that the projected, probability-weighted maximum 
mean annual dose to an individual from the repository for the next 
10,000 years is one-tenth of a millirem. That is less than one-fifth of 
the dose an individual gets from a one-hour airplane flight. And it is 
less than one one-hundredth of the dose that DOE's Guidelines, using 
the EPA standards, specify as acceptable for assessing suitability.
---------------------------------------------------------------------------
    \50\ The results produced under volcanic scenarios are weighted by 
probability under the NRC method specified for how to treat low 
probability events. 10 CFR Part 63.
---------------------------------------------------------------------------
    Finally, in a separate assessment, analysts studied a hypothetical 
scenario under which people inadvertently intruded into the repository 
while drilling for water. The Guidelines' radiation protection 
standards, based on EPA and NRC rules, specify that as part of its 
Total System Performance Assessment, DOE should determine when a human-
caused penetration of a waste package could first occur via drilling, 
assuming the drillers were using current technology and practices and 
did not recognize that they had hit anything unusual. If such an 
intrusion could occur within 10,000 years, the 15 millirem dose limit 
would apply.
    DOE's analyses, however, indicate that unrecognized contact through 
drilling would not happen within 10,000 years. Under conditions that 
DOE believes can realistically be expected to exist at the repository, 
the waste packages are extremely corrosion-resistant for tens of 
thousands of years. Even under pessimistic assumptions, the earliest 
time DOE could even devise a scenario under which a waste package would 
be unnoticeable to a driller is approximately 30,000 years. Before 
then, the waste package structure would be readily apparent to a 
driller who hit it.
    Table 2 presents the summary results of the Total System 
Performance Assessment analyses and how they compare to the radiation 
protection standards.\51\
---------------------------------------------------------------------------
    \51\ Yucca Mountain Site Suitability Evaluation.
---------------------------------------------------------------------------
In Summary
    Using the methods and criteria set out in DOE's Yucca Mountain Site 
Suitability Guidelines, I am convinced that the Yucca Mountain site is 
scientifically suitable--in a word, safe--for development of a 
repository. Specifically, on the basis of the safety evaluation DOE has 
conducted pursuant to 10 CFR 963.13, it is my judgment that a 
repository at the site is likely to meet applicable radiation 
protection standards for the pre-closure period. And on the basis of 
the Total System Performance Assessment DOE has conducted pursuant to 
10 CFR 963.16, it is my judgment that a repository at the site is 
likely to meet applicable radiation protection standards for the post-
closure period as well. Additionally, I have evaluated the pre-closure 
suitability criteria of 10 CFR 963.14 and the post-closure suitability 
criteria of 10 CFR 963.17, and am convinced that the safety evaluations 
were done under the stringent standards required. Accordingly, I find 
the Yucca Mountain site suitable for development of a repository.
                        8. the national interest
    Having determined that the site is scientifically suitable, I now 
turn to the remaining factors I outlined above as bearing on my 
Recommendation. Are there compelling national interests favoring going 
forward with a repository at Yucca Mountain? If so, are there 
countervailing considerations of sufficient weight to overcome those 
interests? In this section I set out my conclusions on the first 
question. In section 9 I set out my views on the second.
8.1. Nuclear Science and the National Interest
    Our country depends in many ways on the benefits of nuclear 
science: in the generation of twenty percent of the Nation's 
electricity; in the operation of many of the Navy's most strategic 
vessels; in the maintenance of the Nation's nuclear weapons arsenal; 
and in numerous research and development projects, both medical and 
scientific. All these activities produce radioactive wastes that have 
been accumulating since the mid-1940s. They are currently scattered 
among 131 sites in 39 states, residing in temporary surface storage 
facilities and awaiting final disposal. In exchange for the many 
benefits of nuclear power, we assume the cost of managing its 
byproducts in a responsible, safe, and secure fashion. And there is a 
near-universal consensus that a deep geologic facility is the only 
scientifically credible, long-term solution to a problem that will only 
grow more difficult the longer it is ignored.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

8.2. Energy Security
    Roughly 20 percent of our country's electricity is generated from 
nuclear power. This means that, on average, each home, farm, factory, 
and business in America runs on nuclear fuel for a little less than 
five hours a day.
    A balanced energy policy--one that makes use of multiple sources of 
energy, rather than becoming dependent entirely on generating 
electricity from a single source, such as natural gas--is important to 
economic growth. Our vulnerability to shortages and price spikes rises 
in direct proportion to our failure to maintain diverse sources of 
power. To assure that we will continue to have reliable and affordable 
sources of energy, we need to preserve our access to nuclear power.
    Yet the Federal government's failure to meet its obligation to 
dispose of spent nuclear fuel under the NWPA--as it has been supposed 
to do starting in 1998--is placing our access to this source of energy 
in jeopardy. Nuclear power plants have been storing their spent fuel on 
site, but many are running out of space to do so. Unless a better 
solution is found, a growing number of these plants will not be able to 
find additional storage space and will be forced to shut down 
prematurely. Nor are we likely to see any new plants built.
    Already we are facing a growing imbalance between our projected 
energy needs and our projected supplies. The loss of existing electric 
generating capacity that we will experience if nuclear plants start 
going off-line would significantly exacerbate this problem, leading to 
price spikes and increased electricity rates as relatively cheap power 
is taken off the market. A permanent repository for spent nuclear fuel 
is essential to our continuing to count on nuclear energy to help us 
meet our energy demands.
8.3. National Security
            8.3.1. Powering the Navy Nuclear Fleet
    A strong Navy is a vital part of national security. Many of the 
most strategically important vessels in our fleet, including submarines 
and aircraft carriers, are nuclear powered. They have played a major 
role in every significant military action in which the United States 
has been involved for some 40 years, including our current operations 
in Afghanistan. They are also essential to our nuclear deterrent. In 
short, our nuclear-powered Navy is indispensable to our status as a 
world power.
    For the nuclear Navy to function, nuclear ships must be refueled 
periodically and the spent fuel removed. The spent fuel must go 
someplace. Currently, as part of a consent decree entered into between 
the State of Idaho and the Federal Government, this material goes to 
temporary surface storage facilities at the Idaho National 
Environmental and Engineering Laboratory. But this cannot continue 
indefinitely, and indeed the agreement specifies that the spent fuel 
must be removed. Failure to establish a permanent disposition pathway 
is not only irresponsible, but could also create serious future 
uncertainties potentially affecting the continued capability of our 
Naval operations.
            8.3.2. Allowing the Nation to Decommission Its Surplus 
                    Nuclear Weapons and Support Nuclear Non-
                    Proliferation Efforts
    A decision now on the Yucca Mountain repository is also important 
in several ways to our efforts to prevent the proliferation of nuclear 
weapons. First, the end of the Cold War has brought the welcome 
challenge to our country of disposing of surplus weapons-grade 
plutonium as part of the process of decommissioning weapons we no 
longer need. Current plans call for turning the plutonium into ``mixed-
oxide'' or ``MOX'' fuel. But creating MOX fuel as well as burning the 
fuel in a nuclear reactor will generate spent nuclear fuel, and other 
byproducts which themselves will require somewhere to go. A geological 
repository is critical to completing disposal of these materials. Such 
complete disposal is important if we are to expect other nations to 
decommission their own weapons, which they are unlikely to do unless 
persuaded that we are truly decommissioning our own.
    A repository is important to non-proliferation for other reasons as 
well. Unauthorized removal of nuclear materials from a repository will 
be difficult even in the absence of strong institutional controls. 
Therefore, in countries that lack such controls, and even in our own, a 
safe repository is essential in preventing these materials from falling 
into the hands of rogue nations. By permanently disposing of nuclear 
weapons materials in a facility of this kind, the United States would 
encourage other nations to do the same.
8.4. Protecting the Environment
    An underground repository at Yucca Mountain is important to our 
efforts to protect our environment and achieve sustainable growth in 
two ways. First, it will allow us to dispose of the radioactive waste 
that has been building up in our country for over fifty years in a safe 
and environmentally sound manner. Second, it will facilitate continued 
use and potential expansion of nuclear power, one of the few sources of 
electricity currently available to us that emits no carbon dioxide or 
other greenhouse gases.
    As to the first point: While the Federal government has long 
promised that it would assume responsibility for nuclear waste, it has 
yet to start implementing an environmentally sound approach for 
disposing of this material. It is past time for us to do so. The 
production of nuclear weapons at the end of the Second World War and 
for many years thereafter has resulted in a legacy of high-level 
radioactive waste and spent fuel, currently located in Tennessee, 
Colorado, South Carolina, New Mexico, New York, Washington, and Idaho. 
Among these wastes, approximately 100,000,000 gallons of high-level 
liquid waste are stored in, and in some instances have leaked from, 
temporary holding tanks. In addition to this high-level radioactive 
waste, about 2,100 metric tons of solid, unreprocessed fuel from a 
plutonium-production reactor are stored at the Hanford Nuclear 
Reservation, with another 400 metric tons stored at other DOE sites.
    In addition, under the NWPA, the Federal government is also 
responsible for disposing of spent commercial fuel, a program that was 
to have begun in 1998, four years ago. More than 161 million Americans, 
well more than half the population, reside within 75 miles of a major 
nuclear facility--and, thus, within 75 miles of that facility's aging 
and temporary capacity for storing this material. Moreover, because 
nuclear reactors require abundant water for cooling, on-site storage 
tends to be located near rivers, lakes, and seacoasts. Ten closed 
facilities, such as Big Rock Point, on the banks of Lake Michigan, also 
house spent fuel and incur significant annual costs without providing 
any ongoing benefit. Over the long-term, without active management and 
monitoring, degrading surface storage facilities may pose a risk to any 
of 20 major U.S. lakes and waterways, including the Mississippi River. 
Millions of Americans are served by municipal water systems with 
intakes along these waterways. In recent letters, Governors Bob Taft of 
Ohio \52\ and John Engler of Michigan \53\ raised concerns about the 
advisability of long-term storage of spent fuel in temporary systems so 
close to major bodies of water. The scientific consensus is that 
disposal of this material in a deep underground repository is not 
merely the safe answer and the right answer for protecting our 
environment but the only answer that has any degree of realism.
---------------------------------------------------------------------------
    \52\ Letter, Governor Bob Taft to Secretary Spencer Abraham, July 
30, 2001.
    \53\ Letter, Governor John Engler to Secretary Spencer Abraham, 
September 5, 2001.
---------------------------------------------------------------------------
    In addition, nuclear power is one of only a few sources of power 
available to us now in a potentially plentiful and economical manner 
that could drastically reduce air pollution and greenhouse gas 
emissions caused by the generation of electricity. It produces no 
controlled air pollutants, such as sulfur and particulates, or 
greenhouse gases. Therefore, it can help keep our air clean, avoid 
generation of ground-level ozone, and prevent acid rain. A repository 
at Yucca Mountain is indispensable to the maintenance and potential 
expansion of the use of this environmentally efficient source of 
energy.
8.5. Facilitating Continuation of Research, Medical, and Humanitarian 
        Programs
    The Department has provided fuel for use in research reactors in 
domestic and foreign universities and laboratories. Research reactors 
provide a wide range of benefits including the production of 
radioisotopes for medical use--e.g., in body-scan imaging and the 
treatment of cancer. To limit the risk to the public, and to support 
nuclear non-proliferation objectives, these laboratories are required 
to return the DOE-origin spent fuel from domestic research reactors and 
from foreign research reactors. These spent fuels are temporarily 
stored at Savannah River, South Carolina, and at the Idaho National 
Engineering and Environmental Laboratory while awaiting disposal in a 
permanent repository.
    Again, we can either implement a permanent solution--Yucca 
Mountain--or risk eroding our capacity to conduct this kind of 
research. The chances of a person becoming sick from the nuclear 
materials to be stored at the Yucca Mountain site are, as shown above, 
all but nonexistent. Responsible critics must balance that against the 
chance of a person becoming sick as a result of the research that may 
not be undertaken, remaining sick for want of the drug that may not be 
found, or dying for lack of the cure that may not be developed--all 
because the nuclear fuel-dependent science that could produce these 
things was never done, our country having run out of places to dispose 
of the waste.
8.6. Assisting Anti-Terrorism at Home
    As I have noted previously, spent fuel and other high level 
radioactive waste is presently stored at temporary storage facilities 
at 131 locations in 39 states. Ten of these are at shutdown reactor 
sites for which security would not otherwise be required. Moreover, 
many reactors are approaching their storage capacity and are likely to 
seek some form of off-site storage, thereby creating potential new 
targets.
    Storage by reactor-owners was intended to be a temporary 
arrangement. The design of the storage facilities reflects that fact. 
They tend to be less secured than the reactors themselves, and the 
structures surrounding the fuel stored in above-ground containers are 
also less robust.
    These storage, facilities should be able to withstand current 
threats. But as the determination and sophistication of terrorists 
increases, that may well change. That means we will have to choose one 
of two courses. We can continue to endeavor to secure each of these 
sites, many of which, as noted above, are close to major metropolitan 
areas and waterways. Or we can consolidate this fuel in one remote, 
secure, arid underground location and continue to develop state-of-the-
art security arrangements to protect it there.
    To me the choice is clear. The proposed geologic repository in the 
desert at Yucca Mountain offers unique features that make it far easier 
to secure against terrorist threats. These include: 1) disposal 800 
feet below ground; 2) remote location; 3) restricted access afforded by 
Federal land ownership of the Nevada Test Site; 4) proximity to Nellis 
Air Force Range; 5) restricted airspace above the site; 6) far from any 
major waterways. The design and operation of a geologic repository, 
including surface operations, can also incorporate from the beginning 
appropriate features to protect against a terrorist threat and can be 
changed, if necessary, to respond to future changes in the terrorist 
threat.
    An operational repository will also be an important signal to other 
nuclear countries, none of which have opened a repository. Inadequately 
protected nuclear waste in any country is a potential danger to us, and 
we can't expect them to site a facility if we, with more resources, 
won't. A fresh look at nuclear material security should involve new 
concepts such as those inherent in a geologic repository, and should 
set the standard for the manner in which the international community 
manages its own nuclear materials.
    To understand Yucca Mountain's relative advantage in frustrating 
potential terrorist attacks compared to the status quo, one need only 
ask the following: If nuclear materials were already emplaced there, 
would anyone even suggest that we should spread them to 131 sites in 39 
states, at locations typically closer to major cities and waterways 
than Yucca Mountain is, as a means of discouraging a terrorist attack?
8.7. Summary
    In short, there are important reasons to move forward with a 
repository at Yucca Mountain. Doing so will advance our energy security 
by helping us to maintain diverse sources of energy supply. It will 
advance our national security by helping to provide operational 
certainty to our nuclear Navy and by facilitating the decomissioning of 
nuclear weapons and the secure disposition of nuclear materials. It 
will help us clean up our environment by allowing us to close the 
nuclear fuel cycle and giving us greater access to a form of energy 
that does not emit greenhouse gases. And it will help us in our efforts 
to secure ourselves against terrorist threats by allowing us to remove 
nuclear materials from scattered above-ground locations to a single, 
secure underground facility. Given the site's scientific and technical 
suitability, I find that compelling national interests counsel in favor 
of taking the next step toward siting a repository at Yucca Mountain.
  9. none of the arguments against yucca mountain withstands analysis
    After explained above, after months of study based on research 
unique in its scope and depth, I have concluded that the Yucca Mountain 
site is fully suitable under the most cautious standards that 
reasonably might be applied. I have also concluded that it serves the 
national interest in numerous important ways. The final question I 
shall examine is whether the arguments against its designation not rise 
to a level that outweighs the case for going forward. I believe they do 
not, as I shall explain. I do so by briefly describing these principle 
arguments made by opponents of the Project, and then responding to 
them.
9.1. Assertion 1: The Citizens of Nevada Were Denied an Adequate 
        Opportunity to Be Heard
    Critics have claimed that the decision-making process under the 
NWPA was unfair because it allowed insufficient opportunity for public 
input, particularly from the citizens of Nevada. That is not so. There 
was ample opportunity for public discussion and debate; the Department 
in fact went well beyond the Act's requirements in providing notice and 
the opportunity to be heard.
    My predecessors and I invited and encouraged public, governmental, 
and tribal participation at all levels. The Department also made 
numerous Yucca Mountain documents available to the public. These 
included several specifically prepared to inform any who might be 
interested of the technical information and analyses that I would have 
before me as I considered the suitability of the site. There was no 
statutory requirement for producing these documents; I considered it 
important to make them available, and thus to provide a timely sharing 
of information that would form the basis of my consideration and, 
ultimately, decision.
    To assist in discharging part of the Secretarial responsibilities 
created by the Act, the Department conducted official public meetings 
before starting the Environmental Impact Statement. Subsequently, the 
Department held a total of 24 public hearings on the draft and the 
supplemental draft Environmental Impact Statements. With the release of 
the Yucca Mountain Science and Engineering Report in May 2001, the DOE 
opened a public comment period lasting approximately six months; the 
period continued through the release of the Preliminary Site 
Suitability Evaluation in July 2001 and closed on October 19, 2001. 
After publishing DOE's final rule, ``Yucca Mountain Site Suitability 
Guidelines,'' on November 14, 2001, 1 announced an additional 30-day 
supplemental comment period with a closing date of December 14, 2001. 
During these combined public comment periods, the DOE held 66 
additional public hearings across Nevada and in Inyo County, 
California, to receive comments on my consideration of a possible 
recommendation of the Yucca Mountain site. More than 17,000 comments 
were received.\54\
---------------------------------------------------------------------------
    \54\ Comment Summary Document and Supplemental Comment Summary 
Document, February 2002.
---------------------------------------------------------------------------
    The lengths to which the Department went to solicit public comment 
can be seen in the details: from 1995 through 2001, there were 126 
official hearings with a court reporter present. The Nevada cities 
where these hearings were held included: Amargosa Valley, Battle 
Mountain, Caliente, Carson City, Crescent Valley, Elko, Ely, Fallon, 
Gardnerville, Goldfield, Hawthorne, Las Vegas, Lovelock, Pahrump, Reno, 
Tonopah, Virginia City, Winnemucca, and Yerington. Elsewhere, meetings 
were held in Independence, Lone Pine, Sacramento, and San Bernardino in 
California; Washington, DC; Boise, ID; Chicago, IL; Denver, CO; Dallas/
Ft. Worth, TX; Salt Lake City, UT; Baltimore, MD; Albany, NY; Atlanta, 
GA; Kansas City, MO.; Cleveland, OH; and St. Louis, MO.
    There were 600 hours of public meetings for the 2001 hearings 
alone. All in all, there were a total of 528 comment days, or about a 
year and a half. Additionally, the science centers were open for 340 
hours (both with and without court reporter) to receive comments. Since 
1991, there have been 2,062 tours of Yucca Mountain, and 49,073 
visitors have been to the site.
    In light of the extensive opportunities DOE has provided for public 
input, it is my judgment that the opportunities for hearing and 
consideration of comments were abundant and met any procedural measure 
of fairness.
9.2. Assertion 2: The Project Has Received Inadequate Study
    Critics have said that there has been inadequate study to determine 
Yucca Mountain's suitability. To the contrary, and as I believe section 
6 of this Recommendation makes clear at length, the characterization 
process at Yucca Mountain is unprecedented for any even remotely 
comparable undertaking. Indeed, Yucca Mountain studies have now been 
under way for nearly five times as long as it took to build the Hoover 
Dam and more than six times the entire duration of the Manhattan 
Project. Yucca Mountain is, by any measure, the most exhaustively 
studied project of its kind the world has ever known.
    Beginning in 1978 and continuing to the present day, the Department 
has spent billions of dollars on characterization studies. There has 
been ongoing dialogue between the Department and the NRC over the 
goals, content and results of the test programs. As noted, there have 
been ample opportunities for public involvement. At this still early 
stage, and with many more years before the Yucca Mountain site could 
become operational, the request for yet more preliminary study, even 
before seeking a license from the NRC, is unsupportable. Additional 
study will be undertaken at stages to come as an appropriate part of 
the licensing process.
    For these reasons, I have concluded that the current body of 
accumulated scientific and technical knowledge provides a more than 
adequate technical basis to designate the Yucca Mountain site, thereby 
beginning the licensing phase of the project. For convenience, a 
listing of the types of tests that have been performed is provided in 
Table 3.
9.3 Assertion 3: The Rules Were Changed in the Middle of the Game
    The State of Nevada claims that at some point the Department 
concluded that Yucca Mountain was not suitable under earlier 
regulations, and then changed the rules to fit the site. That is not 
true. Even the most elementary knowledge of the history of the program 
shows this claim is baseless.
    The Guidelines did change, but not in a way that disadvantaged 
critics from making their case, and certainly not to suit any pre-
existing agenda at the Department. Rather, they were changed to conform 
to changes in the statutory and regulatory framework governing the 
siting process and in the scientific consensus regarding the best 
approach for assessing the likely performance of a repository over long 
periods of time.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The DOE's original siting Guidelines were promulgated in 1984. At 
the time, the Nuclear Waste Policy Act called on the Department to 
evaluate and characterize multiple sites and to recommend one or more 
among them. Also at the time, consistent with the scientific and 
regulatory consensus of the late 1970's, the Nuclear Regulatory 
Commission had in place regulations for licensing repositories that 
sought to protect against radioactive releases by focusing on the 
performance of individual subparts, or subsystems, that were part of 
the repository. Finally, the EPA had proposed rules for repositories 
that also focused on limiting the amount and type of radionuclides 
released from a repository. Consistent with this framework, DOE's 
Guidelines focused on making comparative judgments among sites and 
emphasized mechanisms for evaluating the performance of potential 
repository subsystems against the NRC subsystem performance 
requirements and the EPA release limits.
    Starting in 1987, however, both the regulatory framework and 
scientific consensus began to change. To begin with, Congress changed 
the law governing evaluation and selection of a repository site. In 
1987, it amended the Nuclear Waste Policy Act to eliminate any 
authority or responsibility on the part of the Department for comparing 
sites, directed the Department to cease all evaluation of any potential 
repository sites other than Yucca Mountain, and directed it to focus 
its efforts exclusively on determining whether or not to recommend the 
Yucca Mountain site. This change was important, as it eliminated a 
central purpose of the Guidelines--to compare and contrast multiple 
fully characterized sites for ultimate selection of one among several 
for recommendation.
    Next, Congress reinforced its directive to focus on Yucca Mountain 
in section 801 of the Energy Policy Act of 1992. This provision also 
gave three new directives to EPA. First, it directed EPA, within 90 
days of enactment, to contract with the National Academy of Sciences 
for a study regarding, among other topics, whether a specific kind of 
radiation protection standard for repositories would be protective of 
public health and safety. The question posed was whether standards 
prescribing a maximum annual effective dose individuals could receive 
from the repository--as opposed to the then-current standards EPA had 
in place focusing on releases--would be reasonable standards for 
protecting health and safety at the Yucca Mountain site. Second, 
Congress directed EPA, consistent with the findings and recommendations 
of the Academy, to promulgate such standards no later than one year 
after completion of the Academy's study. Finally, it directed that such 
standards, when promulgated, would be the exclusive public health and 
safety standards applicable to the Yucca Mountain site. Section 801 
also contained a directive to the NRC that, within a year after EPA's 
promulgation of the new standards, NRC modify its licensing criteria 
for repositories under the NWPA as necessary to be consistent with the 
EPA standards.
    Pursuant to the section 801 directive, in 1995 the National Academy 
of Sciences published a report entitled ``Technical Bases for Yucca 
Mountain Standards.'' \56\ This report concluded that dose standards 
would be protective of public health and safety.\57\ It also concluded 
that if EPA adopted this kind of standard, it would be appropriate for 
the NRC to revise its licensing rules, which currently focused on 
subsystem performance, to focus instead on the performance of the total 
repository system, including both its engineered and natural barriers. 
It noted that this would be a preferable approach because it was the 
performance of the entire repository, not the different subsystems, 
that was crucial, and that imposition of separate subsystem performance 
requirements might result in suboptimal performance of the repository 
as a whole.\58\ Finally, National Academy of Sciences noted that its 
recommendations, if adopted, ``impl[ied] the development of regulatory 
and analytical approaches for Yucca Mountain that are different from 
those employed in the past'' whose promulgation would likely require 
more than the one-year timeframe specified in the Energy Policy Act of 
1992.
---------------------------------------------------------------------------
    \56\ Technical Bases for Yucca Mountain Standards, National Academy 
of Sciences, National Research Council, 1995.
    \57\ Ibid.
    \58\ Ibid.
---------------------------------------------------------------------------
    Along with these changes in regulatory thinking, the scientific and 
technical understanding of repository performance at Yucca Mountain was 
advancing. The DOE's use of Total System Performance Assessment to 
evaluate repository performance became more sophisticated, and helped 
focus DOE's research work on those areas important to maximizing the 
safety of the repository and minimizing public exposure to radionuclide 
releases from the repository.
    In 1999, the culmination of years of scientific and technical 
advancements and careful regulatory review resulted in EPA and NRC 
proposals for new regulations specific to a repository at Yucca 
Mountain based on state-of-the-art science and regulatory 
standards.\59\ Since section 113(c) of the NWPA directed DOE to focus 
its site characterization activities on those necessary to evaluate the 
suitability of the site for a license application to the NRC, the 
proposed changes to the EPA and NRC rules in turn required DOE to 
propose modifications to its criteria and methodology for determining 
the suitability of the Yucca Mountain site. Accordingly, DOE proposed 
new state-of-the-art Yucca-Mountain-specific site suitability 
Guidelines consistent with NRC licensing regulations.\60\ After EPA and 
NRC finalized their revisions,\61\ DOE promptly finalized its own.\62\ 
For the reasons explained in the National Academy of Sciences study, 
the revised Guidelines' focus on the performance of the total 
repository system also makes them a better tool for protection of 
public safety than the old Guidelines, since the old subsystem approach 
might have resulted in a repository whose subsystems performed better 
in one or another respect but whose total performance in protecting 
human health was inferior.
---------------------------------------------------------------------------
    \59\ Disposal of High-Level Radioactive Wastes in a Proposed 
Geological Repository at Yucca Mountain, Nevada, Proposed Rule, 64 Fed. 
Reg. 8640, February 22, 1999; Environmental Radiation Protection 
Standards for Yucca Mountain, Nevada, Proposed Rule, 64 Fed. Reg. 
46975, August 27, 1999.
    \60\ General Guidelines for the Recommendation of Sites for Nuclear 
Waste Repositories, Yucca Mountain Site Suitability Guidelines, 64 Fed. 
Reg. 67054, November 30, 1999.
    \61\ Public Health and Environmental Radiation Protection Standards 
for Yucca Mountain, Nevada, Final Rule, 66 FR 32073, June 13, 2001; 
Disposal of High-Level Radioactive Wastes in a Proposed Geologic 
Repository at Yucca Mountain, Nevada; Final Rule, 66 FR 55732, November 
2, 2001.
    \62\ General Guidelines for the Recommendation of Sites for Nuclear 
Waste Repositories, Yucca Mountain Site Suitability Guidelines, Final 
Rule, 66 Fed. Reg. 57303, November 14, 2001.
---------------------------------------------------------------------------
    In short, far from seeking to manipulate its siting Guidelines to 
fit the site, DOE had no choice but to amend its Guidelines to conform 
with the new regulatory framework established at Congress's direction 
by the National Academy of Sciences, the EPA, and the NRC. Moreover, 
this framework represents the culmination of a carefully considered set 
of regulatory decisions initiated at the direction of the Congress of 
the United States and completed nine years later, in which top 
scientists in the country have participated, and in which expert 
regulatory authorities, the NRC and the EPA, have played the leading 
role. These authorities likewise agree that the new regulatory 
framework, of which the Department's revised Guidelines are a necessary 
part, forms a coherent whole well designed to protect the health and 
safety of the public.
9.4. Assertion 4: The Process Tramples States' Rights
    Some have argued that a Federal selection of siting disrespects 
states' rights. That is incorrect. Indeed, Nevada's interests have been 
accorded a place in Federal law to an extent seldom, if ever, seen 
before.
    As provided by the NWPA, the State of Nevada has the right to veto 
any Presidential site recommendation. It may do so by submitting a 
notice of disapproval to Congress within 60 days of the President's 
action.
    If Nevada submits a notice of disapproval, Congress has 90 calendar 
days of continuous session to override the notice by passing a 
resolution of siting designation. If it does not do so, the State's 
disapproval becomes effective.
    The respect due Nevada has not stopped with grudging obedience to 
the statutory commands. Instead, as noted previously, the Department 
has held hearings over a range of dates and places well in excess of 
what reasonably could have been viewed as a statutory mandate. And I 
have taken full account of Governor Guinn's comment and those of 
Nevada's other elected officials who oppose this Project. Although they 
reflect a view I do not share, I will continue to accord them the 
highest degree of respect.
    Finally, the Federal Government has appropriated more funds to 
Nevada to conduct its own Yucca Mountain studies than any other State 
has ever been given for any remotely similar purpose. Since the start 
of the Program in 1983, the State of Nevada has received over $78 
million in oversight funding. Since 1989, when the affected units of 
local government requested oversight funding, they have received over 
$67 million. In total, the State of Nevada and the affected units of 
local government have received over $145 million over that timeframe; 
with Nye County, home to Yucca Mountain, receiving over $22 million and 
Clark County, home to Las Vegas, receiving about $25 million. In 
addition, over the last 10 years, the State of Nevada and the affected 
units of local government have been given over $73 million to 
compensate for taxes they would have collected on the site 
characterization and the development and operation of a repository if 
they were legally authorized to tax activities of the Federal 
Government. Nye County has also conducted its own oversight drilling 
program since 1996, for which over that time Nye has received almost 
$21 million. Thus, the grand total that has been awarded to the state 
and its local governments simply on account of Yucca Mountain research 
has been nearly $240 million.
    Given the extensive evidence that the state has been, and will be, 
accorded a degree of involvement and authority seldom if ever accorded 
under similar circumstances, it is my judgment that the assertion of an 
infringement on state's rights is incorrect.
9.5. Assertion 5: Transportation of Nuclear Materials is Disruptive and 
        Dangerous
    Critics have argued that transporting wastes to Yucca Mountain is 
simply too dangerous, given the amount involved and the distances that 
will need to be traversed, sometimes near population centers.
    These concerns are not substantiated for three principal reasons. 
First, they take no account of the dangers of not transporting the 
wastes and leaving them to degrade and/or accumulate in their present, 
temporary facilities. Second, they pay no heed to the fact that, if the 
Yucca Mountain repository is not built, some wastes that would have 
been bound for that location will have to be transported elsewhere, 
meaning that our real choice is not between transporting or not 
transporting, but between transporting with as much planning and safety 
as possible, or transporting with such organization as the moment might 
invite. And third, they ignore the remarkable record of safe 
transportation of nuclear materials that our country has achieved over 
more than three decades.
    The first point is not difficult to understand. The potential 
hazards of transporting wastes are made to appear menacing only by 
ignoring the potential hazards of leaving the material where it is--at 
131 aging surface facilities in 39 states. Every ton of waste not 
transported for five or ten minutes near a town on the route to Yucca 
Mountain is a ton of waste left sitting in or near someone else's 
town--and not for five or ten minutes but indefinitely. Most of the 
wastes left where they are in or near dozens of towns (and cities) 
continue to accumulate day-by-day in temporary facilities not intended 
for long-term storage or disposal.
    The second point is also fairly simple. Many of these older sites 
have reached or will soon reach pool storage limits. Over 40 are 
projected to need some form of dry storage by 2010. Additional 
facilities will therefore be required. There are real limits, however, 
to how many of these can realistically be expected to be built on site. 
Many utilities do not have the space available to build them, and are 
likely to face major regulatory hurdles in attempting to acquire it.
    Therefore one way or another, unless all these reactors shut down, 
off-site storage facilities will need to be built, substantial amounts 
of waste will have to be transported there, and this will happen not in 
the distant future but quite soon. For example, today nuclear utilities 
and a Native American tribe in Utah are working toward construction of 
an ``interim'' storage facility on tribal land. Whether or not this 
effort ultimately succeeds, it is likely that some similar effort will. 
Thus, if we are merely to keep our present supply of nuclear energy, at 
some fast-approaching point there will be transportation of nuclear 
wastes. The only question is whether we will have (a) numerous 
supplemental storage sites springing up, with transportation to them 
arranged ad hoc, or (b) one permanent repository, with transportation 
to it arranged systematically and with years of advance planning. The 
second alternative is plainly preferable, making the Yucca Mountain 
plan superior on this ground alone.
    Finally, transportation of nuclear waste is not remotely the risky 
venture Yucca's critics seek to make it out to be. Over the last 30 
years, there have been over 2,700 shipments of spent nuclear fuel. 
Occasional traffic accidents have occurred, but there has not been one 
identifiable injury related to radiation exposure because of them. In 
addition, since 1975, or since the last stages of the war in Vietnam, 
national security shipments have traveled over 100 million miles--more 
than the distance from here to the sun--with no accidents causing a 
fatality or harmful release of radioactive material.\63\
---------------------------------------------------------------------------
    \63\ About the Transportation Safeguards System, Office of 
Transportation Safeguards Fact Sheet.
---------------------------------------------------------------------------
    Our safety record is comparable to that in Europe, where nuclear 
fuel has been transported extensively since 1966.\64\ Over the last 25 
years, more than 70,000 MTU (an amount roughly equal to what is 
expected to be shipped over the entire active life of the Yucca 
Mountain Project) has been shipped in approximately 20,000 casks. 
France and Britain average 650 shipments per year, even though the 
population density in each of those countries grossly exceeds that of 
the United States.
---------------------------------------------------------------------------
    \64\ Presentation by Ronald Pope, Head of Transport Safety Unit for 
the Internal Atomic Energy Agency, at 13th International Symposium for 
Packing of Radioactive Materials 2001, Chicago, IL, September 2001.
---------------------------------------------------------------------------
    Even so, we need not, and should not, be content to rest upon the 
record of the past no matter how good. For transportation to Yucca 
Mountain, the Department of Transportation has established a process 
that DOE and the states must use for evaluating potential routes. 
Consistent with Federal regulations, the NRC would approve all routes 
and security plans and would certify transportation casks prior to 
shipment.
    In short, for all these reasons, I have concluded that the stated 
concerns about transportation are ill-founded and should not stand in 
the way of taking the next step toward designation of the Yucca 
Mountain site.
9.6. Assertion 6: Transportation of Wastes to the Site Will Have a 
        Dramatically Negative Economic Impact on Las Vegas
    There have been repeated assertions that shipments of radioactive 
waste through the Las Vegas valley could have effects on the local, 
entertainment-based, economy. Such effects could include, for example, 
discouraging tourism and lowering property values. These assertions are 
largely unsupportable by any evidence and are addressed in the Final 
Environmental Impact Statement.
    Much of what has been said in the preceding section applies here as 
well. The record speaks for itself. In addition to the history of safe 
shipment on interstate highways through relatively open spaces, five 
metric tons of spent nuclear fuel from 27 countries have, over the last 
16 years, been transported without incident through Concord, 
California, and Charleston, South Carolina (the latter, like Las Vegas, 
a tourist destination). There is no reason to believe that a similar 
safe record will not be achieved in Nevada.
    The truth of it is that many tourists coming to Las Vegas will be 
farther from nuclear sites when they get there than when they left 
home. All major nuclear power generation facilities in the United 
States are located near large metropolitan centers in order to minimize 
the amount of power lost during transmission. It is thus not surprising 
that more than 161 million Americans are closer to a commercial nuclear 
facility than anyone in Las Vegas is to Yucca Mountain, as shown in 
Table 4. Indeed there are few large metropolitan centers that do not 
have a major nuclear facility located within 75 miles.\65\
---------------------------------------------------------------------------
    \65\ It is noteworthy that Atlantic City has three reactor sites 
closer than 75 miles at the same time its tourism-based economy has 
been expanding. Yucca Mountain, by contrast, would be one of the few 
nuclear facilities in the country in a remote area with no metropolitan 
center within 75 miles
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Many cities with strong tourism industries are located closer to 
existing storage facilities than Las Vegas would be to a repository at 
Yucca Mountain. Therefore, those who assert that a repository 90 miles 
from Las Vegas would have dramatically negative effects on local 
tourism have the burden of producing strong evidence to back up their 
claims. They have not done so. Thus, I know of no reason to believe 
that there is any compelling argument that the Las Vegas economy would 
be harmed by a repository at Yucca Mountain.
9.7. Assertion 7: It is Premature for DOE to Make a Site Recommendation 
        for Various Reasons
            9.7.1. The General Accounting Office has concluded that it 
                    is premature for DOE to make a site recommendation 
                    now
    The GAO did make this statement in its draft report, Technical, 
Schedule, and Cost Uncertainties of the Yucca Mountain Repository 
Project, which was prematurely released.\66\ After receiving the 
Department's response, however, in the final version of this report, 
released in December 2001, GAO expressly acknowledged that ``the 
Secretary has the discretion to make such a recommendation at this 
time.'' \67\
---------------------------------------------------------------------------
    \66\ Nuclear Waste: Technical, Schedule, and Cost Uncertainties of 
the Yucca Mountain Repository Project, Unpublished Draft.
    \67\ Nuclear Waste: Technical, Schedule, and Cost Uncertainties of 
the Yucca Mountain Repository Project, GAO-02-191, December 21, 2001.
---------------------------------------------------------------------------
            9.7.2. DOE is not ready to make a site recommendation now 
                    because DOE and NRC have agreed on 293 technical 
                    items that need to be completed before DOE files a 
                    license application
    The Nuclear Regulatory Commission provided a sufficiency letter to 
DOE on November 13, 2001, that concluded that existing and planned 
work, upon completion, would be sufficient to apply for a construction 
authorization. The agreed upon course of action by DOE and the NRC is 
intended to assist in the license application phase of the project, not 
site recommendation. In consultation with the Nuclear Regulatory 
Commission staff concerning licensing, DOE agreed it would obtain 
certain additional information relating to nine ``key technical 
issues'' to support license application. The DOE agreed to undertake 
293 activities that would assist in resolution of these issues.
    The NRC has never stated that this was work that DOE needed to 
complete before site recommendation. In fact, it went out of its way 
not to do so. The Commission is well aware that section 114(a)(1)(E) of 
the NWPA requires a Secretarial recommendation of Yucca Mountain to be 
accompanied by a letter from the Commission providing its preliminary 
comments on the sufficiency of the information the Department has 
assembled for a construction license application. Had it been of the 
view that site recommendation should not proceed, its preliminary views 
would have stated that this information is not sufficient and that the 
Commission has no confidence that it ever will be.
    Instead, in its section 114(a)(1)(E) letter, the Commission said 
the opposite: ``[T]he NRC believes that sufficient at-depth 
characterization analysis and waste form proposal information, although 
not available now, will be available at the time of a potential license 
application such that development of an acceptable license application 
is achievable'' (emphasis added). It also listed the outstanding issues 
as ``closed pending,'' meaning that the NRC staff has confidence that 
DOE's proposed approach, together with the agreement to provide 
additional information, acceptably addresses the issue so that no 
information beyond that provided or agreed to would likely be required 
for a license application.
    The DOE has completed over one-third of the actions necessary to 
fulfill the 293 agreements and has submitted the results to the NRC for 
review. The NRC has documented 23 of these as ``complete.'' The 
remaining work consists largely of documentation (improve technical 
positions and provide additional plans and procedures) and confirmation 
(enhance understanding with additional testing or analysis or 
additional corroboration of data or models).
    As I explained earlier, the NWPA makes clear that site 
recommendation is an intermediate step. The filing of a construction 
license application is the step that comes after site recommendation is 
complete. It is entirely unsurprising that the Department would have to 
do additional work before taking that next step. But the fact that the 
next step will require additional work is no reason not to take this 
one.
            9.7.3. It is premature for DOE to make a recommendation now 
                    because DOE cannot complete this additional work 
                    until 2006. The NWPA requires DOE to file a license 
                    application within 90 days of the approval of site 
                    designation
    When Congress enacted the NWPA in 1982, it included in the Act a 
series of deadlines that represented its best judgment regarding how 
long various steps should take. These deadlines included the 90-day 
provision referenced above. They also included a requirement that DOE 
begin disposing of waste in 1998, in the expectation that a repository 
would by then have been built and licensed.
    Obviously, the timeframes set in the Act have proven to be 
optimistic. That is no reason, however, for the Department not to honor 
what was plainly their central function: to move along as promptly and 
as responsibly as possible in the development of a repository. 
Accordingly, to read the 90-day provision at issue as a basis for 
proceeding more slowly stands the provision on its head.
    Our current plans call for filing a license application at the end 
of 2004, not 2006. Assuming Congressional action on this question this 
year, that would mean that DOE could be two years late in filing the 
application. But any delay in site recommendation will only result in 
further delay in the filing of this application. For the reasons 
explained in section 7,1 believe I have the information necessary to 
allow me to determine that the site is scientifically and technically 
suitable, and I have so determined. That being so, I am confident that 
I best honor the various deadlines set out in the Act, including the 
central 1998 deadline (already passed) specifying when the Department 
was to begin waste disposal, by proceeding with site recommendation as 
promptly as I can after reaching this conclusion.
                             10. conclusion
    As I explained at the outset of this document, the Nuclear Waste 
Policy Act vests responsibilities for deciding how this country will 
proceed with regard to nuclear waste in a number of different Federal 
and state actors. As Secretary of Energy, I am charged with making a 
specific determination: whether to recommend to the President that 
Yucca Mountain be developed as the site for a repository for spent fuel 
and high-level radioactive wastes. I have endeavored to discharge that 
responsibility conscientiously and to the best of my ability.
    The first question I believe the law asks me to answer is whether 
the Yucca Mountain site is scientifically and technically suitable for 
development as a repository. The amount and quality of research the 
Department of Energy has invested into answering this question--done by 
topflight people, much of it on the watch of my predecessors from both 
parties--is nothing short of staggering. After careful evaluation, I am 
convinced that the product of over 20 years, millions of hours, and 
four billion dollars of this research provides a sound scientific basis 
for concluding that the site can perform safely during both the pre- 
and post-closure periods, and that it is indeed scientifically and 
technically suitable for development as a repository.
    Having resolved this fundamental question, I then turned to a 
second set of considerations: are there compelling national interests 
that warrant proceeding with this project? I am convinced that there 
are, and that a repository for nuclear waste at Yucca Mountain will 
advance, in important ways, our energy security, our national security, 
our environmental goals, and our security against terrorist attacks.
    Finally, I examined the arguments that opponents of the project 
have advanced for why we should not proceed. I do not believe any of 
them is of sufficient weight to warrant following a different course.
    Accordingly, I have determined to recommend to the President that 
he find Yucca Mountain qualified for application for a construction 
authorization before the Nuclear Regulatory Commission, and that he 
recommend it for development of a repository.
                                 ______
                                 
                                           The White House,
                                  Washington, DC, February 15, 2002
    Dear Mr. President: In accordance with section 114 of the Nuclear 
Waste Policy Act of 1982, 42 U.S.C. 10134 (the ``Act''), the Secretary 
of Energy has recommended approval of the Yucca Mountain site for the 
development at that site of a repository for the geologic disposal of 
spent nuclear fuel-and high level nuclear waste from the Nation's 
defense activities. As is required by the Act, the Secretary has also 
submitted to me a comprehensive statement of the basis of his 
recommendation.
    Having received the Secretary's recommendation and the 
comprehensive statement of the basis of it, I consider the Yucca 
Mountain site qualified for application for a construction 
authorization for a repository. Therefore, I now recommend the Yucca 
Mountain site for this purpose. In accordance with section 114 of the 
Act, I am transmitting with this recommendation to the Congress a copy 
of the comprehensive statement of the basis of the Secretary's 
recommendation prepared pursuant to the Act. The transmission of this 
document triggers an expedited process described in the Act. I urge the 
Congress to undertake any necessary legislative action on this 
recommendation in an expedited and bipartisan fashion.
    Proceeding with the repository program is necessary to protect 
public safety, health, and the Nation's security because successful 
completion of this project would isolate in a geologic repository at a 
remote location highly radioactive materials now scattered throughout 
the Nation. In addition, the geologic repository would support our 
national security through disposal of nuclear waste from our defense 
facilities.
    A deep geologic repository, such as Yucca Mountain, is important 
for our national security and our energy future. Nuclear energy is the 
second largest source of U.S. electricity generation 4nd must remain a 
major component of our national energy policy in the years to come. The 
cost of nuclear power compares favorably with the costs of electricity 
generation by other sources, and nuclear power has none of the 
emissions associated with coal and gas power plants.
    This recommendation, if it becomes effective, will permit 
commencement of the next rigorous stage of scientific and technical 
review of the repository program through formal licensing proceedings 
before the Nuclear Regulatory Commission. Successful completion of this 
program also will redeem the clear Federal legal obligation safely to 
dispose of commercial spent nuclear fuel that the Congress passed in 
1982.
    This recommendation is the culmination of two decades of intense 
scientific scrutiny involving application of an array of scientific and 
technical disciplines necessary and appropriate for this challenging 
undertaking. It is an undertaking that was mandated twice by the 
Congress when it legislated the obligations that would be redeemed by 
successful pursuit of the repository program. Allowing this 
recommendation to come into effect will enable the beginning of the 
next phase of intense scrutiny of the project necessary to assure the 
public health, safety, and security in the area of Yucca Mountain, and 
also to enhance the safety and security of the Nation as a whole.
            Sincerely,
                                                    George W. Bush.
The Honorable Richard B. Cheney
President of the Senate
Washington, D.C. 20510
                                 ______
                                 
                                    Office of the Governor,
                                    Carson City, NV, April 8, 2002.
The Hon. Robert C. Byrd,
President Pro Tempore, U.S. Senate, U.S. Capitol, Washington, DC.
Re: Official-Notice of Disapproval of the Yucca Mountain Site

    Dear Mr. President Pro Tempore: Pursuant to Section 116(b)(2) of 
the Nuclear Waste Policy Act of 1982, as amended, 42 U.S.C. 
Sec. 10136(b)(2), I am transmitting to you for submission to the 
Congress a Notice of Disapproval of the site designation of Yucca 
Mountain in Nevada as the nation's high level nuclear waste repository.
    A Statement of Reasons explaining why I have submitted the Notice 
of Disapproval accompanies this notice.
            Sincerely,
                                            Kenny C. Guinn,
                                                          Governor.
[Attachment.]
  Statement of Reasons Supporting the Governor of Nevada's Notice of 
           Disapproval of the Proposed Yucca Mountain Project
    Honorable members of Congress, it is my privilege and duty, under 
Section 116(b)(2) of the Nuclear Waste Policy Act, to articulate my 
reasons for issuing a Notice of Disapproval of the designation of Yucca 
Mountain in Nevada as the site for the nation's high-level nuclear 
waste repository. I trust you will carefully consider Nevada's views. 
As a matter of science and the law, and in the interests of state 
comity and sound national policy, Yucca Mountain should not be 
developed as a high-level nuclear waste repository.
                              introduction
    Nevada strongly opposes the designation of Yucca Mountain for 
nuclear waste disposal because the project is scientifically flawed, 
fails to conform to numerous laws, and the policy behind it is ever 
changing and nonsensical. The Department of Energy has so compromised 
this project through years of mismanagement that Congress should have 
no confidence in any representation made by DOE about either its 
purpose or its safety. Nevada is not anti-nuclear and does not oppose 
nuclear power. Our state is pro-science and pro-common sense.
    Because of the state's longstanding opposition to the Yucca 
Mountain project, some have accused Nevada of being a not-in-my-
backyard, or NIMBY, state. Nothing could be further from the truth. 
Nevada has already borne more than its fair share of this nation's 
radioactive waste burdens.
    During the Cold War, Nevada served as host to hundreds of nuclear 
weapons tests, most with bombs several times more powerful than the 
Hiroshima blast. The government misrepresented the risks and impacts of 
those tests to our citizenry, and many Nevadans were injured as a 
result. Nearly 300 million curies of toxic radioactive contaminants 
remain in the ground in our state to this day. We have not forgotten 
this legacy.
    Nevada is also being forced by the Energy Department to play host 
to the world's largest low-level and mixed radioactive waste disposal 
facility, at the Nevada Test Site. DOE plans to use this site for the 
disposal of hundreds of millions of cubic feet of radioactive and 
hazardous garbage and contaminated soil from the nation's nuclear 
weapons complex. Tens of thousands of shipments of this waste through 
our state are anticipated.
    Once upon a time not long ago, the concept of ``environmental 
equity'' would have made it unthinkable, given the sacrifices already 
imposed on Nevada, that the state would be forced to play host to yet 
an additional nuclear waste dump--indeed, the dump to end all dumps. 
DOE plans to use Yucca Mountain for the disposal of 77,000 tons of 
high-level radioactive waste and spent fuel from throughout the United 
States and 42 other countries. And we know if we permit it to happen, 
it won't end there.
    But Nevada will not permit it to happen. Not simply because it is 
the wrong thing to do, at the wrong time, from the standpoint of 
environmental equity. Even when carrying the load of others, Nevadans 
will never tire of serving their country for a worthy cause.
    We will not permit Yucca Mountain to happen--and it will not 
happen--because the project is manifestly not a worthy cause. Yucca 
Mountain is but the latest in a long series of DOE boondoggles--one 
based on bad science, bad law, and bad public policy. In addition, 
better, cheaper, and safer alternatives exist. Finally, national 
security will not be helped, but hindered, by this ill-advised project.
    Some say Nevada should acquiesce to the project because the Yucca 
Mountain repository is now inevitable. Obviously, they fail to 
understand Nevadans, or the power of the American legal system. I 
assure you, the only thing inevitable about Yucca Mountain is that it 
will plot the course of so many other doomed DOE mega-projects.
                              the science
    Although DOE bureaucrats claim the Yucca Mountain site is suitable 
for nuclear waste disposal based on ``sound science,'' it is hard to 
find a scientist who agrees. Even the project's apologists know that 
hundreds of technical issues remain unresolved. Initially, the 
scientific community was optimistic about the prospects of Yucca 
Mountain. When Congress selected the site in 1987 for intensive study, 
preliminary data showed it would likely have good geology. In the past 
four years, however, DOE's own studies proved the mountain was in fact 
so porous to water, and otherwise so geologically unfit, that the very 
concept of geologic isolation of the waste had to be abandoned. But 
geologic isolation was the very purpose of the federal repository 
program.
    DOE no longer refers to the Yucca Mountain project as a deep 
``geologic'' repository. Rejecting the global scientific consensus that 
nuclear waste should be disposed of by means of geologic isolation, DOE 
now calls Yucca Mountain merely a deep ``underground'' repository. This 
is no surprise. There is nothing ``geologic'' about it. As the former 
director of the Yucca Mountain project, Dr. John Bartlett, recently 
testified, the project has become nothing more than a series of fancy 
engineered waste packages that just happens to be located 1000 feet 
underground. The Nuclear Energy Institute recently bragged that the 
repository can be licensed ``without the mountain.''
    Which begs several questions: If the mountain itself is irrelevant, 
and waste packages can now be made to last for 10,000 years, why make 
tens of thousands of shipments of lethal radioactive waste through the 
nation's cities to the seismically adverse, volcanic zone of Yucca 
Mountain? It can go practically anywhere else--or stay where it is. If 
the only reason the waste must be buried is to protect it from 
terrorists, why spend $60 billion putting it 1000 feet underground, 
when a mere 20 feet would do the job? And this could surely be done at 
the reactor sites. NRC has recently re-affirmed the safety of on-site 
storage.
    In the absence of geologic isolation. we don't believe for a minute 
that DOE can demonstrate the long-term safety of the Yucca Mountain 
repository. We don't believe an agency that, as the General Accounting 
Office has noted, has rarely succeeded at building anything can now 
build a first-of-a-kind waste package that will soak in Yucca Mountain 
groundwater for 10,000 years without a leak.
    DOE's computer models of Yucca Mountain repository performance and 
radiation emissions currently have an uncertainty factor of up to 
10,000. This incredible number bears some pondering. Imagine if a 
salesman with nothing but fancy computer models told you the brakes on 
his new model car would be safe for 10,000 miles, plus or minus an 
uncertainty factor of 10,000. Think about it. What this means is, your 
brakes could be safe for as many as 100 million miles, or as few as one 
mile. We simply can't know.
    Maybe we Nevadans are a people of uncommon sense. Because that's a 
car we simply wouldn't buy. That's a car we wouldn't let on our roads.
    DOE has yet to finish the very design of the Yucca Mountain 
repository. We don't even know whether it will be a high temperature 
repository (above the boiling point of water) or a low temperature 
repository (below the boiling point of water), a feature that could 
change the amount of real estate required for the project by up to a 
factor of 10. Imagine if you submitted a plan for your new house to 
local authorities for a building permit. You tell them: It may be a 
4,000 square-foot gas-heated house, or a 40,000 square-foot all-
electric house; the design is still unfinished. I don't have to tell 
you what our local authorities would do with that plan.
    The scientific uncertainties of the Yucca Mountain project are so 
numerous as to defy enumeration. Attempting to count them all, the 
Nuclear Regulatory Commission recently identified 293 unresolved 
technical issues in 9 critical areas. Though DOE dismisses these as 
trivial, perfunctory, or problems that will be solved ``as we go'' over 
the next 300 years, their mere specification belies this claim.
    The unresolved issues include critical matters such as volcanism: 
DOE's gamblers say the odds of a volcano at Yucca Mountain are only 1 
in 70 million per year. Yet, there have actually been three active 
volcanic eruptions within 50 kilometers of the Yucca Mountain site in 
the past 80,000 years. Indeed. Nevada's geologic studies indicate Yucca 
Mountain appears to be at the center of one of the most potentially 
active volcanic areas in the west.
    Unresolved are issues such as the seismic integrity of the site: 
Yucca Mountain sits dead-center in one of the largest earthquake fault 
zones east of California. In 1992, a magnitude 5.6 earthquake caused 
tens of thousands of dollars of damage to DOE's own facilities right at 
Yucca Mountain. More than 600 earthquakes greater than magnitude 2.5 
have been recorded at Yucca Mountain just in the past two decades.
    Among other things, there remains a real question whether the 
above-ground storage facility required to facilitate storage and burial 
of spent fuel at the site can ever meet Nuclear Regulatory Commission 
temporary storage standards, given the site's adverse seismicity. In 
other words, it may not be possible to license an above-ground concrete 
storage pad at this earthquake-prone location. What does this say about 
the safety of the complex underground facility? And why is it not 
necessary for DOE to complete seismic studies before plunging ahead 
with a site determination?
    The plethora of unresolved issues includes critical problems such 
as rapid groundwater flow through the repository: Flows measured by DOE 
have been more than 100 times greater than was expected when Congress 
designated Yucca Mountain in 1987 as the only site to be characterized. 
Surface water that was supposed to have taken thousands of years to 
pass through the planned repository area to the underlying water table 
was found to have actually done so in less than 50 years. One former 
NRC Commissioner visiting the underground test area at Yucca Mountain 
described its humid environment as a ``tropical rain forest.''
    Secretary Abraham recently wrote, in a Washington Post Op-Ed piece 
March 26, that ``Yucca Mountain has an average precipitation of under 8 
inches a year, less than half an inch of which actually makes it below 
the surface.'' If that is true, Mr. Secretary, why has DOE posted a 
sign deep within the mountain informing visitors not to worry about 
liquid dripping from the ceiling of underground caverns, that this 
liquid is only water, and that it is normal for the subterranean 
environment of Yucca Mountain? Why is DOE proposing to build a $5 
billion titanium ``drip shield'' around buried spent fuel to channel 
away effusive dripping water?
    The tangled web of man-made contrivances necessary to compensate 
for the stunning geological surprises at Yucca Mountain has turned the 
repository system into a kind of Rube Goldberg contraption. To prevent 
the unexpected water from corroding spent fuel containers, a titanium 
drip shield is required for each package to channel water away from the 
containers. But channeled water is apparently subject to boiling from 
the decay heat of buried spent fuel. Therefore, say independent 
experts, the repository must be redesigned to space the fuel packages 
further apart, vastly increasing the real estate, and of course the 
amount of titanium, required. But there may not be enough real estate 
within the Yucca Mountain site boundary to do that. And the titanium 
itself is subject to corrosion. Therefore, all waste packages must be 
fabricated from a ``miracle metal,'' Alloy-22, to prevent them from 
corroding if the drip shield fails.
    And what about Alloy 22? You guessed it. As recently as last month, 
the Chairman of the Nuclear Waste Technical Review Board wrote DOE that 
so little is known ``it is not currently possible'' to assess the 
likelihood of corrosion of Alloy 22 for the thousands of years that 
will be required to assure the safety of the facility. Indeed, Nevada's 
independent laboratory tests of Alloy 22 showed corrosion in less than 
half a year. And the titanium apparently fares no better. Just two 
weeks ago. DOE's own Waste Package Materials Performance Peer Review 
Panel issued its report with the astonishing revelation that, unless 
the proposed titanium drip shields somehow perform better in the ground 
than they have in laboratory tests, they cannot be used at Yucca 
Mountain. What's next? Maybe the drip shield will need a drip shield.
    Secretary Abraham calls this ``sound science.'' We beg to differ.
                                the law
    Nevada currently has four legal actions pending against the Yucca 
Mountain project. These include a challenge to the siting guidelines 
re-released at the eleventh hour by DOE, and a challenge to the 
Environmental Protection Agency's gerrymandered health and safety 
standards for Yucca Mountain licensing. They include a challenge to 
DOE's misuse of Nevada's precious water resources, and a challenge to 
the legal soundness of both the Secretary's and the President's Yucca 
Mountain site recommendations.
    At least two additional actions, one challenging DOE's 
Environmental Impact Statement, and one challenging NRC's Yucca 
Mountain licensing rule, will be filed imminently by Nevada.
    These are each serious lawsuits, raising fundamental, dispositive 
legal issues--issues that ought to concern every member of Congress. 
Issues such as whether DOE cavalierly ignored the dictates of your 
institution and blatantly violated the Nuclear Waste Policy Act or the 
National Environmental Policy Act. Issues such as whether the 
repository is fundamentally unsafe even if it is theoretically 
``licensable.'' Issues such as whether radioactive emissions from the 
site can be declared safe by EPA merely by first diluting them in 
Nevada's drinking water.
    We are not suing simply for the sake of suing. We are suing to 
enforce the law, because, unfortunately, government bureaucrats pushing 
Yucca Mountain have chosen to ignore it. It is not necessary for us to 
win them all, though we believe all are legally sound. One and only one 
will suffice.
    It is astounding to Nevada that DOE refused to postpone its site 
recommendation pending the outcome of any of these lawsuits. After all, 
DOE itself says it will not be ready to submit a license application to 
NRC until at least December 2004. What, then, is the rush? It is likely 
that all of Nevada's cases will have been decided long before that 
time.
    Let me describe to you just one of our lawsuits--the one against 
DOE. It's really quite remarkable: After 17 years of using one set of 
site suitability rules, DOE made the surprising determination that 
Yucca Mountain, unlike the WIPP nuclear waste repository in New Mexico, 
couldn't pass the ``good geology'' test. Instead of reporting this bad 
news to Congress, as the law requires. DOE changed the rules late last 
fall. A mere 17 days or so later. DOE proclaimed the site ``suitable'' 
using these new rules, ignoring the bedrock geologic isolation 
requirements of Congress. ``Good geology''--the cornerstone of every 
high-level nuclear waste repository program in the world--was simply 
ignored by DOE.
    To Nevadans, we are like passengers sitting on the runway in a 
brand new experimental aircraft for 17 hours while mechanics crawl all 
over the plane inspecting it. After this enormously long wait, the 
mechanics finally determine the plane is unfit to fly. At the same 
time, bureaucrats come on the loudspeakers: ``Not to worry, folks. 
We've just changed the flight fitness rules, and the plane will be 
taking off in 17 seconds.'' Needless to say, that's a plane none of us 
would dare dream of flying. But that is exactly what DOE has done with 
Yucca Mountain.
    The New York Times recently published an editorial suggesting 
Congress should simply approve the Yucca Mountain site recommendation 
and refer all remaining issues of site suitability to the NRC, which 
was purported to have the expertise to make appropriate decisions in 
this regard. Remarkably, notwithstanding his own agency's clear 
statutory duties, Secretary Abraham likewise adopted this view in his 
recent editorial.
    This approach, however, poses both a scientific and a legal 
paradox. DOE and NRC have each taken the position, in their respective 
Yucca Mountain rules, that site suitability is a matter to be assessed 
by DOE and its geologists, not by NRC and its nuclear engineers. Under 
NRC's current licensing rule for Yucca Mountain (which Nevada will soon 
fight in court), site suitability is presumed determined the moment the 
Yucca Mountain application comes in the door. NRC merely determines 
repository licensability, not Yucca Mountain site suitability. NRC will 
not evaluate the suitability of Yucca Mountain's geology. That was 
supposed to have been DOE's job.
    Adopting the approach suggested by the New York Times would mean 
DOE's bogus site suitability determination could never be reviewed on 
the technical merits. On an issue of this magnitude, Nevada and the 
country as a whole deserve their day in court. And we think Congress 
should wait until that day has come and gone.
                  national security and public policy
    In the wake of the terrorist attacks of 9/11, DOE has tried to 
paint the Yucca Mountain project--as a badly needed national security 
measure. A well-financed promotional campaign by the nuclear industry 
appears to have helped shape the public policy debate in this regard. 
The Secretary himself, in his Washington Post piece last month, 
strongly urged that ``one safe site'' for the nation's nuclear waste is 
best for national security, rather than having the waste scattered at 
numerous reactor sites across America. This national security myth is 
one that can and must be debunked. The Yucca Mountain site will 
contribute nothing to national security.
    Even if you believe DOE's optimistic schedule, Yucca Mountain will 
not be ready even to begin receiving spent fuel from reactor sites for 
a decade. DOE plans to ship 77,000 tons of high-level waste and spent 
fuel--the project's design capacity--in up to 98,000 shipments 
extending through 2046. Once there, the spent fuel will remain stored 
above ground at Yucca Mountain for up to 100 years while it cools. In 
the meantime, reactors (many operating on renewed licenses) will 
continue to generate at least 2000 additional tons of waste each year.
    By 2046, even if (in the unlikely event) Yucca Mountain proceeds on 
schedule, there will be at least 77,000 tons of additional waste still 
stored at reactor sites, awaiting shipment to a supposed second 
repository. As the waste is removed, it will merely make room for an 
equivalent amount of newly generated waste that will take its place at 
the various sites. I'm no nuclear engineer, but this sounds like the 
status quo to me. I fail to understand how this aids national security.
    DOE's Acting Director of the Yucca Mountain project affirmed last 
month before a House appropriations committee that as long as there are 
nuclear reactors operating, there will continue to be spent fuel stored 
above ground at sites all across America. In fact, he confirmed, given 
the slow pace at which spent fuel will be transported to Yucca 
Mountain, together with the fact that newly generated waste will 
continue to pile up almost as fast as the old waste is removed, the 
current backlog of 46,000 tons at plant sites now will never be less 
than 42,000 tons by the time Yucca Mountain is filled to its design 
capacity. In short, Yucca Mountain will change nothing.
    And that may not be the end, but apparently only the beginning. In 
its annual strategic plan, ``Vision 2020,'' the Nuclear Energy 
Institute claims utilities will build as many as 50 new nuclear plants 
by 2020 if their growing nuclear waste stockpiles are bounded by the 
availability of Yucca Mountain. More waste is coming to your 
jurisdictions, not less.
    The bottom line is this: Even if Yucca Mountain proceeds, spent 
fuel will continue to be stored above ground at reactor sites across 
America for many decades, perhaps centuries, to come. Secretary 
Abraham's ``one safe site'' is a figment of DOE's imagination. The 
Yucca Mountain site is neither ``safe'' nor will it ever be ``one.''
    The solution to the security issue is to shore up existing storage 
facilities and increase security at the reactor sites--not to magnify 
the existing storage facility targets with shipments of tens of 
thousands of mobile, new targets traversing the country on their way to 
a geologically flawed Yucca Mountain repository. Not to expose tens of 
millions of additional citizens to the risks posed by spent fuel 
packages.
    Utilities across the nation are now building interim dry storage 
facilities, where spent fuel will be stored in casks capable of safely 
containing the fuel for up to hundreds of years. Several such interim 
storage facilities are already operating at various utility sites. 
Since, in any event, these casks will be stored on site for many 
decades, some experts say they should be covered in a concrete 
containment to shield them from terrorist attack. NRC is studying the 
use of anti-aircraft guns at nuclear sites. Reactor sites already have 
armed guards and comprehensive security plans. Given these measures, 
the casks will continue to be far more secure at reactor sites than 
they will ever be on the streets of St. Louis, Chicago, or Peoria--or 
on barges cruising the Hudson River.
    What really does implicate national security is the widespread 
shipment of spent fuel in casks that, we now know, are not impervious 
to ubiquitous armor-piercing weapons. It was surprising for us to learn 
recently from NRC that, since 9/11, the only analysis done by industry 
or the government of the impacts of terrorism on spent fuel shipments 
involved merely a computer simulation of a Boeing 767 engine 
(unaccompanied by aircraft and fuel) striking a railcar shipping cask 
at 350 miles per hour. Not to worry, said the modelers: the virtual 
train car moved only a virtual tenth of an inch from the virtual 
impact, and the virtual lethal waste was contained.
    To anyone who watched in horror as the twin towers of the World 
Trade Center collapsed, this timid virtual test result seems more than 
a bit incredible. On the other hand, the possibility of a terrorist 
shooting at a cask from the back of a pickup truck with a small 
optically-guided armor-piercing missile has been considered by NRC and 
the industry as ``too remote.'' We once heard the same about suicide 
bombers.
    Thanks to a secret videotape of an industry-sponsored test done by 
the Army at the Aberdeen Proving Grounds in 1998, obtained last month 
by Nevada representatives, we now know such a weapon can blow a hole 
through even the heartiest of spent fuel casks. According to credible 
sources, there are over 500,000 TOW missiles alone in circulation in at 
least 36 countries, including over 1700 in Iran. These missiles can 
penetrate up to 30 inches of armor. Smaller, hand-held weapons in 
widespread use, like the Stinger, can pierce up to 15 inches of steel.
    If Yucca Mountain proceeds, just one of these could potentially 
give a terrorist access to tens of thousands of radioactive ``dirty 
bombs,'' with free delivery to hundreds of U.S. targets. Clearly, this 
is an issue warranting careful investigation by Congress, not a cover-
up of the facts by DOE. Many in Congress already share my view; 
hearings on the security of waste transport to Yucca Mountain are 
scheduled for later this spring.
    In responding to our legitimate concerns, some have accused Nevada 
of fearmongering, claiming the Aberdeen test was flawed, that a small 
missile would ``only'' blow a six-inch hole in some casks, that few if 
any people would die in such an event, and that further tests are 
unnecessary. Since no one has studied the issue in light of current 
events, however, we don't really know. If DOE will not undertake these 
studies, surely Congress must. If Nevada's mere mention of the 
potential event is causing fear, imagine the panic if, God forbid, it 
actually happens.
                        the ``peco alternative"
    Though the nuclear industry seems to prefer you didn't know it, 
there is a viable alternative to Yucca Mountain--one that has already 
been quietly embraced by DOE and at least one utility, DECO Energy, a 
division of the nation's largest nuclear utility, Exelon Corporation.
    In June 2000, PECO signed a deal with DOE that would ultimately 
have DOE take title to PECO's spent fuel on-site at the Peach Bottom 
nuclear plant in Pennsylvania. PECO will construct a dry storage 
facility, ownership of which will also eventually be assumed by DOE. At 
a date certain, DOE will own, operate, and manage the facility, with 
the waste stored there in robust, dry casks for the indefinite future. 
Funds for the deal are provided from the $8 billion Nuclear Waste Fund.
    At the time. DOE touted the deal as an arrangement all nuclear 
utilities should follow. And for good reason. If adopted by the 
industry, the PECO alternative would solve a host of pressing problems.
    First, it would end all utility spent fuel lawsuits against DOE--
now estimated to pose up to a $58 billion contingent liability. Second, 
it would allow utilities to remove spent fuel liabilities from their 
books and decommission their retired nuclear plants on schedule. Third, 
it would remove the fuel from utility rate bases and the jurisdiction 
of state utility commissions, ending their numerous lawsuits against 
DOE as well. Fourth, it would buy the government time to find a viable 
new repository or develop new technologies to vastly reduce the dangers 
of nuclear waste. (Many of these technologies, under development at our 
national laboratories, already look promising.) Fifth, as Senator 
Domenici has long indicated, it would preserve the substantial energy 
content of spent fuel for later use if necessary to supplement the 
nation's energy needs. Finally, implementing the PECO alternative would 
cost ratepayers and taxpayers merely pennies on the dollar to the 
estimated $60 billion (and growing) price tag of Yucca Mountain.
    Far from embracing the deal, however, a group of competing 
utilities sued last year to block it, claiming, ironically, that it 
gives PECO an unfair economic advantage over utilities who choose to 
sue the government and place their bets on Yucca Mountain. A ruling is 
expected from the Eleventh Circuit Court of Appeals soon. Rather than 
await this key decision. DOE pressed forward with its Yucca Mountain 
site recommendation as if its own PECO deal were nonexistent. The PECO 
alternative is not even mentioned in the 67 pounds of Yucca Mountain 
documents DOE recently sent to the President. It is not even mentioned 
in the so-called ``no action'' alternative to Yucca Mountain in DOE's 
voluminous Final Environmental Impact Statement. Yet, when the deal was 
signed less than two years ago, DOE endorsed it as ``a precedent for 
additional settlement negotiations with other utilities.
    I urge Congress to explore DOE's arrangement with PECO in detail. I 
applaud the deal made by the nation's leading nuclear utility in the 
state of our new Homeland Security Director, Tom Ridge, while he was a 
fellow Governor in Pennsylvania. The PECO arrangement is a convincing 
and practical alternative to a diseased and utopian Yucca Mountain 
project. It is a real contributor to national security, not a mythical 
one.
                               conclusion
    The State of Nevada will redouble its efforts to bring science and 
the law back to the nation's high-level waste program, and to restore 
sanity to America's nuclear energy security policy. But we are not 
alone.
    A growing chorus of scientists and independent technical reviewers 
has voiced grave reservations about the project. These include the 
NRC's Advisory Committee on Nuclear Waste, the General Accounting 
Office, the Congressionally-created Nuclear Waste Technical Review 
Board, the National Academy of Sciences, Physics Today, the 
International Atomic Energy Agency, and the OECD's Nuclear Energy 
Agency, among others. A recent national poll concludes that those 
Americans opposed to Yucca Mountain now equal in number those in favor.
    I urge each and every one of you to look carefully at the facts. 
Yes, Yucca Mountain is the most studied piece of real estate in the 
world. What the studies starkly concluded, however, has been 
overshadowed by the mere fact they occurred. A hundred more years of 
study will not change the fatally poor geology of Yucca Mountain, or 
remove the site from an earthquake fault zone. Nor will decades of 
moving waste across the countryside to Yucca Mountain even dent the 
amount of spent nuclear fuel stored above ground at nuclear sites 
throughout America.
    We are well beyond the days when Yucca Mountain was simply Nevada's 
problem. If the project proceeds, high-level nuclear waste shipments 
will impact as many as 44 states, 703 counties, and 109 cities with 
populations of 100,000 or greater, including several major metropolitan 
areas. Nearly 50 million American citizens reside within three miles of 
a proposed shipping route. There will be more spent fuel shipments in 
the first year of Yucca Mountain operations than occurred in the entire 
history of such shipments in this country. We are in this together.
    In short order, Congress will have the prerogative to consider my 
Notice of Disapproval and, under procedures in the Nuclear Waste Policy 
Act, override it by simple majority vote in both houses, with a 
signature by the President. I respectfully urge Congress not to take 
such action. With the proliferation of safe, economical dry storage 
facilities at reactor sites, we face no spent fuel emergency. Nuclear 
power plants face no risk of shutdown. We have the time to do this 
right. And Yucca Mountain is not right.
    Nevada deserves better, and so does this nation.

                         *      *      *      *

    For additional information, see Nevada's Yucca Mountain website at 
www.state.nv.us/nucwaste. This Statement of Reasons has been posted 
there.
                                 ______
                                 
                          Nuclear Waste Strategy Coalition,
                                       Pinehurst, NC, May 16, 2002.
Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources Committee, Washington, 
        DC.
Re: Senate Joint Resolution 34

    Dear Mr. Chairman: As testimony for the record, the members of the 
Nuclear Waste Strategy Coalition (NWSC) strongly support the 
President's recent designation of Yucca Mountain as the nation's 
geological permanent repository for the disposal of spent nuclear fuel 
and high-level radioactive waste. Accordingly, we strongly support 
approval of Senate Joint Resolution 34 (S.J. Res. 34), and we urge the 
Senate Energy and Natural Resources Committee to send it to the full 
Senate for a vote as soon as possible.
    The NWSC is comprised of state regulators, state attorneys general, 
nuclear electric utilities and associate members working together to 
hold the Federal government accountable for its contractual and 
statutory obligations to remove spent nuclear fuel from power plants 
across the nation to interim storage and eventually to a permanent 
repository. Our membership includes participants front 44 organizations 
in 25 states.
    There have been many recent efforts to obfuscate the facts about 
transportation of high-level nuclear waste to Yucca Mountain by those 
opposed to this Resolution. The Department of Energy (DOE) is 
approximately 5 years away from selecting the mode, routes and 
timetable as to how 70,000 MTU, as mandated by the NWPA, will be 
transported to Nevada.\1\ The DOE will be collaborating with the State 
of Nevada, Tribal and local governments, and Federal agencies on the 
transportation infrastructure systems in accordance with the Department 
of Transportation regulations.
---------------------------------------------------------------------------
    \1\ The Department of Energy/OCRWM, Transportation of Radioactive 
Materials and Yucca Mountain, April 2002.
---------------------------------------------------------------------------
    Over the last 30 years, there have been more than 2,700 shipments 
of spent nuclear fuel travelling over 1.6 million miles and there has 
never been a release of radioactive material harmful to the public or 
the environment--not one.\2\ If a repository is licensed at Yucca 
Mountain, the DOE projects approximately 4,300 shipments over a 24-year 
period, averaging 175 shipments of spent nuclear fuel per year, a 
relatively small amount compared with the approximately 300 million 
annual, shipments of hazardous materials, (explosives, chemicals, 
flammable liquids, corrosive materials, and other type of radioactive 
materials), that are currently transported around the country every 
day.\3\
---------------------------------------------------------------------------
    \2\ The Department of Energy/OCRWM, Transportation of Radioactive 
Materials and Yucca Mountain, April 2002.
    \3\ The Department of Transportation Office of Hazardous Materials 
Safety Research and Special Programs Administration, October 1998.
---------------------------------------------------------------------------
    Further, the DOE has spent more than 20 years investigating whether 
Yucca Mountain would be a suitable site as a repository. Studies 
undertaken clearly demonstrate that the science and technical 
evaluations support the President's decision to recommend that the 
Yucca Mountain site be developed as a permanent repository 
Additionally, the 1982 Nuclear Waste Policy Act (NWPA), as amended, 
clearly mandates the DOE to continue with scientific studies as it 
proceeds with the multi-year formal licensing process. As further 
specified in the NWPA, the licensing process will be conducted before 
an independent federal agency, the Nuclear Regulator Commission, which 
will hold several years of hearings designed to scrutinize the DOE's 
findings. Failure by the Senate Energy and Natural Resources Committee 
to pass S.J. Res. 34 designating Yucca Mountain site will kill the only 
Federal spent nuclear fuel and high-level radioactive waste management 
program and keep spent nuclear fuel rods and high-level nuclear waste 
stranded indefinitely at multiple locations nationwide.
    Under the NWPA, Congress created the Federal Nuclear Waste Fund for 
the purpose of funding the removal of spent nuclear fuel and high-level 
radioactive waste from the nation's plant sites and to provide a 
permanent disposal repository. Since 1983, the nation's ratepayers have 
contributed more than $20 billion, including interest, into the Fund--
it should now be used for its intended purpose.
    We urge the members of the Committee to keep S.J. Res. 34 focused 
as specified under Section 115(a), in the NWPA, and vote ``no'' to any 
amendments or procedural issues that would effectively kill the 
Resolution. We urge the Committee to allow the Resolution to proceed to 
the Senate floor unencumbered and unimpeded.
    In conclusion, the NWSC urges the Committee to recognize that 
failure to override Nevada's objection to development of the Yucca 
Mountain site could be detrimental to the nation's energy supply, 
security, economy the ratepayers, and our environment.
            Sincerely,
                                        LeRoy Koppendrayer,
                                                          Chairman.
                                 ______
                                 
  National Association of Regulatory Utility Commissioners,
                                      Washington, DC, May 22, 2002.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
Re: Yucca Mountain Hearings

    Dear Mr. Chairman: The National Association of Regulatory Utility 
Commissioners respectfully requests that the attached statement be 
included in the record of the hearings your Committee is currently 
conducting on the President's recommendation of the Yucca Mountain site 
for development of a national nuclear waste repository.
    Thank you for the opportunity to present our views on this most 
important issue.
            Sincerely,
                                          Christopher Mele,
                                      Legislative Director, Energy.
[Attachment.]
      Statement of the National Association of Regulatory Utility 
                             Commissioners
                                summary
  <bullet> NARUC supports the president's decision to approve the site 
        at Yucca Mountain for the geologic repository.
  <bullet> Analyses show that a repository at Yucca Mountain can be 
        designed, built, operated, monitored and eventually sealed 
        while meeting all statutory and regulatory requirements to 
        protect public health and the environment. While the scientific 
        research about Yucca Mountain continues, enough is known at 
        this point to support the site designation today.
  <bullet> Transportation of nuclear material is not new and the public 
        is largely unaware of that there has been an excellent safety 
        record of transportation of nuclear materials over the past-30 
        years.
  <bullet> Unless the government finds a way to dispose of spent 
        nuclear fuel, some nuclear plants may need to shut down if they 
        are unable to meet their license requirements to store used 
        fuel in pool or dry storage. That will have heavy financial, 
        environmental or energy supply consequences--probably all 
        three. And it likely rules out any utility being willing to 
        invest in a new nuclear plant.
  <bullet> Most importantly, NARUC represents ratepayers in 41 States 
        who have, in good faith, paid over $16 billion into the Nuclear 
        Waste Fund (including interest), according to DOE, and have 
        little to show for it. Worse, they have also had to pay 
        utilities that had to bear additional on-site waste storage 
        expenses when DOE missed the 1998 date to begin removing the 
        fuel. In fact, among the States, we often ask, ``Why, after DOE 
        failed to meet its contracted 1998 deadline, are we still 
        paying that fee?''
  <bullet> The so-called ``PECO Alternative'' is NOT an alternative.
  <bullet> Reform the Nuclear Waste Fund so it is fully available for 
        its intended purpose.

    NARUC is a quasi-governmental, nonprofit organization founded in 
1889. Its membership includes the State public utility commissions for 
all States and territories. NARUC's mission is to serve the public 
interest by improving the quality and effectiveness of public utility 
regulation. NARUC's members regulate the retail rates and services of 
electric, gas, water and telephone utilities. Each State Commission has 
the obligation under State law to ensure the establishment and 
maintenance of such energy utility services as may be required by the 
public convenience and necessity, and to ensure that such services are 
provided at rates and conditions that are just, reasonable and 
nondiscriminatory for all consumers.
    NARUC has had a direct stakeholder interest in the civilian 
radioactive waste management program ever since the Nuclear Waste 
Policy Act of 1982 (NWPA) established that the federal government is 
responsible for safe, permanent disposal of high-level radioactive 
waste and spent nuclear fuel from commercial nuclear reactors, as well 
as making certain that the utilities pay their share of these disposal 
costs. The primary reason for NARUC's interest is that the fees paid by 
nuclear utilities to the Nuclear Waste Fund (NWF) are passed along to 
ratepayers through their electric bills. We would submit that passing 
the costs of the NWT on to the ratepayers has been the only aspect of 
the NWPA that has taken place on schedule.
    We strongly support the President's decision to approve the site at 
Yucca Mountain for the geologic repository. It is an historic milestone 
for this troubled program and it is legally and scientifically sound.
    We say ``troubled'' because, as the Committee members know well, 
there have been a series of technical, political, legal and financial 
hurdles that have had the cumulative effect of delay to the point 
where, even under the most optimistic schedule, nuclear waste will not 
begin to be emplaced in the repository until 2010--twelve years after 
the mandate set in the NWPA.
    The Department of Energy (DOE) has spent over four billion dollars 
studying the site at Yucca Mountain for suitability for repository use, 
in what I have heard described as the most studied piece of real estate 
on earth. NARUC praises the dedication and professionalism of the 
inter-disciplinary public and private sector team of scientists who 
have worked on this unprecedented venture and upon whose analytic 
investigations the President can rely upon with confidence.
    The science is right. Analyses by the DOE team show that a 
repository at Yucca Mountain can be designed, built, operated, 
monitored and eventually sealed while meeting all statutory and 
regulatory requirements to protect public health and the environment. 
Principle among those requirements is the radiation standards 
established by the Environmental Protection Agency. While the 
scientific research about Yucca Mountain continues, more than enough is 
known at this point to support the site designation today.
    The time is right. Yucca Mountain is the right place. While we can 
never have perfect information, it is hard to imagine a better site. We 
know there are questions that remain to be addressed to the fullest 
extent required to support a license approval by the Nuclear Regulatory 
Commission, but extensive findings support the President's decision to 
advance toward that next step. Secretary of Energy Abraham put it in 
the right context in his site recommendation when he observed that 
Yucca Mountain has been studied for a longer amount of time than it 
took to plan and complete the moon landing. Let us move on.
    First and foremost, let us continue to focus on sound scientific 
facts surrounding the site designation, not the fear campaign being 
conducted, in particular, on the subject of nuclear waste 
transportation. These arguments ignore the excellent safety record of 
transportation of nuclear materials over the past 30 years. Each of 
those shipments, and all future shipments to Yucca Mountain, are and 
will be carefully planned and conducted under NRC, as well as other 
federal and State agency regulatory oversight. The public is largely 
unaware of that record, however, and is often predisposed to believe 
the worst about anything nuclear. The public may not realize, that 
despite claims of ``100,000 shipments through 43 States and many large 
cities over 40 years,'' DOE has yet to choose either the mode (truck or 
rail) of shipments or any of the routes. In the Final Environmental 
Impact Statement for Yucca Mountain, DOE states a ``preference for the 
mostly rail scenario,'' which would involve approximately 11,000 
shipments over 24 years. If the ``mostly truck'' alternative is more 
feasible, it would involve 53,300 shipments over the same period. We 
join others in urging that DOE consult with federal, State, tribal and 
local governments--as DOE has said it will--to coordinate these 
important decisions so that all will be prepared to ensure that the 
past safety record is sustained or exceeded. DOE is working today with 
the transuranic shipments to the Waste Isolation Pilot Plant (WIPP) in 
New Mexico and we believe that States and local governments, with the 
assistance to public safety officials provided for in Section 180 of 
the NWPA, can be prepared so that waste can be safely moved to Yucca 
Mountain.
    The Secretary of Energy's Site Recommendation to the President is 
compelling. While NARUC did not join the flurry of press releases that 
were unleashed the day the report was out, because we chose to read the 
recommendation first, we did issue a release praising the 
recommendation and the President's acceptance of it the following 
Monday. The Secretary carefully examined the statutory and regulatory 
requirements and summarized the analyses derived from a plethora of 
supporting technical documents. As a result of this exhaustive 
examination of the data, the Secretary presented the conclusion that 
the scientific basis exists to meet the requirements. Additionally, he 
developed and added the five ``compelling national interests'' that are 
found in the recommendation. It is often lost in the discussions of 
this subject, for example, that a geologic repository would still be 
needed for defense-related materials even if there never were nuclear 
power plants. Secretary Abraham is to be commended for the diligence 
with which he applied his own evaluation of the site qualifications and 
need, including addressing the arguments against recommending the site.
    NARUC supports the President's decision to accept the 
recommendation. He is aware of the likely criticism and expected 
reactions from those who either oppose anything to do with nuclear 
energy or the actions taken by Congress in 1987 to designate a single 
site to examine for suitability. In our opinion, President Bush has the 
sound science basis to support the decision he has made.
    NARUC and its members have a direct interest in the disposal of 
spent fuel from commercial power plants for two reasons:

          1. Unless the government finds a way to dispose of spent 
        nuclear fuel, some nuclear plants may need to shut down if they 
        are unable to meet their license requirements to store used 
        fuel in pool or dry storage. That will have heavy financial, 
        environmental or energy supply consequences--probably all 
        three. And it likely rules out any utility being willing to 
        invest in a new nuclear plant.
          2. Most importantly, we represent ratepayers in 41 States who 
        have, in good faith, paid over $16 billion into the Nuclear 
        Waste fund (including interest), according to DOE, and have 
        little to show for it. The utility ratepayers that are 
        represented by NARUC's members have paid the fees required to 
        pay for this program. Worse, they have also had to pay 
        utilities that had to bear additional on-site waste storage 
        expenses when DOE missed the 1998 date to begin removing the 
        fuel. In our opinion, this begs the question, ``Why, after DOE 
        failed to meet its contracted 1998 deadline, are we still 
        paying that fee?''

    Therefore, it is a matter of equity to those who are paying for 
this program that we move forward to the next step. Let the technical 
and legal experts of the Nuclear Regulatory Commission make the 
decision that really counts, whether to issue a construction license 
for the repository. That is the role the NWPA assigns to the 
independent Commission which bears the mission to protect the public 
health, safety, and the environment for all nuclear activities in this 
country, in a rigorous and adjudicative public process.
    The equity issue is pretty simple. When you make an obligation, you 
honor it or you face the consequences. Since the Nuclear Waste Policy 
Act set the policy that the disposal of the Nation's high-level 
radioactive waste must be the Federal Government's responsibility, the 
utilities can hardly switch to another removal agent. Similarly, the 
electric utility ratepayers or consumers have upheld their part of the 
deal. The money has been paid to the utilities to pay the Federal 
Government to pay for the program. Given the sound scientific basis for 
the Secretary and President's decisions to recommend the site, it is 
now time for the U.S. Congress to do the right thing, honor its 
commitment and move this program to the next step of the license 
application process.
    A final issue that needs to be addressed is the so-called ``DECO 
Alternative.'' Some opponents of the Yucca Mountain site have asserted 
that there is a viable alternative to Yucca Mountain, referring to the 
example of a settlement agreement reached between DECO Energy and DOE 
over expenses already incurred by PECO at its Peach Bottom Nuclear 
Plant. Those expenses were due solely to DOE's failure to meet the NWPA 
mandate to begin accepting commercial spent nuclear fuel in 1998, as 
contractually bound with DECO. Governor Guinn has misinterpreted the 
stopgap measure to recover costs of waste acceptance delay as a 
substitute for geologic disposal. In short the ``PECO Alternative'' is 
not an alternative at all.
    The Nuclear Waste Policy Act sets national policy for geologic 
disposal as the permanent solution for all high-level radioactive waste 
disposal. It does not allow for temporary on-site storage costs to be 
paid from the Nuclear Waste Fund, which is why several utilities are 
suing DOE over the Peach Bottom settlement. The settlement agreement 
basically allows the utility to forgo required payments to the Nuclear 
Waste Fund up until the amount agreed in the settlement. This has the 
effect of diverting NWF payments that are intended for permanent 
disposal to cover on-site storage costs that are due solely to the 
government's ongoing failure to begin waste acceptance. If all 
utilities were to enter into similar settlements, there would be no 
revenue flowing to the NWF and the repository could never be built. 
Moreover, for those plants already shut down there are no payments to 
credit against the storage costs.
    Leaving spent fuel at current commercial and government storage 
sites indefinitely is not the solution to the waste disposal problem 
that the NWPA contemplated twenty years ago. The DECO settlement does 
not provide for geologic disposal nor has the Peach Bottom site or any 
of the other 71 reactor locations been studied for suitability for 
indefinite storage. The Yucca Mountain Environmental Impact Statement 
compared disposing of nuclear waste at the Yucca Mountain geologic 
repository with leaving the waste at the 77 commercial and government 
sites, where it is currently, for the same 10,000 year period of 
isolation from the human environment. The ``No Action'' approach was 
found to have one of two consequences; it would either cost $5 trillion 
dollars or have intolerable human and environmental repercussions, 
depending on what assumptions were made about regulatory compliance for 
the sites once the reactors reach the end of their productive operating 
lives. There is no need for Congress to ``explore'' the PECO approach: 
the Environmental Impact Statement has already done that and the 
financial or environmental consequences are simply unacceptable.
    In conclusion, NARUC has been frustrated in the past with all the 
delays, but we are encouraged that the President has recommended that 
the program move forward and we urge the Senate to concur with the 
House by passing a resolution approving the President's site 
recommendation.
    Thank you for the opportunity to present our views. We hope that 
once Congress has addressed the issue of site recommendation, that it 
will then undertake the equally important issue of reforming the 
Nuclear Waste Fund, so it is fully available for its intended purpose. 
Without such reform the repository may never be built, even if 
approved.
                                 ______
                                 
                                       Glen Echo, MD, May 28, 2002.
Hon. Jeff Bingaman,
U.S. Senate, Committee on Energy and Natural Resources, Washington, DC.
    Dear Mr. Chairman: In last Thursday's hearing on Yucca Mountain you 
asked NRC Chairman Meserve to respond to my testimony that ``the NRC's 
licensing rule does not have any separate requirement for effectiveness 
of geologic barriers.'' You received the following answer (with my 
emphasis):

        NRC Chairman Meserve: Let me say that the testimony, Mr. 
        Gilinsky's testimony may reflect some misunderstanding of both 
        of the statute and of our regulatory requirements in that the 
        statute requires the consideration of both natural and 
        engineered barriers. As to our regulatory requirements, it is 
        part of our general philosophy that we supply defense in depth 
        and that we look for a variety of different means to ensure 
        that the regulatory requirements can be satisfied and that 
        would include both natural and engineered barriers. And we 
        anticipate that any DOE application for the site would reflect 
        the effectiveness of various of these barriers. We do not have 
        separate requirements for each of the barriers. And that of 
        course is consistent with the advice that the Department of 
        Energy and we received from the National Academy of Sciences 
        that the systems should be viewed as an integrated whole and 
        that all the barriers should work synergistically with each 
        other. And that we see an integrated picture rather than 
        looking at each barriers in isolation.

    In short, Chairman Meserve agreed that NRC's licensing rule does 
not have any separate requirements for effectiveness of geologic 
barriers. But he also prefaced this specific response with a discussion 
that could easily have left the listener with the opposite impression. 
In view of the question's significance for distinguishing between DOE's 
and NRC's responsibilities, I thought it was important to provide this 
additional clarification and emphasis. I would be grateful if you would 
include this letter in the record of the hearing.
    It was a pleasure to appear before you and the members of the 
Committee on this issue which is so important to the Nation.
            Sincerely,
                                                   Victor Gilinsky.
                                 ______
                                 
  Statement of Ellen G. Engleman, Administrator Research and Special 
       Programs Administration U.S. Department of Transportation
    Mr. Chairman, Senator Murkowski, and members of the committee, I 
appreciate the opportunity to provide this statement discussing DOT's 
role in ensuring the safe transportation of hazardous materials; 
including spent nuclear fuel.
    Spent nuclear fuel has been transported safely in the United States 
for many years. It is noteworthy that there have been many hundreds of 
domestic shipments of spent nuclear fuel with no deaths, no injuries, 
and no releases of the hazardous material. Right now, approximately 15 
shipments of spent nuclear fuel are being made annually by utilities, 
academic institutions, and other facilities that are regulated by the 
Nuclear Regulatory Commission (NRC). There also are shipments by the 
military and other shippers not regulated by NRC. All future shipments 
of spent fuel, just as the ones being made today, will be subject to 
mandatory transportation requirements and operational procedures to 
minimize the risks involved in that transportation.
                              agency roles
    Under the Nuclear Waste Policy Act (NWPA), the Department of Energy 
(DOE) has primary responsibility to plan for and arrange the 
transportation of spent nuclear fuel to a geological repository. NRC 
licenses storage facilities and also approves the packages and requires 
transportation in accordance with a physical protection plan. Within 
DOT, the Research and Special Programs Administration (RSPA) issues 
hazardous materials regulations, the Federal Railroad Administration 
(FRA) issues rail safety regulations, the Federal Motor Carrier Safety 
Administration (FMCSA) issues motor carrier safety regulations, and the 
United States Coast Guard issues marine transportation safety 
regulations--all of which apply to the transportation of spent nuclear 
fuel and other radioactive materials. RSPA, DOE, and the Federal 
Emergency Management Agency (FEMA) have provided grants, courses, and 
course materials for emergency responder training related to this 
transportation.
                        regulatory requirements
    I want to provide a brief overview of the regulatory requirements 
that would apply to spent fuel shipments to Yucca Mountain. Because of 
NRC's jurisdiction over these and other facets of nuclear waste and 
other radioactive materials transportation, and DOT's jurisdiction over 
hazardous materials transportation, the two agencies have entered into 
a Memorandum of Understanding (MOU) for the regulation of the transport 
of all radioactive materials. Under the MOU, NRC has the lead 
responsibility for the review and certification of the packages that 
are and will be used for spent nuclear fuel transportation. The MOU has 
been an effective vehicle for a sound regulatory program drawing upon 
the expertise of both agencies.
    Nuclear fuel must be packaged for transportation in cask containers 
approved by NRC. These specialized casks both reduce the effects of 
radiation during routine transportation and in a transport accident. 
NRC's certification process requires demonstration through tests and 
analyses that casks can survive hypothetical accident scenarios. The 
on-going radiation exposure protection provided by the casks is equally 
important for transportation workers who load and unload a shipment of 
spent nuclear fuel from its conveyance or remain near it during its 
movement in transportation. Because the time that it takes to move a 
shipment from origin to destination directly affects radiation 
exposure, DOT requires that shipments of spent nuclear fuel be planned 
to avoid intermediate stops to the extent practicable.
    Within DOT, several agencies are involved in regulating the 
transportation of spent nuclear fuel. RSPA's regulations, issued under 
the Federal hazardous material transportation law, impose packaging, 
hazard communication, training, operational, and other requirements; 
they specifically prohibit unnecessary delay in the transportation of 
hazardous materials. FRA's regulations, issued under the Federal 
Railroad Safety Act, impose requirements to ensure the safe rail 
transportation of hazardous materials. FMCSA's regulations, issued 
under the Motor Carrier Safety Improvement Act, impose requirements to 
ensure the safe highway transportation of hazardous materials; they 
require the use of routes that minimize time in transit when spent 
nuclear fuel is transported by motor vehicle. FMCSA's routing 
regulations permit States, following Federal regulatory guidelines, to 
designate certain routes for transporting hazardous material. Preferred 
routes are Interstate highways and alternate routes designated by a 
State routing agency. An Interstate bypass or beltway around a city, 
when available, must be used rather than an Interstate route through a 
city. Many States have designated highway routes for radioactive and 
other hazardous materials (or restricted the use of other routes), in 
accordance with FMCSA's regulations. Under these DOT regulations, a 
State or locality may not designate (or restrict the use of) routes 
that ``export'' transportation risks to a neighboring jurisdiction or 
unnecessarily delay the transportation of hazardous materials. To 
protect barges engaged in spent fuel transportation, the Coast Guard 
can impose moving security zones around barges under the Magnuson Act 
and 33 C.F.R. Part 6, and can impose moving safety zones around barges 
under the Ports and Waterways Safety Act (PWSA); under the PWSA, Coast 
Guard captains of the port can take other protective actions.
    Rail shipments of spent nuclear fuel adhere to recommendations of 
the Association of American Railroads for the use of special or 
dedicated trains over key routes. These special trains carry no other 
cargo and have priority use of the mainline. Key routes are higher 
volume lines that have safety detection devices (such as wheel bearing 
detectors) and receive the most frequent inspections and best 
maintenance.
    The NRC's requirements for physical protection of a shipment of 
spent nuclear fuel, including armed escorts who must be in close 
contact with a communications center about the status of the shipment, 
protect against intentional or unintentional disruption of the 
transportation and reduce the risks of an accident or incident. The 
same is true of other operational requirements, including State and 
local provisions that address traffic control and local safety hazards, 
as well as regulations of RSPA and its sister agencies within DOT--FRA 
for rail carriers, FMCSA for motor carriers, and the Coast Guard for 
water carriers. All transportation workers must have training in the 
requirements that apply to the functions they perform and how to avoid 
accidents and protect themselves from the hazards of materials being 
transported. Escorts for shipments of spent nuclear fuel must be 
trained in security measures, communications, responding to 
contingencies and threats, the hazards of radiation, and the Federal, 
State and local requirements that apply to the transportation of 
radioactive materials.
    Many Federal and State agencies enforce these regulatory 
requirements through inspections. For example, FMCSA has worked with 
DOE and the Commercial Vehicle Safety Alliance (CVSA) to develop the 
CVSA Level VI Enhanced Radioactive Inspection Protocols. Under these 
protocols, every vehicle transporting spent nuclear fuel is required 
(by DOE contract) to be inspected at its point of origin. This 
inspection includes radiation scans, as well as driver and vehicle 
compliance checks. Any defect discovered during the inspection, 
regardless of how minor, must be corrected before transportation 
begins.
                           emergency response
    In addition to imposing regulatory requirements intended to prevent 
incidents and releases, DOT and its partners are concerned about 
emergency response in the event an incident should occur. Effective 
response to a transportation accident or incident involving spent 
nuclear fuel is enhanced through Federal requirements and resources, 
including financial assistance to States and localities for emergency 
response planning and training. DOE maintains regional emergency 
management field offices that can dispatch qualified response teams to 
an incident involving nuclear material, although the first responders 
on the scene of an accident usually are local fire departments and law 
enforcement agencies. RSPA's hazard communication requirements 
(placarding, shipping papers, and package marking and labeling) inform 
these responders of the hazards involved. For shipments of spent 
nuclear fuel, coordination with local responders is also enhanced by 
the NRC's physical protection requirements that provide for advance 
notification to the State governor of each shipment to or through the 
State and advance arrangements with local law enforcement agencies for 
response to an emergency or a call by escorts for assistance. Local 
emergency response capabilities are strengthened by RSPA's planning and 
training grants to States, who in turn pass at least 75% of the grants 
through to local communities. Significantly, both DOE and FEMA have 
actively conducted and promoted emergency responder training that 
enhances the ability of State and local fire, police and other 
emergency personnel to respond to and mitigate hazardous materials 
spills and other incidents.
                                summary
    DOT provides a regulatory structure for the safe transportation of 
spent nuclear fuel, other radioactive materials, and all other 
hazardous materials. Our enforcement of those regulatory requirements 
would be greatly assisted by passage of legislation to reauthorize the 
hazardous materials transportation safety program; the Administration's 
proposal was introduced last year as H.R. 3276 and S. 1669. In 
partnership with other Federal agencies, States, local and tribal 
governments, and carriers and shippers of hazardous materials, we will 
continue to ensure the safe transportation of all hazardous materials 
into, through, and within the United States.
                                 ______
                                 
  Statement of Dr. Gail H. Marcus, President, American Nuclear Society
    Mr. Chairman, as President of the American Nuclear Society, I 
appreciate the opportunity to provide a written statement on behalf of 
ANS regarding transportation issues related to the nuclear waste 
repository at Yucca Mountain for the committee's hearing.
    ANS' confidence in the safety of high-level waste (HLW) 
transportation arises from the robustness of the cask design, the 
demonstrated safety record of HLW transportation and safeguards in the 
transportation process. I would like to elaborate on each of these 
factors.
                     robustness of the cask design
    Casks used for shipping spent nuclear fuel are designed to protect 
against radiation exposure to the public under both normal and accident 
conditions. The casks are designed and tested in accordance with 
requirements established by the Nuclear Regulatory Commission and the 
Department of Transportation and documented in volumes 10 and 49 of the 
U.S. Code of Federal Regulations.
    The casks are about 15 times thicker than a gasoline tank truck 
shell and they include three inches of stainless steel with thick lead 
radiation shields. Typically, for every ton of spent nuclear fuel, 
there are more than three tons of protective packaging and shielding.
    Casks are designed and tested to withstand crashes, fire, water 
immersion and puncture. To be certified, a cask design must withstand a 
sequence of four tests that measure its performance in specified crash 
and fire accident conditions. This means the casks are designed to 
contain its contents in the event an accident occurs.
Safety Record of Transportation
    Over the past 40 years, about 3,000 shipments of spent nuclear fuel 
have navigated more than 1.7 million miles of U.S. roads and railways. 
Since the early days off HLW transportation, 90 spent fuel casks have 
been involved in accidents. None of these accidents resulted in any 
release of radioactive material.
    It should be noted that the impact tests required by Federal 
Regulation exert forces on the casks that are greater than the impact 
forces (g forces) in the worst recorded accidents. Temperatures 
produced in the casks by the regulatory fire tests are higher than 
those in any recorded fire accident.
    In addition, Sandia National Laboratories has conducted three 
extra-regulatory types oh tests:

  <bullet> A 20-ton truck cask struck by a 120-ton diesel locomotive 
        traveling at 81 mph
  <bullet> A 22-ton cask on a flatbed crashed into a 690-ton concrete 
        block at 84 mph
  <bullet> A propane tank car exploding next to a cask in a pool fire, 
        throwing the cask 33 feet.

    The casks emerged from these tests with only minor damage, and in 
none of the tests did the casks fail to hold their contents.
    While there would be more shipments of nuclear waste in the coming 
years as a result of the opening of Yucca Mountain, the probability of 
radiation exposure to the public from an accident would remain low 
because casks of the same design would be used and the same safety 
procedures would be followed.
    Recently, concerns have been raised about the potential impacts of 
terrorist attacks during the transport of HLW. While there are many 
dimensions to the issue of terrorism that we, as a nation, are only 
beginning to understand, we can say that the same features that render 
casks highly resistant to highway and rail accidents tend to make them 
difficult targets for such attacks. By comparison, many hazardous 
chemical and other substances are shipped by truck and rail in less 
robust containers, and are more apt, if successfully attacked, to 
result in immediate casualties.
                safeguards in the transportation process
    Public routes used for the transport of nuclear materials must meet 
strict safety requirements before nuclear fuel is transported. 
Department of Transportation regulations require carriers of certain 
controlled radioactive materials, such as spent fuel, to use the safest 
routes available. Risk assessments of the transportation of radioactive 
materials evaluate factors such as accident rate, transit time, 
population density, other vehicles sharing the route and time of day.
    The DOT identifies ``preferred routes,'' which consist primarily of 
interstate highways and bypass routes around cities, where such bypass 
routes exist, or an alternative route selected by a state routing 
authority. If the routing authority selects an alternate route, it must 
demonstrate by a routing analysis that using the alternate route does 
not increase overall risk. Alternate route selections must be preceded 
by consultations between DOT and affected state and local authorities 
before such designations can go into effect.
    Most materials being transported are monitored by global satellites 
and are monitored at all times during the transportation process. 
Specialized trucking companies handle spent nuclear fuel shipments in 
the United States. These experienced, specially licensed companies haul 
all kinds of hazardous materials more than 50 million miles annually. 
Vehicles are state of the art, equipped with computers that provide an 
instantaneous update on the truck's location and convey messages 
between driver and dispatcher through a satellite communications 
network. Drivers receive extensive training and must be certified by 
the federal government.
                               in summary
    The regulatory requirements on casks and transportation security, 
and the industry's high level of performance, have produced a safety 
record that would be difficult to match. This performance record gives 
us strong confidence that the transport of spent nuclear fuel to Yucca 
Mountain can and will be conducted without harm to the public.
    Mr. Chairman, we sincerely appreciate the opportunities to share 
our views and facts concerning the safety of transporting nuclear fuel.
    The American Nuclear Society is a professional society devoted to 
advancing nuclear science and technology.
                                 ______
                                 
       Statement of Allan Rutter, Administrator Federal Railroad 
           Administration, U.S. Department of Transportation
    Mr. Chairman, Senator Murkowski, and members of the Committee, I am 
very pleased to have the opportunity to present this statement on the 
important subject of the transportation of nuclear wastes. The Federal 
Railroad Administration (FRA), on behalf of the Secretary of 
Transportation, administers the Federal railroad safety laws, including 
those concerning the transportation of hazardous materials by rail. 
Ranking at the top of FRA's priorities is the safety of rail shipments 
involving Spent Nuclear Fuel (SNF) \1\ and High-Level Radioactive Waste 
(HLRW).\2\ These materials have been transported safely by rail in the 
United States for more than 45 years. Since 1957, approximately 1,100 
shipments of SNF and HLRW have traversed our Nation's railroad system.
---------------------------------------------------------------------------
    \1\ The Nuclear Waste Policy Act of 1982 (NWPA) defines ``spent 
nuclear fuel'' as ``fuel that has been withdrawn from a nuclear reactor 
following irradiation, the constituent elements of which have not been 
separated by reprocessing.''
    \2\ NWPA defines ``high-level radioactive waste'' as ``(A) the 
highly radioactive material resulting from the reprocessing of spent 
nuclear fuel, including liquid waste produced directly in reprocessing 
and any solid material derived from such liquid waste that contains 
fission products in sufficient concentrations; and (B) other highly 
radioactive material that the Commission, consistent with existing law, 
determines by rule requires permanent isolation.'' The term 
``Commission'' as used in the definition means the Nuclear Regulatory 
Commission.
---------------------------------------------------------------------------
    To ensure the safe transportation of nuclear materials by rail, FRA 
works as part of a multi-agency team that includes, among others: the 
Department of Energy (DOE), the Nuclear Regulatory Commission (NRC), 
the Federal Emergency Management Agency, the Research and Special 
Programs Administration (RSPA), and the Federal Motor Carrier Safety 
Administration (FMCSA). We also work closely with various State 
governmental organizations, including the Council of State Governments, 
the Western Governors Association, and the Southern States Energy 
Board.
    DOE, of course, has broad responsibilities in the area of nuclear 
power that include planning and arranging for the transportation of SNF 
and HLRW. NRC, in addition to licensing nuclear facilities, has 
developed the overall design criteria for the casks in which these 
materials are transported and reviews and approves physical security 
plans for spent fuel shipments. RSPA, another agency of the Department 
of Transportation, sets the standards for the transportation of all 
hazardous materials, including SNF and HLRW. RSPA's relevant standards 
cover hazard communication, shipment documentation, packaging safety, 
and training. FMCSA oversees the safety and routing of shipments by 
highway.
    In general, FRA establishes safety standards concerning the design, 
maintenance, and inspection of many elements of our Nation's railroad 
system, including track, motive power and equipment, signal and train 
control, operating practices, and hazardous materials transportation. 
Railroads are required to conduct their own inspections to ensure that 
these safety standards are being met. FRA leads a cadre of 
approximately 400 Federal and State safety inspectors whose role is not 
to conduct safety inspections for the railroad industry, but to monitor 
the railroad industry's own inspection forces to ascertain whether the 
railroads are in compliance with applicable Federal safety standards. 
FRA inspectors accomplish this task by conducting routine, random and 
programmed inspections of railroad properties and comparing their 
findings to a railroad's own inspection records. Thus, while primary 
responsibility for inspecting the railroads rests with the railroads 
themselves, FRA's inspection strategy is to ensure the integrity and 
effectiveness of the railroads' own inspection programs.
    With regard to rail transportation of SNF and HLRW in particular, 
FRA conducts inspections to verify that the shipment is properly 
prepared and in compliance with all applicable hazardous materials 
regulations. We also help to ensure that the track, signal systems, 
grade crossings, bridges, and rail vehicles used for these shipments 
are in safe condition and that responsible railroad employees are 
properly trained and briefed. In these activities, of course, we work 
very closely with the railroads, their employees, and the affected 
communities. We believe the regulatory structure, planning, monitoring, 
coordination, and experience have produced a very safe system for the 
transportation of nuclear wastes by rail, but we understand the need to 
continue to improve that system to meet the new challenges posed by the 
expected increase in those shipments and the post-September 11th 
security environment.
              rail transportation of radioactive materials
    Railroad transportation is well suited to moving high-level 
radioactive materials safely and efficiently. Complementary Federal 
regulations issued by RSPA and NRC require SNF and HLRW, even when 
shipped in small amounts, to be transported in specially shielded 
containers or casks that conform to NRC's regulations for Type B 
containers. Typically, in accordance with NRC's standards, these casks 
are constructed of multiple layers of stainless steel with shielding 
sandwiched in between the layers of steel to protect against 
radioactive emissions. Railroads are ideally suited to moving these 
large, heavy casks.
    Most rail shipments of SNF or HLRW move in casks that weigh up to 
125 tons when loaded and are capable of carrying large quantities of 
high-level radioactive material. Many truckloads would be required to 
move an equivalent amount of nuclear material by highway. To get a 
sense of the great efficiencies that can be achieved by moving high-
level nuclear materials by rail, consider the data projections 
presented in the environmental impact statement (EIS) for the Yucca 
Mountain site. Over the 24-year period covered by the EIS, there will 
be approximately 10,700 shipments of SNF, which means there will be 
about 150 train movements carrying up to 450 shipments (three shipments 
per train) annually. To carry this same quantity of SNF by truck would 
require approximately 53,000 shipments over 24 years, which would mean 
2,200 highway movements (one shipment per truck) annually. The inherent 
efficiency of rail transportation in moving SNF and HLRW has a direct 
bearing on safety, as fewer shipments of nuclear materials mean less 
public exposure and less opportunity for a transportation incident.
    Rail movements of SNF and HLRW have a long and very positive 
history, and the volume of these shipments is growing. The Navy has 
been shipping SNF to disposal sites since 1957. In 1989, Carolina Power 
and Light began sending SNF from its commercial nuclear reactors to 
temporary storage facilities. Several years ago, FRA realized that the 
relatively modest number of rail shipments of SNF and HLRW, which had 
numbered between 15 and 25 annually during the early 1990s, was likely 
to increase dramatically. In 1995, DOE began shipment of SNF and HLRW 
as part of its Foreign Research Reactor Fuel Program, which is intended 
to safeguard SNF shipped from research reactors around the world and is 
an important element in the Nation's nuclear nonproliferation efforts. 
As a result of these programs, rail shipments of SNF and HLRW increased 
from 38 shipments in 1997 to an average of more than 64 shipments per 
year in the succeeding years. Furthermore, two separate consortiums of 
commercial nuclear power producers each anticipate initiating as many 
as 100 rail shipments per year of SNF and HLRW to temporary storage 
facilities, possibly as early as next year. Therefore, even without the 
Yucca Mountain shipments, rail shipments of SNF and HLRW are destined 
to increase sharply.
             fba's safety compliance oversight plan (scop)
    Ultimately, the safe movement of SNF and HLRW depends on the 
application of sound safety regulations, policies and procedures. This 
requires extensive planning and coordination among Federal agencies, 
State and local governments, and commercial transportation companies.
    In the mid-1980s, partly as a result of the rail shipments from the 
Three Mile Island Nuclear Power Plant, FRA implemented its High-Level 
Nuclear Waste Rail Transportation Inspection Policy for all known rail 
shipments of SNF and HLRW. Under FBA's Inspection Policy, there has 
never been a rail accident or incident involving the transportation of 
SNF or HLRW that has resulted in a release of the material from the 
packaging. Furthermore, there has never been a single death or injury 
resulting from a rail shipment of radioactive material.
    Taking a proactive approach to railroad safety, FRA recognized the 
need to enhance its high-level radioactive materials rail 
transportation inspection policy to ensure that the railroad industry's 
outstanding safety record for nuclear material shipments could continue 
unabated despite the sharp increase in nuclear materials shipments. 
Therefore, in 1998, FRA developed the Safety Compliance Oversight Plan 
For Transportation of High-Level Radioactive Waste and Spent Nuclear 
Fuel (SCOP), which set forth an enhanced FRA policy to address the 
safety of rail shipments of SNF and HLRW. While the SCOP was originally 
developed in support of DOT's Foreign Research Reactor Fuel program, 
FRA believes this enhanced policy is necessary to ensure the safety of 
future rail shipments of SNF and HLRW, which are destined to increase 
significantly with or without the opening of Yucca Mountain.
    Development of the SCOP involved a coordinated effort between FRA, 
DOE, the Association of American Railroads (AAR), railroad labor 
organizations, and representatives of affected States. Also, through 
participation in DOT's Transportation External Coordination Working 
Group, FRA has consulted with Native American groups on the relevant 
issues. FRA wishes to acknowledge the invaluable contribution of its 
safety partners, whose insight and wisdom were instrumental in 
formulating the policies and procedures that are incorporated into the 
SCOP.
    Key elements of the SCOP include: planning the most appropriate 
routes, training of railroad employees and emergency responders, and 
enhancing FRA safety inspection practices and overall safety oversight 
policies.
    Under the SCOP, FRA works with DOE, the offeror or its agent, and 
the rail carriers in planning and selecting the routes, emphasizing the 
selection of the highest classes of track. (FRA regulations define 
various classes of track; each class of track has a maximum allowable 
operating speed and specific design, maintenance, and inspection 
requirements. The higher the class of track, the higher the permissible 
operating speed and the more stringent the safety standards.) FRA also 
prepares an accident prediction model for the highway-rail grade 
crossings along the intended route and uses this model to assist DOE in 
coordinating with appropriate State, local, and tribal agencies in 
route planning activities. We also coordinate with Operation Lifesaver, 
a private safety organization, to increase grade crossing safety 
awareness and education in communities along designated routes. We also 
work with DOT's Office of Intelligence and Security in coordinating 
security precautions, such as the identification of ``safe havens,'' 
with the offeror, law enforcement officers, and intelligence 
communities. As the new Transportation Security Administration begins 
its work in the Department, we will be coordinating closely with them 
to ensure the security of these shipments. Finally, FRA reviews the 
emergency response plans of the offeror, rail carrier, and DOE to 
ensure that they adequately address the actions to be taken in the 
unlikely event of an accident or incident involving the train.
    Training is another important element of the SCOP. It is FRA's 
policy to assist DOE, and the offeror or its agent, in the development 
of emergency response training and safety briefings and to monitor the 
industry to verify that requisite training and briefings have been 
performed. FRA also conducts reviews to ensure that train crews who 
operate the trains in which nuclear materials are transported are 
properly certified, trained, and experienced in running over the 
designated routes. FRA also checks to see that these crews have 
received specific training concerning the nature of the shipments.
    As explained above, FRA's safety inspection program is primarily 
designed to monitor the safety performance of railroads, which are 
responsible for performing their own inspections and ensuring the 
safety of their operations. However, under the SCOP, FRA plays a more 
direct role by conducting more focused and intensive safety inspections 
to ensure the highest level of safety for rail shipments of SNR and 
HLRW. For example, instead of inspecting a limited sample of 
locomotives and freight cars as we do for routine rail operations, FRA 
equipment inspectors conduct a thorough inspection of each and every 
locomotive and freight car for every train that transports SNF and 
HLRW. These inspections ensure that locomotives, freight cars, and the 
train's braking systems meet all applicable Federal safety standards. 
Furthermore, along a designated route, it is FRA's policy to observe 
the operation of all automated warning devices at highway-rail grade 
crossings, to ascertain that they are operational before the shipment. 
FRA signal inspectors also conduct inspections of selected grade 
crossing warning devices to gauge the reliability and integrity of the 
grade crossing warning system. Furthermore, FRA places operating 
practices experts in the rail carriers' dispatching centers during SNF 
and HLRW shipments on designated routes to observe firsthand the 
progress of the shipments and any operational problems that might 
arise. It is also FRA's policy to inspect all the tracks along the 
entire route of a nuclear shipment; this includes both visual 
inspections and automated inspections by FRA's track geometry vehicle 
(the T-2000), which is capable of measuring the alignment, gage and 
cross-level of every foot of railroad track. In addition, FRA reviews 
the rail carrier's rail flaw detection vehicle data to ensure that rail 
flaw inspections have been performed on the designated route, and 
necessary rail repairs have been made prior to the shipments.
    It must be emphasized that the SCOP is a living document that has 
evolved from 45 years of accumulated experience regarding the safe 
movement of nuclear materials by rail. FRA will continue to work in 
partnership with the rail community to periodically review, evaluate, 
and update the SCOP to keep pace with the latest developments and 
technologies involving the safe transportation of nuclear materials.
    From this brief description of FRA safety inspection policies under 
the SCOP, one can understand why FRA inspection resources are stretched 
to their limits, even with the relatively modest number of nuclear rail 
shipments that are currently taking place. We are working within the 
budget process to anticipate the resources needed to maintain the 
highest level of safety for SNF and HLRW rail shipments. For example, 
one of the budgetary challenges FRA will need to overcome involves our 
automated track geometry vehicle, which is capable of inspecting 30,000 
miles of track per year. When the interim nuclear storage facilities or 
Yucca Mountain begins accepting shipments of SNF and HLRW, the number 
of track miles over which SNF and HLRW travel will most assuredly 
exceed 30,000, and we must be prepared to respond to the challenge.
                     safety and security protocols
    Federal regulations for shipment of nuclear material by rail are 
augmented by a series of safety and security protocols and special 
operating restrictions that have been agreed upon by DOE and the 
railroads. These protocols and operating restrictions have evolved over 
the years and are often tailored to the particular needs of the 
individual shipments. Under these protocols, a train carrying SNF or 
HLRW would typically include the cask cars, two buffer cars (one on 
each end of the shipment to cushion against impacts in the event of a 
collision), and an occupied escort car staffed by security personnel. 
Special operating restrictions have included limitations on the maximum 
speed of trains carrying nuclear materials, requirements to stop 
opposing trains on adjacent tracks when they meet a train carrying 
nuclear materials, and requirements that nuclear material cars be 
switched only with an attached locomotive rather than allowing them to 
roll to a stop on their own during switching.
    Another convention involving the shipment of SNF and HLRW by rails 
concerns the use of dedicated trains. Until the mid-1970s, most rail 
shipments of these radioactive materials were handled in regular 
service trains that carried a wide variety of freight in addition to 
the radioactive materials cars. In 1974, the railroad industry began 
insisting that radioactive materials shipments move in dedicated trains 
that solely transport the radioactive material cars. There has been 
much debate about this topic over the years; while many nuclear 
materials shipments do move in dedicated trains today, this is not the 
case for all such shipments. (In 1977, the Interstate Commerce 
Commission issued a decision that prevented railroads from mandating 
the use of dedicated trains.) FRA has engaged the services of the John 
A. Volpe National Transportation Systems Center to conduct a thorough 
study of the safety and security implications surrounding the 
transportation of high-level radioactive materials in dedicated trains 
versus regular service trains. We hope to have the study completed by 
the end of this year or early next year.
    The security of rail shipments of radioactive materials has long 
been a priority even before the tragic events of September 11th. Some 
of the protocols described above contain stringent security measures to 
protect against terrorist threats, including the accompaniment of these 
shipments by armed security forces and requirements to protect the cars 
when sitting in rail yards or sidings.
    More recently, Global Positioning Satellite (GPS) technology is 
being used to track the location of trains carrying radioactive 
materials. FRA is leading a departmental effort to build a Nationwide 
Differential Global Positioning System (NDGPS) that can greatly improve 
the accuracy of conventional GPS to several centimeters. This level of 
precision permits the system's user to determine exactly which track 
(where there are adjacent tracks) a train is occupying. Our goal is to 
have dual NDGPS coverage for the entire United States. Presently, 80 
percent of the continental U.S. has NDGPS coverage while 40 percent has 
dual coverage.
    Although security concerns have long played a prominent role in the 
safety of rail shipments of radioactive materials, the events of 
September 11th have reinforced the fact that we must constantly 
reassess our assumptions and beliefs. A few weeks after the attacks on 
the World Trade Center and the Pentagon, the Association of American 
Railroads secured the services of an experienced security firm to 
conduct a comprehensive review and assessment of the security of our 
Nation's freight railroad system. The security of hazardous materials, 
including radioactive materials, and defense-related shipments are two 
areas that have received special emphasis in the security review. FRA 
has obtained the services of its own security experts to review the AAR 
security assessment. We will provide input into the security review, 
which may include proposed enhancements for the security of rail 
shipments of nuclear materials.
    Nothing that we do in transportation after last September 11th can 
ignore the threats to security posed by terrorist organizations. The 
Federal agencies responsible for direction or oversight of these 
movements have worked successfully over the years through the 
Governors' offices of the respective States to ensure that emergency 
planning and emergency response agencies have the information and 
training they need to do their jobs. This sharing of information and 
cooperation must continue. However, it will be particularly important 
that specific information regarding routes and timing of individual 
shipments is kept secure by those with a need to know. The 
Transportation Security Administration and other participating 
agencies, including FRA, will need to evaluate how best to address this 
security concern.
                               conclusion
    FRA believes that it is critical that rail shipments of high-level 
radioactive materials continue to be conducted with a maximum degree of 
safety and security. This can only be accomplished through a sound and 
meaningful safety partnership involving all relevant elements of the 
nuclear industry, the railroad community and appropriate Federal, 
State, and local governmental bodies. Our current safety requirements 
and practices have evolved over a period of 45 years. We must build 
upon the knowledge and experience we have gained over that period to 
meet the challenges that are likely to arise with the projected 
increase in rail shipments of SNF and high-level radioactive materials 
in today's railroad environment. As noted above, new challenges will 
arise regardless of whether or when the Yucca Mountain storage facility 
becomes operational, and when they do, FRA and its many partners are 
determined to be prepared to successfully meet these challenges.
                                 ______
                                 
        Statement of Joan Claybrook, President of Public Citizen
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to submit for the record written testimony on the 
president's February 14th recommendation that a nuclear waste 
repository be developed at Yucca Mountain, Nevada, and Senate Joint 
Resolution 34. I am President of Public Citizen, a national non-profit 
public interest organization with 150,000 members nationwide. Public 
Citizen works to protect citizens and the environment from the dangers 
posed by nuclear power and advocates for safe, affordable, and 
sustainable energy policies.
    Soon the Senate will face an unprecedented decision about whether 
to support or override the Governor of Nevada's Notice of Disapproval 
to prevent establishing a Yucca Mountain repository for 70,000 metric 
tons of high-level radioactive waste from commercial nuclear power 
plants and Department of Energy (DOE) weapons activities.
    Public Citizen urges the Committee to decisively reject Energy 
Secretary Spencer Abraham's unscientific site recommendation, support 
the Notice of Disapproval and stop the Yucca Mountain Project, in order 
to protect public health and safety. The DOE has a long record of 
investing in wasteful ventures and white elephants at a cost of tens of 
billions of dollars to the U.S. taxpayer. No private business could 
survive operating with such a string of misjudgments and failures. It 
is time for the Congress to insert a dose of reality and pull the plug 
on the hazardous Yucca Mountain venture. Just look at the DOE's 
mishandling of military nuclear waste projects, some of which were 
highlighted by 60 Minutes on Sunday, March 17, 2002 (transcript 
available on request). Yucca Mountain is poised to become another 
contaminated DOE site if the repository proposal moves forward.
                         the site is unsuitable
    After fifteen years of site characterization studies at a cost 
exceeding $5 billion, DOE scientists have been unable to demonstrate 
that a repository at Yucca Mountain could effectively isolate high-
level nuclear waste throughout the quarter million years it remains 
dangerously radioactive. Having originally instructed the DOE to assess 
the suitability of the site for a geologic repository, Congress should 
now consider this question answered in the negative, and terminate 
repository activities at Yucca Mountain.
    The geology of the site is ill-suited to the task of containment. 
Yucca Mountain is a ridge of porous volcanic tuff, highly fractured as 
a result of seismic activity. Thirty-three earthquake faults are known 
to exist within and adjacent to the Yucca Mountain site, with 
additional fault lines expected to develop over time. The proposed 
repository would lie about 1,000 feet above a freshwater aquifer, which 
currently provides the only source of drinking water for area residents 
in Amargosa Valley, Nevada, and parts of Inyo County, California. If 
radioactivity from the proposed repository reaches the aquifer below, 
it not only will contaminate this important source of drinking water, 
which is in short supply, but also will provide a pathway for 
potentially dangerous levels of radioactivity to reach the accessible 
environment.
    Although the climate at Yucca Mountain is generally dry, evidence 
points to relatively rapid movement of water through the rock. Elevated 
levels of the tracer isotope Chlorine-36 found in the DOE's test tunnel 
at Yucca Mountain indicate that water traveled from surface- to 
repository-level (about 1,000 feet) in 50 years or faster. The original 
siting guidelines (10 CFR 960) would have disqualified the Yucca 
Mountain site on the basis of water flow time alone.
    To prevent the site from being disqualified, the government changed 
the rules. The DOE inappropriately rewrote the repository siting 
guidelines in November 2001 to accommodate the deficiencies in the 
Yucca Mountain site. The revised guidelines (10 CFR 963) are a 
dangerous departure from the concept of geologic containment and offer 
an inadequate basis for site recommendation. The new performance-based 
siting guidelines permit a reliance on ``engineered barriers'' in an 
attempt to mask the many problems that should disqualify the Yucca 
Mountain site. DOE's repository design proposals rely more than 99% on 
engineered barriers for containment. The geology of Yucca Mountain 
contributes less than 1%.\1\
---------------------------------------------------------------------------
    \1\ Nevada Nuclear Waste Project Office analysis of DOE 
presentation to Nuclear Waste Technical Review Board, 1/25/99.
---------------------------------------------------------------------------
    Given the difficulties in accurately predicting, on the basis of 
very limited experience, the performance of engineered barriers over 
tens of thousands of years, coupled with the inadequacies of the 
``natural barriers'' at Yucca Mountain, it is only a question of when--
not if--the proposed repository's isolation systems would fail.
    High-level nuclear waste is intensely radioactive and very long-
lived. It is one of the most hazardous substances ever created. The 
waste's dangerous radioactivity will outlast any engineered barriers 
employed at Yucca Mountain. The Environmental Protection Agency's (EPA) 
site-specific radiation protection standards for Yucca Mountain (40 CFR 
197) arbitrarily established a 10,000-year limit on containment 
requirements at the repository, which has been subsequently adopted by 
the DOE in its siting guidelines and the Nuclear Regulatory Commission 
(NRC) in its Yucca Mountain licensing rule.
    Yet, high-level nuclear waste will remain dangerously radioactive 
for much longer. For example, Plutonium-239, which accounts for 
approximately 1-4% of high-level nuclear waste by weight, has a half-
life of 24,400 years and remains dangerously radioactive for close to a 
quarter-million years. If DOE's optimistic predictions are correct and 
the underground nuclear waste storage containers at Yucca Mountain do 
not begin failing from corrosion for 40,000 years, peak radiation dose 
rates from the proposed repository are expected 100,000-200,000 years 
into the future--outside EPA's inadequate regulatory timeframe.
    The EPA's radiation standards (40 CFR 197) also establish a lower 
level of environmental protection for Yucca Mountain than the generic 
rule applicable elsewhere, by expanding the unregulated zone to 18 
kilometers from the repository boundary in the direction of groundwater 
flow. This site-specific rule allows the DOE to rely on dilution and 
dispersion in groundwater, rather than containment of radioactivity, 
and as such sets an inadequate benchmark for performance assessment 
evaluations. A map illustrating the unacceptable leniency of the EPA 
rule is attached. <SUP>1a</SUP> Public Citizen, together with the 
Natural Resources Defense Council and other environmental and public 
interest organizations, filed a lawsuit last June challenging these 
aspects of the EPA rule. Our case has been consolidated with a lawsuit 
from the State of Nevada, and the joint brief, filed with the District 
of Columbia Circuit Court of Appeals on May 3rd, 2002, is available 
online at http://www.nrdc.org/media/docs/020506.pdf.
---------------------------------------------------------------------------
    \1a\ The map has been retained in committee files.
---------------------------------------------------------------------------
    But even projections of the proposed repository's compliance with 
this inadequate standard are inconclusive. The Nuclear Waste Technical 
Review Board \2\ advised Congress on January 24, 2002, that ``the 
technical basis for the DOE's repository performance estimates is weak 
to moderate.'' Also, a December 2001 report by the General Accounting 
Office highlighted 293 unresolved technical issues, identified by the 
Nuclear Regulatory Commission, that require further study and 
analysis.\3\ As the GAO report suggests, Secretary Abraham's site 
recommendation is premature at best.
---------------------------------------------------------------------------
    \2\ The presidential-appointed Nuclear Waste Technical Review Board 
is an independent agency of the U.S. Government. The Board provides 
independent scientific and technical oversight of the civilian high-
level radioactive waste management program.
    \3\ Nuclear Waste: Technical, Cost and Schedule Uncertainties of 
the Yucca Mountain Project (December 2001).
---------------------------------------------------------------------------
     the risks of nuclear waste transportation cannot be justified
    Intrinsic to any assessment of Yucca Mountain's suitability as a 
national nuclear waste repository is the feasibility of transporting 
waste to the site. Yet, the DOE has consistently downplayed the 
transportation impacts of the Yucca Mountain proposal. Secretary 
Abraham's site recommendation does not detail a specific plan for 
transporting waste from the 77 nuclear power plants and DOE weapons 
sites across the country where it's currently stored to Nevada. Basic 
decisions about the mode of transportation (truck, train, or barge) and 
routes have not yet been made.
    The maps of potential Yucca Mountain transport routes, included in 
the project's final Environmental Impact Statement, indicate that tens 
of thousands of high-level radioactive waste shipments would likely 
pass through 44 states and the District of Columbia en route to Yucca 
Mountain.Recognizing the explosive nature of route designations, the 
DOE refuses to announce a specific proposal for transporting nuclear 
waste until after Yucca Mountain is licensed. At least until DOE 
reveals precisely which routes would be used for nuclear waste 
transportation and details a specific proposal for ensuring the safety 
of Yucca Mountain shipments, a vote in support of the repository 
proposal would be not only premature but grossly irresponsible.
    Transporting nuclear waste is inherently dangerous because it 
increases the likelihood of radioactive release and introduces this 
risk to densely populated areas where the emergency response/public 
health infrastructure may lack the capacity to respond effectively to a 
nuclear emergency. The Department of Transportation (DOT) recorded 
438,000 crashes involving large trucks in 2000, the most recent year 
for which statistics are available.\4\ Over the same period, the 
Federal Railroad Administration reported 2,983 train crashes.\5\ 
According to RailWatch analysis of accident reports, a train carrying 
hazardous materials in the U.S. runs off the tracks, spills some of its 
load, and forces an evacuation about once every two weeks.\6\
---------------------------------------------------------------------------
    \4\ Large Truck Crash Facts, 2000, Analysis Division, Federal Motor 
Carrier Safety Administration, U.S. Department of Transportation (March 
2002).
    \5\ Federal Railroad Administration Office of Safety, http://
safetydata.fra.dot.gov/officeofsafety/, viewed 5/28/02.
    \6\ Why Is There a Train Accident Every 90 Minutes? RailWatch 
(revised March 1999).
---------------------------------------------------------------------------
    Since the dawn of the Nuclear Age, approximately 3,000 shipments of 
high-level nuclear waste have traveled on U.S. roads and rails. This 
number would be exceeded within the first two years of shipments to the 
proposed Yucca Mountain repository. While the nuclear industry 
frequently refers to an accident-free shipping history, a 1996 analysis 
of DOE accident reports \7\ documents 72 ``incidents'' since 1949 
involving nuclear waste shipments, including four involving 
``accidental radioactive material contamination beyond the vehicle,'' 
four with radiation contamination confined to the vehicle, 49 of 
accidental container surface contamination, 13 traffic accidents with 
no release or contamination, and 2 incidents with no description. 
Extrapolating on the basis of this past history and considering, 
statistically, general traffic crash rates along probable nuclear waste 
transportation routes, crashes involving Yucca Mountain shipments are 
certain to occur if the repository program moves forward.
---------------------------------------------------------------------------
    \7\ Reported Incidents Involving Spent Nuclear Fuel Shipments, 1949 
to Present, Nevada Nuclear Waste Project Office (1996).
---------------------------------------------------------------------------
    Given the statistical certainty of crashes involving Yucca Mountain 
nuclear waste shipments, the DOE and nuclear industry safety assurances 
rest upon the robustness of shipping containers, or ``casks,'' and 
their ability to contain radioactivity even in the event of a crash. 
However, we are concerned that in the event of a severe crash casks may 
not perform as expected. DOE accident analyses fail to consider the 
statistical likelihood of manufacturing and human error and its impact 
on cask performance. Also, NRC license requirements for high-level 
radioactive waste transport casks rely on computer modeling. Amazingly, 
currently licensed casks have never had full-scale, dynamic tests. 
Limited dynamic tests in the 1970s were performed on now-obsolete casks 
and have not been repeated. In those tests, cask valves and shielding 
failed during extended fire tests. Furthermore, the NRC's performance 
requirements for nuclear waste casks (10 CFR 71.73), established in the 
1970s, are outdated and dangerously underestimate the conditions of 
today's worst-case accident scenario:

  <bullet> The drop test requires casks to withstand a fall from 30 
        feet onto an unyielding surface, which simulates a crash at 30 
        miles per hour. Yet, no regulations are in place to limit to 30 
        mph the speed at which nuclear waste shipments can travel. This 
        test condition could easily be exceeded, if, for instance, a 
        cask traveling at regular highway speeds (now 65-75 miles per 
        hour) crashed into oncoming traffic or a virtually unyielding 
        structure such as a bridge abutment.
  <bullet> The burn test requires casks to withstand an engulfing fire 
        at 1,475 degrees Fahrenheit for 30 minutes. Other materials 
        routinely transported on our roads and rails could spark a 
        hotter fire (diesel burns at 1,850 degrees) and could 
        potentially burn for longer than half an hour. Last summer's 
        fire in Baltimore's Howard Street train tunnel--which the DOE 
        has identified as a potential Yucca Mountain shipment route--
        burned for more than 3 days and likely reached temperatures of 
        at least 1,500 degrees. If a nuclear waste cask had been on the 
        train involved in that accident, its containment would have 
        been breached, exposing 345,493 people in the area to radiation 
        and costing at least $13.7 billion dollars to clean up.\8\
---------------------------------------------------------------------------
    \8\ Radiological Consequences Of Severe Rail Accident Involving 
Spent Nuclear Fuel Shipments To Yucca Mountain: Hypothetical Baltimore 
Rail Tunnel Fire Involving SNF, Radioactive Waste Management Associates 
(September 2001).
---------------------------------------------------------------------------
  <bullet> The puncture test requires casks to withstand a free-fall 
        from 40 inches onto an 8-inch-long spike. A train derailment or 
        a truck crash on a bridge could result in a fall from much 
        higher than 40 inches and potentially result in puncture damage 
        to the cask's shielding.
  <bullet> The same cask is required to withstand submersion in 3 feet 
        of water, and a separate test requires an undamaged cask to 
        withstand submersion in 200 meters of water (656 feet) for 1 
        hour. If a crash involving a nuclear waste shipment occurred on 
        a bridge or barge, a damaged cask could be submerged in depths 
        greater than 3 feet. Furthermore, given the weight of nuclear 
        waste transport casks, it is not reasonable to assume that a 
        submerged cask could be rescued within one hour. Licensed truck 
        casks weigh 24-27 tons, loaded, and train casks can weigh up to 
        125 tons, loaded. In the case of a barge transport accident, if 
        a crane capable of lifting such a massive load out of the ocean 
        were not immediately available, water pressure over longer 
        periods could result in cask failure and radiation release.

    The prospect of transporting high-level nuclear waste across the 
country through major population centers also poses a security risk, 
particularly in the current context of heightened national security 
concerns. Immediately following the September 11 terrorist attacks, at 
least 10 people were arrested on charges of possessing fraudulent 
permits for transporting radioactive and hazardous materials.
    Regulatory requirements are also inadequate to protect against the 
risk of terrorist attacks. Although the Nuclear Regulatory Commission 
does not require transportation casks to be tested against this 
vulnerability, tests and studies have demonstrated that an anti-tank 
weapon could easily penetrate a nuclear waste transportation cask and 
result in a potentially catastrophic release of radiation. In a 1998 
demonstration at Aberdeen Proving Ground, a TOW anti-tank missile shot 
at a Castor V-21 storage cask a blew a hole through the wall of the 
cask. Analysis by the state of Nevada indicates that a successful 
terrorist attack on a GA-4 truck cask using a common military 
demolition device could cause 300 to 1,800 latent cancer fatalities, 
assuming 90% penetration by a single blast. Full perforation of the 
cask, likely to occur in an attack involving a state-of-the-art anti-
tank weapon, such as the TOW missile, could cause 3,000 to 18,000 
latent cancer fatalities. Cleanup and recovery costs would exceed $17 
billion.\9\
---------------------------------------------------------------------------
    \9\ ``Potential Consequences of a Successful Sabotage Attack on a 
Spent Fuel Shipping Container: An Analysis of the Yucca Mountain EIS 
Treatment of Sabotage,'' Radioactive Waste Management Associates, April 
2002.
---------------------------------------------------------------------------
    Yet, just a few months ago, on March 11, 2002, CIA national 
intelligence officer Robert Walpole told the Senate Government Affairs 
Committee that while the chance that a missile with a nuclear, 
chemical, or biological warhead will be used against U.S. forces or 
interests is greater today than during most of the Cold War, the 
agency's analysts believe there is an even greater threat that such a 
weapon will be delivered by truck, ship or airplane ``because non-
missile delivery means are less costly, easier to acquire, more 
reliable and accurate''.\10\
---------------------------------------------------------------------------
    \10\ The Boston Globe March 12, 2002 and The Milwaukee Journal 
Sentinel March 12, 2002 quoting the Associated Press.
---------------------------------------------------------------------------
    On September 11, 2001, and again in October when U.S. forces 
entered Afghanistan, Secretary Abraham suspended all nuclear shipments 
because of the security risks they pose. Yet, his Yucca Mountain site 
recommendation, issued only 5 months later, failed to acknowledge or 
address this security concern in relation to the tens of thousands of 
nuclear shipments that would be launched by the Yucca Mountain Project.
    The unintentional and non-accident risk of nuclear waste 
transportation is also a concern. NRC regulations allow nuclear waste 
shipping casks to emit 10 millirem of radiation--the equivalent of a 
chest X-ray--per hour from a distance of 6.5 feet. The cumulative 
impact of routine radiation exposure from Yucca Mountain nuclear waste 
shipments on other motorists (maximized in gridlock traffic scenarios) 
and people who live or work along transport routes has not been 
adequately examined.
    The multiple risks associated with transporting large volumes of 
nuclear waste over long distances to an unsuitably sited repository in 
Nevada simply cannot be justified. Since a repository at Yucca Mountain 
necessarily involves an unprecedented program of nuclear 
transportation, we urge the Committee to fully consider the impact of 
the many transportation dangers in its evaluation of the Yucca Mountain 
Site Recommendation.
            the integrity of the process has been undermined
    The dramatically flawed process railroading the Yucca Mountain 
Project toward approval undermines the credibility of Secretary 
Abraham's site recommendation. The downgrading of environmental 
regulations (EPA's more lenient site-specific radiation protection 
standards and DOE's revised siting guidelines that prevent Yucca 
Mountain from being disqualified) has set a dangerous precedent of 
sacrificing public health and environmental safety to nuclear industry 
interests. And yet even these underhanded decisions cannot mask the 
fact that this site is not suitable, as the GAO, IG, and Nuclear Waste 
Technical Review Board have made clear.
    A Public Citizen report released April 1, 2002, indicates that 
nuclear industry interests may have directly biased Secretary Abraham's 
site recommendation. The report is available online at http://
www.citizen.org/documents/yuccamtbands.PDF. According to our research, 
the nuclear industry contributed $82,728 to Secretary Abraham's failed 
bid for re-election during the 2000 election cycle, and in 2000 alone, 
top nuclear contributors to his campaign spent more than $25 million--
nearly half a million dollars each week--on lobbying efforts that 
included support for the repository proposal. Public Citizen, in 
January 2002, requested that Secretary Abraham recuse himself from 
Yucca Mountain site recommendation activities, based on the precedent 
of Attorney General John Ashcroft recusing himself from the Justice 
Department's Enron investigations because the failed energy trading 
company had contributed $75,000 to his election campaign. We have 
received a legalistic response to our letter that doesn't deal with the 
issue of the appearance of impropriety.
    As another indication of pro-industry bias in the Yucca Mountain 
Project, a November 2001 report by the DOE Inspector General disclosed 
that the law firm Winston & Strawn was simultaneously employed as 
counsel to the DOE, working on the Yucca Mountain Project, and 
registered as a member of and lobbyist for the Nuclear Energy Institute 
between 1992 and 2001. The executive summary of this report is 
attached. The DOE, as a federal agency, is supposed to be objective and 
unbiased in its evaluations of the repository proposal and to uphold 
the same standards of integrity for its contractors. Yet, it hired a 
member of the Nuclear Energy Institute, the lobbying arm of the nuclear 
industry that specifically advocates in favor of the proposed nuclear 
waste repository at Yucca Mountain, which would serve the narrow 
financial interests of its nuclear industry members. The involvement of 
Winston & Strawn lawyers in both shaping the DOE's Yucca Mountain 
activities and advising and lobbying on behalf of the Nuclear Energy 
Institute on nuclear waste legislation undermines the integrity of the 
recent site recommendation. After this conflict was publicly disclosed, 
Winston & Strawn resigned from the Yucca Mountain Project. But even in 
the wake of this scandal, but the firm's work was not withdrawn.
    The same Inspector General report notes that TRW, Inc., hired by 
the DOE as the managing and operations contractor for the Yucca 
Mountain Project until February 2001, was simultaneously engaged in 
lobbying activities on nuclear waste storage issues. TRW was 
additionally implicated in December 2000 as the author of a memo 
attached to a leaked overview of the DOE Yucca Mountain Site 
Recommendation Considerations Report (later released as the Preliminary 
Site Suitability Evaluation and the Science and Engineering Report). 
The memo indicated that the overview was intended to help supporters of 
the Yucca Mountain Project express their support for a favorable site 
recommendation and that ``the technical suitability of the site is less 
of a concern to Congress than the broader issue of whether the nuclear 
waste problem can be solved at an affordable price in both financial 
and political terms.''
    Clearly, the DOE has failed to exercise necessary and proper 
oversight of its contractors, resulting in an obvious pro-industry bias 
in the agency's site characterization and site recommendation 
activities. In January, Public Citizen joined 232 public interest and 
environmental groups calling on Congress to suspend consideration of 
the Yucca Mountain Project pending a thorough review of the causes and 
consequences of contractor conflict of interest in the DOE's site 
characterization and site recommendation activities. This letter and 
the list of co-signing organizations can be viewed online at http://
www.citizen.org/cmep/enemy enviro nuclear/nuclear waste/hi-level/ 
conflict /articles.cfm?ID=7086. The public cannot--and lawmakers ought 
not--have confidence in Secretary Abraham's site recommendation, which 
has arisen out of such a conflicted and compromised process.
                               conclusion
    The 1957 National Research Council report, commissioned by the 
Atomic Energy Commission, marked the beginning of this government's 
continuing process to identify ``disposal'' options for high-level 
nuclear waste. Its summary states: ``Unlike the disposal of any other 
type of waste, the hazard related to radioactive waste is so great that 
no element of doubt should be allowed to exist regarding safety.'' \11\ 
Numerous unresolved technical, environmental, and policy issues plague 
the Yucca Mountain Project. To approve the repository proposal would 
directly threaten the health and safety of current and future residents 
of Nevada and more than 50 million people who live along likely nuclear 
waste transportation routes. Furthermore, the failed Yucca Mountain 
Project serves as a distraction from the serious policy examination and 
scientific study that is needed to more appropriately address the 
increasingly urgent issue of high-level nuclear waste management.
---------------------------------------------------------------------------
    \11\ The Disposal of Radioactive Waste on Land, National Research 
Council (1957).
---------------------------------------------------------------------------
    The Department of Energy and others have incorrectly suggested that 
the many outstanding concerns with the repository proposal would be 
more appropriately addressed by the Nuclear Regulatory Commission (NRC) 
in the licensing phase that would be initiated by Senate approval of 
S.J. Res. 34. This effort to downplay the role of Congress is 
dangerously misguided. In fact, the NRC's Yucca Mountain licensing rule 
(10 CFR 63) reflects the inadequacies of EPA standards, discussed 
above, and as such does not consider the fundamental issue of site 
suitability or issues related to nuclear waste transportation. Nor does 
the NRC's mandate extend to an examination of conflicts of interest 
with the DOE's Yucca Mountain program or the regulatory rollbacks that 
have inappropriately weakened EPA and DOE standards at Yucca Mountain. 
Thoughtful Congressional oversight of this unprecedented project is 
clearly in order, and the DOE's current incomplete and serious flawed 
proposal does not merit the Senate's approval.
    We recommend that:

  <bullet> the Committee uphold Nevada's anticipated Notice of 
        Disapproval of the Yucca Mountain Project and reject any siting 
        approval resolution;
  <bullet> the Committee hold additional hearings in all major cities 
        along nuclear waste transportation routes identified in the 
        final Environmental Impact Statement for the Yucca Mountain 
        Project to give the public a voice in this decision;
  <bullet> Congress and its Committees maintain vigorous legislative 
        oversight of the nuclear waste transportation program that 
        accompanies any repository proposal; and
  <bullet> Congress initiate a complete review of the civilian nuclear 
        waste management program.

                                    

      

</pre></body></html>
